APPENDIX

1a

APPENDIX A
PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
_____________________
Nos. 17-1107, 17-1109, 17-1110, 17-1111
_____________________
PROMETHEUS RADIO PROJECT
*National Association of Broadcasters
**Cox Media Group LLC,
Intervenors
v.
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
Prometheus Radio Project and Media Mobilizing
Project,
Petitioners in No. 17-1107
Multicultural Media, Telecom and Internet Counsel
and National Association of Black Owned Broadcasters, Inc.,
Petitioners in 17-1109
The Scranton Times, L.P.,
Petitioners in 17-1110
Bonneville International Corporation,
Petitioners in 17-1111

2a
* Prometheus Radio Project, Media Mobilizing Project, Benton Foundation, Common Cause, Media Alliance, Media Council Hawaii, National Association
of Broadcasters Employees and Technicians Communications Workers of America, National Organization for Woman Foundation, Office of Communication of the United Church of Christ Inc.,
Intervenors
*(Pursuant to the Clerk’s Order date 1/18/17)
** (Pursuant to the Clerk’s Order dated 2/7/17)
_____________________
Nos. 18-1092, 18-1669, 18-1670, 18-1671,
18-2943 & 18-3335
_____________________
PROMETHEUS RADIO PROJECT; MEDIA
MOBILIZING PROJECT,
Petitioners (No. 18-1092, 18-2943)
INDEPENDENT TELEVISION GROUP,
Petitioners (No. 18-1669)
MULTICULTURAL MEDIA, TELECOM AND
INTERNET COUNCIL, INC.;
NATIONAL ASSOCIATION OF BLACK-OWNED
BROADCASTERS,
Petitioners (No. 18-1670, 18-3335)

3a
FREE PRESS;
OFFICE OF COMMUNICATION, INC. OF THE
UNITED CHURCH OF CHRIST; NATIONAL
ASSOCIATION OF BROADCAST EMPLOYEES
AND TECHNICIANS-COMMUNICATIONS
WORKERS OF AMERICA; COMMON CAUSE,
Petitioners (No. 18-1671)
v.
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
_____________________
On Petition for Review of An Order of
the Federal Communications Commission
(FCC Nos. FCC-1: FCC-16-107; FCC-17-156;
FCC-18-114)
_____________________
Argued June 11, 2019
Before: AMBRO, SCIRICA, and FUENTES,
Circuit Judges
(Opinion filed September 23, 2019)
Angela J. Campbell
Andrew J. Schwartzman
James T. Graves
Institute for Public Representation
Georgetown Law
600 New Jersey Avenue, N.W., Suite 312
Washington, DC 20001
Counsel for Petitioners
Prometheus Radio Project,
Media Mobilizing Project

4a
Counsel for Intervenor Respondents
Benton Foundation, National Association of
Broadcast Employees and Technicians Communication Workers of America, National Organization for Women Foundation, Office of Communication Inc. of the Church of Christ,
Cheryl A. Leanza (Argued)
Best Best & Krieger
2000 Pennsylvania Avenue, Suite 5300
Washington, DC 20006
Counsel for Petitioners
Prometheus Radio Project, Media Mobilizing Project, Office of Communication Inc. of the United
Church of Christ, National Association of Broadcast Employees and Technicians Communications Workers of America, Common Cause
Dennis Lane (Argued)
David D’Alessandro
Stinson Leonard Street
1775 Pennsylvania Avenue, N.W., Suite 800
Washington, DC 20006
Counsel for Petitioner
Multicultural Media Telecom and Internet Council, National Association of Black Owned Broadcasters, Inc.

5a
Craig E. Gilmore
Kenneth E. Satten
Wilkinson Barker Knauer
1800 M Street, N.W., Suite 800N
Washington, DC 20036
Counsel for Petitioners
Scranton Times LP,
Bonneville International Corp.
Jack N. Goodman (Argued)
Law Offices of Jack N. Goodman
1200 New Hampshire Avenue, N.W., Suite 600
Washington, DC 20036
Counsel for Petitioner
Independent Television Group
Jessica J. Gonzalez
Free Press
1025 Connecticut Avenue, N.W., Suite 1110
Washington, DC 20036
Counsel for Petitioner
Free Press
Thomas M. Johnson, Jr.
General Counsel
David M. Gossett
Deputy General Counsel
Jacob M. Lewis (Argued)
Associate General Counsel
James M. Carr
Matthew J. Dunne (Argued)

6a
William Scher
Richard K. Welch
Federal Communications Commission
445 12th Street, S.W.
Washington, DC 20554
Counsel for Respondent
Federal Communications Commission
Makan Delrahim
Assistant Attorney General
Michael F. Murray
Deputy Assistant Attorney General
Nickolai Gilford Levin
Robert B. Nicholson
Robert J. Wiggers
United States Department of Justice
Antitrust Division/Appellate Section
950 Pennsylvania Avenue, N.W.
Washington, DC 20004
Counsel for Respondent
United States of America
Helgi C. Walker (Argued)
Andrew G. I. Kilberg
Gibson Dunn & Crutcher
1050 Connecticut Avenue, N.W.
Washington, DC 20036
Counsel for Intervenor Petitioner/Respondent
National Association of Broadcasters

7a
Yosef Getachew
Common Cause
805 15th Street, N.W., Suite 800
Washington, DC 20005
Counsel for Intervenor Respondent/Petitioner
Common Cause
David E. Mills
Cooley
1299 Pennsylvania Avenue, N.W., Suite 700
Washington, DC 20004
Counsel for Intervenor Petitioner
Cox Media Group LLC
Kevin F. King
Rafael Reyneri
Andrew Soukup
Covington & Burling
850 10th Street, N.W.
One City Center
Washington, DC 20001
Counsel for Intervenor Respondent
Fox Corp.
David D. Oxenford
Wilkinson Barker Knauer
1800 M Street, N.W., Suite 800N
Washington, DC 20036
Counsel for Intervenor Respondent
Connoisseur Media LLC

8a
Paul A. Cicelski
S. Jenell Trigg
Lerman Senter
2001 L Street, N.W., Suite 400
Washington, DC 20036
Counsel for Intervenor Respondent
New Corp.
Eve Klindera Reed
Jeremy J. Broggi
Wiley Rein
1776 K Street, N.W.
Washington, DC 20006
Counsel for Intervenor Respondent
Nextar Broadcasting Inc.
Jeetander T. Dulani
Pillsbury Winthrop Shaw Pittman
1200 17th Street, N.W.
Washington, DC 20036
Counsel for Intervenor Respondent
Sinclair Broadcast Group Inc.

9a

OPINION OF THE COURT
AMBRO, Circuit Judge
Here we are again. After our last encounter
with the periodic review by the Federal Communications Commission (the “FCC” or the “Commission”) of
its broadcast ownership rules and diversity initiatives, the Commission has taken a series of actions
that, cumulatively, have substantially changed its
approach to regulation of broadcast media ownership. First, it issued an order that retained almost
all of its existing rules in their current form, effectively abandoning its long-running efforts to change
those rules going back to the first round of this litigation. Then it changed course, granting petitions
for rehearing and repealing or otherwise scaling back
most of those same rules. It also created a new “incubator” program designed to help new entrants into
the broadcast industry. The Commission, in short,
has been busy. Its actions unsurprisingly aroused
opposition from many of the same groups that have
battled it over the past fifteen years, and that opposition has brought the parties back to us.
One of these petitioners argues that the FCC
did not go far enough, and that the same logic by
which it repealed the so-called “eight voices” test of
the local television ownership rule (which forbade
mergers that would leave fewer than eight independently-owned stations in the market) should also
have led it to abolish the “top-four” restriction in the
same rule (which forbids mergers among two or more
of the four largest stations in a market). We disagree; this was a reasonable exercise of the Commis-

10a
sion’s policy-making discretion, as we held in the
first round of this litigation.
Another group of petitioners argues that the
Commission’s new incubator program is badly designed, as its definition of “comparable markets” for
the reward waivers was unlawfully adopted and
would create perverse incentives. It also argues that
the Commission has unreasonably failed to act on a
proposal to extend the so-called “cable procurement
rules,” which promote diversity in the cable television industry, to broadcast media. We disagree: the
“comparable markets” definition for the incubator
program was also a reasonable exercise of discretion,
and the FCC’s failure to act on the procurement
rules proposal is not unreasonable so far.
We do, however, agree with the last group of
petitioners, who argue that the Commission did not
adequately consider the effect its sweeping rule
changes will have on ownership of broadcast media
by women and racial minorities. Although it did ostensibly comply with our prior requirement to consider this issue on remand, its analysis is so insubstantial that we cannot say it provides a reliable
foundation for the Commission’s conclusions. Accordingly, we vacate and remand the bulk of its actions in this area over the last three years. In doing
so, we decline to grant the requested extraordinary
relief of appointing a special master to oversee the
FCC’s work on remand.
I.

Background

To avoid sounding like a broken record, we recount only in brief the history of this case up through
our most recent decision. The full account of the en-

11a
tire saga can be found in our earlier opinions. See
Prometheus Radio Project v. FCC, 373 F.3d 372, 382–
89 (3d Cir. 2004) (“Prometheus I”); Prometheus Radio
Project v. FCC, 652 F.3d 431, 438–44 (3d Cir. 2011)
(“Prometheus II”); and Prometheus Radio Project v.
FCC, 824 F.3d 33, 37–39 (3d Cir. 2016) (“Prometheus
III”).
Under the Communications Act of 1934, 47
U.S.C. § 151 et seq., Pub. L. No. 73-416, 48 Stat. 1064
(1934), the Federal Communications Commission
has long maintained a collection of rules governing
ownership of broadcast media. By preventing any
one entity from owning more than a certain amount
of broadcast media, these rules limit consolidation
and promote a number of interests, commonly stated
as “competition, diversity, and localism.” See, e.g.,
Report and Order and Notice of Proposed Rulemaking—2002 Biennial Regulatory Review, 18 F.C.C.R.
13620 ¶ 8 (July 2, 2003). By 1996, however, there
was growing sentiment that these rules were overly
restrictive, and so Congress passed the Telecommunications Act. Pub. L. No. 104–104, 110 Stat. 56
(1996). Section 202(h) of that Act requires the Commission to review the broadcast ownership rules on a
regular basis— initially biennial, later amended to
quadrennial, see Pub. L. No. 108–199, § 629, 118
Stat. 3, 99–100 (2004)—to “determine whether any of
such rules are necessary in the public interest as the
result of competition.” Telecommunications Act,
§ 202(h). The Commission “shall repeal or modify
any regulation it determines to be no longer in the
public interest.” Id.
Thrice before we have passed on the Commission’s performance of its duties under § 202(h), or the

12a
lack thereof. In Prometheus I we reviewed the results of the 2002 quadrennial review cycle. Then in
Prometheus II we reviewed the results of the 2006
review cycle, which included the FCC’s actions on
remand from Prometheus I, as well as a separate order adopting various policies designed to promote
broadcast media ownership by women and racial minorities.
After Prometheus II the Commission failed to
complete its 2010 review cycle prior to the start of
the 2014 cycle, and so in Prometheus III we reviewed
not final agency action pursuant to § 202(h) but rather, for the most part, agency inaction. Although
we found the FCC had unreasonably delayed action
on the 2010 and 2014 review cycles, we declined to
vacate the broadcast ownership rules in their entirety, but noted such a drastic remedy could become appropriate in the future if the Commission continued
dragging its feet. Id., 824 F.3d at 53–54. Relatedly,
we remanded a newly adopted rule governing the
treatment of joint sales agreements for purposes of
the television local ownership rule, reasoning that
the FCC could not have a valid basis for promulgating such a rule without first having determined, as
required by § 202(h), that the local ownership rule
itself should remain in place. Id. at 58–60.
We also held that the Commission had unreasonably delayed a determination on the definition of
“eligible entities.” These are given certain preferences under the ownership rules, see id. at 41, and
the purpose of these preferences was to encourage
ownership by women and minorities. The definition,
however, was drawn from the Small Business Administration’s definition of small businesses, and fo-

13a
cused solely on a company’s revenues. In Prometheus I we had suggested that, on remand, the FCC
should consider adopting a different definition based
on the criteria for “socially and economically disadvantaged businesses” (“SDBs”). See 373 F.3d at 428
n.70; see also 13 C.F.R. § 124.103 (defining socially
disadvantaged businesses). The Commission declined to adopt an SDB definition, and in Prometheus
II we held that the revenue-based definition was arbitrary and capricious because there was no evidence
it would advance the goals of increasing ownership
by women and minorities. 652 F.3d at 469–71.
But the Commission had not reached a determination one way or the other by Prometheus III.
Instead it had suggested—in various documents issued after Prometheus II, none of which constituted
final agency action on the matter—that it would reject a SDB definition, or the similar “overcoming disadvantage preference” (“ODP”) proposal, because it
did not believe those rules could survive constitutional scrutiny under the Equal Protection Clause of
the Fourteenth Amendment. See 824 F.3d at 45–48.
It therefore indicated its tentative plan to adopt the
same definition we held unlawful in Prometheus II,
even though it still lacked evidence that this would
promote ownership diversity, because promoting
ownership by small businesses would be in the public
interest regardless. Id. at 46.
We held that the Commission “had more than
enough time to reach a decision on the eligible entity
definition.” Id. at 48. This led to a remand and an
“order [to] the Commission . . . to act promptly to
bring the eligible entity definition to a close.” Id. at
50. It was to “make a final determination as to

14a
whether to adopt a new definition;” “[i]f it need[ed]
more data to do so, it must get it.” Id. Finally, we
pointed out that we did “not intend to prejudge the
outcome” of the FCC’s analysis, and that we would
review the merits of its eventual decision once that
decision had been made through a final order. Id. at
50–51.
Three months after we decided Prometheus
III, the Commission followed through on its promise
to take final action on the 2010 and 2014 review cycles. Its Second Report and Order, 2014 Quadrennial Regulatory Review, 31 F.C.C.R. 9864 (2016) (the
“2016 Report & Order”), retained all of the major
broadcast ownership rules—the newspaper/broadcast
cross-ownership rule, the radio/television crossownership rule, the local radio ownership rule, and
the local television ownership rule—in their existing
forms. It also adopted, again, a revenue-based definition for eligible entities. It concluded that an SDB
or any related race- or gender-conscious definition
could not withstand constitutional scrutiny because,
even though courts might accept viewpoint diversity
as a compelling governmental interest, the evidence
did not show a meaningful connection between female or minority ownership and viewpoint diversity.
Id. ¶ 297. The Commission also declined to adopt an
ODP standard, reasoning that it would require individualized assessment that is not compatible with
the smooth operation of the FCC’s rules, and that
such an individualized assessment could run afoul of
First Amendment principles. Id. ¶ 306. On a related
issue, the Commission declined to implement an “incubator program,” under which established broadcasters would be encouraged to assist new entrants

15a
to break into the industry, that would have employed
an ODP standard. Finally, the Commission reviewed
a number of other proposals to increase ownership
diversity, rejecting most but noting some merit in a
proposal to extend the cable procurement rules,
which require cable companies to encourage minority-owned businesses to work with them, to broadcast
media. The Commission did not adopt this idea, instead calling for further comment.
A number of industry groups filed a petition
for rehearing, and in November 2017 the Commission granted that petition in its Order on Reconsideration and Notice of Proposed Rulemaking, 32
F.C.C.R. 9802 (2017) (the “Reconsideration Order”).
This Order made sweeping changes to the ownership
rules.
It eliminated altogether the newspaper/broadcast and television/radio cross-ownership
rules. It modified the local television ownership rule,
rescinding the so-called “eight voices” test but retaining the rule against mergers between two of the top
four stations in a given market—albeit now subject
to a discretionary waiver provision. And it announced the Commission’s intention to adopt an incubator program, although it left the formal implementation of that program to a subsequent order. In
this context, the Reconsideration Order called for
comment on various aspects of the program, including how to define eligibility and how to encourage
participation by established broadcasters.
In August 2018 the Commission issued the
Report and Order—In the Matter of Rules and Policies to Promote New Entry and Ownership Diversity
in the Broadcasting Services, 33 F.C.C.R. 7911 (2018)
(the “Incubator Order”). That Order established a

16a
radio incubator program that would encourage established broadcasters to provide “training, financing,
and access to resources” for new entrants in the
market. Id. ¶ 6. Eligibility to receive this assistance
was defined using two criteria: an incubated entity
must (1) qualify as a small business under the Small
Business Administration’s rules, and (2) qualify as a
“new entrant,” meaning that it must own no television stations and no more than three radio stations.
Id. ¶ 8. The eligibility criteria make no overt reference to race, gender, or social disadvantage, but the
Commission concluded that using the “new entrant”
criterion would help boost ownership by women and
minorities, as a bidding preference for new entrants
in FCC auctions had that effect. Id. ¶ 21.
As an incentive for established broadcasters to
participate in the program, the Incubator Order
grants the incubating entity a reward waiver for the
local radio ownership rules. Among other options,
the waiver may be used in any market “comparable”
to the one in which incubation occurs. Id. ¶ 66–67.
This means that it must be in the same market tier
for purposes of the local radio rule, and these tiers
are defined by the number of stations in a market.
One tier runs from zero to 14 stations, another from
15 to 29, a third from 30 to 44, and finally the highest tier includes all markets with 45 or more stations.
Before us are 10 different petitions for review
challenging different aspects of the Commission’s actions since Prometheus III. After the 2016 Report &
Order issued in November of that year, Prometheus
Radio Project (“Prometheus”) and Media Mobilization Project (“MMP”) filed a petition for review in our

17a
Court. About the same time, three other petitions
for review of the 2016 Report & Order were filed in
the D.C. Circuit Court of Appeals: one by The Scranton Times, L.P. (“Scranton”); one by Bonneville International Corporation (“Bonneville”); and one jointly by the Multicultural Media, Telecom and Internet
Council, Inc. (“MMTC”) and the National Association
of Black-Owned Broadcasters (“NABOB”). The cases
before the D.C. Circuit were transferred here and the
four cases consolidated in January 2017; they were
then held in abeyance while the Commission considered the petitions for rehearing.
After the Reconsideration Order issued in November 2017, four additional petitions for review
were filed: one by Prometheus and MMP in our
Court as well as three in the D.C. Circuit from
(1) Independent Television Group (“ITG”), (2) MMTC
and NABOB, and (3) a coalition of groups including
Free Press, the Office of Communication, Inc. of the
United Church of Christ (“UCC”), the National Association of Broadcast Employees and Technicians—
Communications Workers of America (“NABETCWA”), and Common Cause. Once again the D.C.
Circuit transferred the petitions before it to our
Court, and we consolidated the new wave of cases
with the existing petitions.
In February 2018 we stayed all proceedings
pending the close of notice and comment on the Incubator Order. Once the final Order issued in August 2018, Prometheus and MMP filed a petition for
review in our Court, and MMTC and NABOB filed
another in the D.C. Circuit that was transferred here
and the cases consolidated.

18a
For purposes of briefing and oral argument,
the various petitioners divided into three groups.
The first included Prometheus, MMP, Free Press,
UCC, NABET-CWA, and Common Cause, who argue
that the Commission has not adequately considered
how its changes to the broadcast ownership rules
will affect ownership by women and racial minorities. We refer to this group as “Citizen Petitioners,”
consistent with our past practice. See Prometheus
III, 824 F.3d at 39. A second group, consisting of
MMTC and NABOB, argues that the Incubator Order’s definition of “comparable markets” is unlawful
and that the Commission has unreasonably withheld
action on a proposal to extend cable procurement
rules to broadcast media. To distinguish this group,
we refer to its members as “Diversity Petitioners.”
Finally, ITG—standing alone now as the only “Deregulatory Petitioner”—challenges the retention of
the “top-four” component of the local television rule
(which, to repeat, bans mergers between two or more
of the four largest stations in a given market).
The Commission defends its orders in their
entirety. Additionally, a group of Intervenors—
including both Scranton and Bonneville as well as
many of the Deregulatory Petitioners from prior
rounds of this litigation—defends the FCC’s actions
and argues further that Citizen and Diversity Petitioners lack standing.
II.

Jurisdiction and Standard of Review

We have jurisdiction to hear these petitions for
review of agency action under 47 U.S.C. § 402(a) and
28 U.S.C. § 2342(1). As noted above and covered in
§ III.A below, Intervenors argue, with the support of

19a
the Commission, that Citizen and Diversity Petitioners lack standing.
Per § 706(2) of the Administrative Procedure
Act (“APA”), we can set aside agency action that is
arbitrary or capricious. 5 U.S.C. § 706(2). “The
scope of review under the ‘arbitrary and capricious’
standard is narrow and a court is not to substitute
its judgment for that of the agency.” Motor Vehicle
Mfrs. Ass’n of U.S. v. State Farm Mut. Auto. Ins. Co.,
463 U.S. 29, 43 (1983). Despite this deference, we
require the agency to “examine the relevant data and
articulate a satisfactory explanation for its action[,]
including a rational connection between the facts
found and the choice made.” Id. (internal quotation
marks omitted).
When the FCC conducts a Quadrennial Review under § 202(h), that provision also affects our
standard of review, as it requires that “no matter
what the Commission decides to do to any particular
rule—retain, repeal, or modify (whether to make
more or less stringent)—it must do so in the public
interest and support its decision with a reasoned
analysis.” Prometheus I, 373 F.3d at 395. When
§ 202(h) refers to rules being “necessary,” that term
means “useful,” “convenient,” or “helpful.” Id. at 394.
This case also involves challenges to agency
inaction. Section 706(1) of the APA allows us to
“compel agency action unlawfully withheld or unreasonably delayed.” 5 U.S.C. § 706(1). Under this provision, our “polestar is reasonableness.” Public Citizen Health Research Grp. v. Chao, 314 F.3d 143, 151
(3d Cir. 2002). We must “balance the importance of
the subject matter being regulated with the regulat-

20a
ing agency’s need to discharge all of its statutory responsibilities under a reasonable timetable.” Oil,
Chem. & Atomic Workers Union v. Occupational
Safety & Health Admin., 145 F.3d 120, 123 (3d Cir.
1998).
With this balance in mind, unreasonable delay should be measured by the following factors: First, the court should ascertain the
length of time that has elapsed since the
agency came under a duty to act. Second, the
reasonableness of the delay should be judged
in the context of the statute authorizing the
agency’s action. Third, the court should assess the consequences of the agency’s delay.
Fourth, [it] should consider any plea of administrative error, administrative inconvenience, practical difficulty in carrying out a
legislative mandate, or need to prioritize in
the face of limited resources.
Id. (internal quotation marks omitted).
III.

Analysis
A.

Standing

As a threshold matter, Intervenors argue that
Citizen and Diversity Petitioners (called “Regulatory
Petitioners” for ease of reference in this section) lack
standing, and the FCC concurs in that argument. To
have standing to sue in federal court under Article
III of the Constitution, a plaintiff must have (1) an
“injury in fact,” meaning “an invasion of a legally
protected interest which is (a) concrete and particularized[,] and (b) actual or imminent, not conjectural
or hypothetical,” that is (2) “fairly traceable to the

21a
challenged action of the defendant,” and it must
(3) be “likely, as opposed to merely speculative, that
the injury will be redressed by a favorable decision.”
Lujan v. Defenders of Wildlife, 504 U.S. 555, 560–61
(1992) (internal citations and quotation marks omitted).
There are two separate disputes regarding
Regulatory Petitioners’ standing. First is a procedural question. After Intervenors raised the issue in
their merits brief, Regulatory Petitioners submitted
declarations to establish standing along with their
reply briefs. Intervenors now argue that we should
not consider those declarations or the facts asserted
within them because materials to establish standing
must be submitted instead with Regulatory Petitioners’ opening briefs. Even accepting the declarations,
Intervenors still dispute standing.
We disagree on both counts. It is well established that petitioners challenging agency action
may supplement the administrative record for the
purpose of establishing Article III standing, even
though judicial review of agency action is usually
limited to the administrative record. As the Tenth
Circuit observed in US Magnesium, LLC v. EPA, 690
F.3d 1157, 1164 (10th Cir. 2012), the Article III
standing requirements do not apply to agency proceedings, and thus there is no reason for the facts
supporting standing to be a part of the administrative record. It is, moreover, the practice in most of
the Circuits that have considered the matter to accept these materials at any stage of the litigation. In
US Magnesium itself, for example, the Tenth Circuit
accepted supplemental materials that were attached
to a petitioner’s reply brief. Id. (Its discussion did

22a
not squarely address the timing issue, only whether
a court could properly go beyond the administrative
record to ascertain standing at all.) The Seventh
Circuit has accepted supplemental submissions filed
after oral argument. Texas Indep. Producers and
Royalty Owners Ass’n v. EPA, 410 F.3d 964, 971 (7th
Cir. 2005). And the Ninth Circuit has expressly held
that standing need not be established in an opening
brief in cases like this. Nw. Envtl. Def. Ctr. v.
Bonneville Power Admin., 117 F.3d 1520, 1528 (9th
Cir. 1997).
Against this, Intervenors marshal two sources
of contradictory authority. First is the Supreme
Court’s statement, in a footnote in Lujan itself, that
“standing is to be determined at the commencement
of suit.” 504 U.S. at 570 n.5 (emphasis added). This
is not on point. That footnote sought only to rebut an
argument from Justice Stevens’s dissenting opinion
that, although the agencies whose actions would
harm the petitioners there were not technically parties to the lawsuit, those agencies would not ignore a
decision from the Supreme Court interpreting the
relevant legal provisions, and thus such a decision
would actually redress the petitioners’ injuries. The
majority rejected this argument because it depended
entirely on the contingent fact that the Supreme
Court ended up taking the case, which could not
have been known at the start of suit. Hence “commencement of suit” indicates only that standing
must exist at the beginning of litigation, not that the
materials establishing standing must be submitted
at that time.
The other authorities cited by Intervenors are
cases from the D.C. Circuit. See, e.g., Sierra Club v.

23a
EPA, 292 F.3d 895, 900 (D.C. Cir. 2002). But that
Circuit has a provision of its local rules expressly requiring the petitioners in any “cases involving direct
review . . . of administrative actions” to file materials
establishing standing along with their opening brief.
See D.C. Cir. Rule 28(a)(7). The cases cited by Intervenors all simply applied this rule, which does not
apply to proceedings in our court.
It appears that this is a question of first impression in our Circuit. To resolve it, we adopt the
view held overtly by the Ninth Circuit and implicitly
by the Tenth and Seventh: parties may submit materials to establish standing at any time in the litigation.1 This is especially so here, where the same parties have been litigating before us for a decade and a
half. It was not unreasonable for Regulatory Petitioners to assume that their qualification to continue
in the case was readily apparent. Cf. Del. Dep’t. of
Nat’l Res. & Envtl. Control v. EPA, 785 F.3d 1, 8–9
(D.C. Cir. 2015) (permitting petitioners to submit
standing materials with their reply brief despite the
contrary requirement of the D.C. Circuit’s local rules
when they reasonably believed that standing was
self-evident).

1 As noted, other courts have gone so far as to accept standing materials submitted after oral argument. See Texas Indep.
Producers and Royalty Owners Ass’n, 410 F.3d at 971. This
could be appropriate where the issue of standing is not raised
until oral argument. Although we do not set out a comprehensive rule for all cases, in general materials to establish standing
should be submitted promptly once standing is called into question.

24a
Turning to the substance of standing, Intervenors argue that Regulatory Petitioners’ alleged harm
is not sufficiently imminent to establish standing because any mergers under the new rules would require FCC approval and would be subject to judicial
review; in effect, Regulatory Petitioners have not
produced evidence that the rule changes will lead to
additional consolidation. In addition, Intervenors
continue, Regulatory Petitioners lack standing because their objections to the rule changes pertain to
ownership diversity and not to the § 202(h) purpose
of promoting competition. We find none of these arguments persuasive.
The first two arguments share a common
theme: although Regulatory Petitioners will be
harmed by consolidation within the industry (a fact
Intervenors do not appear to contest), it is speculative that the new rules will actually lead to consolidation. The problem is that encouraging consolidation is a primary purpose of the new rules. This is
made clear throughout the Reconsideration Order,
see, e.g., 32 F.C.C.R. at 9811, 9836. The Government
cannot adopt a policy expressly designed to have a
certain effect and then, when the policy is challenged
in court by those who would be harmed by that effect, respond that the policy’s consequences are entirely speculative. Intervenors cite Rainbow/PUSH
Coalition v. FCC, 330 F.3d 539, 542–44 (D.C. Cir.
2003), but that case only held that petitioners there,
who sought to assert standing simply as audiencemembers, had to demonstrate that a proposed merger would have some specific baleful effect(s) on the
viewing audience, i.e., some degradation of the programming available to that audience. Here Interve-

25a
nors do not contest that consolidation, if it occurs,
will harm the Regulatory Petitioners.
Nor is it material that any future mergers
would require FCC approval. The point is that, under the new rules, it will approve mergers that it
would have rejected previously, with the rule changes in the Reconsideration Order the key factor causing those grants of approval. See Sara Fischer, The
local TV consolidation race is here, Axios (Aug. 10,
2018), available at https://www.axios.com/the-localtv-consolidation-war-is-here-7c65f3fb-eaab-43c4-9a00
-81303867dbee.html (“Many local broadcasters cite
one key reason for their consolidation—[t]he FCC’s
landmark decision last year to roll back old regulations that limited the ability of TV companies to own
properties in the same market.”). Intervenors’ citation to Clapper v. Amnesty International, USA, 568
U.S. 398, 410–11 (2013), is not to the contrary. It involved a “highly attenuated chain of possibilities”
that, among other things, would make it difficult to
discern whether the challenged law was even the
cause-in-fact of the plaintiffs’ alleged injuries.2 The
causal chain here is anything but attenuated.

2 Clapper involved a challenge to Section 702 of the Foreign
Intelligence Surveillance Act, 50 U.S.C. § 1881a, part of the
2008 FISA Amendments. Pub. L. No. 110-261, 122 Stat. 2436
(2008). The chain of possibilities the Court identified ran as
follows: “(1) the Government will decide to target the communications of non-U.S. persons with whom they communicate;
(2) in doing so, the Government will choose to invoke its authority under [§ 702] rather than utilizing another method of surveillance; (3) the Article III judges who serve on the Foreign
Intelligence Surveillance Court will conclude that the Govern-

26a
Intervenors’ third argument fails for multiple
reasons. First, they identify incorrectly the goals of
§ 202(h) as limited to promoting competition. Instead, as its text makes plain, review under that
provision is intended to determine whether each of
the ownership rules serves the public interest, broadly conceived, in light of ongoing competitive developments within the industry. See Prometheus I, 373
F.3d at 390–95.
In addition, there is no requirement that the
harm alleged be closely tied to a challenger’s legal
argument in order to have Article III standing. Intervenors invoke a second Rainbow/PUSH Coalition
v. FCC case, 396 F.3d 1235, 1242–43 (D.C. Cir.
2005), there involving an objection to renewal of a
radio station’s license because it had allegedly engaged in employment discrimination.
Audience
members, the D.C. Circuit held, lacked standing to
object because the alleged violative conduct at issue
had not harmed them at all. This does not support
the notion that a party may lack standing, even
though it will suffer a concrete and particularized
injury, simply because it is the wrong “kind” of injury. That argument sounds not in the requirements
of Article III but of “prudential standing,” a nowdiscredited doctrine under which courts would decline to hear cases within their jurisdiction if the
ment’s proposed surveillance procedures satisfy [§ 702]’s many
safeguards and are consistent with the Fourth Amendment;
(4) the Government will succeed in intercepting the communications of respondents’ contacts; and (5) respondents will be
parties to the particular communications that the Government
intercepts.”

27a
plaintiffs’ complaint did not fall within the “zone of
interests” protected by the law they invoked. In
Lexmark Int’l, Inc. v. Static Control Components,
Inc., 572 U.S. 118 (2014), the Supreme Court held
that this should be understood solely as a matter of
statutory construction, i.e., of determining whether a
given statutory cause of action extended to a particular plaintiff. Intervenors do not argue, and could not
seriously contend, that Regulatory Petitioners do not
qualify as “aggrieved parties” for purposes of the
APA’s general cause of action. See 5 U.S.C. § 702.
We emerge from the bramble to hold that
Regulatory Petitioners have standing. Thus we proceed to the merits issues before us.
B.

Retention of the Top-Four Rule

Deregulatory Petitioner ITG argues that the
FCC’s decision to retain its “top-four” local television
rule, prohibiting the merger of any two of the top
four stations in a given market, while rescinding the
“eight voices” rule, was arbitrary and capricious.
This is an issue we dealt with before, in Prometheus
I, when we upheld the top-four restriction against
deregulatory challenges. We noted that “we must
uphold an agency’s line-drawing decision when it is
supported by the evidence in the record.” Prometheus I, 373 F.3d at 417 (citing Sinclair Broadcast
Group, Inc. v. FCC, 284 F.3d 148, 162 (D.C. Cir.
2002); AT&T Corp. v. FCC, 220 F.3d 607, 627 (D.C.
Cir. 2000)). And the Commission had ample record
evidence supporting its decision to draw the line at
four: it saw a “cushion” of audience share between
the fourth- and fifth-ranked stations, reflecting that
the top four would be the affiliates of the four major

28a
national networks (ABC, CBS, NBC, and Fox); the
same cushion was apparent in national viewership
figures for the networks themselves; mergers between the third- and fourth-largest stations in each
of the ten largest markets would produce a new largest station; and mergers among top-four stations
would generally increase the statistical consolidation
of the local market by a substantial amount. Id. at
418.
Now ITG argues that the FCC “failed to recognize that the same reasons it found supported repeal of the Eight-Voice test also required it to repeal
or modify the Top-Four Prohibition.” ITG Br. at 20.
It first takes issue with the notion of a ratings “cushion” between the top-four and other stations, in part
questioning whether the cushion exists and in part
asking why it should matter. Id. at 28–29. It further
contests the FCC’s reliance on its conclusion, from
the 2002 review cycle, that mergers among top-four
stations would generally result in a new largest station, noting that the evidence shows that mergers
between the third- and fourth-largest stations would
not result in a new largest entity in roughly half of
the markets with at least four stations. Id. at 29–30.
Finally, it argues that the new waiver provision cannot excuse that, as it sees things, the rule as a whole
is not rationally related to the facts. Id. at 31–32.
We disagree. None of ITG’s arguments meaningfully distinguish our holding in Prometheus I.
Just as in that case, ITG simply takes issue with the
way in which the Commission chose to draw the
lines. The basic logic of the top-four rule, as we recognized in 2004, is that while consolidation may offer
efficiency gains in general, mergers between the

29a
largest stations in a market pose a unique threat to
competition. See Prometheus I, 373 F.3d at 416.
Although there might be other more tailored, and
more complex, ways to identify those problematic
mergers, the simplest is to declare, as the Commission has done, that mergers between two or more of
the largest X stations in a market are not permitted.
The choice of X must be somewhat arbitrary: each
market’s contours will be slightly different, and no
single bright-line rule can capture all this complexity. But the television industry does generally feature a distinct top-four, corresponding to the four
major national networks, and four is therefore a sensible number to pick. And this is exactly the kind of
line-drawing, where any line drawn may not be perfect, to which courts are the most deferential. See id.
at 417. ITG has much to say about everything this
simple rule misses, but that is beside the point. The
Commission has the discretion to adopt a blunt instrument such as the top-four rule if it chooses. Indeed we confronted, and rejected, this exact argument—that treating all top-four stations the same
wrongly ignored the variation in market structures—
in Prometheus I. Id. at 417–18.
Nor is it improper that the FCC’s justification
for this rule is the same as it was in the 2002 review
cycle. Section 202(h) requires only that the Commission think about whether its rules remain necessary
every four years. It does not imply that the policy
justifications for each regulation have a shelf-life of
only four years, after which they expire and must be
replaced. Nor does § 202(h), or any other authority
cited by ITG, require that the Commission always
base its decisions on perfectly up-to-date data. In

30a
any event, ITG itself cites more recent data presented to the Commission through the administrative
process, and this information paints a picture materially identical to what the Commission saw in 2002.
In this context, we reaffirm our conclusion
from Prometheus I that retention of the top-four rule
is amply supported by record evidence and thus is
not arbitrary or capricious.3
C.

“Comparable Markets” Definition

Diversity Petitioners challenge the Incubator
Order’s definition of comparable markets for radio
stations, arguing that it was not properly noticed and
in any event was arbitrary and capricious.
Their argument devolves to this. The basic
concept of the incubator program uses a waiver of
the rules governing local radio ownership as a reward to induce participation by established broadcasters.
The Notice of Proposed Rulemaking
(“NPRM”) sought comment on the following questions about these reward waivers: “How should the
Commission structure the waiver program? For example, should the waiver be limited to the market in
which the incubating activity is occurring? Alternatively, should waiver be permissible in any similarly
sized market? How would the Commission deter-

3 Accordingly, we need not address ITG’s argument that the
newly added waiver provision, which allows the Commission to
permit a merger that would otherwise be barred by the top-four
rule if “the reduction in competition is minimal and is outweighed by public interest benefits,” Reconsideration Order
¶ 82, cannot save an otherwise irrational rule.

31a
mine which markets are similar in size?” Reconsideration Order ¶ 137. Diversity Petitioners take this
to indicate only that the Commission was considering two possibilities: either that the waiver could only be used in the same market where the incubating
activity occurred or that it could be used in other
markets of similar population. They contend that
“size” in this context is most naturally read as referring to population, or some other indicator of market
size (such as audience or listenership numbers), as
opposed to the number of radio stations in the market. The two responsive comments on this issue,
they contend, seem to have reflected this assumption. See Diversity Petitioners’ Br. at 16–17.
Instead, as noted, the Incubator Order adopted a system of reward waivers that can be used in
any “comparable” market, meaning not a market of
similar population but one with a similar number of
radio stations. This proposal was first described in
detail in the draft of the Incubator Order made
available before the final order was promulgated. In
response, Diversity Petitioners made several ex parte
communications with the Commission expressing
their concern over this definition of “comparable”
markets. Id. at 21–22. Their letters expressed concern that the proposed rule would allow a broadcaster to incubate in a small rural market and then use
its reward waiver in a much larger market, such as
New York City, thus getting an outsized return for
its investment. Thus Diversity Petitioners suggested
that the rule should disallow using a waiver in another top-tier “comparable” market that is not within
five spots of the incubating market in the Nielsen
population-based rankings, but the Commission de-

32a
clined to adopt this proposal. See Incubator Order
¶ 68.
Diversity Petitioners argue that this was not
adequate notice. We have addressed similar claims
in both Prometheus I, 373 F.3d at 411–412, and Prometheus II, 652 F.3d at 449–50. Essentially, “the adequacy of the notice must be tested by determining
whether it would fairly apprise interested persons of
the ‘subjects and issues’ before the agency.” Prometheus I, 373 F.3d at 411 (quoting Am. Iron & Steel
Inst. v. EPA, 568 F.3d 284, 293 (3d Cir. 1977)). The
strongest fact supporting Diversity Petitioners’ claim
is the swift response by commenters expressing surprise once the eventual definition of comparable
markets was made public. Courts will consider the
behavior of commenters in assessing whether notice
was adequate. See, e.g., Sprint Corp. v. FCC, 315
F.3d 369, 376 (D.C. Cir. 2003).
But parsing the language of the Notice of Proposed Rulemaking itself suffices to show that it did
provide adequate notice. Specifically, after asking
whether the waiver should be applicable in any similarly sized market, the NPRM asked how the Commission would determine which markets are similarly sized. This strongly suggests that the Commission
was considering a range of different ways to measure
market size, and it undercuts Diversity Petitioners’
assertion that the word “size” could only be read to
mean population. See Diversity Petitioners’ Br. at 16
(“The reference to ‘size’ in the NPRM is generally
understood in the broadcast industry to mean markets that have similar populations.”).

33a
Turning to the substance of the comparable
markets definition, Diversity Petitioners assert that
the FCC’s definition will create a perverse incentive
for established broadcasters to incubate in markets
with low populations but many radio stations (using
the example of Wilkes-Barre, Pennsylvania) and
then use their waivers in “comparable” markets with
much greater populations (e.g., New York City). The
Incubator Order responded to this concern by noting
that some markets with similar populations have
vastly different numbers of stations, and stated that
“[i]n crafting our standard, we focused primarily on
preventing the potential for ownership consolidation
in a market with fewer stations and independent
owners than the market in which the incubation relationship added a new entrant.” Incubator Order
¶ 68. It expected that incubating entities will not
necessarily use their waivers only in the largest
markets, but rather wherever they face ownership
restrictions under the FCC’s rules. Id. And it noted
that some incubating entities might not have relevant ownership interests in other markets of similar
population size, such that they would have no flexibility under Diversity Petitioners’ proposed rules.
Id.
Diversity Petitioners posit this as an inadequate response, but we disagree. They are correct
that the Commission did not rebut the suggestion
that waivers might be used in markets with much
higher populations than the ones where incubation is
occurring. It explained instead why it did not think
this prospect overly frightening. Diversity Petitioners suggest that this dynamic could reduce the positive influence of the incubator program on ownership

34a
diversity, as (they claim) smaller markets like
Wilkes-Barre are less diverse. This is not supported
by the record: as Intervenors note, many smaller
markets are quite racially diverse, see Intervenors’
Br. at 50, and Diversity Petitioners’ rejoinder that
these markets contain fewer total people of color
than big cities like New York or Los Angeles, Diversity Petitioners’ Reply Br. at 17 n.7, is essentially
tautological. And we cannot say that the Commission’s focus on the potential anti-competitive effects
of the waiver program is unreasonable, for the waivers relate specifically to rules designed to promote
competition.
We therefore hold that the definition of “comparable markets” in the Incubator Order was adequately noticed and is not arbitrary and capricious.
D.

Effect of Rule Changes on Ownership Diversity

Citizen Petitioners argue that the Commission
did not adequately consider the effect its new rules
would have on ownership of broadcast media by
women and racial minorities. We agree. In Prometheus III we stated that the ongoing attempt to bring
the 2010 and 2014 review cycles to a close must “include a determination about the effect of the rules on
minority and female ownership.” 824 F.3d at 54 n.13
(internal quotation marks omitted). Both the 2016
Report & Order and the Reconsideration Order ostensibly included such a determination, and each
concluded that the broadcast ownership rules have
minimal effect on female and minority ownership.
But these conclusions were not adequately supported

35a
by the record, and thus they were arbitrary and capricious.
The 2016 Report & Order retained all of the
existing ownership rules, but it also addressed a proposal to tighten the local television and radio ownership rules as a means of promoting ownership diversity. The Commission rejected this proposal because
it found no evidence that reducing consolidation
would have that effect based on the following evidence. The National Telecommunications and Information Administration (“NTIA”) had collected data regarding the number of minority-owned stations
in the late 1990s. About a decade later, the FCC itself began collecting this data through a survey using
what is called “Form 323.” See Prometheus III, 824
F.3d at 44 (discussing the use of Form 323 to gather
data about minority ownership). It did so with the
express purpose of generating better data about
ways to increase ownership by women and minorities. Id.
What the 2016 Report & Order did was to
compare the NTIA data from the late 1990s, around
the time that the local ownership rules were first relaxed, with the subsequent Form 323 data. It saw
the same pattern for television and for radio: an initial decrease in minority-owned stations after the
rules became more flexible to permit more consolidation, followed by a long-term increase. The NTIA
showed 312 minority-owned radio stations in 1995,
just before the local radio rule was relaxed, followed
by 284 in 1996–97, 305 in 1998, and 426 in 1999–
2000. Form 323 data, meanwhile, showed 644 such
stations in 2009, 756 in 2011, and 768 in 2013. See
2016 Report & Order ¶ 126–28. Turning to televi-

36a
sion, NTIA data showed 32 minority-owned stations
in 1998—just before the local television rule was relaxed—and 23 stations in 1999–2000, while Form
323 data showed 60 stations in 2009, 70 in 2011, and
83 in 2013. Id. ¶ 77.
Because the trendlines did not show that relaxing these rules had played a major role in restricting ownership diversity, the Commission thought
that reversing the process (that is, tightening local
radio and television ownership rules) would also be
unlikely to have a major effect. Id. ¶ 126. At the
same time it did not think that further loosening the
rules would be an effective means of promoting diversity, as the data did not suggest that the increase
from the late 1990s through the 2009–13 period had
been caused by the relaxed rules. See id. ¶ 78, 128.
The Order stated that the Commission remained
“mindful of the potential impact of consolidation . . .
on ownership opportunities for . . . minority- and
women-owned businesses, and we will continue to
consider the implications in the context of future
quadrennial reviews.” Id. ¶ 128. The 2016 Report &
Order also cited this same data to suggest that its
modest revisions to the cross-ownership rules would
not be likely to have a major influence on ownership
diversity. Id. ¶ 196 n.586.
The Reconsideration Order, by contrast, did
make major changes to the ownership rules, and it
invoked the same evidence as the 2016 Report & Order to conclude that this would not meaningfully affect ownership diversity. Thus it stated, as to the
cross-ownership rules, that “record evidence demonstrates that previous relaxations of other ownership
rules have not resulted in an overall decline in mi-

37a
nority and female ownership of broadcast stations,
and we see no evidence to suggest that eliminating
the [Newspaper/Broadcast Cross- Ownership] Rule
will produce a different result and precipitate such a
decline.” Reconsideration Order, ¶ 46. As to the local television rule, the Order concluded that “the record does not support a causal connection between
modifications to the Local Television Ownership Rule
and minority and female ownership levels;” thus the
modifications “are not likely to harm minority and
female ownership.” Id. ¶ 83.
Problems abound with the FCC’s analysis.
Most glaring is that, although we instructed it to
consider the effect of any rule changes on female as
well as minority ownership, the Commission cited no
evidence whatsoever regarding gender diversity. It
does not contest this. See Respondent’s Br. at 40
n.14. Instead it notes that “no data on female ownership was available” and argues that it “reasonably
relied on the data that was available and was not required to fund new studies.” Id. Elsewhere, however, the Commission purports to have complied with
our instructions to consider both racial and gender
diversity, repeatedly framing its conclusion in terms
that encompass both areas. See, e.g., id. at 33–36.
The trouble is that any ostensible conclusion as to
female ownership was not based on any record evidence we can discern. Courts will find agency action
arbitrary and capricious where the agency “entirely
fail[s] to consider an important aspect of the problem,” State Farm, 463 U.S. at 43, and that is effectively what happened here. The only “consideration”
the FCC gave to the question of how its rules would
affect female ownership was the conclusion there

38a
would be no effect. That was not sufficient, and this
alone is enough to justify remand.
Even just focusing on the evidence with regard
to ownership by racial minorities, however, the
FCC’s analysis is so insubstantial that it would receive a failing grade in any introductory statistics
class. One basic problem is the way the Commission
treats the NTIA and Form 323 data as comparable,
even though these two data sets were created using
entirely different methodologies. For example, we do
not know how many minority-owned stations the
Form 323 survey would have found in 1999, or how
many the NTIA’s methods would have found in 2009.
Indeed the NTIA data is known to be substantially
incomplete, and the large increase in minorityowned radio stations it showed between 1998 and
1999–2000 is thought to have been caused by largely
improved methodology rather than an actual increase in the number of minority-owned stations.
2016 Report & Order ¶ 126. Attempting to draw a
trendline between the NTIA data and the Form 323
data is plainly an exercise in comparing apples to oranges, and the Commission does not seem to have
recognized that problem or taken any effort to fix it.
Even if we could treat the use of these two data sets as reliable, the FCC’s statistical conclusions
are woefully simplistic. They compare only the absolute number of minority-owned stations at different
times, and make no effort to control for possible confounding variables. The simplest of these would be
the total number of stations in existence. We do not
know, for example, whether the percentage of stations that are minority-owned went up or down from
1999 to 2009.

39a
And even if we only look at the total number of
minority-owned stations, the FCC did not actually
make any estimate of the effect of deregulation in the
1990s. Instead it noted only that, whatever this effect was, deregulation was not enough to prevent an
overall increase during the following decade. The
Commission made no attempt to assess the counterfactual scenario: how many minority-owned stations
there would have been in 2009 had there been no deregulation.
An analogy helps illustrate this point: if an
economy that has been growing at an annual 2% rate
suffers a serious depression in which it shrinks by
10%, and then resumes growing at the same 2% rate,
a decade later it will likely be bigger than it was on
the eve of the depression. But this does not mean
that the depression had no effect on the size of the
economy. Nothing in the FCC’s analysis rules out, or
even addresses, the possibility that the 1990s deregulation caused such a one-time “depression” of minority ownership even if it did not reverse the longterm increase in minority-owned stations.
The Commission does not really contest any of
these deficiencies in its data or its analysis. Instead
it argues that they are irrelevant. It notes, first of
all, that ownership diversity is just one of many
competing policy goals it must balance when adjusting its regulations. Respondent’s Br. at 32–33.
Thus, the Reconsideration Order noted that the
Commission should not retain a rule that unduly
burdened the competitive practices of all broadcasters “based on the unsubstantiated hope that these
restrictions will promote minority and female ownership.” Reconsideration Order ¶ 65. It cites to broad

40a
support for eliminating the newspaper/broadcast
cross-ownership rules, including from minority media owners, as evidence that doing so would not have
an adverse effect on minority ownership. Respondent’s Br. at 34. And it asserts that, while the data
used was not perfect, it was the only evidence available as to the effects of earlier rounds of deregulation
on ownership diversity. Id. at 40. The Commission
solicited evidence on this issue during the noticeand-comment period, and it did not receive any information of higher quality than the NTIA/Form 323
data. Thus it argues it had no affirmative burden to
produce additional evidence or to fund new studies
itself. Id. at 47 (citing Stilwell v. Office of Thrift Supervision, 569 F.3d 514, 519 (D.C. Cir. 2009)).
We are not persuaded. It is true that “[t]he
APA imposes no general obligation on agencies to
produce empirical evidence,” only to “justify its rule
with a reasoned explanation.” Stilwell, 569 F.3d at
519. But in this case the reasoned explanation given
by the Commission rested on faulty and insubstantial data. In Stilwell the agency had proceeded based
on its “long experience” supervising the regulated industry and had support from the commenters. Id.
Here, the Commission has not relied on its general
expertise, and, outside of the modifications to the
newspaper/broadcast cross-ownership rule, it does
not rely on support from commenters. It has not offered any theoretical models or analysis of what the
likely effect of consolidation on ownership diversity
would be. Instead it has confined its reasoning to an
insubstantial statistical analysis of unreliable data—
and, again, has not offered even that much as to the
effect of its rules on female ownership.

41a
Finally, it is true that promoting ownership
diversity is but one of the policy goals the FCC must
consider. But this only highlights that it is something the Commission must consider. It is, as State
Farm says, “an important aspect of the problem.”
463 U.S. at 43. The Commission might well be within its rights to adopt a new deregulatory framework
(even if the rule changes would have some adverse
effect on ownership diversity) if it gave a meaningful
evaluation of that effect and then explained why it
believed the trade-off was justified for other policy
reasons. But it has not done so. Instead it has proceeded on the basis that consolidation will not harm
ownership diversity. This may be so; perhaps a more
sophisticated analysis would strengthen, not weaken, the FCC’s position. But based on the evidence
and reasoning the Commission has given us, we
simply cannot say one way or the other. This violated the Commission’s obligations under the APA and
our remand instructions, and we “may not supply a
reasoned basis for the agency’s action that the agency itself has not given.” Id. (citing SEC v. Chenery
Corp., 332 U.S. 194, 196 (1947)).
Accordingly, we vacate the Reconsideration
Order and the Incubator Order in their entirety, as
well as the “eligible entity” definition from the 2016
Report & Order. On remand the Commission must
ascertain on record evidence the likely effect of any
rule changes it proposes and whatever “eligible entity” definition it adopts on ownership by women and
minorities, whether through new empirical research
or an in-depth theoretical analysis. If it finds that a
proposed rule change would likely have an adverse
effect on ownership diversity but nonetheless be-

42a
lieves that rule in the public interest all things considered, it must say so and explain its reasoning. If
it finds that its proposed definition for eligible entities will not meaningfully advance ownership diversity, it must explain why it could not adopt an alternate definition that would do so. Once again we do
not prejudge the outcome of any of this, but the
Commission must provide a substantial basis and
justification for its actions whatever it ultimately decides.
E.

Delay
Rules

in

Adopting

Procurement

Finally, Diversity Petitioners argue that the
Commission has unreasonably delayed action on
their proposal to extend the cable procurement rules
to broadcast media. These rules require cable companies to encourage minority- and female-owned
businesses to do business with them. See 47 C.F.R.
§ 76.75(e). A proposal to apply similar rules to
broadcast media companies was one of the proposals
we instructed the Commission to consider on remand
all the way back in Prometheus I. See 373 F.3d at
421 n.59. In Prometheus III, the same Diversity Petitioners argued the FCC had unlawfully refused to
address these proposals. We declined to pass on this
challenge, noting that the Chairman of the FCC had
committed to addressing these proposals in what
eventually became the 2016 Report & Order, and
thus the challenge was premature. See 824 F.3d at
50 n.11. At the same time we “note[d] our expectation that the Commission will meet its proffered
deadline.” The 2016 Report & Order ultimately
found that there was “merit in exploring” whether to
adopt this proposal, and stated that it would “evalu-

43a
ate the feasibility” of doing so. 2016 Report & Order
¶ 330. [J.A. at 169] The Notice of Proposed Rulemaking for the 2018 cycle sought comment on a
number of aspects of this proposal, including its constitutionality. See 2018 Quadrennial Regulatory Review—Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996, Notice of Proposed Rulemaking, 84 F.R. 6741, 6752
(Feb. 28, 2019)
As set out at length in Prometheus III, when
reviewing a claim of unreasonable agency delay we
evaluate four factors: first, the length of time since
the agency came under a duty to act; second, the context of the statute authorizing the agency’s action;
third, the consequences of the agency’s delay; and,
finally, any claim of administrative error, inconvenience, or practical difficulty carrying out the obligation, especially in light of limited resources. See 824
F.3d at 39–40 (quoting Oil, Chem. & Atomic Workers
Union, 145 F.3d at 123).
The Commission argues it has not unreasonably delayed action because the record as of the 2016
Report & Order did not support adopting the proposal—largely because the commenters did not offer
any substantial supporting materials for it. See Respondent’s Br. at 89. We agree. This is not like the
eligible entity issue in Prometheus III, where the
FCC had failed to act for well over a decade. At
most, the agency’s failure to act began with the 2016
Report & Order three years ago. And the consequence of the Commission’s failure to act at that
time was evidently to keep the proposal alive, rather
than rejecting it outright for lack of support. Given

44a
all of this, not to mention that the NPRM for the
2018 cycle has sought further comment on this proposal, we do not at this time find unreasonable delay
by the Commission.
That being said, we do anticipate that the
Commission will take final action on this proposal
one way or another when it resolves the 2018 review
cycle, at which time its decision will be subject to judicial review. If it does not do so, we may reach a different conclusion as to the reasonableness of that
additional delay.
F.

Conclusion

Citizens and Diversity Petitioners have standing to press their claims. On the merits, we hold
that the FCC’s retention of the “top-four” prong of its
local television ownership rule was not arbitrary and
capricious. We also hold that the Incubator Order’s
definition of “comparable markets” was adequately
noticed and was not arbitrary and capricious. And
we decline to hold that the FCC has unreasonably
delayed action on the proposal to adopt procurement
rules for the broadcasting industry. We do conclude,
however, that the Commission has not shown yet
that it adequately considered the effect its actions
since Prometheus III will have on diversity in broadcast media ownership. We therefore vacate and remand the Reconsideration and Incubator Orders in
their entirety, as well as the “eligible entity” definition from the 2016 Report & Order.
Citizen Petitioners ask us to appoint a mediator or master to “ensure timely compliance” with our
decision. Citizen Petitioners’ Br. at 43. Courts will
sometimes appoint a special master to oversee com-

45a
pliance with remedial decrees, but these cases typically involve institutions such as prisons where the
Court could not otherwise easily ascertain whether
the defendant is complying, and the master’s job is
limited only to observing and reporting. See, e.g.,
Ruiz v. Estelle, 679 F.2d 1115 (5th Cir. 1982),
amended in part and vacated in part on other
grounds, 688 F.2d 266 (5th Cir. 1982) (per curiam).
There is no need for such an observational special
master here, where the Commission’s actions on remand will be published in the Federal Register and
readily available for subsequent judicial review.
Moreover, we would decline in any event to appoint a
special master with any powers beyond the simply
observational, as doing so would raise grave constitutional concerns, see e.g. Cobell v. Norton, 334 F.3d
1128, 1141–42 (D.C. Cir. 2003), and we do not doubt
the Commission’s good faith in its efforts to comply
with our requests.
Because yet further litigation is, at this point,
sadly foreseeable, this panel again retains jurisdiction over the remanded issues.

46a
Prometheus Radio Project et al. v. Federal Communications Commission, Nos. 17-1107, 17-1109, 171110, 17-1111, 18-1092, 18-1669, 18-1670, 18-1671,
18-2943 & 18-3335,
SCIRICA, Circuit Judge, concurring in part and dissenting in part
The Telecommunications Act of 1996 mandates that the Federal Communications Commission
(FCC) regularly review its broadcast media ownership rules to ensure they remain in step with the
demands of a rapidly evolving marketplace. Yet
some of these rules date back to the 1990s and early
2000s, and one all the way to 1975, before the Internet revolutionized American media consumption.
Americans today increasingly rely on online sources
for local news and information. Studies in the record
reinforce what most people old enough to recall the
days before WiFi and iPads understand instinctively:
the explosion of Internet sources has accompanied
the decline of reliance on traditional media. The realities of operating a viable broadcasting enterprise
today look little like they did when the FCC enacted
the current ownership rules. Despite all of this, the
FCC’s broadcast ownership rules remained largely
static for fifteen years.
The FCC’s most recent review of its ownership
rules culminated in an order that accounted for these
changes. The FCC evaluated the current market dynamics, concluded the existing rules built for a preInternet marketplace no longer serve the public interest, and repealed or modified the rules accordingly. The FCC weighed the rules’ effects on competi-

47a
tion, localism, and diversity to determine what
changes would advance the public interest.
I join several parts of my colleagues’ decision,
including their rejection of the challenges to the incubator program’s “comparable markets” definition
and the Reconsideration Order’s retention of a modified “top-four” restriction in the Local TV Rule. But I
do not share their conclusion that the Reconsideration Order and Incubator Order are arbitrary and
capricious. In my view, the FCC balanced competing
policy goals and reasonably predicted the regulatory
changes dictated by the broadcast markets’ competitive dynamics will be unlikely to harm ownership diversity. I would not delay the FCC’s actions. I would
allow the rules to take effect and direct the FCC to
evaluate their effects on women- and minoritybroadcast ownership in its 2018 quadrennial review.
I.
The parties are intimately familiar with the
FCC’s quadrennial review of the broadcast ownership rules. See Prometheus Radio Project v. FCC,
824 F.3d 33 (3d Cir. 2016) (Prometheus III); Prometheus Radio Project v. FCC, 652 F.3d 431 (3d Cir.
2011) (Prometheus II); Prometheus Radio Project v.
FCC, 373 F.3d 372 (3d Cir. 2004) (Prometheus I). I
summarize the relevant history and principles that
guide this process before briefly reviewing the FCC’s
most recent action.
A.
The orders at issue stem from the FCC’s review of its broadcast ownership rules. Through these
rules the FCC advances its statutory mandate to

48a
regulate broadcast media as “public convenience, interest, or necessity requires.” 47 U.S.C. § 303; see
Nat’l Broad. Co. v. United States, 319 U.S. 190, 214
(1943). Early versions of the ownership rules cabined common ownership within and across broadcast
media to promote the public interest. See FCC v.
Nat’l Citizens Comm. for Broad., 436 U.S. 775, 780
(1978) (NCCB). The FCC adopted broadcast ownership rules with the objective to “promot[e] competition among the mass media” and to “maximiz[e] diversification of services sources and viewpoints.” Id.
at 784 (internal quotation marks and citation omitted). These in turn would benefit the public through
higher quality programming and broader options.
The FCC determines the appropriate amount of
common ownership by weighing the harms of excessive concentration—diminished programming diversity, stifled competition, and the like—against the
competitive realities of running viable broadcast enterprises.
A need for regulatory reform became palpable
as the Internet emerged, transforming how Americans receive news and entertainment. Rapid technological change had left the framework regulating
media ownership ill-suited to the marketplace’s
needs. The public interest analysis at the heart of
the FCC’s ownership rules is as dynamic as the media landscape. A static set of ownership regulations
could not serve the public interest for all time. See
Prometheus I, 373 F.3d at 437 (Scirica, C.J., dissenting in part and concurring in part).
With continued change all but certain, Congress retooled the approach to regulating affected
markets. It enacted the Telecommunications Act of

49a
1996, Pub. L. No. 104-104, 110 Stat. 56, which directs the FCC to review the broadcast ownership
rules periodically. The relevant provision, Section
202(h), instructs:
The Commission shall review . . . all of its
ownership rules [quadrennially] as part of its
regulatory reform review . . . and shall determine whether any of [its] rules are necessary in the public interest as the result of
competition. The Commission shall repeal or
modify any regulation it determines to be no
longer in the public interest.
Telecommunications Act of 1996, § 202(h), as amended by Pub. L. No. 108-199, § 629, 118 Stat. 3, 99–100
(2004). “[C]ompetition, localism, and diversity” are
the values that guide the FCC’s “public interest”
analysis under Section 202(h). Prometheus I, 373
F.3d at 400; see also id. at 446 (Scirica, C.J., dissenting in part and concurring in part). The FCC considers five types of diversity: viewpoint, outlet, program,
source, and minority and women ownership. See id.
at 446 (Scirica, C.J. dissenting in part and concurring in part) (summarizing the FCC’s analysis in its
2002 biennial review order).
Embodied in Section 202(h) is the imperative
that the broadcast ownership rules stay in sync with
the media marketplace. See id. at 391. What is in
the “public interest” changes over time as the marketplace evolves, so the FCC must reassess competitive conditions to set appropriate regulations. The
provision’s language and the accompanying legislative history reveal a belief that “opening all telecommunications markets to competition” will best

50a
suit a marketplace comprised of diverse media platforms and shaped by technological advancement.
See H.R. Rep. No. 104-458, at 113 (1996) (Conf.
Rep.). Section 202(h) directs the FCC to assess the
harms of consolidation and abandon restrictions that
deprive the public of competitive benefits associated
with some levels of common ownership.1
B.
The FCC concluded its 2010/14 quadrennial
review by largely retaining the rules restricting
common ownership. See Second Report & Order,
2014 Quadrennial Regulatory Review, 31 FCC Rcd.
9864 (2016) (2016 Report & Order). The rules, according to the FCC, “promote[d] competition and a
diversity of viewpoints in local markets, thereby enriching local communities through the promotion of
distinct and antagonistic voices.” Id. ¶ 3.
On petitions for reconsideration, the FCC repealed or loosened most of these ownership rules.
See Order on Reconsideration and Notice of Proposed
Rulemaking, 32 FCC Rcd. 9802 (2017) (Reconsideration Order). The thrust of the FCC’s analysis is that
technological innovation and fundamental changes to
the media marketplace have eroded many of the assumptions underlying the ownership rules. See, e.g.,
id. ¶¶ 1, 19, 22, 43, 60, 71–73. The rules have thus
ceased serving the public interest. The Internet
boom has ushered in rivals that enjoy competitive
1 Although framed in deregulatory terms, we have understood the provision to allow modifications making the rules
“more or less stringent.” Prometheus I, 372 F.3d at 395.

51a
advantages vis-à-vis broadcasters. The ownership
rules impede broadcasters’ ability to engage in procompetitive transactions without offering compensating benefits to the public.
The FCC’s repeal of the Newspaper/Broadcast
Cross-Ownership (NBCO) Rule illustrates the Reconsideration Order’s public interest balancing. The
NBCO Rule barred combinations between broadcast
stations and local newspapers to preserve “strong local voices.” Id. ¶ 9. When the rule was adopted in
1975, daily print newspapers constituted a predominant voice in local news. The rule thus promoted
viewpoint diversity and localism by ensuring independent sources of local content. But the FCC’s careful study and informed judgment show this reasoning no longer holds. Traditional media compete with
“digital-only news outlets with no print or broadcast
affiliation.” Id. ¶ 19. The FCC determined that the
burst of Internet sources means local newspapers’
independence from broadcast is no longer essential to
promote viewpoint diversity. See id. ¶¶ 18–22. The
flipside of this growth is the dwindling significance of
print newspapers. Repealing the NBCO Rule, the
FCC determined, lifts a barrier to combinations that
may enhance localism. See id. ¶ 26. Transactions
between broadcasters and local newspapers could
enable “collaboration and cost-sharing” that improve
program quality. Id. ¶ 27. These efficiencies could
“attract new investment in order to preserve and expand” local programming. Id. ¶ 42. The FCC predicted repeal of the NBCO Rule “is unlikely to have a
significant effect on minority and female ownership
in” broadcast markets in part because broadcasters
would be better positioned to acquire newspapers

52a
than the reverse. Id. ¶ 46. So ownership diversity,
like competition and localism, did not justify keeping
the rule. See id. ¶ 48.
While the FCC’s public interest analysis balances competition, localism, and diversity, the last
consideration has attracted most of the attention in
this litigation. Neither the 2016 Report & Order nor
Reconsideration Order found evidence that showed
keeping or changing the rules would affect ownership
diversity. “[E]mpirical study of the relationship between cross-ownership restrictions” and ownership
diversity is complicated by “obstacles that make such
study impractical and unreliable,” the FCC observed,
yet it invited comment on both study design and the
likely connection. Quadrennial Regulatory Review—
Review of The Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996, et al.,
Further Notice of Proposed Rulemaking and Report
and Order, 29 FCC Rcd. 4371 ¶ 198 n.595 (2014)
(2014 FNPRM). The 2016 Report & Order rejected
arguments that making the rules more restrictive
“will promote increased opportunities for minority
and female ownership” because the record lacked evidence supporting such a causal connection. ¶ 77 (Local TV Rule); see id. ¶ 127 (Local Radio Rule). The
Reconsideration Order considered the consequences
of relaxing the rules on ownership diversity and determined the record did not support arguments that
minority and women broadcasters would be harmed
by the changes. See, e.g., ¶ 15 (NBCO Rule) (“[W]e
find that eliminating the rule will have no material
effect on minority and female broadcast ownership.”).
No commenter introduced evidence that contradicted

53a
the FCC’s prediction that changing the rules would
unlikely affect ownership diversity. The Reconsideration Order announced the FCC’s intention to pursue
an incubator program, to facilitate entry and bolster
ownership diversity. See ¶¶ 121–25.
II.
Citizen Petitioners contend the FCC’s orders
are arbitrary and capricious because they do not adequately analyze the new rules’ likely effects on minority and women broadcast ownership. The APA’s
“arbitrary and capricious” standard together with
Section 202(h) guide our review.
We must “hold unlawful and set aside agency
action, findings, and conclusions” that are “arbitrary
[or] capricious.” 5 U.S.C. § 706(2)(A). Under this
deferential review, we uphold the FCC’s decision
provided it “examine[d] the relevant data and articulate[d] a satisfactory explanation for its action including a ‘rational connection between the facts
found and the choice made.’” Motor Vehicles Mfrs.
Ass’n v. State Farm Mut. Auto. Ins. Co., 463 U.S. 29,
43 (1983) (quoting Burlington Truck Lines v. United
States, 371 U.S. 156, 168 (1962)). Where, as here,
the FCC makes predictions about the likely consequences of its decisions, “complete factual support in
the record for [its] judgment or prediction is not possible or required.” NCCB, 436 U.S. at 814; Rural
Cellular Ass’n v. FCC, 588 F.3d 1095, 1105 (D.C. Cir.
2009) (“Where . . . the FCC must make predictive
judgments about the effects of [its regulations], certainty is impossible.”). These predictions are “less
amenable to rigid proof”; they “are more in the nature of policy decisions entitled to substantial deference.” NAACP v. FCC, 682 F.2d 993, 1001 (D.C. Cir.

54a
1982), rev’d on other grounds, FCC v. Fox Telev. Stations, Inc., 556 U.S. 502 (2009).
As this Court has emphasized and notes again
here, Section 202(h) “also affects our standard of review.” Prometheus III, 824 F.3d at 40; see Maj. Op.
18. To the extent the meaning of Section 202(h) is
disputed, the question would ordinarily “implicat[e]
an agency’s construction of the statute which it administers,” thus triggering “the principles of deference described in” Chevron U.S.A. Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837, 842
(1984). INS v. Aguirre-Aguirre, 526 U.S. 415, 424
(1999); see also Sinclair Broad. Grp. v. FCC, 284
F.3d 148, 165 (D.C. Cir. 2004) (deferring to FCC’s
reasonable interpretation of another provision of the
Telecommunications Act of 1996 under Chevron).
III.
My colleagues find, “based on the evidence and
reasoning the Commission has given us,” it has not
satisfied its obligation to show changes in the ownership rules “will not harm ownership diversity.” Maj.
Op. 39. But the FCC enjoys a measure of deference
when it balances policy objectives based on predictions of the consequences of its rules. This key disagreement leads me to depart from my colleagues in
three respects. First, because the FCC’s consideration of the interplay between its ownership rules and
ownership diversity satisfies the APA and Section
202(h), I would deny the challenges to the Reconsideration Order and allow the new rules to take effect.
Second, I believe the substance of the FCC’s eligible
entity definition and the process by which it was
adopted accords with the APA. Third, I do not be-

55a
lieve the FCC acted arbitrarily or capriciously when
it adopted the Incubator Order. Accordingly, I would
deny the petitions and allow the FCC’s orders to take
effect.
A.
Citizen Petitioners leave untouched the FCC’s
core determination that the ownership rules have
ceased to serve the “public interest.” The Reconsideration Order chronicles significant changes
throughout media markets and explains why maintaining the rules no longer serves that public interest
goal. No party identifies any reason to question the
FCC’s key competitive findings and judgments. Citizen Petitioners argue instead that all the rule
changes that make up the Reconsideration Order
should be vacated because the FCC did not adequately consider the new rules’ likely effects on womenand minority-broadcast ownership. But neither Section 202(h) nor the APA requires the FCC to quantify
the future effects of its new rules as a prerequisite to
regulatory action. Congress prescribed an iterative
process; the FCC must take a fresh look at its rules
every four years. This process assumes the FCC can
gain experience with its policies so it may assess how
its rules function in the marketplace. The FCC has
sufficiently explained its decision and deserves an
opportunity to implement its policies.
Citizen Petitioners overlook “that the Commission’s judgment regarding how the public interest
is best served is entitled to substantial judicial deference.” FCC v. WNCN Listeners Guild, 450 U.S. 582,
596 (1981). The FCC’s Section 202(h) review typifies
agency policymaking entitled to deference, subject to

56a
the APA. Section 202(h) directs the FCC to balance
competing goals—competition, localism, and diversity—to guarantee that its “regulatory framework
[keeps] pace with the competitive changes in the
marketplace.” Prometheus I, 373 F.3d at 391. The
FCC enjoys a “considerable amount of discretion”
when it weighs objectives to reach policy decisions.
Rural Cellular, 588 F.3d 1095, 1103 (D.C. Cir. 2009)
(internal quotation marks and citation omitted). The
record confirms the FCC analyzed the relevant considerations and properly exercised its discretion.
See, e.g., Reconsideration Order ¶ 63 (Radio/TV
Cross-Ownership Rule) (concluding the rule “no
longer strikes an appropriate balance between the
protection of viewpoint diversity and the potential
public interest benefits that could result from the efficiencies gained by common ownership of radio and
television stations in a local market”); see also id.
¶¶ 55–58 (rule no longer contributes substantially to
viewpoint diversity); id. ¶ 59 (rule is out of step with
“realities of the digital media marketplace”); id. ¶ 62
(“rule already permits significant cross-ownership in
local markets”); id. ¶ 64 (“no evidence that any additional common ownership” resulting from repeal
“would disproportionately or negatively impact minority- and female-owned stations”).
Traditional principles of deference are particularly apt here. Not every decision the FCC makes is
susceptible to precise analysis; some “rest on judgment and prediction rather than pure factual determinations.” WNCN Listeners Guild, 450 U.S. at 594.
Predictions about the future effects of rules not yet in
being are “inherently speculative.” Council Tree

57a
Inv’rs, Inc. v. FCC, 863 F.3d 237, 243 (3d Cir. 2017)
(Council Tree IV) (internal quotation marks omitted).
The FCC reasonably predicted on the record
before it that the new rules would not diminish or
harm minority and women ownership. The question
whether the rules and ownership diversity are interconnected was aired over the course of the 2010/14
quadrennial review. The FCC invited comment and
data that might shed light on this connection. See,
e.g., 2014 FNPRM ¶ 222. It concluded—based on its
understanding of the broadcast markets, the evidence in the record, and the only data submitted—
that repeal of the rules was unlikely to harm ownership diversity. See, e.g., Reconsideration Order ¶ 83
(Local TV Rule) (“In this lengthy proceeding, no party has presented contrary evidence or a compelling
argument demonstrating why relaxing this rule will”
harm ownership diversity.); id. ¶ 69 (adopting revised rule based on understanding of changed competitive dynamics); id. ¶ 71 (observing changes in
marketplace but noting “broadcast television stations
still play a unique and important role in their local
communities”); see also 2014 FNPRM ¶ 224 (Radio/TV Cross-Ownership Rule) (noting no commenter
has shown “low levels of [women and minority] ownership are a result of existing radio/television crossownership rule”).2 The effect the new rules will have
2 To the extent my colleagues require the FCC to conduct
empirical analysis on remand, they risk impermissibly adding
requirements beyond the APA. See Perez v. Mortgage Bankers
Ass’n, 135 S. Ct. 1199, 1207 (2015). They quote Stilwell v. Office of Thrift Supervision’s instruction that the “APA imposes no
general obligation on agencies to produce empirical evidence.”

58a
on women- and minority-broadcast ownership may
remain difficult to uncover until the FCC gains experience with the new rules. See NCCB, 436 U.S. at
796–97; Council Tree Inv’rs, Inc. v. FCC, 619 F.3d
235, 252–53 (3d Cir. 2010). Faced with such a question, “complete factual support in the record for the
Commission’s judgment or prediction is not possible
or required.” NCCB, 436 U.S. at 814. Under these
circumstances settled principles of administrative
law counsel deference to the FCC’s prediction.3
Citizen Petitioners emphasize that the FCC
acted on faulty minority-ownership data and no
women-ownership data. See, e.g., Citizen Petitioners’
Br. 26–30. This data, which the FCC acknowledged
as imperfect, measured minority ownership before
and after two prior regulatory changes—in 1996 and
Maj. Op. 38 (quoting 569 F.3d 514, 519 (D.C. Cir. 2009)). But
they argue Stilwell is distinguishable because there the agency
relied on its “long experience” supervising the industry and did
not act on “faulty and insubstantial data” like the FCC did
here. Id. Setting aside the FCC’s eight decades regulating
broadcast media, the basic principle that the APA “imposes no
general obligation on agencies to produce empirical evidence”
applies regardless of the quality of the data in the record. Stilwell, 569 F.3d at 519; see Council Tree IV, 863 F.3d at 244
(“[W]e review only for the use of relevant, not perfect, data.”).
Were it otherwise, the principle would be meaningless.
3 This is true despite Citizen Petitioners’ criticism of the FCC’s
methodology and data. Not only does the FCC have policymaking discretion, subject to the APA it also has discretion “to proceed on the basis of imperfect scientific information, rather
than to invest the resources to conduct the perfect study.” Cablevision Sys. Corp. v. FCC, 649 F.3d 695, 717 (D.C. Cir. 2011)
(quoting Sierra Club v. EPA, 167 F.3d 658, 662 (D.C. Cir.
1999)).

59a
1999. Such data weaknesses are not fatal to the
FCC’s regulations—not only because, as noted, data
gaps are inherent to predictive regulation, but also
because it is not certain the data demanded would
alter the FCC’s analysis. First, Citizen Petitioners
assume that the experience of these earlier changes
will speak directly to the effects of the Reconsideration Order. Even if the FCC could obtain improved
data on these decades-old regulatory changes, that
information offers only modest predictive value for
the consequences of the FCC’s current rules regarding modernization. Second, as noted the FCC considers five types of diversity, not to mention competition and localism. The FCC’s lack of some data relevant to one of these considerations should not outweigh its reasonable predictive judgments, particularly in the absence of any contrary information,
such that its entire policy update is held up.
The FCC must “repeal or modify” rules that
cease to serve the public interest even when it lacks
optimal data. Telecommunications Act of 1996,
§ 202(h). The FCC has revised its Form 323 and
conducted outreach programs to ease compliance
with its reporting requirements. 2016 Report & Order ¶ 265. These are encouraging measures that
could make the FCC’s data more reliable, benefiting
future quadrennial reviews. The FCC intends to
take up a variety of diversity- related proposals in its
2018 quadrennial review. See 2018 Quadrennial
Regulatory Review—Review of the Commission’s
Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications
Act of 1996, Notice of Proposed Rulemaking, 33 FCC
Rcd. 12111 ¶¶ 93–121 (2018). I would direct it to fol-

60a
low through on its announcement as well as study
the effects of the latest rules on ownership diversity.
I would not, however, delay the Reconsideration Order based on the analytical shortcomings Citizen Petitioners emphasize.
In short, I believe the FCC has explained its
decision. I would deny the petitions and allow the
Reconsideration Order’s rule changes to take effect.
B.
My colleagues remand the 2016 Report & Order’s eligible entity definition for the FCC to ascertain what effect the revenue-based definition will
have on women and minority ownership. But the
FCC adopted the eligible entity definition to “serve
the public interest by promoting small business participation in the broadcast industry and potential entry by new entrepreneurs.” See 2016 Report & Order
¶ 279; see id. ¶¶ 280–86. It thoroughly explained its
policy choice. The record indicated that the revenuebased eligible entity definition will promote the
FCC’s “traditional policy objectives . . . by enhancing
opportunities for small business[es].” Id. ¶ 281. The
FCC’s brief experience with this definition confirmed
“a significant number of broadcast licensees and
permittees availed themselves of policies based on
the revenue-based eligible entity standard.” Id.
¶ 283 (observing widespread use of the policy allowing certain eligible entities generous construction
permits). No commenters argued the revenue-based
eligible entity definition does not serve the public interest according to the FCC’s analysis. Id. ¶ 276.
This stands in contrast to the last time the
FCC employed this definition. During its 2006 quad-

61a
rennial review the FCC adopted a revenue-based eligibility entity definition to promote ownership diversity. The approach failed because the FCC provided
no support for why its definition would “be effective
in creating new opportunities for broadcast ownership by . . . women and minorities.” Prometheus II,
652 F.3d at 470 (internal quotation marks and citation omitted). The key distinction, of course, is the
FCC’s policy decision to reorient its eligible entity
definition. As revised, it is intended to “encourage
innovation and enhance viewpoint diversity” by
“promoting small business participation in the
broadcast industry.” 2016 Report & Order ¶ 235.
Because the FCC pursued the revenue-based definition in past efforts to promote ownership diversity, it
evidently believed the definition would not harm
ownership diversity. Nothing in the present record
suggests otherwise. In my view the FCC properly
complied with its obligations under the APA.
C.
Under today’s outcome, I regret that the FCC’s
incubator program will not have an opportunity to
stand or fall on its own merit. See Rules and Policies
to Promote New Entry and Ownership Diversity in
the Broadcasting Services, 33 FCC Rcd. 7911 (2018)
(Incubator Order). Citizen Petitioners take issue
with the program’s criteria for who is eligible to realize its benefits. The FCC adopted a two-prong eligible entity definition: participants must be both “new
entrants” based on the number of stations owned and
“small businesses” based on revenue. See id. ¶ 16.
The FCC designed these criteria “to encourage new
entry into” an “extremely capital-intensive” industry.
Id. ¶ 18. The program’s benefits will not exclusively

62a
accrue to minority and women broadcasters as the
eligibility criteria sweep in all emerging radio broadcasters. This breadth is consistent with the incubator program’s stated goal. Yet based on its review of
data from incentive auctions, the FCC predicts that
the “new entrant” prong will likely benefit prospective women and minority applicants. Id. ¶¶ 21–24.
The incubator program is a reasonable policy
designed to “support the entry of new and diverse
voices into the broadcast industry.” Id. ¶ 1. The
FCC “has long contemplated the potential for” a program that pairs emerging and experienced broadcasters to ease entry into radio broadcasting. Id. ¶ 2.
The Incubator Order established the first program to
convert these ideas into a concrete policy. See ¶ 3.
Before adopting the program, the FCC considered
alternative eligibility criteria and invited “comment
on how to determine eligibility for participation in
the incubator program.” Id ¶ 17; see id. ¶¶ 28–30
(declining to adopt competing proposals that might
prove “administratively inefficient,” and committing
to “conduct outreach to help encourage participation
in the incubator program by mission-based entities
and Native American Nations” that are eligible). It
then provided comprehensive reasoning to justify the
path it chose. See id. ¶ 20 (“The record reflects that
individuals seeking to purchase their first or second
broadcast station are the ones that often face the
most challenging financial hurdles.”); id. ¶ 21 (citing
incentive auction data showing definition could modestly benefit women and minorities); id. ¶ 22 (citing
comments suggesting the same); id. ¶ 25 & n.53 (noting that revenue cap narrows band of eligible entities); id. ¶ 27 (“Use of an objective standard has the

63a
advantage of being straightforward and transparent
for potential applicants, as well as administrable for
the Commission without application of significant
additional processing resources.”). The FCC complied with the APA in determining its “eligible entity” definition. Its choice, in my view, is an aspect of
program design largely left to the agency’s policy discretion, subject to the APA, Telecommunications Act
of 1996, and other relevant statutes. The FCC’s order draws a rational line between the record and decision made, and I would allow the incubator program to take effect.
IV.
For the reasons provided, I would deny the petitions for review and allow the FCC’s orders to take
effect.

64a

APPENDIX B
Before the
Federal Communications Commission
Washington, D.C. 20554
In the Matter of
2014 Quadrennial Regulatory
Review – Review of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted
Pursuant to Section 202 of the
Telecommunications Act of 1996
2010 Quadrennial Regulatory
Review – Review of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted
Pursuant to Section 202 of the
Telecommunications Act of 1996
Promoting Diversification of
Ownership In the Broadcasting
Services

)
)
) MB Docket No.
14-50
)
)
)
)
)
)

MB Docket No.
09-182

)
)
) MB Docket No.
07-294
)

Rules and Policies Concerning
Attribution of Joint Sales
Agreements in Local Television
Markets

)

Rules and Policies to Promote
New Entry and Ownership Diversity in the Broadcasting Services

)

)

MB Docket No.
04-256

)
) MB Docket No.
17-289
)
)

65a
ORDER ON RECONSIDERATION AND
NOTICE OF PROPOSED RULEMAKING
Adopted: November
16, 2017

Released: November
20, 2017

Comment Date: (60 days after publication in
the Federal Register)
Reply Comment Date: (90 days after publication in the Federal Register)
By the Commission: Chairman Pai and Commissioners O’Rielly and Carr issuing separate statements; Commissioners Clyburn and Rosenworcel
dissenting and issuing separate statements.
TABLE OF CONTENTS
Heading
I.
II.
III.

Paragraph #

INTRODUCTION .............................................4
BACKGROUND ................................................6
MEDIA OWNERSHIP RULES ...................... 13
A. Newspaper/Broadcast CrossOwnership Rule .........................................13
B. Radio/Television CrossOwnership Rule .........................................58
C. Local Television Ownership
Rule ............................................................75
D. Local Radio Ownership Rule ....................99
IV.
TELEVISION JOINT SALES
AGREEMENTS ............................................113
V.
SHARED SERVICE AGREEMENTS ..........134
VI.
DIVERSITY/INCUBATOR PROGRAM.......141
VII. NOTICE OF PROPOSED
RULEMAKING.............................................145
VIII. PROCEDURAL MATTERS ..........................159

66a
IX.

ORDERING CLAUSES ................................164

APPENDIX A – Final Rule Changes
APPENDIX B – Supplemental Final Regulatory
Flexibility Analysis
APPENDIX C – Initial Regulatory Flexibility Analysis

67a
I.

INTRODUCTION

1.
Today we end the 2010/2014 Quadrennial Review proceeding. In doing so, the Commission
not only acknowledges the dynamic nature of the
media marketplace, but takes concrete steps to update its broadcast ownership rules to reflect reality.
Indeed, the Commission plainly stated in its 2010
NOI initiating this proceeding that the broadcast
ownership rules required a fresh look in light of
“[d]ramatic changes in the marketplace,”1 yet the resulting Second Report and Order issued in August
2016 manifestly failed to adopt any meaningful
changes to these rules—and effectively tightened the
Local Television Ownership Rule.2 In this Order on
Reconsideration, we refuse to ignore the changed
landscape and the mandates of Section 202(h), and
we deliver on the Commission’s promise to adopt
broadcast ownership rules that reflect the present,
not the past. Because of our actions today to relax
and eliminate outdated rules, broadcasters and local
newspapers will at last be given a greater opportunity to compete and thrive in the vibrant and fastchanging media marketplace. And in the end, it is
consumers that will benefit, as broadcast stations
1 2010 Quadrennial Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996,
Notice of Inquiry, 25 FCC Rcd 6086, 6087, para. 1 (2010) (NOI).
2 See generally 2014 Quadrennial Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996 et al., Second Report and Order, 31 FCC Rcd
9864 (2016) (Second Report and Order).

68a
and newspapers—those media outlets most committed to serving their local communities—will be better
able to invest in local news and public interest programming and improve their overall service to those
communities.
2.
Accordingly, in today’s Order on Reconsideration, we grant in part and deny in in part, as
set forth herein, various petitions for reconsideration3 of the Second Report and Order. Specifically,
3 Petition of Connoisseur Media for Reconsideration of the
2010/2014 Quadrennial Review Second Report and Order, MB
Docket Nos. 14-50 et al. (filed Dec. 1, 2016) (Connoisseur Petition); Petition of the National Association of Broadcasters for
Reconsideration of the 2010/2014 Quadrennial Review Second
Report and Order, MB Docket Nos. 14-50 et al. (filed Dec. 1,
2016) (NAB Petition); Petition of Nexstar Broadcasting, Inc. for
Reconsideration of the 2010/2014 Quadrennial Review Second
Report and Order, MB Docket Nos. 14-50 et al. (filed Dec. 1,
2016) (Nexstar Petition). In addition, various parties filed ex
parte comments—well after the filing deadline for petitions for
reconsideration—urging the Commission to address other aspects of the Second Report and Order that were not raised in
any petition for reconsideration. See, e.g., Letter from Barry A.
Friedman, Thompson Hine, Counsel for Dick Broadcasting
Company, Inc. of Tennessee, to Marlene H. Dortch, Secretary,
FCC, MB Docket Nos. 14-50, 09-182, and 07-294, at 2 (filed
Mar. 24, 2017) (Dicks Broadcasting Mar. 24, 2017 Ex Parte)
(stating that “continued applicability of the [AM/FM] subcaps
warrants a hard look from the Commission”). In effect, these ex
parte filings are untimely petitions for reconsideration, which
we lack discretion to consider absent extraordinary circumstances not present here. See 47 U.S.C. § 405(a) (“A petition for
reconsideration must be filed within thirty days from the date
upon which public notice is given of the order, decision, report,
or action complained of.”); Reuters, Ltd. v. FCC, 781 F.2d 946
(D.C. Cir. 1986) (express statutory limitations barred the Com-

69a
we (1) eliminate the Newspaper/Broadcast CrossOwnership Rule; (2) eliminate the Radio/Television
Cross-Ownership Rule; (3) revise the Local Television Ownership Rule to eliminate the Eight-Voices
Test and to modify the Top-Four Prohibition to better
reflect the competitive conditions in local markets;
(4) decline to modify the market definitions relied on
in the Local Radio Ownership Rule, but provide a
presumption for certain embedded market transactions; (5) eliminate the attribution rule for television
joint sales agreements (JSAs); and (6) retain the disclosure requirement for shared service agreements
(SSAs) involving commercial television stations.
3.
In addition, we find that the present
record supports adoption of an incubator program to
promote ownership diversity; however, the structure
and implementation of such a program requires further exploration. Accordingly, in the accompanying
Notice of Proposed Rulemaking (NPRM), we seek
comment on structuring our incubator program to
help facilitate new entry into the broadcast services.
II.

BACKGROUND

4.
Congress requires the Commission to
review these rules every four years to determine

mission from acting on a petition for reconsideration that was
filed after the due date); Adelphia Commc’ns Corp., 12 FCC Rcd
10759 (1997) (“The Commission may entertain petitions for reconsideration filed beyond the statutory deadline only where
‘extraordinary circumstances indicate that justice would thus
be served.’”) (citing Gardner v. FCC, 530 F.2d 1086, 1091 (D.C.
Cir. 1976)). Accordingly, we limit our action today to those issues properly raised in timely petitions for reconsideration.

70a
whether they “are necessary in the public interest as
the result of competition” and to “repeal or modify
any regulation [the Commission] determines to be no
longer in the public interest.”4 The history of this
review proceeding is long and well documented and
need not be repeated in detail here.5 In relevant
part, on August 10, 2016, the Commission adopted
the Second Report and Order (released on August 25,
2016) to resolve both the 2010 and 2014 quadrennial
review proceedings, as well as to address various issues related to the attribution of television JSAs, diversity initiatives, and SSAs. Then-Commissioner
Pai and Commissioner O’Rielly dissented from that
order.
5.
The Second Report and Order largely
retained the existing broadcast ownership rules, reinstated the previously vacated Television JSA Attribution Rule, and adopted a definition of SSAs and
a disclosure requirement for SSAs involving commercial television stations. The Commission reinstated the revenue-based eligible entity standard, as
well as associated measures, to help promote small
4 Telecommunications Act of 1996, Pub. L. No. 104-104, §
202(h), 110 Stat. 56, 111-12 (1996) (1996 Act); Consolidated Appropriations Act, 2004, Pub. L. No. 108-199, § 629, 118 Stat. 3,
99-100 (2004) (Appropriations Act) (amending Sections 202(c)
and 202(h) of the 1996 Act). In 2004, Congress revised the
then-biennial review requirement to require such reviews
quadrennially. See Appropriations Act § 629, 118 Stat. at 100.
5 The Second Report and Order provides a detailed accounting of the history of this proceeding, which we incorporate by
reference herein. Second Report and Order, 31 FCC Rcd at
9866, paras. 7-15.

71a
business participation in the broadcast industry.
However, the Commission determined that it could
not meet the demanding legal standards the courts
have said must be met before the Government may
implement preferences based on race or gender. Finally, the Commission committed to explore various
diversity-related proposals in the record, while declining to adopt other proposals, including an incubator program.
6.
Several parties seek reconsideration of
various aspects of the Second Report and Order. The
National Association of Broadcasters (NAB) petitions
the Commission to reconsider its decisions regarding
the Local Television Ownership Rule, television JSA
attribution,
SSA
disclosure,
the
Newspaper/Broadcast Cross-Ownership Rule, the Radio/Television Cross-Ownership Rule, and the rejection of NAB’s proposal to create an incubator program to encourage diversity.6 Nexstar Broadcasting,
6 NAB Petition at i-v. On January 24, 2017, UCC et al. filed
a motion to strike and dismiss the NAB Petition on the grounds
that the petition “improperly evades the strict 25-page limit on
reconsideration petitions by using a prohibited, undersized font
for footnotes and inserting a substantial portion of its argument
into those footnotes” in violation of 47 CFR § 1.49(a). Motion of
United Church of Christ et al. to Strike and Dismiss Petition of
the National Association of Broadcasters for Reconsideration of
the 2010/2014 Quadrennial Review Second Report and Order,
MB Docket Nos. 14-50 et al., at 2 (filed Jan. 24, 2017) (UCC et
al. Motion to Strike and Dismiss). The motion also alleges that
NAB’s summary was “well over twice the permissible length,
and improperly contains additional arguments” in violation of
47 CFR § 1.49(c). Id. In reply, NAB states that it did not intend to evade any Commission rules and offers to refile if the

72a
Inc. (Nexstar) also challenges the Local Television
Ownership Rule and the attribution of television
JSAs,7 while Connoisseur Media LLC (Connoisseur)
challenges an aspect of the Local Radio Ownership
Rule related to embedded markets.8 Oppositions to
the reconsideration petitions were filed by the American Cable Association (ACA), opposing reconsideration of the Local Television Ownership Rule and television JSA attribution,9 and UCC et al., opposing
reconsideration of the Local Television Ownership
Rule, television JSA attribution, the NewspaCommission is concerned about UCC et al.’s allegations. Reply
of the National Association of Broadcasters to Oppositions of
American Cable Association and United Church of Christ et al.
to Petition of the National Association of Broadcasters for Reconsideration of the 2010/2014 Quadrennial Review Second Report and Order, MB Docket Nos. 14-50 et al., at 2, n.4 (filed
Feb. 3, 2017) (NAB Reply to Oppositions). In addition, NAB
cites precedent that the Commission has considered previously
the merits of an application for review well in excess of the 25page limit and notes that both UCC et al. and ACA have pleadings in the proceeding that violate 47 CFR § 1.49 but have been
considered on the merits by the Commission. Id. We deny UCC
et al.’s motion. We find that, to the extent that NAB’s pleading
does not precisely conform to 47 CFR § 1.49, no party has been
prejudiced, and the public interest is best served by considering
NAB’s arguments. We remind parties, however, to be mindful
of the requirements of Section 1.49. See 47 CFR § 1.49.
7 Nexstar Petition at 4.
8 Connoisseur Petition at 1-2.
9 Opposition of American Cable Association to Petitions of
National Association of Broadcasters and Nexstar Broadcasting, Inc. for Reconsideration of the 2010/2014 Quadrennial Review Second Report and Order, MB Docket Nos. 14-50 et al., at
1-2 (filed Jan. 24, 2017) (ACA Opposition).

73a
per/Broadcast Cross-Ownership Rule, the Radio/Television Cross-Ownership Rule, and SSA disclosure.10 Subsequently, NAB, Nexstar, and Sinclair
Broadcast Group, Inc. (Sinclair) filed replies to the
oppositions.11
10 Opposition of UCC et al. to Petitions for Reconsideration of
National Association of Broadcasters and Nexstar Broadcasting, Inc. of the 2010/2014 Quadrennial Review Second Report
and Order, MB Docket Nos. 14-50 et al., at ii-iii (filed Jan. 24,
2017) (UCC et al. Opposition).
11 NAB Reply to Oppositions; Reply of Nexstar Broadcasting,
Inc. to Oppositions of American Cable Association and UCC et
al. to Petition of National Association of Broadcasters for Reconsideration of the 2010/2014 Quadrennial Review Second Report and Order, MB Docket Nos. 14-50 et al. (filed Feb. 3, 2017)
(Nexstar Reply to Oppositions); Reply of Sinclair Broadcast
Group, Inc. to Oppositions of American Cable Association and
UCC et al. to Petitions of National Association of Broadcasters
and Nexstar Broadcasting, Inc. for Reconsideration of the
2010/2014 Quadrennial Review Second Report and Order, MB
Docket Nos. 14-50 et al. (filed Feb. 3, 2017) (Sinclair Reply to
Oppositions). In addition, various parties filed comments in
support of reconsideration of certain issues. See Reply of Cox
Media Group, LLC in Support of Petition of National Association of Broadcasters for Reconsideration of the 2010/2014
Quadrennial Review Second Report and Order, MB Docket Nos.
14-50 et al., at 1 (filed Jan. 24, 2017) (Cox Reconsideration
Comments) (supporting NAB Petition and seeking repeal of the
Newspaper/Broadcast Cross-Ownership Rule); Reply of News
Media Alliance in Support of Petition of National Association of
Broadcasters for Reconsideration of the 2010/2014 Quadrennial
Review Second Report and Order, MB Docket Nos. 14-50 et al.,
at 1 (filed Jan. 24, 2017) (NMA Reconsideration Comments)
(supporting NAB Petition and seeking repeal of the Newspaper/Broadcast Cross-Ownership Rule); Reply Comments of
Bonneville International Corporation and Scranton Times, L.P.
in Support of Petition of National Association of Broadcasters

74a
7.
In addition, multiple parties sought judicial review of the Second Report and Order in the
D.C. Circuit and the Third Circuit. The D.C. Circuit
was selected initially as the venue for the case
through the judicial lottery, though the case has
since been transferred to the Third Circuit.12 Prometheus Radio Project (Prometheus) challenges various diversity-related decisions, certain media ownership rules, and the decision not to attribute SSAs.13
The Multicultural Media, Telecom and Internet
Council (MMTC) and the National Association of
Black Owned Broadcasters (NABOB) jointly challenge the Commission’s decision not to apply the cable procurement rule to all communications secfor Reconsideration of the 2010/2014 Quadrennial Review Second Report and Order, MB Docket Nos. 14-50 et al., at 1-2 (filed
Feb. 3, 2017) (Bonneville/Scranton Reconsideration Reply
Comments) (supporting the NAB Petition, in particular elimination of the newspaper/radio cross-ownership restriction, although also supporting the elimination of the Newspaper/Broadcast Cross-Ownership Rule in its entirety); Reply
Comments of News Media Alliance in Support of Petition of National Association of Broadcasters for Reconsideration of the
2010/2014 Quadrennial Review Second Report and Order, MB
Docket Nos. 14-50 et al., at 1 (filed Feb. 3, 2017) (NMA Reconsideration Reply Comments) (supporting the NAB Petition and
asserting that the UCC et al. Opposition provides “no valid reason for the Commission to refrain from reconsidering its decision to maintain the Newspaper/Broadcast Cross-Ownership
Rule”).
12 Order, Prometheus Radio Project et al. v. FCC, No. 17-1107,
Document No. 003112514755 (3rd Cir. Jan. 18, 2017).
13 Petition for Review of Prometheus Radio Project and Media
Mobilizing Project, Prometheus Radio Project et al. v. FCC, No.
16-4046, Document No. 003112457854 (3rd Cir. Nov. 3, 2016).

75a
tors.14 Finally, the News Media Alliance (NMA),
Bonneville International Corporation (Bonneville),
and The Scranton Time, L.P. (Scranton) challenge
the Newspaper/Broadcast Cross-Ownership Rule
adopted in the Second Report and Order.15 NAB initially sought judicial review, but withdrew its petition for review after filing a petition for reconsideration with the Commission,16 though NAB has re-

14 Petition for Review of Multicultural Media, Telecom and
Internet Council and the National Association of Black Owned
Broadcasters, Multicultural Media, Telecom and Internet Council et al. v. FCC, No. 16-1398, Document No. 1646418 (DC Cir.
Nov. 15, 2016).
15 Petition for Review of News Media Alliance, News Media
Alliance v. FCC, No. 16-1395, Document No. 1646214 (D.C. Cir.
Nov. 14, 2016); Petition for Review of Bonneville International
Corporation, Bonneville Intl. Corp. v. FCC, No. 16-1452, Document No. 1653313 (D.C. Cir. Dec. 28, 2016); Petition for Review
of The Scranton Times, L.P., The Scranton Times, L.P. v FCC,
No. 16-451, Document No. 1653302 (D.C. Cir. Dec. 28, 2016).
On September 7, 2016, the Newspaper Association of America
changed its name to the News Media Alliance (NMA). Press
Release, News Media Alliance, Newspaper Association of America Changes Name to News Media Alliance (Sept. 7, 2016),
https://www.newsmediaalliance.org/naa-name-change-newsmedia-alliance/. To avoid confusion, we will use NMA when
referring to any filings by this organization, even if they were
made before the name change.
16 Unopposed Motion to Voluntarily Dismiss Appeal of National Association of Broadcasters, National Association of
Broadcasters v. FCC, No. 16-1394, Document No. 1649059 (D.C.
Cir. Dec. 2, 2016).

76a
quested intervenor status with the court.17 No briefing schedule has been set and the Commission has
asked the court to hold the proceeding in abeyance
pending potential action on the Petitions for Reconsideration. The court has not yet made a decision on
this issue.
III.

MEDIA OWNERSHIP RULES
A.

Newspaper/Broadcast
Ownership Rule
1.

Cross-

Introduction

8.
Upon reconsideration, we repeal the
Newspaper/Broadcast Cross-Ownership (NBCO)
Rule in its entirety.18 For more than forty years, the
NBCO Rule has prohibited common ownership of a
daily print newspaper and a full-power broadcast
station (AM, FM, or TV) if the station’s service contour encompasses the newspaper’s community of
publication.19 After reviewing the record from the
17 Motion to Intervene of National Association of Broadcasters, Prometheus Radio Project et al. v. FCC, No. 16-1403, Document No. 1649063 (D.C. Cir. Dec. 2, 2016).
18 The NBCO Rule adopted in the Second Report and Order is
currently on appeal to the Third Circuit. See supra para. 7.
19 See Amendment of Sections 73.34, 73.240, and 73.636 of the
Commission’s Rules Relating to Multiple Ownership of Standard, FM, and Television Broadcast Stations, Second Report and
Order, 50 FCC 2d 1046, 1074-78, 1099-1106, paras. 99-107,
App. F (1975) (1975 Second Report and Order). The Commission attempted to modify the rule in its 2002 and 2006 ownership reviews, but those modifications never became effective.
Thus, the rule in effect before the Second Report and Order was
adopted in 2016 was the same as it existed in 1975. Specifical-

77a
2010 and 2014 ownership reviews, and the issues
raised on reconsideration, we find that the Commission failed to give adequate consideration to the significant record evidence demonstrating that the media marketplace has changed significantly. The
Commission’s prior reasoning reflected a time long
past when consumers had access to only a few
sources of news and information in the local market,
including significantly fewer broadcast outlets. Our
decision to repeal the rule means that all newspapers
(print or digital) now will be allowed to combine with
television and radio stations within the same local
market, subject to the remaining broadcast ownership rules and any other applicable laws, including
antitrust laws.
9.
The Commission adopted the NBCO
Rule in 1975 primarily to promote viewpoint diversity, observing that “it is essential to a democracy that
its electorate be informed and have access to divergent viewpoints on controversial issues.”20 In the
ly, the rule prohibited the licensing of an AM, FM, or TV broadcast station to a party (including all parties under common control) that directly or indirectly owns, operates, or controls a daily newspaper, if the entire community in which the newspaper
is published would be encompassed within the service contour
of the station, namely: (1) the predicted or measured 2 mV/m
contour of an AM station, computed in accordance with Section
73.183 or Section 73.186; (2) the predicted 1 mV/m contour for
an FM station, computed in accordance with Section 73.313; or
(3) the Grade A contour of a TV station, computed in accordance
with Section 73.684. See 47 CFR § 73.3555(d) (2002).
20 See 1975 Second Report and Order, 50 FCC 2d at 1074, para. 99 (also taking competition into account as a correlative
goal).

78a
past, the Commission maintained that requiring
separate ownership of local broadcasters and newspapers served the rule’s purpose because broadcast
stations and local newspapers generally were successful enterprises providing strong local voices in a
marketplace containing a very limited number of
speakers. We find upon further review, however,
that prohibiting newspaper/broadcast combinations
is no longer necessary to serve the Commission’s goal
of promoting viewpoint diversity in light of the multiplicity of sources of news and information in the
current media marketplace and the diminished voice
of daily print newspapers. Whatever the limited
benefits for viewpoint diversity of retaining the rule,
in today’s competitive media environment, they are
outweighed by the costs of preventing traditional
news providers from pursuing cross-ownership investment opportunities to provide news and information in a manner that is likely to ensure a more
informed electorate. As such, we conclude that the
NBCO Rule no longer serves the public interest and
must be repealed pursuant to Section 202(h).21
10.
The conclusion that the time has come
to eliminate the NBCO Rule is shared by many beyond the Commission. For example, following the
Commission’s ill-advised decision essentially to retain the existing ban in the Second Report and Order, Rep. Greg Walden (R-OR) and Rep. John
Yarmuth (D-KY) introduced legislation, with additional bipartisan cosponsors, to eliminate the NBCO

21 1996 Act § 202(h).

79a
Rule.22 Rep. Walden stated that eliminating the
rule would “provide much needed flexibility to the
many newspapers and broadcasters throughout the
country that provide important local news coverage
and encourage greater investment in original journalism.”23 And according to Rep. Yarmuth, “it is increasingly important that we do all we can to protect
legitimate sources of news.”24 Reed Hundt, a former
Commission Chairman during the Clinton Administration, has endorsed the rule’s repeal in light of
increased access to news and information over the
Internet and the financial support that a broadcaster
could offer to a troubled newspaper.25 There also is
support for eliminating the rule, as discussed below,
22 To Eliminate the Daily Newspaper Cross-Ownership Rule
of the Federal Communications Commission, H.R. 6474, 114th
Cong. (2016); see also Press Release, Energy and Commerce
Committee, Walden and Yarmuth Introduce Bill Eliminating
Disco Era Media Ownership Rules (Dec. 7, 2016) (Walden/Yarmuth
Press
Release),
https://energycommerce.house.gov/news-center/pressreleases/walden-and-yarmuth-introduce-bill-eliminating-discoera-media-ownership. The bill’s cosponsors included Rep. Gene
Green (D-TX), Rep. Bobby Rush (D-IL), Rep. Gus Bilirakis (RFL), Rep. Pete Olson (R-TX), Rep. Brett Guthrie (R-KY), and
Rep. Billy Long (R-MO).
23 Walden/Yarmuth Press Release.
24 Id.
25 Reed Hundt, Opinions, The FCC Should Repeal Its Newspaper-Broadcast Ownership Rule, Washington Post (June 6,
2013), https://www.washingtonpost.com/opinions/the-fcc-shouldrepeal-its-newspaper-broadcast-ownershiprule/2013/06/06/7084e764-cebb-11e2-8845-d970ccb04497
story.html?utm term=.5caff689bc73.

80a
among organizations representing minority-owned
media outlets.26 They assert that the rule is constraining the ability of minority-owned media outlets
to serve their local communities and has outlived its
usefulness. Finally, the Third Circuit in May 2016
noted that among the “costs of delay” in repealing
the rule has been continuance of a blanket ban on
newspaper-broadcast cross-ownership that “the FCC
determined more than a decade ago . . . is no longer
in the public interest”27—a determination that the
Third Circuit had upheld in 2004.28 With this decision, the Commission will finally acknowledge what
is clear to so many—it is time to eliminate the NBCO
Rule.
2.

Background

11.
We incorporate by reference the description of the background of the NBCO Rule in the
26 See Letter from James L. Winston, President, National Association of Black Owned Broadcasters (NABOB), to Hon. Ajit
Pai, Chairman, FCC, MB Docket No. 14-50 et al. (Feb. 24, 2017)
(NABOB Feb. 24, 2017 Ex Parte Letter) (supporting elimination
of the ban on newspaper/radio combinations); Letter from Dr.
Benjamin F. Chavis, Jr., President and CEO, National Newspaper Publishers Association (NNPA), to Marlene H. Dortch,
Secretary, FCC, MB Docket No. 14-50, at 1 (Feb. 13, 2017)
(NNPA Feb. 13, 2017 Ex Parte Letter) (supporting elimination
of the entire NBCO Rule); see also infra paras. 44-45. NABOB’s
ex parte letter did not address newspaper/television combinations.
27 Prometheus Radio Project v. FCC, 824 F.3d 33, 51 (3d Cir.
2016) (Prometheus III).
28 Prometheus Radio Project v. FCC, 373 F.3d 372, 398-400 (3d
Cir. 2004) (Prometheus I).

81a
Second Report and Order and confine our summary
to a brief overview of the rule’s history.29 As we
stated, the Commission’s primary intent in adopting
the rule in 1975 was to preserve and promote a diversity of viewpoints at the local level.30 To that
end, the Commission prohibited cross-ownership of
what it determined to be the predominant providers
of local news within a market—daily newspapers and
television and radio broadcast stations—although it
acknowledged that radio stations generally play a
smaller role than newspapers and television stations
in the dissemination of local news.31 The Supreme
Court upheld the NBCO Rule in 1978 and found that
the Commission reasonably relied on separation of
ownership as a means to promote viewpoint diversity.32 Viewpoint diversity has remained the principal
basis for newspaper/broadcast cross-ownership restrictions for over forty years and currently provides
the sole support for the rule given the Commission’s
conclusions since 2003 that the rule is not necessary
29 Second Report and Order, 31 FCC Rcd at 9914-17, paras.
135-40.
30 1975 Second Report and Order, 50 FCC 2d at 1048-49,
1074, 1075, 1078-81, paras. 9-11, 99, 101, 110-12 (also taking
competition into consideration). In evaluating viewpoint diversity, the Commission has focused on local news providers, as
opposed to those that offer mostly regional or national news.
See id. at 1080-81, para. 112; see also Second Report and Order,
31 FCC Rcd at 9914, para. 135 & n.338.
31 See 1975 Second Report and Order, 50 FCC 2d at 1075,
1080-83, paras. 101, 112-15.
32 FCC v. Nat’l Citizens Comm. for Broad., 436 U.S. 775, 796
(1978) (NCCB).

82a
to promote the goals of competition or localism, and
may even hinder localism.33 The rule’s reliance on
viewpoint diversity is significant in light of the Supreme Court’s recognition on review of this rule that
diversity “has not been the sole consideration
thought relevant to the public interest” and that the
Commission’s “other, and sometimes conflicting, goal
has been to ensure ‘the best practicable service to the
public.’”34
12.
Despite the importance of the rule’s
purpose to promote viewpoint diversity, the Commission recognized from the outset that there may be
circumstances where the cross-ownership restriction
should not apply. When it adopted the initial NBCO
Rule in 1975, the Commission applied the rule prospectively and limited divestiture of existing newspaper/broadcast combinations to “only the most
33 See 2002 Biennial Regulatory Review - Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996,
Report and Order and Notice of Proposed Rulemaking, 18 FCC
Rcd 13620, 13748-67, paras. 330-69 (2003) (2002 Biennial Review Order); 2006 Quadrennial Regulatory Review – Review of
the Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996 et al., Report and Order and Order on Reconsideration,
23 FCC Rcd 2010, 2021-22, 2038-39, paras. 18-19, 46-49 (2008)
(2006 Quadrennial Review Order); Second Report and Order, 31
FCC Rcd at 9912-13, 9917, 9928, 9930, paras. 129-30, 142, 162,
166-67.
34 NCCB, 436 U.S. at 782; see also id. at 807, 809-14 (citing a
Commission study showing that cross-owned stations had “statistically significant superiority” in terms of percentage of time
devoted to several categories of local programming).

83a
egregious cases.”35 In addition, it contemplated various situations potentially warranting a waiver of the
divestiture requirement.36 In its 2002 and 2006
ownership review proceedings, the Commission retained cross-ownership restrictions generally, but attempted to relax the NBCO rule, concluding that application of an absolute ban was overly restrictive.37
The Third Circuit deemed that conclusion reasonable
but found fault in both instances with the way the
Commission executed its decisions to revise the rule,
and thus, the 1975 ban remained in effect.38 In
35 1975 Second Report and Order, 50 FCC 2d at 1076, 108081, paras. 103, 112.
36 Id. at 1084-85, paras. 117-19 (finding that a waiver of the
divestiture requirement might be appropriate where: (1) there
was an inability to dispose of an interest to conform to the
rules; (2) the only possible sale was at an artificially depressed
price; (3) separate ownership of the newspaper and station
could not be supported in the locality; or (4) the purposes of the
rule would be disserved by divestiture).
37 2002 Biennial Review Order, 18 FCC Rcd at 13760, 13790,
paras. 355, 432 (replacing the NBCO Rule with a set of crossmedia limits); 2006 Quadrennial Review Order, 23 FCC Rcd at
2021-23, paras. 18-20 (adopting a waiver standard that granted
a favorable presumption to proposed newspaper/broadcast mergers meeting certain criteria).
38 Prometheus I, 373 F.3d at 399-413 (remanding the 2002
cross-media limits due to certain deficiencies in the Commission’s analysis); Prometheus Radio Project v. FCC, 652 F.3d
431, 445-53 (3d Cir. 2011) (Prometheus II) (vacating and remanding the 2006 modifications to the NBCO Rule after finding
that the Commission failed to comply with public notice and
comment requirements); see also Prometheus III, 824 F.3d at
51-52 (noting court’s agreement in Prometheus I that a complete ban no longer serves the public interest).

84a
2016, the Third Circuit observed in Prometheus III
that the ban’s continued operation had imposed “significant expense” on parties that otherwise might be
permitted “to engage in profitable combinations.”39
13.
In the Second Report and Order, the
Commission affirmed its previous findings that an
absolute ban was overly restrictive, but concluded
that some newspaper/broadcast cross-ownership restrictions continued to be necessary to promote viewpoint diversity.40 It retained the general prohibition
on common ownership of a broadcast station and a
daily print newspaper in the same local market, but
adopted minor changes to the rule to accomplish
what the Commission called a “modest loosening” of
the absolute ban. The Commission: (1) modified the
geographic scope of the rule to update its analog parameters and to reflect more accurately the markets
that newspapers and broadcasters actually serve;41
(2) adopted an explicit exception for failed and failing

39 Prometheus III, 824 F.3d at 51-52.
40 Second Report and Order, 31 FCC Rcd at 9913, para. 130.
41 Id. at 9930-33, paras. 168-71 (limiting the rule’s prohibition
to newspaper/television combinations within the same Nielsen
DMA and, in areas where Nielsen has designated an Audio
Metro market, to newspaper/radio combinations within the
same Nielsen Audio Metro market). Regarding the contour
trigger requirement for newspaper/television combinations, the
Commission updated the geographic scope of the restriction by
replacing its reliance on a television station’s obsolete Grade A
analog contour with the station’s digital principal community
contour, as defined in Section 73.625 of the Commission’s rules.
See 47 CFR § 73.625.

85a
broadcast stations and newspapers;42 and (3) created
a case-by-case waiver standard whereby the Commission would grant relief from the rule if the applicants showed that a proposed merger would not unduly harm viewpoint diversity in the market.43 The
Commission declined to eliminate the newspaper/radio cross-ownership restriction from the NBCO
Rule after finding that, despite its earlier tentative
conclusion that radio stations typically are not primary outlets for local news, radio stations nonetheless provide a meaningful amount of local news and
information such that lifting the restriction could
harm viewpoint diversity.44 In addition, the Commission explained that, although the rule may benefit ownership diversity incidentally, the agency’s
purpose in retaining the rule was not to promote minority or female ownership.45

42 Second Report and Order, 31 FCC Rcd at 9933-34, paras.
172-75.
43 Id. at 9934-41, paras. 176-89.
44 Id. at 9921-26, paras. 150-59. But see 2010 Quadrennial
Regulatory Review – Review of the Commission’s Broadcast
Ownership Rules and Other Rules Adopted Pursuant to Section
202 of the Telecommunications Act of 1996 et al., Notice of Proposed Rulemaking, 26 FCC Rcd 17489, 17529-30, para. 112
(2011) (NPRM); 2014 Quadrennial Regulatory Review – Review
of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the Telecommunications Act of 1996 et al., Further Notice of Proposed Rulemaking
and Report and Order, 29 FCC Rcd 4371, 4435-36, para. 145
(2014) (FNPRM and Report and Order).
45 Second Report and Order, 31 FCC Rcd at 9944, para. 197.

86a
14.
NAB petitioned the Commission to reconsider its retention of the NBCO Rule.46 NMA,
Cox, Sinclair, and Bonneville/Scranton filed comments and/or reply comments in support of NAB’s
petition.47 UCC et al. filed an opposition to NAB’s
petition, in which they urge the Commission to retain the NBCO Rule adopted in the Second Report
and Order.48
3.

Discussion

15.
We find that the NBCO Rule must be
repealed because it is not necessary to promote the
Commission’s policy goals of viewpoint diversity, localism, and competition, and therefore does not serve
the public interest.49 The parties that support re46 NAB Petition at 14-25; see also NAB Reply to Oppositions
at 5-6.
47 NMA Reconsideration Comments at 1-8; NMA Reconsideration Reply at 1-3; Cox Reconsideration Comments at 1-8; Sinclair Reconsideration Reply at 9-10; Bonneville/Scranton Reconsideration Reply at 1-10.
48 UCC et al. Opposition at 6-7.
49 The Commission has consistently concluded that the NBCO
Rule is not necessary to promote competition because broadcasters and newspapers do not compete in the same product
markets. See, e.g., Second Report and Order, 31 FCC Rcd at
9928-29, 9930, paras. 163, 166-67; 2002 Biennial Review Order,
18 FCC Rcd at 13748-53, paras. 331-41. Because we are repealing the NBCO Rule on other grounds, we need not address arguments that the rule should be repealed on competition
grounds. See, e.g., NABOB Feb. 24, 2017 Ex Parte Letter at 2-3;
NNPA Feb. 13, 2017 Ex Parte Letter at 1-2; NMA Mar. 27, 2017
Ex Parte Letter at 1-2; NMA Reconsideration Comments at 2.
Similarly, we need not reach arguments that ownership does

87a
consideration of the NBCO Rule argue that the modifications adopted in the Second Report and Order
were insufficient and that the rule is obsolete and
should be eliminated. We agree. We affirm the
Commission’s longstanding determination that the
rule does not advance localism and competition
goals, and find today that it is no longer necessary to
promote viewpoint diversity, the rule’s only remaining policy justification. Although elimination of the
rule could theoretically diminish viewpoint diversity
to a limited extent due to the loss of an independent
voice as a result of any newspaper/broadcast combination, we find that this impact will be mitigated by
the multiplicity of alternative sources of local news
and information available in the marketplace and
the overall financial decline of newspapers. In addition, we find that this concern is outweighed by the
countervailing benefits to consumers that can result
from newspaper/broadcast combinations. Finally,
based on our review of the record, we find that eliminot influence viewpoint. See Second Report and Order, 31 FCC
Rcd at 9917-18, paras. 142-44. Views on that issue diverge
among interested parties. See, e.g., NAB Petition at 14-15;
UCC et al. Opposition at 6; see also Cox Reconsideration Comments at 6-7 (asserting that consumer demand, not ownership,
drives viewpoint); NMA Reconsideration Comments at 6 (arguing that cross-ownership does not result in a single viewpoint).
But see Prometheus I, 373 F.3d at 400-01 (finding that the possibility of a connection between ownership and viewpoint is not
disproved by evidence that a connection is not always present).
However, we need not resolve the issue here because we are
eliminating the rule on the ground that, even if ownership
might influence viewpoint in certain circumstances, the NBCO
Rule is not necessary to foster viewpoint diversity (nor to promote localism or competition).

88a
nating the rule will have no material effect on minority and female broadcast ownership. Accordingly, we
grant NAB’s request that we eliminate the NBCO
Rule.
a.

The Marketplace Has
Changed Dramatically

16.
On reconsideration, we find that the
Commission’s decision to retain the NBCO Rule
failed to acknowledge the current realities of the media marketplace. In 1975, the broadcast industry
was still relatively young, but it had found its footing, owing in part to the role that newspaper/broadcast cross-ownership had played in its success.50 Supporters of common ownership claimed
that “joint ownership of newspapers and broadcast
stations made possible the early development of FM
and TV service even though these pioneering stations often had to be operated at a loss.”51 In adopting the cross-ownership rule, the Commission
50 See 1975 Second Report and Order, 50 FCC 2d at 1064,
1074-75, paras. 62, 100. In the 2006 Quadrennial Review Order, the Commission stated that “[i]n the early days of broadcasting, when the success of the then-new medium was not assured, the Commission had actively encouraged newspaper
owners to apply for newly available licenses in their local communities . . . hop[ing] that such established local media entities
would bring both expertise and financial support to the development of broadcasting as a viable mass medium.” 2006 Quadrennial Review Order, 23 FCC Rcd at 2023, para. 22 (citing
1975 Second Report and Order, 50 FCC 2d at 1066, 1074-75,
paras. 70, 100).
51 1975 Second Report and Order, 50 FCC 2d at 1064, para.
62.

89a
acknowledged the pioneering role of newspapers in
the broadcast medium but found that common ownership with newspapers was no longer a critical factor for broadcaster success.52 The Commission observed that, on the whole, the broadcast industry
had “matured” to the point that new entrants could
be expected to have an interest in pursuing station
ownership.53 It concluded that “the special reason
for encouraging newspaper ownership, even at the
cost of a lessened diversity, [was] no longer generally
operative in the way it once was.”54 The Commission
understood its obligation “to give recognition to the
changes which have taken place and see to it that its
rules adequately reflect the situation as it is, not
was.”55
17.
That same obligation now requires us to
eliminate the NBCO Rule. Not only have the means
of accessing content changed dramatically, but the
media marketplace has seen an explosion in the
number and variety of sources of local news and information since the Commission adopted the NBCO
Rule in 1975. Opponents of the rule point to this increase and argue that the NBCO Rule has become
obsolete as a result.56
52 Id. at 1074-75, para. 100.
53 Id.
54 Id.
55 Id.
56 See, e.g., NAB Petition at 16-21; Cox Reconsideration Comments at 7; Bonneville/Scranton Reconsideration Reply at 8-10;
Sinclair Reconsideration Reply at 9-10; NMA Reconsideration

90a
18.
In particular, Bonneville/Scranton provided evidence in the record demonstrating the substantial increase in the number of broadcast sources
(AM, FM, TV, LPTV) since the Commission originally contemplated the NBCO Rule.57 The Commission
failed to properly credit this increase in the Second
Report and Order.58 From the 6,197 full-power radio
stations and 851 full-power television stations that
existed in the late 1960s, the Commission’s latest
broadcast totals place the number of full-power radio
stations at 15,512 and full-power television stations
at 1,775.59 Contrary to the Commission’s conclusion
Comments at 2, 6-8; NMA Reconsideration Reply at 2; Letter
from Danielle Coffey, Vice President, Public Policy, NMA, to
Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50 et al.,
at 1-2 (Mar. 27, 2017) (NMA Mar. 27, 2017 Ex Parte Letter); see
also Letter from Robert M. McDowell and John R. Feore, Counsel to Gray Television, Inc., Cooley LLP, to Marlene H. Dortch,
Secretary, FCC, MB Docket No. 14-50 et al., at 3 (June 28,
2017) (Gray June 28, 2017 Ex Parte Letter). But see UCC et al.
Opposition at 6 (arguing that the Commission repeatedly has
considered and rejected the argument that the rule is unjustified given consumers’ access to a multitude of voices). We note
that the Gray June 28, 2017 Ex Parte Letter addresses issues
that are not properly before us on reconsideration (e.g., modifying the failed or failing waiver standard in the Local Television
Ownership Rule). As discussed above in footnote 3, supra, we
decline to reach these issues, but we note that the Commission
will be reviewing all its broadcast ownership rules in the 2018
Quadrennial Review proceeding.
57 Bonneville/Scranton FNPRM Reply at 4 n.7.
58 See Second Report and Order, 31 FCC Rcd at 9921, para.
149.
59 Broadcast Station Totals as of June 30, 2017, Press Release
(MB July 11, 2017) (June 30, 2017 Broadcast Station Totals),

91a
in the Second Report and Order, the fact that the
number of full-power broadcast stations has more
than doubled represents a significant increase that
should be considered when evaluating the continued
necessity of the NBCO Rule.60 In addition, the
Commission should have taken into account the
number of low-power broadcast stations, which, as of
June 2017, includes 417 Class A television stations;
1,968 low-power television (LPTV) stations; and
1,966 low-power FM (LPFM) stations—none of which
services existed when the rule was adopted.61 This
https://apps.fcc.gov/edocs_public/attachmatch/DOC345720A1.pdf; Bonneville/Scranton FNPRM Reply at 4 n.7.
The Commission referenced a total of 757 commercial television
stations when it adopted the NBCO Rule in 1975. 1975 Second
Report and Order, 50 FCC 2d at 1080, para. 112 n.30; see also
2002 Biennial Review Order, 18 FCC Rcd at 13647-67, paras.
86-128 (discussing changes in the media marketplace 19602000); id. at 13656, para. 106 (“There were more than 9,278
radio stations in 1980, and 1,011 broadcast television stations.”). As discussed in greater detail below, the impact of the
incentive auction on the number of full-power broadcast television stations does not appear to be significant at this time. See
infra note 248.
60 See Second Report and Order, 31 FCC Rcd at 9921, para.
149; June 30, 2017 Broadcast Station Totals. We also find that
it was improper for the Commission to dismiss Bonneville/Scranton’s data simply because it represented a nationwide increase which may have been spread unevenly across individual local markets without citing any evidence to support
this notion. See Second Report and Order, 31 FCC Rcd at 9921,
para. 149.
61 June 30, 2017 Broadcast Station Totals. Class A television
stations must broadcast an average of at least three hours per
week of locally produced programming each quarter. 47 CFR §
73.6001(b). Unlike translators, LPTV stations may originate

92a
situation is a stark contrast to the state of affairs in
1975, when the “changed circumstances in the
broadcasting industry” that prompted adoption of the
NBCO Rule included a trend in which “the number
of channels open for new licensing had diminished
substantially.”62
19.
Equally, if not more significantly, NAB
cites evidence of the growing prevalence of independent digital-only news outlets with no print or broadcast affiliation, many with a local or hyperlocal focus.63 Thirteen years ago, the Third Circuit agreed
with the Commission that the record suggested that
“cable and the Internet contribute to viewpoint diversity”; the panel members simply disagreed about
the “degree” and importance of this trend at that
Since then, however, the picture has
time.64
changed significantly. Even the U.S. Supreme Court
recently recognized the importance of the Internet
and social media as sources of news and information
for many Americans.65 As this trend continues to
programming. Id. § 74.701(f). Under the Commission’s LPFM
rules, all applicants must demonstrate a local presence; mutually exclusive applicants receive preference points for established local presence and pledges to originate locally at least
eight hours of programming per day.
Id. §§ 73.853(b),
73.872(b).
62 NCCB, 436 U.S. at 797.
63 NAB Petition at 19-20.
64 Compare Prometheus I, 373 F.3d at 400, with id. at 439,
448, 464-69 (Scirica, Chief Judge, dissenting in part).
65 Packingham v. North Carolina, No. 15–1194, 137 S.Ct.
1730, slip op. at 8 (S.Ct. June 19, 2017) (describing social media
as “for many . . . the principal sources for knowing current

93a
gain momentum and new voices proliferate, the dominance of traditional news outlets diminishes. Although the record contains some evidence that local
television stations and newspapers may still be consumers’ primary sources of local news and information,66 we find that the Commission improperly
discounted the role of non-traditional news outlets,
including Internet and digital-only, in the local media marketplace.
20.
The Commission concluded in the Second Report and Order that online outlets do not
serve as a “substitute” for newspapers and broadcasters providing local news and information.67 As
noted below, this conclusion does not appear to reflect the record evidence as to “how the Internet has
transformed the American people’s consumption of
news and information,”68 the direction of current
trends in this regard,69 and in particular how those
trends have affected younger adults. At a minimum,

events, checking ads for employment, speaking and listening in
the modern public square, and otherwise exploring the vast
realms of human thought and knowledge”).
66 See Second Report and Order, 31 FCC Rcd at 9920-21, paras. 147-48.
67 Id. at 9920, para. 148.
68 Id. at 10049 (Dissenting Statement of then-Commissioner
Pai).
69 In the FNPRM, the Commission acknowledged that “the
extent to which Americans turn to news websites unaffiliated
with traditional media may be increasing.” FNPRM, 29 FCC
Rcd at 4426, para. 130 (citing 2012 Pew Research Center
study).

94a
the record reflects studies that reject the premise
“that people have a primary or single source for most
of their local news and information.” Rather, “the
picture revealed by the data is that of a richer and
more nuanced ecosystem of community news and information than researchers have previously identified,” in which “Americans turn to a wide range of
platforms to get local news and information.”70
Thus, the contributions of such outlets cannot be
dismissed out of hand as the existence of these nontraditional news outlets nevertheless results in
greater access to independent information sources in
local markets. Furthermore, the Commission failed
to acknowledge adequately evidence in the record
demonstrating the emergence of online outlets that
offer local content and have no affiliation with traditional broadcast or print sources.
21.
Numerous studies cited in the record
establish the emergence and growth of alternative
sources of local news and information, including digital-only local news outlets as well as other online
sources of local news and information.71 For exam70 Pew Research Center and Knight Foundation, How People
Learn About Their Local Community 1 (Sept. 26, 2011) (How
People
Learn
About
Their
Local
Community),
http://www.pewinternet.org/2011/09/26/how-people-learn-abouttheir-local-community (cited in NAB FNPRM Comments at 25
& n.83 (cited in NAB Petition at ii & n.4) and Morris FNPRM
Reply at 5).
71 See, e.g., Letter from Erin L. Dozier, Senior Vice President
and Deputy General Counsel, Legal and Regulatory Affairs,
National Association of Broadcasters, to Marlene H. Dortch,
Secretary, FCC, MB Docket Nos. 14-50, 09-182, and 07-294, at

95a
ple, according to a 2014 Pew Research study, out of
438 digital news sites examined, more than half had
a local focus, with the “typical outlet” described as
“focused on coverage of local or even neighborhoodlevel news.”72 Even by 2011, a Pew study confirmed
that while newspapers remain popular sources for
some such information, 69 percent of those surveyed
said that if their local newspaper no longer existed, it
would not have a major impact on their ability to
keep up with information and news about their

2 (filed July 15, 2016) (citing two recent Pew Research Center
studies examining digital local news sites); Letter from Rick
Kaplan, General Counsel and Executive Vice President, Legal
and Regulatory Affairs, National Association of Broadcasters, to
Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 14-50, 09182, and 07-294, Attach. at 6 (filed July 8, 2016) (documenting
several dozen local news sources, including digital-only outlets,
in Washington, D.C.); Tribune 2010 NPRM Comments at 28,
37-38, 47-48, 57, 67 (identifying local independent news websites and other sources in five specific markets). Several studies referenced in the above-referenced filings document the
prevalence of online local news sources in today’s media marketplace. For instance, a 2015 Pew Research Center study—
which looked specifically at news providers in Denver, Colorado, Macon, Georgia, and Sioux City, Iowa—found over 140 news
providers in Denver, including 25 digital-only news outlets (two
of which are affiliated with The Denver Post). Pew Research
Center, Local News in a Digital Age (Mar. 5, 2015),
http://www.journalism.org/2015/03/05/local-news-in-a-digitalage/. Moreover, in a smaller market—Sioux City, Iowa—the
study found nearly as many digital-only news outlets (three) as
local news/talk radio stations (four). Id.
72 Mark Jurkowitz, Small Digital News Sites: Young, Lean,
and Local (Apr. 10, 2014), http://www.pewresearch.org/facttank/2014/04/10/small-digital-news-sites-young-lean-and-local/.

96a
community.73 By 2016, Pew reported that just 20
percent of U.S. adults often get news from print
newspapers, with even steeper declines in particular
demographics—only 5 percent of those aged 18
through 29, and only 10 percent of those aged 30
through 49.74 According to the earlier Pew study, for
the 79 percent of Americans who are online, “the internet is the first or second most important source
for 15 of the 16 local topics examined.”75 Nearly half
of adults (47 percent) use mobile devices to get local
news and information, and for none of Pew’s topics
did more than 6 percent of respondents say they depended on the website of a legacy news organiza-

73 How People Learn About Their Local Community at 1 (cited
in NAB NPRM Comments at 42-43, n.162); see also id. at 4
(“The new data explodes the notion, for instance, that people
have a primary or single source for most of their local news and
information.”).
74 Letter from Rick Kaplan, General Counsel and Executive
Vice President, NAB, to Marlene H. Dortch, Secretary, FCC,
MB Docket No. 14-50 et al., at 1-2 (July 18, 2016) (citing
A. Mitchell, J. Gottfried, M. Barthel and E. Shearer, Pew Research Center, The Modern News Consumer (July 7, 2016)
(Modern News Consumer), http://assets.pewresearch.org/wpconntent/uploads/sites/13/2016/07/07104931/PJ_2016.07.07_Mo
dern-News-Consumer_FINAL.pdf).
75 How People Learn About Their Local Community at 22.
For this survey, the websites of print newspapers and broadcast
television stations were treated as non-Internet sources, i.e.,
respondents who relied on those websites were grouped with
respondents who relied on the print or broadcast source, as the
case may be. Id. at 4.

97a
tion.76 Among adults under age 40, “the web ranks
first or ties for first for 12 of the 16 local topics asked
about.”77 Furthermore, in the Second Report and
Order, the Commission too readily dismissed cable
news programming as primarily targeted to a wide
geographic audience,78 without considering that
most of the major cable operators carry locallyfocused cable news networks in parts of their footprint.79
22.
On reconsideration, we find that the
record clearly demonstrates that the wealth of additional information sources available in the media
marketplace today, apart from traditional newspapers and broadcasters, strongly supports repealing
the NBCO Rule. These dramatic and ongoing changes in the media industry negate concerns that repeal76 Id. at 4, 27. According to Pew, “The websites of newspapers
and TV stations do not score highly as a relied-upon information source on any topics.” Id. at 5.
77 Id. at 22; see also Letter from Rick Kaplan, General Counsel
and Executive Vice President, NAB, to Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50 et al., at 9-10 (July 7, 2016)
(citing study finding that millennials obtain 74 percent of their
news from online sources).
78 See Second Report and Order, 31 FCC Rcd at 9920, para.
148.
79 See Annual Assessment of the Status of Competition in the
Market for the Delivery of Video Programming, Seventeenth
Report, MB Docket No. 15-158, 31 FCC Rcd 4472, 4579-80, App.
C (MB 2016) (Seventeenth Video Competition Report); see also
Gray June 28, 2017 Ex Parte Letter at 3 (identifying niche cable
news channels as alternative sources of viewpoint diversity in
local markets).

98a
ing the NBCO Rule will harm viewpoint diversity.
We do not perceive a need for the rule in light of the
current trends toward greater consumer reliance on
these alternative sources of local news and information. The Commission’s failure to account properly for the multiplicity of news and information
sources available in the current media marketplace
factored heavily in its unjustified retention of the
NBCO Rule.

b.

The Decline of the
Newspaper
Industry
Has
Diminished
its
Voice

23.
In addition, restrictions on common
ownership of daily print newspapers and broadcast
stations are no longer justified to protect viewpoint
diversity as the strength of daily print newspapers
has declined significantly since 1975. In the Second
Report and Order, the Commission failed to credit
properly the evidence in the record regarding the
challenges facing the newspaper industry and the
resulting effects on the ability of print newspapers to
serve their readers. Rather than merely modifying
the rule’s waiver standard and adjusting its carveouts, the Commission should have acknowledged the
diminution of newspapers’ voices and concluded that
the time has come to eliminate the rule altogether.
24.
There was ample evidence in the Commission’s record in the 2010/2014 review confirming
then-Commissioner Pai’s assessment that the “news-

99a
paper industry is in crisis.”80 Given that the record
is public and extensive, we recount here only a sampling of the comments, which we believe suffices to
depict the overall state of the newspaper industry.
For example, NAB provided evidence that print
newspaper advertising revenue had decreased more
than 50 percent since 2008 and nearly 70 percent
since 2003, newsroom employees were one-third fewer than at their peak in 1989, and only 17 percent of
Americans paid for newspaper subscriptions.81 NAB
stated that digital advertising did not compensate for
the losses in print advertising, as evidenced by the
fact that total newspaper advertising revenues in
2013, including online advertising, were lower than
the total advertising revenues in 1954, after adjust-

80 Second Report and Order, 31 FCC Rcd at 10046 (Dissenting
Statement of then-Commissioner Pai). Then-Commissioner Pai
lamented, among other things, the fact that over 400, or onequarter, of the country’s newspapers had gone out of business
since the NBCO Rule was adopted, including in major cities.
He pointed to other newspapers that no longer publish on a daily basis. He cited newspapers’ declining circulations, decreased
advertising revenues, and shrinking newsrooms. He observed
that broadcasters and newspapers would make particularly
suitable partners given the compatibility of their businesses.
Id. at 10046-48 (Dissenting Statement of then-Commissioner
Pai). Noting newspapers’ “well-documented struggles,” Commissioner O’Rielly agreed that allowing newspaper/broadcast
cross-ownership might provide newspapers with “much-needed
relief in the form of committed and knowledgeable investors.”
Id. at 10059-60 (Dissenting Statement of Commissioner
O’Rielly).
81 NAB FNPRM Comments at 32, 35-37, 71; see also Bonneville/Scranton FNPRM Comments at 8.

100a
ing for inflation.82 Bonneville/Scranton observed
that hundreds of newspapers had closed, with 175
closures between 2007 and 2010, 152 closures in
2012, and 114 closures in 2013.83 NMA reported
that classified advertising, which had accounted for
40 percent of print advertising revenue in 2000,
plummeted by 71 percent between 2000 and 2010.84
As NMA noted, decreased revenue has led to lower
editorial spending, the shedding of thousands of
journalists, and reductions in paper size and the
amount of space in a paper devoted to news.85 NMA
remarked that the Information Needs of Communities report warned that the threat to independent reporting, particularly of local affairs, due to the diminished number of professional journalists was
having a substantial negative civic impact around
the country, particularly in small-to-midsize markets.86
25.
In light of the long decline of the newspaper industry, the loss of an independent daily
newspaper voice in a community will have a much
82 NAB FNPRM Comments at 70-71.
83 Bonneville/Scranton FNPRM Comments at 7-8 & n.26; see
also NMA NPRM Comments at 6-7 (noting that most of the
newspapers that closed served smaller markets).
84 NMA NPRM Comments at 5.
85 Id. at 5-6.
86 NMA NPRM Comments at 7-8 (citing Steve Waldman & the
Working Group on Information Needs of Communities: The
Changing Media Landscape in a Broadband Age at 10, 21, 24,
43-55
(2011),
https://transition.fcc.gov/osp/increport/The_Information_Needs_of_Communities.pdf).

101a
smaller impact on viewpoint diversity than would
have been the case in 1975. In addition, as discussed
below, repeal of the NBCO Rule will permit newspaper/broadcast combinations that can strengthen local
voices and thus enable the combined outlets to better
serve their communities.
c.

The NBCO Rule Prevents
Combinations
that Could Benefit Localism

26.
The Commission repeatedly has recognized that the NBCO Rule does not promote localism
and actually may hinder it by preventing local news
outlets from achieving efficiencies by combining resources needed to gather, report, and disseminate
local news and information.87 The Commission nevertheless retained newspaper/broadcast crossownership restrictions in order to promote its goal of
viewpoint diversity.88 Because the NBCO Rule is no
longer necessary to foster viewpoint diversity, and
the rule can be repealed without harming the public
interest, the potential benefits to localism arising
from common ownership finally can accrue. We expect that eliminating the NBCO Rule will allow both
87 See, e.g., Second Report and Order, 31 FCC Rcd at 9928,
para. 162; 2006 Quadrennial Review Order, 23 FCC Rcd at
2032-38, paras. 39-46; 2002 Biennial Review Order, 18 FCC Rcd
at 13753-60, paras. 342-54.
88 See, e.g., Second Report and Order, 31 FCC Rcd at 9928,
para. 162; 2006 Quadrennial Review Order, 23 FCC Rcd at
2038-39, paras. 47-49; 2002 Biennial Review Order, 18 FCC Rcd
at 13790-91, paras. 432-35.

102a
broadcasters and newspapers to seek out new
sources of investment and operational expertise, increasing the quantity and quality of local news and
information they provide in their local markets.89
27.
There is ample evidence in the record
that eliminating the rule will help facilitate such investment and enable both broadcasters and newspapers to better serve the public. For example, in support of NAB’s petition for reconsideration, Cox asserts that collaboration and cost-sharing between its
television station and its newspaper in Dayton, Ohio,
helped them be the first to report on what became a

89 The argument that newspaper/broadcast cross-ownership
promotes localism has been advanced in several media ownership reviews, and it is put forth again in this reconsideration
proceeding. See, e.g., NAB Petition at 15-16; Cox Reconsideration Comments at 3-5; NMA Reconsideration Comments at 5-6;
NMA Reconsideration Reply Comments at 2; Bonneville/Scranton Reconsideration Reply Comments at 3-4; Letter
from Danielle Coffey, Vice President, Public Policy, NMA, to
Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50 et al.,
at 1-2 (Feb. 27, 2017) (NMA Feb. 27, 2017 Ex Parte Letter); see
also Letter from Mark J. Prak, Counsel to Independent Broadcasters, Brooks, Pierce, McLendon, Humphrey & Leonard, LLP,
to Marlene H. Dortch, Secretary, FCC, MB Docket No. 14-50 et
al., at 1-2 & Att. (July 12, 2017) (Independent Broadcasters July 12, 2017 Ex Parte Letter) (asserting that the NBCO Rule affirmatively harms local journalism and that owners of local media outlets should be allowed to combine properties in order to
better serve their local markets); Letter from Kurt Wimmer,
Counsel to NMA, Covington & Burling LLP, to Marlene H.
Dortch, Secretary, FCC, MB Docket No. 14-50 et al. (July 25,
2017) (arguing that the NBCO Rule impedes “newspaper owners seeking investment to fund high-quality, responsible journalism”).

103a
national story about the failures of the Veterans
Administration to provide adequate medical services.90 In addition, Cox previously provided several
examples showing how the combination of resources
across its commonly owned newspaper, television,
and radio properties in both Dayton and Atlanta,
Georgia, allowed them to report on breaking news
stories more quickly and accurately and to also provide more thorough coverage of events, such as political elections, that involve numerous interviews and
in-depth issue reporting.91 Cox asserts that the
common ownership of multiple outlets has enabled
its media properties “to vastly improve service at a
time when the economics of the newspaper and
broadcast business would seem to dictate the opposite.”92
28.
In addition, as the Commission noted in
the Second Report and Order, NMA provided numerous examples of the benefits to local programming
involving cross-owned media outlets in various markets.93
For example, a cross-owned newspa90 Cox Reconsideration Comments at 3-5.
91 Cox FNPRM Comments at 8-9; Cox NPRM Reply at 12-17.
92 Cox FNPRM Comments at 9; see also Gray June 28, 2017
Ex Parte Letter at 3-4 (discussing the high costs of producing
local newscasts and the challenging economics of local television today, especially in mid-sized and small markets).
93 NMA FNPRM Comments at 3-10 (providing examples from
various cities, including Phoenix, Dayton, South Bend, Milwaukee, Cedar Rapids, Atlanta, and Spokane, to demonstrate that
cross-ownership leads to more comprehensive local news coverage across platforms).

104a
per/television combination in Phoenix combined resources to report on stories such as the shooting of
Congresswoman Gabrielle Giffords and 18 others in
Tucson, the Yarnell Hill fire that killed 19 firefighters and destroyed more than 100 homes, and a massive dust storm.94 In South Bend, Indiana, a commonly owned local newspaper, television station, and
two radio stations regularly worked together on issues of local significance, such as uncovering harmful
substances in drinking water, hosting town-hall
meetings for political candidates and local officials,
sending a reporter to Iraq, commemorating the 150th
anniversary of the local Studebaker factory, providing weather information, and covering Notre Dame
sports.95 NMA also cited prior Commission studies
for the proposition that, on average, a cross-owned
television station produces more local news and more
coverage of local and state political candidates than
comparable non-cross-owned television stations.96

94 Id. at 3-5.
95 Id. at 6-8.
96 Id. at 3. NMA pointed to the finding in one Commission
study that cross-owned television stations, on average, air 50
percent more local news than non-cross-owned stations. See
Jack Erb, Media Ownership Study 4, Local Information Programming and the Structure of Television Markets, 27-28
(2011) (Media Ownership Study 4) (finding that the differential
is driven mostly by grandfathered combinations, as opposed to
combinations operating under temporary waivers). Media
Ownership Study 4 also found that the total amount of local
news aired by all television stations in the market may be negatively correlated with newspaper/broadcast cross-ownership.
Id. at 41. As noted in the FNPRM, however, the study authors

105a
29.
The Commission has acknowledged that
prior Commission studies have found that crossowned radio stations are more likely to air news and
public affairs programming and are four to five times
more likely to have a news format than a non-crossowned station.97 Comments in this proceeding bear
that out, providing anecdotal evidence, such as that
offered by Morris Communications, which explained
that its radio stations in Topeka, Kansas, and in
Amarillo, Texas, were able to invest more heavily in
local news production and in news staff because of
their cross-ownership with the local newspaper.98
Cox argues that newspaper owners have “the skill
and resources to increase the quality and quantity of
local radio news.”99 Bonneville/Scranton also asserts
cautioned that this finding was “‘imprecisely measured and not
statistically different from zero.’” FNPRM, 29 FCC Rcd at 4431,
para. 137 (proposing not to accord much weight to the study’s
finding that the amount of local news at the market level may
be negatively correlated with newspaper/broadcast crossownership). An earlier Commission study cited by NMA found
that cross-owned television stations aired between seven to ten
percent more local news, which still represents a meaningful
increase in the average amount of local news aired on crossowned television stations. See Jeffrey Milyo, FCC Media Ownership Study 6, Effects of Cross-Ownership on the Local Content and Political Slant of Local Television News, 1 (Sept. 17,
2007). This study also found that cross-owned television stations, on average, provide roughly 25 percent more coverage of
local and state politics. Id. at 1.
97 Second Report and Order, 31 FCC Rcd at 9927-28, para. 161
(citing NAB FNPRM Comments at 83-84, which referenced
2006 Media Ownership Study 4, Sections II, III).
98 Morris FNPRM Comments at 17-23.
99 Cox FNPRM Comments at 5.

106a
that newspaper/radio combinations can result in a
greater amount of news on radio stations.100
30.
As the Commission discussed in the
Second Report and Order, the record contains support for the proposition that newspaper/broadcast
combinations can promote localism by creating efficiencies through the sharing of expertise, resources,
and capital that can lead to a higher quantity and
quality of local news programming.101 The Commission “has long accepted that proposition,”102 but it
concluded in its previous decisions that some restrictions remained necessary to promote viewpoint
diversity. We conclude now that the potential public
interest benefits of permitting newspaper/broadcast
combinations outweigh the minimal loss of viewpoint
diversity that may result from eliminating the rule.
With the elimination of the NBCO Rule these localism benefits can finally begin to materialize.
31.
In light of the well-documented and continuing struggles of the newspaper industry, the efficiencies produced by newspaper/broadcast combinations are more important than ever. A report in February 2017 examining the health of small newspa100 See Bonneville/Scranton FNPRM Comments at 9.
101 See Second Report and Order, 31 FCC Rcd at 9926-28, paras. 160-61. But see id. at 9927, para. 160 (discussing comments suggesting that cross-ownership may reduce the total
amount of local news available in the market). The limitations
with the finding in Media Ownership Study 4 associated with
overall reductions in local news in markets with cross-owned
combinations is discussed in footnote 96, supra.
102 Second Report and Order, 31 FCC Rcd at 9928, para. 162.

107a
pers was cautiously optimistic about the future of
publications with a community or hyperlocal focus
but acknowledged that their “battle for survival will
not be easy” and will require new approaches and
strategies that take advantage of their niche position.103 Removing the regulatory obstacle of this
outdated rule will help financially troubled newspapers carry on their important work. While we recognize that cost-savings gained from common ownership will not necessarily be invested in the production of local news,104 by allowing newspapers and
broadcasters to collaborate and combine resources,
our action today creates new opportunities for local
broadcasters and newspapers to better serve the local news and information needs of their communities.
d.

The NBCO Rule Must be
Eliminated

32.
Our decision today to repeal the rule reflects the situation as it currently is, not as it was
more than 40 years ago. Whereas the Commission
determined in 1975 that newspaper/broadcast combinations were no longer necessary to support the
growth of the broadcast industry and that the inter103 Damian Radcliffe and Christopher Ali, If Small Newspapers
Are Going to Survive, They’ll Have to Be More Than Passive Observers
to
the
News
(Feb.
2,
2017),
http://www.niemanlab.org/2017/02/if-small-newspapers-aregoing-to-survive-theyll-have-to-be-more-than-passive-observersto-the-news/.
104 See id. at 9928, para. 162; FNPRM, 29 FCC Rcd at 4431-32,
paras. 136-38.

108a
est in viewpoint diversity required separate ownership of newspapers and broadcast licenses, we now
determine that this restriction is no longer necessary
to promote viewpoint diversity and can potentially
harm localism, and that removing the restriction
best serves the public interest.
33.
Indeed, even to the extent that eliminating the rule would permit transactions that would
reduce the number of outlets for news and information in local markets, the markets will continue to
have far more voices than when the rule was enacted. The modern media marketplace abounds with
new, nontraditional voices, the number of local
broadcasters has increased dramatically, and the
strength of local newspapers relative to other media
has diminished as a result of the difficulties facing
the industry and the rise of new voices. And we expect the number of voices to continue to grow, as the
Internet, in particular, has lowered the barriers to
entry and provided a publicly accessible platform for
individuals and organizations to serve the news and
information needs of their local communities. Furthermore, eliminating the NBCO Rule will permit
efficient combinations that will allow broadcasters
and newspapers to combine resources and enable
them to better serve their local communities. On
balance, therefore, we conclude that retaining the
rule does not serve the public interest.
34.
The Commission consistently has recognized that changing circumstances in the marketplace warrant a retreat from a total ban; accordingly,
the Commission has attempted to impose various

109a
limits on the rule through the years.105 The Commission’s overall direction has been toward a growing acknowledgment that the rule is not always necessary to promote viewpoint diversity and should be
modified to reflect changes in the marketplace.106
Our action today is simply the logical extension of
this acknowledgment in response to the radically altered media marketplace.
35.
As noted in the 2002 Biennial Review
Order, the Commission “must consider the impact of
[its] rules on the strength of media outlets, particularly those that are primary sources of local news
and information, as well as on the number of independently owned outlets . . . . [M]aximizing the number of independent voices does not further diversity if
those voices lack the resources to create and publish
news and public information.”107 In Prometheus I,
the court affirmed the Commission’s finding in the
2002 Biennial Review Order that the NBCO Rule
was overbroad and should be relaxed.108 In the 2006
Quadrennial Review Order, the Commission took into consideration the imperiled state of the newspaper
105 See supra para. 12.
106 See supra para. 12.
107 2002 Biennial Review Order, 18 FCC Rcd at 13762, para.
360 (noting that both newspapers and broadcasters had seen
declining consumer interest).
108 Prometheus I, 373 F.3d 399-400. Though it agreed that the
complete ban was no longer in the public interest, the court
held that the modified rule adopted in the 2002 Biennial Review
Order was arbitrary and capricious and the court left in place
the 1975 ban. Id. at 402.

110a
industry, recounting statistics and data showing that
the shrinking newspaper industry had suffered circulation declines, staff layoffs, shuttered news bureaus,
flat advertising revenues, rising operating costs, and
falling stock prices.109 These hardships influenced
the Commission’s finding that the existing ban on
newspaper/broadcast combinations continued to be
overly restrictive.110
36.
The newspaper industry had not recovered when the Commission began its 2010/2014 ownership review and, indeed, the hardships continued
to mount. In its 2010 NOI, the Commission described newspapers’ declining circulation and advertising revenues and asked whether relaxing the rule
would help newspapers to survive.111
In the
FNPRM, the Commission expressed concern for the
future of newspapers but disagreed with the suggestion that the NBCO Rule should be repealed or relaxed on that basis alone.112 The Commission was
reluctant to jeopardize viewpoint diversity in local
markets in response to assertions that the rule limited opportunities for traditional media owners to

109 2006 Quadrennial Review Order, 23 FCC Rcd at 2026-30,
paras. 27-34.
110 Id. at 2039, para. 51. In Prometheus II, the court vacated
the revised NBCO Rule adopted in the 2006 Quadrennial Review Order on procedural grounds. Prometheus II, 652 F.3d at
445.
111 NOI, 25 FCC Rcd at 6088-90, 6101, 6112-13, paras. 6-9, 47,
87.
112 FNPRM, 29 FCC Rcd at 4432-35, paras. 139-43.

111a
expand their revenues.113 Now, however, we conclude that the continuance of the NBCO Rule is not
necessary or appropriate to preserve or promote
viewpoint diversity under Section 202(h). We anticipate that both newspapers and broadcasters will
benefit from the rule’s repeal, as will, ultimately, the
public, as we discuss above.
37.
The Commission recognized in the
FNPRM that the NBCO Rule does not promote
viewpoint diversity when a newspaper is in financial
distress, and the FNPRM proposed an exception to
the rule for failed and failing merger applicants.114
In the Second Report and Order, the Commission
adopted that exception and explained that allowing
such mergers is not likely to harm viewpoint diversity.115 In addition, the Commission incorporated into
the rule a case-by-case waiver standard for markets
of all sizes to account for merger situations that do
not pose an undue risk to viewpoint diversity.116
38.
On reconsideration, we find that the
Commission’s modifications to the NBCO Rule in the
Second Report and Order were inadequate. Given
the current state of the newspaper industry, it might
very well be too late to save a newspaper that would
qualify as failed or failing under the exception adopt113 Id.; see also Second Report and Order, 31 FCC Rcd at 992830, paras. 163-67.
114 FNPRM, 29 FCC Rcd at 4434-35, 4453-54, paras. 142, 188.
115 Second Report and Order, 31 FCC Rcd at 9933-34, paras.
172-75.
116 Id. at 9934-41, paras. 176-89.

112a
ed in the Second Report and Order. Our goal should
be to keep local voices strong, not to maintain artificial barriers that prevent efficient combinations and
then wait until newspapers reach a failed or failing
state before providing regulatory relief. In addition,
the Commission’s case-by-case waiver standard was
wholly insufficient because the Commission failed to
provide any meaningful guidance on how it would
evaluate each waiver request.117 An exception or a
waiver standard may be appropriate when a rule is
sound and exceptional circumstances exist, but such
mechanisms do not redeem an unsound rule, as we
find this one to be.
39.
In addition, the modified rule inexplicably left in place a definition of “daily newspaper” that
is outdated and illogical in that it applies only to
newspapers printed at least four days a week.118
The distinction between print newspapers and digital outlets has become blurred as some newspapers
reduce the number of days a week they publish in
print and rely more heavily on their online distribution.119 Indeed, many publishers today continuously
117 See Second Report and Order, 31 FCC Rcd at 9934-41, paras. 176-89. By contrast, as discussed below, we are adopting a
case-by-case review process in the Local Television Ownership
Rule for proposed combinations involving top-four rated stations, and we provide a significant list of factors to help guide
parties when making a showing that application of the TopFour Prohibition is not in the public interest. See infra para.
82.
118 See 47 CFR § 73.3555, Note 6.
119 For example, the New Orleans Times-Picayune and the
Birmingham News reduced their print publications to three

113a
update the content of the online versions of their
newspapers as they compete with bloggers and social
media that rapidly produce and update their own
content. Applying the NBCO Rule to newspapers only if they are printed in hardcopy at least four days
per week ignores the reality that what defines a
“newspaper” has changed and that many consumers
access the paper’s news and information over the Internet throughout the day. A newspaper’s influence
should no longer be measured by how many mornings a week it is delivered to the doorstep. Doing so
would exacerbate the perverse incentive for a newspaper seeking to combine with a broadcaster to reduce its print editions in order to avoid triggering the
rule. Given the current media marketplace and the
way consumers access content, the rule’s reliance on
a newspaper’s printing schedule makes no sense.
40.
As the modified rule adopted in the Second Report and Order is not necessary to promote
the public interest, we cannot retain it consistent
with Section 202(h). We emphasize that the rule’s
repeal in no way reflects a lessening of the imdays a week, while the Seattle Post-Intelligencer eliminated its
print publications in favor of a digital-only platform. See Second Report and Order, 31 FCC Rcd at 10047 (Dissenting
Statement of then-Commissioner Pai); see also 3 Gannett Papers Moving to 3-Day-A-Week Print Editions, USNews.com
(Mar.
9,
2017),
https://www.usnews.com/news/beststates/louisiana/articles/2017-03-09/3-gannett-papers-movingto-3-day-a-week-print-editions; Andrew Beaujon, Patriot-News,
Post-Standard will reduce print frequency to three days a week,
Poynter.org
(Aug.
28,
2012),
http://www.poynter.org/2012/patriot-news-will-reduce-printfrequency-to-three-days-a-week/186824/.

114a
portance of viewpoint diversity as a Commission policy goal. Rather, we conclude that the rule is no
longer necessary to promote viewpoint diversity.
41.
We find also that the NBCO Rule
should be eliminated rather than relaxed. The
Commission’s previous attempts to relax the rule
demonstrate the difficulty in designing an approach
that works effectively for the range of market circumstances across the country. Paradoxically, previous attempts at relaxing the rule arguably threatened the greatest harm in small markets where
cross-ownership may be needed most to sustain local
news outlets.120 The record does not provide an adequate basis for distinguishing areas where application of the rule could serve the public interest from
those where it would not. There was significant opposition to the modified rule proposed by the Commission in this proceeding,121 and only Cox proposed
a detailed alternative approach, and the Commission

120 For example, under the modified NBCO Rule adopted in
the 2006 Quadrennial Review Order, a waiver of the rule was
presumed to be inconsistent with the public interest if the proposed newspaper/broadcast combination was located in any
market smaller than the top 20 DMAs in the country. 23 FCC
Rcd at 2022-23, para. 20.
121 See FNPRM, 29 FCC Rcd at 4445-51, paras. 167-181;
NPRM, 26 FCC Rcd at 17527-29, paras. 105-111. Both Cox and
NMA criticized the Commission’s modified approach as harmful
to small and mid-sized markets where investment in local
newsrooms may be needed most. NMA FNPRM Comments at
20-21; NMA FNPRM Reply at 5; Cox FNPRM Comments at 1318; see also Second Report and Order, 31 FCC Rcd at 9937, para. 181.

115a
explained why it declined to adopt it.122 Thus, the
record does not support a narrowed restriction.
Moreover, as discussed above, we find that it would
be outdated and illogical to adopt a rule based on the
distinction between print newspapers and digital
outlets. Indeed, any modified rule that continues to
single out newspapers of any kind cannot be sustained.
42.
In light of the significantly expanded
media marketplace and the overall state of the
newspaper industry, and our conclusion that the rule
is not necessary to promote viewpoint diversity, competition, or localism, and may hinder localism, we
conclude that immediate repeal is required by Section 202(h) and will permit combinations that would
benefit consumers. Our decision will enable all
122

Cox proposed a presumptive waiver standard that it argued should apply to NBCO waiver requests in all markets.
Cox argued that the first part of its proposed two-part test
would protect diversity by requiring that at least 20 independently owned major media voices remain in the market following a newspaper/broadcast combination. Cox considered
major media voices to include independently owned daily newspapers, full-power television and radio stations, cable and satellite television systems (counted as one voice), and the Internet
(counted as one voice). The second part of Cox’s test, intended
to preserve localism, would require that at least three independent media voices that produce and distribute local news
and information programming, other than the combining properties, remain in the market post-transaction. The Commission
found that the first prong of the proposed test defined independent media voices too broadly and that the second prong
could not be applied or enforced in an objective, content-neutral
manner. See Second Report and Order, 31 FCC Rcd at 9936-37,
9939, paras. 180, 185; FNPRM, 29 FCC Rcd at 4447, para. 171.

116a
broadcasters and newspapers to attract new investment in order to preserve and expand their local
news output.
43.
In addition, though we find that the entire NBCO Rule must be eliminated, we find that the
record provides an additional and independent justification for eliminating the restriction on newspaper/radio combinations.123 Opponents of this aspect
of the rule argue that evidence in the record does not
provide adequate support for the Commission’s conclusion that radio is a sufficiently meaningful source
of local news and public interest programming such
that allowing newspaper/radio combinations could
harm viewpoint diversity.124 We agree. As discussed in the following section, we are eliminating
the Radio/Television Cross-Ownership Rule based on
our finding that the diminished contributions of local
broadcast radio stations to viewpoint diversity, together with increasing contributions from new media
123

See, e.g., NAB Petition at 21-25; Bonneville/Scranton Reconsideration Reply at 2, 4-6; Cox Reconsideration Comments
at 2, 5-6. Reversing its past position, NABOB now supports
elimination of the newspaper/radio cross-ownership restriction
in order to help minority-owned broadcasters compete against
larger players for audience and advertising revenues. NABOB
Feb. 24, 2017 Ex Parte Letter at 2-3.
124 See Second Report and Order, 31 FCC Rcd at 9921-26,
paras. 150-58. Among other things, commenters point to previous Commission statements, including in the NPRM and
FNPRM, to buttress their position that radio is a less significant source of local news and information. See, e.g., NAB Petition at 21-22; Bonneville/Scranton Reconsideration Reply at 4
n.11; see also NPRM, 26 FCC Rcd at 17529-30, para. 112;
FNPRM, 29 FCC Rcd at 4435-38, paras. 144-48.

117a
outlets and the public interest benefits of radio/television combinations, no longer justify continued radio/television cross-ownership regulation.125
For the same reasons relating to viewpoint diversity
contributions of radio and the proliferation of alternative media voices, as well as the countervailing
public interest benefits of newspaper/radio combinations, we conclude that the restriction on newspaper/radio combinations is not in the public interest
and must be eliminated pursuant to Section 202(h).
e.

Minority and
Ownership

Female

44.
We find that repealing the NBCO Rule
will not have a material impact on minority and female ownership. After seeking public comment on
this topic a number of times, the Commission expressed its view that the rule does not promote or
protect minority and female ownership.126 Not only
have past debates on this issue not persuaded the
Commission that the ban on newspaper/broadcast
combinations is necessary to protect or promote minority and female ownership,127 no arguments were
made in this reconsideration proceeding that would
lead us to conclude otherwise. On the contrary, two
organizations representing minority media owners
seek relief from the rule’s restrictions. The National
125 We incorporate by reference the relevant discussion in Section III.A, infra.
126 FNPRM, 29 FCC Rcd at 4454-55, para. 190.
127 See Second Report and Order, 31 FCC Rcd at 9942-44, paras. 192-97; FNPRM, 29 FCC Rcd at 4454-60, paras. 189-99.

118a
Newspaper Publishers Association (NNPA), a trade
organization representing more than 200 Blackowned media companies, claims that the NBCO Rule
should be eliminated because it impedes its members, which are “trusted community voices,” from
competing with large, unregulated rivals.128 NNPA
decries the rule’s disincentive for its newspaper
members to maximize their publication schedules
given that the rule applies to daily newspapers.129
It argues that the rule “prevents diverse local voices
with strong community ties from identifying and investing in new ways to serve their readers, listeners
and viewers.”130 In addition, NABOB has reversed
its long-held opposition to the elimination of the ban
on newspaper/radio cross-ownership, arguing that
the broadcast industry—particularly NABOB’s minority-owned member stations—should not be constrained from competing for audience share and advertising revenue.131 According to NABOB, the ban
on newspaper/radio cross-ownership has “outlived its
usefulness,” and we agree.132
128 NNPA Feb. 13, 2017 Ex Parte Letter at 1.
129 Id. at 2 ; see also 47 CFR § 73.3555, Note 6 (defining a daily newspaper as one that is published at least four days a week,
in the dominant language in the market, and circulated generally in the community of publication).
130 NNPA Feb. 13, 2017 Ex Parte Letter at 2.
131 NABOB Feb. 24, 2017 Ex Parte Letter at 1-3 (citing its
concerns that relaxation of the media ownership rules has contributed to a decline in minority ownership, but supporting the
repeal of the newspaper/radio cross-ownership restriction).
132 Id. at 3 (citing NAB Petition at 14-16).

119a
45.
These comments directly refute arguments in the record that repealing the rule will harm
small broadcasters, including minority and women
broadcasters, because they are at a competitive disadvantage compared to large media outlets.133 As
the Commission contemplated in the FNPRM, merging with a newspaper could boost the ability of a
small broadcaster to compete more effectively in the
market and to improve its local news offerings.134
NNPA and NABOB seek—and our action today will
provide—the flexibility to do just that.
46.
We agree with Bonneville/Scranton that
lifting the ban on newspaper/radio combinations is
unlikely to have a significant effect on minority and
female ownership in the radio market given that the
thousands of radio stations across the country offer
plenty of purchasing opportunities for minorities and
women and at lower cost than most other forms of
traditional media.135 In addition, we do not anticipate that lifting the ban on newspaper/television
combinations will lead to a meaningful decrease in
the number of minority-owned television stations.
133 See, e.g., Second Report and Order, 31 FCC Rcd at 9943-44,
paras. 194-95; FNPRM, 29 FCC Rcd at 4457-58, para. 195.
134 FNPRM, 29 FCC Rcd at 4457, para. 194.
135 Bonneville/Scranton Reconsideration Reply Comments at
6-8; Bonneville/Scranton FNPRM Reply at 8-9. But see WGAW
FNPRM Comments at 10-11 (arguing that eliminating the
newspaper/radio cross-ownership restriction would reduce the
number of independently owned radio stations and thus decrease ownership diversity because radio is one of the affordable entry points for minorities and women to enter the media
industry).

120a
Some groups previously expressed concern that minority-owned television stations would be targeted
for acquisition if the ban were relaxed to favor waiver requests for certain newspaper/television combinations with stations ranked below the top four television stations in a market—a category that includes
many minority-owned stations.136 Removing the
ban across-the-board will ensure that no artificial
incentives are created, and the record provides no
evidence that minority- and female-owned stations
will be singled out for acquisition, as some commenters have speculated.137 To the contrary, record evidence demonstrates that previous relaxations of other ownership rules have not resulted in an overall
decline in minority and female ownership of broadcast stations, and we see no evidence to suggest that
eliminating the NBCO Rule will produce a different
result and precipitate such a decline.138 Ultimately,
given the state of the newspaper industry, we expect
that broadcasters may be better positioned to be the
buyer, rather than the seller, in most transactions
that flow from the rule’s repeal. Furthermore,
NNPA’s submission suggests that some minority
media owners may be poised to pursue crossownership acquisition and investment opportunities.139 Therefore, eliminating the rule potentially
136 FNPRM, 29 FCC Rcd at 4455-57, paras. 192-94.
137 See, e.g., Free Press NPRM Comments at 21-22; Free Press
NPRM Reply at 53-54; UCC et al. NPRM Comments at 26-27.
138 See Second Report and Order, 31 FCC Rcd at 9894-95,
9911-12, paras. 77, 126.
139 NNPA Feb. 13, 2017 Ex Parte Letter at 1-2.

121a
could increase minority ownership of newspapers
and broadcast stations.
47.
In addition, we reject UCC et al.’s assertion that Prometheus III prevents us from repealing
or modifying any of our broadcast ownership rules on
reconsideration.140 Contrary to UCC et al.’s argument, the Third Circuit’s holding in Prometheus III
does not require the Commission to adopt a socially
disadvantaged business (SDB) definition before it
can revise or repeal any rules; rather, the court simply required the Commission to complete its analysis
of whether to adopt such a definition.141 The Commission completed that required analysis in the Second Report and Order and declined to adopt an SDB
standard.142
140 See UCC et al. Opposition at 2-3 (citing Prometheus III,
824 F.3d at 49-50).
141 See Prometheus III, 824 F.3d at 49–50 (“[The Commission]
must make a final determination as to whether to adopt a new
definition. . . . We do not intend to prejudge the outcome of this
analysis; we only order that it must be completed. Once the
agency issues a final order either adopting an SDB- or ODPbased definition (or something similar) or concluding that it
cannot do so, any aggrieved parties will be able to seek judicial
review.”); see also FNPRM, 29 FCC Rcd at 4454-55 (“Moreover,
we reject the argument that the Prometheus II decision requires
us to take no action unless we can show definitively that a rule
change would have no negative impact on minority ownership
levels.”).
142 See Second Report and Order, 31 FCC Rcd at 9976-10001,
paras. 271-316 (readopting a revenue-based eligible entity
standard and concluding that the record did not currently support the adoption of an additional race- and/or gender-based
standard, such as an SDB standard).

122a
48.
Finally, in the Second Report and Order, the Commission stated that the revised NBCO
Rule it adopted would help promote ownership diversity.143 The Commission’s comment, however, did
not indicate a belief that the rule would promote minority and female ownership specifically, but rather
that the rule would promote ownership diversity
generally by requiring the separation of newspaper
and broadcast station ownership. Moreover, the
Commission made it clear that promoting viewpoint
diversity, as opposed to preserving or promoting minority and female ownership, was the purpose of its
revised rule.144 The record does not suggest that restricting common ownership of newspapers and
broadcast stations promotes minority and female
ownership of broadcast stations, and there is evidence in the record that tends to support the contrary.145 Thus, fostering minority and female ownership does not provide a basis to retain the rule.
B.

Radio/Television
Rule
1.

Cross-Ownership

Introduction

49.
We grant NAB’s request for reconsideration of the Commission’s decision in the Second Report and Order to retain the Radio/Television Cross-

143 Id. at 9944, para. 197 (stating that the rule would “increase the likelihood of a variety of viewpoints and [] preserve
potential ownership opportunities for new voices”).
144 Id.
145 See FNPRM, 29 FCC Rcd at 4456-57, para. 193.

123a
Ownership Rule.146 The Radio/Television CrossOwnership Rule prohibits an entity from owning
more than two television stations and one radio station in the same market, unless the market meets
certain size criteria.147 In the Second Report and
Order, the Commission retained the Radio/Television
Cross-Ownership Rule with only minor modifications, finding that the rule remained necessary to
promote viewpoint diversity.148 On reconsideration,
we eliminate the Radio/Television Cross-Ownership
Rule, concluding that the Commission erred in finding the rule necessary to promote viewpoint diversity
in local markets. Specifically, we find that we can no
longer justify retention of the rule in light of broadcast radio’s diminished contributions to viewpoint
diversity and the variety of other media outlets that
146 See NAB Petition at 14-25; see also Second Report and Order, 31 FCC Rcd at 9945-52, paras. 198-215.
147 47 CFR § 73.3555(c)(2). Specifically, if at least 10 independently owned media voices would remain in the market
post-merger, an entity may own up to two television stations
and four radio stations. If at least 20 independently owned media voices would remain in the market post-merger, an entity
may own either: (1) two television stations and six radio stations, or (2) one television station and seven radio stations. In
all instances, entities also must comply with the local radio and
local television ownership limits. The market is determined by
looking at the service contours of the relevant stations. Id. §
73.3555(c)(1). The rule specifies how to count the number of
media voices in a market, including television stations, radio
stations, newspapers, and cable systems. Id. § 73.3555(c)(3)(i)(iv). The rule applies only to commercial stations.
148 See Second Report and Order, 31 FCC Rcd at 9945, 994850, paras. 199-200, 207-10.

124a
contribute to viewpoint diversity in local markets. In
addition, given that the current rule already permits
a significant degree of common ownership, we conclude that its elimination will have a negligible effect
in most markets, particularly as ownership will continue to be limited by the Local Television and Local
Radio Ownership Rules.
2.

Background

50.
The Commission originally restricted
cross-ownership of radio and television stations with
“the principal purpose” of promoting viewpoint diversity in local markets.149 The Second Report and Order contains a detailed history of the rule, which we
incorporate herein.150 In relevant part, in the 2006
Quadrennial Review Order, the Commission retained
the rule as adopted in 1999—a decision that the
Third Circuit found to be “plausibly justified.”151
However, the Commission tentatively concluded in
the NPRM that, based on information in the record
and changes in the media marketplace, the Radio/Television Cross-Ownership Rule is no longer
necessary to promote the public interest.152 Con149 Amendment of Sections 73.35, 73.240 and 73.636 of the
Commission Rules Relating To Multiple Ownership of Standard, FM and Television Broadcast Stations, First Report and
Order, 22 F.C.C.2d 306, 313, para. 25 (1970). At the time, the
Commission also believed that the cross-ownership restrictions
would benefit competition. Id.
150 Second Report and Order, 31 FCC Rcd at 9945-47, paras.
202-04.
151 Prometheus II, 652 F.3d at 457.
152 NPRM, 26 FCC Rcd at 17532-39, paras. 118-35.

125a
sistent with past Commission findings, the NPRM
tentatively concluded that the rule does not promote
competition or localism.153 The NPRM also tentatively concluded that the rule is no longer necessary
to promote viewpoint diversity.154 In support of this
tentative conclusion, the Commission noted that the
media ownership studies (specifically studies 8A and
8B) provided little evidence that radio/television
cross-ownership impacted viewpoint diversity in local markets.155 In addition, the Commission discussed the growth of alternate media outlets (e.g.,
Internet and cable) as sources of viewpoint diversity.156
51.
The FNPRM sought further comment
on the extent to which the Radio/Television CrossOwnership Rule promotes the public interest.157
Specifically, the Commission sought comment on evidence in the record suggesting that radio stations
are not primary outlets that contribute to viewpoint
diversity.158 The Commission reiterated its tentative conclusions that the rule is not necessary to
promote competition or to promote localism.159

153 Id. at 17535-37, paras. 123-30.
154 Id. at 17537-38, paras. 131-33.
155 Id. at 17537, para. 132.
156 Id. at 17537-38, para. 133.
157 FNPRM, 29 FCC Rcd at 4460-61, 4465-67, paras. 200, 21025.
158 Id. at 4465-68, paras. 210-17.
159 Id. at 4465, 4468-69, paras. 210, 218-21.

126a
52.
Nevertheless, in the Second Report and
Order, the Commission retained the Radio/Television
Cross-Ownership Rule with only minor technical
modifications, finding that the rule remained necessary to promote viewpoint diversity.160 Despite its
prior tentative conclusion to the contrary, the Commission concluded that the Radio/Television CrossOwnership Rule remains necessary given that radio
stations and television stations both contribute in
meaningful ways to promote viewpoint diversity in
local markets.161 The Commission further claimed
that the rule continues to play an independent role
in serving the public interest separate and apart
from the Local Radio and Local Television Ownership Rules, which are designed primarily to promote
competition.162
53.
In its petition for reconsideration, NAB
asserts that the decision in the Second Report and
Order to retain the Radio/Television CrossOwnership Rule (with only minor technical modifications) was arbitrary and capricious and contrary to

160 See Second Report and Order, 31 FCC Rcd at 9945, 994850, paras. 199-200, 207-10. The Commission modified the rule
only to the extent necessary to update its references to two analog television service contours that became obsolete with the
transition to digital television service. See id. at 9950-51, paras. 211-14.
161 See id. at 9948-49, paras. 207-09.
162 See id. at 9949, para. 209.

127a
Section 202(h) of the 1996 Act.163 UCC et al. oppose
NAB’s request for reconsideration of the rule.164
3.

Discussion

54.
On reconsideration, we eliminate the
Radio/Television Cross-Ownership Rule, concluding
that it is no longer necessary to promote viewpoint
diversity in local markets.165 We conclude that the
Commission erred in finding in the Second Report
and Order that broadcast radio stations contribute to
viewpoint diversity to a degree that justifies retention of the rule, particularly in light of other local
media outlets that contribute to viewpoint diversity.
We also conclude that, given that the rule already
permits a significant degree of common ownership, it
163 NAB Petition at 14-25.
164 UCC et al. Opposition at 6-8.
165 The Commission has previously concluded that Radio/Television Cross-Ownership Rule is not necessary to promote competition or localism, and we affirm that conclusion
here. See, e.g., Second Report and Order, 31 FCC Rcd at 9948,
para. 207 n.631; FNPRM, 29 FCC Rcd at 4465, para. 210. NAB
argues there is evidence that radio/television cross-ownership
produces localism benefits and that retention of the Radio/Television Cross-Ownership Rule therefore serves to harm
localism. NAB Petition at 15-16. By contrast, UCC et al. argue
that the Commission adequately supported its finding that
cross-ownership of media outlets harms localism. UCC et al.
Opposition 6-7. The record in this proceeding, including the
reconsideration pleadings, gives us no cause to disturb the longstanding conclusion that the rule is not necessary to promote
localism. We note, however, that elimination of the rule is likely to have a negligible impact in most markets, so any impact
on localism—positive or negative—will be similarly negligible.
See infra para. 62.

128a
is doing very little to promote viewpoint diversity
and its elimination therefore will have a negligible
effect. Finally, we find that elimination of the rule is
not likely to have a negative impact on minority and
female ownership.
55.
Contrary to the Commission’s findings
in the Second Report and Order, as discussed below,
we find that broadcast radio stations’ contributions
to viewpoint diversity in local markets no longer justify retention of the Radio/Television CrossOwnership Rule. As noted above, the Commission
tentatively concluded in the NPRM that the rule was
no longer necessary to promote viewpoint diversity.166 It then sought further comment on that tentative conclusion in the FNPRM.167 The Commission’s
approach in the NPRM and FNPRM was based on an
already robust record—which was strengthened by
comments filed in response to the FNPRM—
demonstrating that local radio stations are not primary sources of viewpoint diversity in local markets
and that alternative media outlets are a growing and
important source of viewpoint diversity. The Commission, however, reversed itself in the Second Report and Order, concluding that the rule should be
retained. In doing so, the Commission largely relied
on limited evidence, much of it anecdotal or immaterial, to conclude that radio contributes to viewpoint
diversity in local markets to a degree sufficient to

166 See NPRM, 26 FCC Rcd at 17537-38, paras. 131-33.
167 See FNPRM, 29 FCC Rcd at 4465-68, paras. 210-17.

129a
justify retention of the rule.168 For example, the
comments cited by the Commission primarily discussed format selection, music programming, and
national news content, all of which are aspects of radio programming that do not inform our viewpoint
diversity analysis.169
56.
The Commission also discussed broadcast radio’s contributions to viewpoint diversity in
the NBCO Rule Section of the Second Report and
Order.170 That discussion was equally unpersuasive.
The Commission failed to demonstrate that broadcast radio stations are significant independent
sources of local news, relied on statistics that failed
to distinguish between local and national news content,171 referenced examples of broadcast content on
168 See Second Report and Order, 31 FCC Rcd at 9949, para.
209.
169 See UCC et al. FNPRM Comments at 35-43; NHMC
FNPRM Comments at 6-11. The 2002 Biennial Review Order
contains a lengthy discussion of the five types of diversity—
viewpoint, outlet, program, source, and minority and female
ownership—including how they are defined and how they relate
to the Commission’s media ownership analysis. 2002 Biennial
Review Order, 18 FCC Rcd at 13627-37, paras. 18-52. Viewpoint diversity, for example, is measured by independent media
outlets that provide local news and information, as opposed to
those outlets that primarily offer regional and national content.
See, e.g., Second Report and Order, 31 FCC Rcd at 9914, 991726, paras. 135, 142-59 (discussing viewpoint diversity in the
context of the NBCO Rule).
170 See Second Report and Order, 31 FCC Rcd at 9924-25, paras. 154-56.
171 For example, an RTDNA survey cited by the Commission
failed to describe the types of content that were included in the

130a
low-power stations,172 and relied heavily on only a
handful of anecdotes regarding broadcast radio’s contributions to viewpoint diversity.173 All of these
flaws undermine the broad finding that broadcast
radio stations contribute to viewpoint diversity to an
extent that continues to justify cross-ownership regulation.
57.
NAB argues that the Commission failed
to justify its departure from its position in the NPRM
and FNPRM that radio stations make only limited
contributions to local viewpoint diversity.174 We
agree and find that the Commission’s conclusion in
the Second Report and Order that radio contributes
to local viewpoint diversity in “meaningful” ways,
such that it justified retention of the rule—a clear
departure from its earlier, well-supported position—
was not supported by the record.175 The Commission has long maintained that broadcast radio stations are not a primary source of viewpoint diversity
category of local news, while a study by the Media Insight Project did not differentiate between local news and news in general. See id. at 9924-25, para. 155 & n.426.
172 Id. at 9925, para. 156 n.431. The rule does not apply to
low-power stations, and their contribution to diversity is unaffected by the decision to retain or repeal the radio-television
cross-ownership rule.
173 See id. at 9925-26, 157.
174 See NAB Petition at 21-25. But see UCC et al. Opposition
7-8 (arguing that NAB has incorrectly characterized the Commission’s decision as an abrupt reversal of a longstanding
view).
175 See Second Report and Order, 31 FCC Rcd at 9948, para.
207.

131a
in local markets.176 While the record indicates that
broadcast radio stations may contribute to viewpoint
diversity in local markets to a certain degree,177 we
find that, in the current media marketplace, these
contributions no longer justify restrictions on television/radio cross-ownership.
58.
For example, the Commission itself
acknowledged that consumers’ reliance on radio for
some local news and information has declined significantly over time—falling from 54 percent to 34 percent over the last two decades—as has the number of
all-news commercial radio stations—down to 30 stations from (the already low) 50 stations in the mid1980s out of over 11,000 commercial radio stations.178 Moreover, the overwhelming majority of
programming on news-talk stations is nationally
syndicated, rather than locally produced.179 Comments in the record, which the Second Report and
Order did not address or dispute, support these findings. A Gallup poll found that only six percent of
Americans turn to radio as their main news source,
176 See id. at 9921-26, paras. 150-59; FNPRM, 29 FCC Rcd at
4465-67, paras. 212-15.
177 See, e.g., UCC et al. FNPRM Comments at 35-43, App. D
(Examples of Editorial Programming on Minority-Owned Radio
Stations); NHMC FNPRM Comments at 6-11. As noted above,
however, these comments rely primarily on issues that are not
relevant to our viewpoint diversity analysis, such as program
diversity or national news content. See supra note 169 and accompanying text.
178 See FNPRM, 29 FCC Rcd at 4467, para. 215.
179 Id.

132a
and a Pew study found that the percentage of Americans reporting that they got any news from radio on
the previous day dropped from more than 50 percent
in 1990 to 33 percent in 2012 (consistent with earlier
findings cited by the Commission).180 Only five percent cite radio as a main source for political and arts
and cultural information, four percent for crime updates, and three percent or less for information on
various other topics.181 A 2013 Pew study confirmed
the overall trend, finding that news programming
had been “relegated to an [even] smaller corner of
the listening landscape.”182 As we discuss above, the
attempt in the Second Report and Order to overcome
the record in this proceeding of radio’s relatively minor contribution as a source of local news and the
Commission’s historical recognition of radio’s reduced role in promoting viewpoint diversity is unpersuasive.183 The record supports far better the Commission’s tentative conclusions in the NPRM and

180 Morris Communications FNPRM Comments at 14.
181 Morris Communications FNPRM Reply at 4.
182 Id. at 3 (citing PEW Research Center, Audio: Digital
Drives
Listening
Experience
1
(2013),
http://stateofthemedia.org/2013/audio-digital-drives-listenerexperience). Even within this smaller universe, a substantial
segment consists of National Public Radio (NPR)-affiliated noncommercial broadcast radio stations, which are not subject to
the broadcast ownership limits. At present, NPR has over 900
member stations in the U.S. NPR, NPR Member Stations and
Public Media, http://www.npr.org/about-npr/178640915/nprstations-and-public-media (visited Oct. 11, 2017).
183 Supra para. 56.

133a
FNPRM regarding radio’s limited contributions to
viewpoint diversity in local markets.
59.
In addition, we find that, as NAB contends, the Commission’s decision to retain the rule
did not properly acknowledge the realities of the digital media marketplace, in which consumers now
have access to a multitude of information sources
that contribute to viewpoint diversity in local markets.184 In the Second Report and Order, the Commission found that platforms such as the Internet or
cable do not contribute significantly to viewpoint diversity in local markets and therefore do not meaningfully protect against the potential loss of viewpoint diversity that would result from increased radio/television cross-ownership.185 UCC et al. argue
that the Commission properly found that cable and
satellite programming do not meaningfully contribute to coverage of local issues and that information
available online usually originates from traditional
media sources.186 We disagree with UCC et al. We
find instead that the Commission erred in discounting the role that non-traditional sources play in the
local media marketplace and that the contributions
of such outlets result in greater access to independent information sources in local markets. In particular, evidence in the record clearly demonstrates the
emergence of online outlets—including many unaffil-

184 See NAB Petition at 16-21.
185 Second Report and Order, 31 FCC Rcd at 9948-49, para.
208.
186 See UCC et al. Opposition at 7.

134a
iated with broadcast or print sources—that now offer
local news and information.187 And as discussed
above, we find that the Commission failed to properly credit the local news offerings of cable operators.188 Even if cable and online outlets are not yet
primary sources of local news and information programming, their contributions cannot be overlooked.
While the Commission relied on a handful of anecdotes to overcome its earlier, compelling findings regarding broadcast radio’s limited contributions to local news and information programming, it refused to
give appropriate consideration to more persuasive
evidence of the increasing contributions of nontraditional media—a trend the Commission had previously noted, and which has continued.189
60.
The decline of radio’s role in providing
local news and information, together with the rise of
online sources, marks a change from the circumstances the Commission faced when it upheld the
rule in the 2006 Quadrennial Review Order.190 Ac-

187 See supra para. 19.
188 See supra para. 19.
189 See, e.g., NPRM, 26 FCC Rcd at 17537-38, para. 133 (noting the evidence demonstrating that new media outlets are a
growing contributor to viewpoint diversity in local markets); see
also supra note 187 (citing record evidence of the growing contributions of online local news outlets).
190 See 2006 Quadrennial Review Order, 23 FCC Rcd at 205960, para. 84 (affirming that, at that time, the public continued
to rely on both radio and television for news and that the two
therefore served as substitutes for diversity purposes); see also
Prometheus II, 652 F.3d at 456-58 (finding that the Commission

135a
cordingly, we find that contributions to viewpoint diversity from platforms such as the Internet and cable, while not primary sources of viewpoint diversity
in local markets, help mitigate any potential loss of
viewpoint diversity that might result from limited
increases in radio/television cross-ownership.191
61.
Importantly, we do not mean to suggest
that broadcast radio stations make no contribution to
viewpoint diversity in local markets—they do. In order to continue to justify the radio/television crossownership limits under Section 202(h), however, we
are compelled to consider these contributions in the
context of the broader marketplace as it exists today,
in which broadcast television, print, cable, and online
sources all contribute to viewpoint diversity. Broadcast radio’s contributions notwithstanding, the wide
selection of sources now available renders the Radio/Television Cross-Ownership Rule obsolete in today’s vibrant media marketplace.
62.
Moreover, we find that because the rule
already permits significant cross-ownership in local
markets, eliminating it will have only a minimal impact on common ownership, as parties will continue
to be constrained by the applicable ownership limits
in the Local Television and Local Radio Ownership
Rules.192
For example, pursuant to the Raprovided “a reasoned explanation” for its decision to retain the
rule).
191 See Second Report and Order, 31 FCC Rcd at 9918-21, paras. 145-49.
192 FNPRM, 29 FCC Rcd at 4467, para. 216 (citing NPRM, 26
FCC Rcd at 17535-36, para. 126).

136a
dio/Television Cross-Ownership Rule, in the largest
markets, entities are permitted to own, in combination, either two television stations and six radio stations or one television station and seven radio stations. The Local Radio Ownership Rule permits an
entity to own a maximum of eight radio stations in a
single market. Therefore, in the largest markets, absent the Radio/Television Cross-Ownership Rule, an
entity approaching the limits of the existing cap will
be permitted to acquire only one additional radio station and remain in compliance with the Local Radio
Ownership Rule. Likewise, an entity with one television station already could acquire only one additional station in these large markets under the Local
Television Ownership Rule. Thus, the effect of eliminating the radio/television cross-ownership rule will
be small and, as discussed above, mitigated by contributions to viewpoint diversity from other media
outlets. In addition, the local ownership limits for
television and radio, while intended primarily to
promote competition, will continue to prevent an undue concentration of broadcast facilities, thereby
preserving opportunities for diverse local ownership,
and are therefore adequate to serve the goals the
Radio/Television Cross-Ownership Rule was intended to promote.193

193 In this order, we deny requests to modify or relax the ownership limitations in the Local Radio Ownership Rule, which
the Commission retained without change in the Second Report
and Order, and although we modify the Local Television Ownership Rule, we find that the revised rule remains sufficient to
protect against excessive consolidation in local television mar-

137a
63.
In light of its limited benefits, we find
that the Radio/Television Cross-Ownership Rule no
longer strikes an appropriate balance between the
protection of viewpoint diversity and the potential
public interest benefits that could result from the efficiencies gained by common ownership of radio and
television stations in a local market, efficiencies that
the Commission has previously recognized.194 For
example, NAB cites numerous Commission studies
that found that radio/television cross-ownership produces public interest benefits, including increased
news and public affairs programming.195 Tribune
also provides examples of how its co-owned radio/television combinations have been able to improve outreach to their local community and work
collaboratively to improve coverage of issues of local
concern.196 The current rule prevents these types of
localism benefits from accruing more broadly, without providing meaningful offsetting benefits to viewpoint diversity. As such, we can no longer justify re-

kets, such that retention of the Radio/Television CrossOwnership Rule is no longer necessary in the public interest.
194 See 2006 Quadrennial Review Order, 23 FCC Rcd at 2060,
para. 83 (noting that the Radio/Television Cross-Ownership
Rule seeks to strike a balance between “protection of diverse
viewpoints and the ‘efficiencies’ and ‘public service benefits’
that can result from ‘joint ownership and operation of both television and radio stations in the same market.’”).
195 See NAB Petition at 15-16 n.38; NAB FNPRM Comments
at 85-86.
196 Tribune NPRM Comments at 77.

138a
tention of the Radio/Television Cross-Ownership
Rule under Section 202(h).197
Minority and Female Ownership. Last64.
ly, consistent with our preliminary view in the
FNPRM, we find that the record fails to demonstrate
that eliminating the Radio/Television CrossOwnership Rule is likely to harm minority and female ownership.198 While broadcast radio remains
an important entry point into media ownership,199
eliminating this rule will not result in significant additional consolidation because of the constraints of
197 In light of the significant common ownership already allowed under the rule, we do not believe it appropriate to modify
and retain the rule, having found that the current rule is no
longer in the public interest under Section 202(h). Indeed, the
record demonstrates that there is no policy justification—
competition, localism, or viewpoint diversity—upon which to
base such a revised rule. Because we are eliminating the Radio/Television Cross-Ownership Rule on the grounds discussed
herein, we need not reach alternative arguments involving the
impact of ownership on viewpoint diversity. See NAB Petition
at 14-15 (arguing that the Commission failed to establish that
diverse ownership of media outlets leads to viewpoint diversity). But see UCC et al. Opposition at 6 (arguing that the Commission cited ample evidence of a connection between ownership of media outlets and the content they deliver).
198 FNPRM, 29 FCC Rcd at 4469-70, para. 222 (noting the
lack of evidence in the record to suggest that eliminating the
rule would harm minority and female ownership or that the
rule has protected or promoted minority or female ownership).
199 UCC et al. FNPRM Comments at 41-43 (arguing that permitting further consolidation would disserve the public interest
because radio provides one of the few entry points into media
ownership for minorities and women and that radio stations
owned by minorities and women promote diversity).

139a
the Local Radio Ownership Rule.200 Furthermore,
there is no evidence that any additional common
ownership that would be permitted as a result of
eliminating the Radio/Television Cross-Ownership
Rule would disproportionately or negatively impact
minority- and female-owned stations. Indeed, the
analyses within the contexts of the Local Television
Ownership Rule and the Local Radio Ownership
Rule suggest that previous relaxations of those rules
have not resulted in reduced levels of minority and
female ownership.201 We find that the record provides no information to suggest that eliminating the
Radio/Television Cross-Ownership Rule will have a
different impact on minority and female ownership.202
65.
In the Second Report and Order, the
Commission found that although the rule could help
promote opportunities for diversity in broadcast television and radio ownership, it was not being retained
for “the purpose of preserving or creating specific
amounts of minority and female ownership.”203 The
Commission’s comment, however, did not indicate a
200 See supra para. 62 & note 193.
201 See Second Report and Order, 31 FCC Rcd 9894-95, 991112, paras. 77, 126.
202 We disagree with the general assertion by UCC et al. that
the Commission cannot modify any of its media ownership rules
without further study of the impact on minority and female
ownership. For a discussion of this issue, see paragraph 47,
supra.
203 See Second Report and Order, 31 FCC Rcd at 9951-52, para. 215.

140a
belief that the rule would promote minority and female ownership specifically, but rather that the rule
would promote ownership diversity generally by requiring the separation of radio and television broadcasters. We cannot justify retaining the rule under
Section 202(h) based on the unsubstantiated hope
that the rule will promote minority and female ownership.
C.

Local Television Ownership Rule
1.

Introduction

66.
Upon reconsideration, we find that the
Local Television Ownership Rule adopted in the Second Report and Order is not supported by the record
and must be modified. Specifically, we eliminate the
requirement that at least eight independently owned
television stations must remain in the market after
combining ownership of two stations in a market
(Eight-Voices Test), as the Commission’s rationale
for retaining the test was unsupported by the record
and we conclude that it is no longer necessary in the
public interest. Furthermore, we adopt a hybrid approach to application of the restriction on ownership
of two top-four ranked stations in the same market
(Top-Four Prohibition) that will include an opportunity for case-by-case evaluation to account for circumstances in which application of the prohibition
may be unwarranted given certain factors affecting a
particular market or a particular transaction.204

204 The text of the revised rule can be found in Appendix A,
hereto.

141a
2.

Background

67.
The Second Report and Order effectively retained the existing Local Television Ownership
Rule (with only a minor technical modification of the
contour overlap provision to reflect the transition to
digital broadcasting), finding that the rule remained
necessary to promote competition. Despite a record
replete with evidence of the significant changes in
the video marketplace, the Commission’s decision
left in place ownership restrictions originally implemented in 1999.205 Under the rule adopted in the
Second Report and Order, an entity may own up to
two television stations in the same market if: (1) the
digital noise limited service contours (NLSCs) of the
stations (as determined by Section 73.622(e) of the
Commission’s rules) do not overlap; or (2) at least
one of the stations is not ranked among the top-four
stations in the market and at least eight independently owned television stations would remain in
the market following the combination.
68.
NAB and Nexstar filed petitions for reconsideration of the Local Television Ownership
Rule, specifically challenging the Top-Four Prohibition and the Eight-Voices Test.206 ACA and UCC et
al. opposed reconsideration, arguing that the petitions failed to identify any material error or omission

205 See Review of the Commission’s Regulations Governing
Television Broadcasting, Report and Order, 14 FCC Rcd 12903,
12924-43, paras. 42-91 (1999) (1999 Ownership Order).
206 See NAB Petition at 1-9; Nexstar Petition at 4-11.

142a
in the Second Report and Order with respect to the
Local Television Ownership Rule.207
3.

Discussion

69.
On reconsideration, we adopt a revised
Local Television Ownership Rule, finding that the
rule adopted in the Second Report and Order is no
longer “necessary in the public interest as a result of
competition.”208 Our revised rule reflects our assessment of both the current video marketplace and
the continued importance of broadcast television stations in their local markets. Specifically, we find
that the Eight-Voices Test is not supported by the
record and must be eliminated. In addition, we modify the Top-Four Prohibition by incorporating a new
case-by-case review process to address evidence in
the record that the prohibition may be unwarranted
in certain circumstances. We find that these modifications to the Local Television Ownership Rule are
not likely to have a negative impact on minority and
female ownership.
70.
In adopting these changes, we reject the
argument made by ACA that reconsideration is inappropriate because petitioners rely on arguments
that have been fully considered and rejected by the
Commission within the same proceeding.209 Neither
the Communications Act nor the Commission’s rules
preclude granting petitions for reconsideration that

207 See ACA Opposition at 8; UCC et al. Opposition at 5-6.
208 1996 Act § 202(h).
209 ACA Opposition at 3-4.

143a
fail to rely on new arguments.210 Commission precedent establishes that reconsideration is generally
appropriate where the petitioner shows either a material error or omission in the original order or raises
additional facts not known or not existing until after
the petitioner’s last opportunity to respond.211
210 See 47 U.S.C. § 405 (“[I]t shall be lawful for . . . the Commission . . ., in its discretion, to grant such a reconsideration if
sufficient reason therefor be made to appear . . . . The Commission, or designated authority within the Commission, shall enter an order, with a concise statement of the reasons therefor,
denying a petition for reconsideration or granting such petition,
in whole or in part, and ordering such further proceedings as
may be appropriate . . . .”); 47 CFR § 1.429 (i) (“The Commission
may grant the petition for reconsideration in whole or in part or
may deny or dismiss the petition. Its order will contain a concise statement of the reasons for the action taken.”). Likewise,
we reject UCC’s claim that reconsideration is not warranted
unless petitioners present new evidence. Letter From Cheryl A.
Leanza, Policy Advisor, UCC OC Inc., to Marlene H. Dortch,
Secretary, FCC, MB Docket Nos. 14-50 et al. (Nov. 9, 2017).
UCC’s reliance on Section 1.429(b) of our rules is misplaced, as
this section does not require petitioners to support their claims
of Commission error with new evidence. 47 CFR § 1.429(b); see
also infra note 211 (discussing circumstances warranting reconsideration).
211 See, e.g., Petition for Reconsideration by Acadiana Cellular
General Partnership, Order on Reconsideration, 20 FCC Rcd
8660, 8663, para. 8 (2006); Universal Service Contribution
Methodology et al., Order on Reconsideration, 27 FCC Rcd 898,
901, para. 8 (2012) (“Reconsideration of a Commission’s decision
may be appropriate when the petitioner demonstrates that the
original order contains a material error or omission, or raises
additional facts that were not known or did not exist until after
the petitioner’s last opportunity to present such matters. If a
petition simply repeats arguments that were previously considered and rejected in the proceeding, the Commission may deny

144a
While the petitioners repeat some arguments made
earlier in this proceeding, they nonetheless provide
valid grounds for the Commission to reconsider its
previous action.212 As discussed below, we find that
the petitioners have identified material errors in the
Second Report and Order warranting reconsideration
of certain aspects of the Local Television Ownership
Rule.
71.
Market. We find that the Commission’s
decision in the Second Report and Order to adopt a
rule focused on promoting competition among broadcast television stations in local television viewing
markets was appropriate given the record compiled
in this proceeding.213 Commenters in this reconsidthem for the reasons already provided.”). Even if a petition is
repetitious, the Commission can, in its discretion, consider it.
See Universal Service Contribution Methodology et al., 27 FCC
Rcd at 901, para. 8 (Commission “may deny” repetitious petition); Application of Paging Systems, Inc., Order on Reconsideration, 22 FCC Rcd 4602, 4604 n.23 (WTB 2007) (considering
repetitious petition on the merits, even though staff could dismiss it); Sequoia Cablevision, 58 FCC 2d 669, 672, para. 6
(1976) (decision by the full Commission partially granting a
repetitious petition for reconsideration of an order denying reconsideration despite procedural objections because “the language of Section 1.106(k)(3) of the Rules [applicable to petitions
for reconsideration of orders denying reconsideration] is permissive, not mandatory”).
212 See NAB Petition at 5-6; Nexstar Petition at 9, 11.
213 See Second Report and Order, 31 FCC Rcd at 9872-75, paras. 23-30. The Commission concluded in the Second Report
and Order that non-broadcast video offerings still do not serve
as meaningful substitutes for local broadcast television and
that competition within a local market motivates a broadcast
television station to invest in better programming and to pro-

145a
eration proceeding—and the proceeding in general—
express conflicting views on the impact of nonbroadcast video sources on the Commission’s market
definition. NAB and Nexstar urge the Commission
to expand the market definition to include nonbroadcast video alternatives, such as online and multichannel video programming distributors (MVPD)
video programming sources.214 On the other hand,
ACA argues that the Commission properly determined in the Second Report and Order that local
broadcast television remains the relevant product
While the video marketplace has
market.215
changed substantially since the current television
ownership limits were adopted in 1999 and since the
last Commission review of these rules concluded in
2008, broadcast television stations still play a unique
and important role in their local communities.216 As
vide programming tailored to the needs and interests of the local community in order to gain market share. Id.
214 NAB Petition at 2-3 (arguing that non-broadcast video
sources should be considered in the relevant market because
they divert audiences and advertisers away from local television stations despite the national focus of online and cable network programming); Nexstar Petition at 8 (asserting that, regardless of whether these other forms of media focus on local
content, new media has an undeniable impact on the competitive realities faced by local television broadcasters).
215 ACA Opposition at 8, 11 (stating non-broadcast video offerings are not meaningful substitutes for local broadcast television and that competition within a local market amongst broadcasters motivates broadcast television stations to invest in better programming tailored to local needs and interests).
216 Second Report and Order, 31 FCC Rcd at 9872-75, paras.
23-30. But see Nexstar Petition at 7-8 (citing a Pew Internet

146a
such, we believe that, on the current record, a rule
focused on preserving competition among local
broadcast television stations is still warranted.
Thus, we do not include other types of video programming providers within the market to which the
restriction applies. We emphasize, however, that
this conclusion could change in a future proceeding
with a different record.
72.
Our finding does not mean, however,
that changes outside the local broadcast television
market should not factor into the Commission’s assessment of the rule under Section 202(h) or that the
Commission is free to retain its existing rule without
any adjustments that take into account marketplace
changes.217
Indeed, television broadcasters’ important role makes it critical for the Commission to
ensure that its rules do not unnecessarily restrict
their ability to serve their local markets in the face of
ever-growing video programming options. Consumers are increasingly accessing video programming
delivered via MVPDs, the Internet, and mobile devices.218 Moreover, the online video distributor
(OVD) industry—which includes entities such as
Netflix and Hulu—continues to grow and evolve. In
study that found the Internet ranked as either the first or second most important source of information for the vast majority
of local subjects examined).
217 See, e.g., Second Report and Order, 31 FCC Rcd at 10060
(Dissenting Statement of Commissioner O’Rielly). We note that
the Commission will consider the state of the marketplace in its
review of the Local Television Ownership Rule in the 2018
Quadrennial Review proceeding.
218 See, e.g., Nexstar Petition at 4-6.

147a
addition to providing on-demand access to vast content libraries, many OVDs are now offering original
programming and/or live television offerings similar
to traditional MVPD offerings.219 The Second Report and Order acknowledged the popularity of these
services but failed to properly account for this in its
analysis. Accordingly, we reconsider the Local Television Ownership Rule and adopt common sense
modifications that will help local television broadcasters achieve economies of scale and improve their
ability to serve their local markets in the face of an
evolving video marketplace.
73.
Eight-Voices Test. Upon reconsideration, we find that the Eight-Voices Test is unsupported by the record or reasoned analysis and is no

219 See, e.g., Seventeenth Video Competition Report, 31 FCC
Rcd at 4529, para. 136 (“In 2015, Netflix secured 34 Emmy
nominations for its original programming, just behind the 41
nominations received by both NBC and CBS and FX’s 38 nominations.”); id. at 4570, para. 224 (“Sony’s PlayStation Vue is a
cloud-based streaming service available in seven major U.S.
cities offering live TV, movies, and sports through their PS3
and PS4 consoles.”). The options for live online streaming services continue to grow. See, e.g., Press Release, Hulu, Hulu
Launches New Live TV Streaming Service, Adds Channels from
Scripps
Network
Interactive
(May
3,
2017),
https://www.hulu.com/press/hulu-launches-new-live-tvstreaming-service-adds-channels-from-scripps-networksinteractive/; Press Release, AT&T, The Revolution is Here:
AT&T Offers 3 Ways to Stream Premium Video Content (Nov.
28,
2016),
http://about.att.com/story/att_offers_three_ways_to_stream_pre
mium_video_content.html.

148a
longer necessary in the public interest.220 Accordingly, we grant the NAB Petition and the Nexstar
Petition with respect to this issue.
74.
Despite the fact that the Commission
has spent years seeking comment regarding the local
ownership rule, the record lacks evidence sufficient
to support the Commission’s decision to retain the
Eight-Voices Test. In the Second Report and Order,
the Commission asserted that competition among
stations affiliated with the Big Four networks (often
the top-four rated broadcast stations in a local market) and at least four independent competitors unaffiliated with a Big Four network motivates all of the
stations in a market to improve their programming,
including providing additional local news and public
interest programming.221 Yet the Commission did
not provide or cite any evidence to support this argument, even though the Eight-Voices Test has been
around since 1999 (more than enough time to observe whether the Eight-Voices Test has been having
the expected impact in local markets).
75.
The Commission also failed to explain
adequately why the number of independent television stations must be equal to the number of topperforming stations in a market. The Commission
stated that a significant gap in audience share per220 See NAB Petition at 5; Nexstar Petition at 11; Sinclair Reply to Opposition at 3; see also Second Report and Order, 31
FCC Rcd at 10053-54 (Dissenting Statement of thenCommissioner Pai).
221 Second Report and Order, 31 FCC Rcd at 9886-87, para.
56.

149a
sists between the top-four rated stations in a market
and the remaining stations in most markets, but it
offered no justification for the notion that the dominance of four top-performing stations must be balanced by an equal number of independent, lowerperforming stations. The Commission provided no
precedent, record evidence, or economic theory to
support this notion. Moreover, a significant gap in
audience share between the top-four stations and the
other stations in a market could also logically justify
permitting the common ownership of non-top-four
stations to form a stronger competitor to the top-four
stations and thus promote competition, even if fewer
than eight independent voices remain.
76.
Instead, the Commission’s primary justification for retaining the Eight-Voices Test apparently stems from the historical use of the number
eight as the proper number of voices when the rule
was revised in 1999 to permit duopoly ownership in
certain circumstances.222 Notably, that decision relied on viewpoint diversity grounds to determine the
appropriate numerical limit.223 The Commission
subsequently determined that the rule was no longer
necessary to promote viewpoint diversity and instead
222 See 1999 Ownership Order, 14 FCC Rcd at 12934, para. 67.
223 Id. (“The ‘eight independent voice’ component of the rule
provides a clear benchmark for ensuring a minimum amount of
diversity in a market. . . . Taking into account current marketplace conditions, the eight voice standard we adopt today
strikes what we believe to be an appropriate balance between
permitting stations to take advantage of the efficiencies of television duopolies while at the same time ensuring a robust level
of diversity.”).

150a
relied on competition to support its adoption of the
exact same voices limit in the 2006 Quadrennial Review Order.224 The Commission, however, offered no
empirical evidence to support this line drawing in
the 2006 Quadrennial Review Order as necessary to
preserve competition, and as discussed above, we
find that the rationale set forth in the Second Report
and Order was flawed. Although the Commission’s
decision to retain the Eight-Voices Test in the 2006
Quadrennial Review Order was upheld in Prometheus II,225 the Commission is obligated under Section 202(h) to justify its broadcast ownership rules
based on the existing record and in light of current
marketplace realities. On reconsideration, we find
no record support for retaining the Eight-Voices
Test, and we conclude that retaining it does not
serve the public interest. Further, as discussed below, the Eight-Voices Test prevents the realization of
224 2006 Quadrennial Review Order, 23 FCC Rcd 2010, 2066,
para. 101 (“While other outlets contribute to the diversity of
voices in local markets, we still find that it is necessary in the
public interest to ensure that there are at least eight independently owned local television stations in order to ensure robust competition for local television viewers and the continued
provision of video programming responsive to the needs and
interest of viewers in local markets.”); see also id. at 2064
(“[T]the Commission’s local television ownership rule promotes
competition . . . within local television markets.”); id. at 2065
(“We conclude that the local television ownership rule is no
longer necessary to foster diversity because there are other outlets for diversity of viewpoint in local markets, and a singleservice ownership restriction is not necessary to foster diversity.”).
225 Prometheus II, 652 F.3d at 459-60.

151a
public interest benefits.
eliminated.226

Accordingly, it must be

77.
The Commission not only failed to provide a reasoned basis for retaining the Eight-Voices
Test; it also ignored evidence in the record demonstrating that the Eight-Voices Test lacks any economic support, is inconsistent with the realities of
the television marketplace, and prevents combinations that would likely produce significant public in226 We also find that the record fails to support the adoption of
a different voice test, e.g., six voices, despite specific requests
for comment on alternative voice tests in this proceeding. See,
e.g., NPRM, 26 FCC Rcd at 17506, para. 46. One commenter
argued for lowering the voice count in general, and another
proposed changing the test to four voices—a proposal we reject
because such a restriction would be redundant given our decision, as discussed below, to retain the Top-Four Prohibition.
See Tribune NPRM Reply at 35; Grant Group NPRM Comments at 9. NAB argued that the Eight-Voices Test should be
eliminated and not replaced with an alternative test. NAB
NPRM Comments at 28-29 (stating that reducing the voice
count to six or seven would not provide adequate relief to
broadcasters). No other commenters offered support for a different voice test. We find no justification for relying on an arbitrary voice count to promote competition, and we conclude that
the public interest is better served by the revised rule we adopt
today, which will allow combinations that will help lower-rated
stations better serve their viewers while preserving the restriction that an entity may not own two top-four rated stations
in a market unless it can demonstrate that such a combination
will serve the public interest and in no event will allow common
ownership of more than two stations in a market, subject to the
contour overlap provision. We find that this is a more effective
way to promote competition and still avoid harms associated
with significant concentration in local markets than an arbitrary “remaining voices” test

152a
terest benefits. Indeed, no commenter has produced
evidence of any other industry where the government
employs an eight-competitor test. In multiple instances, the Commission acknowledged the potential
public interest benefits of common ownership, which
potentially allow a local broadcast station to invest
more resources in news or other public interest programming that meets the needs of its local community.227 We find that the Eight-Voices Test denies the
public interest benefits produced by common ownership without any evidence of countervailing benefits
to competition from preserving the requirement.
Furthermore, these markets—including many small
and mid-sized markets that have less advertising
revenue to fund local programming—are the places
where the efficiencies of common ownership can often yield the greatest benefits.228 Our action in repealing the Eight-Voices Test will enable local television broadcasters to realize these benefits and better
serve their local markets. In particular, the record
suggests that local news programming is typically
one of the largest operational costs for broadcasters;
accordingly, stations may find that common ownership enables them to provide more high-quality local
227 See Second Report and Order, 31 FCC Rcd at 9878, 9881,
paras. 38, 44.
228 See id. at 10053 (statement of then-Commissioner Pai
highlighting the potential benefits achieved by repealing the
Eight-Voices Test); see also Nexstar Petition at 14 (identifying
adverse consequences of the Eight-Voices Test in small markets); Gray June 28 Ex Parte Letter at 4 (arguing that midsized and small markets are especially susceptible to the challenges of decreased revenue and increased operational costs).

153a
programming, especially in revenue-scarce small and
mid-sized markets.229

229 See, e.g., Gray June 28 Ex Parte Letter at 3-4, 7-8. After
the draft order in this proceeding was publicly released, DISH
submitted an economic study based on viewer ratings data applicable to existing combinations of local television stations as
compared with ratings data from independently owned stations
in DMAs deemed comparable to the DMAs served by commonly
owned stations. DISH claims that the study shows that common ownership of local television stations does not produce increased ratings for local programming; therefore, common ownership does not produce higher-quality local programming. See
Letter from Pantelis Michalopoulos & Stephanie A. Roy, Counsel to DISH, to Marlene H. Dortch, Secretary, FCC, MB Docket
Nos. 14-50 et al. (Nov. 9, 2017). We note that DISH provides no
reason it could not have submitted this study earlier in response to broadcasters’ claims that relaxation of the rule would
lead to more locally responsive and higher quality programming. See, e.g., Nexstar Petition at 9 (asserting common ownership of local television combinations leads to an increase in
“local news and high-quality programming”). Thus, it is inexcusably late. 47 CFR § 1.429(b), (f). Moreover, based on our
review of the study, we find that it suffers from significant
methodological issues and fails to provide a sufficient basis upon which to draw any conclusions. For example, the study employs a simplistic analysis covering a small sample size and the
results are highly dependent on the selection of data points,
such as control DMAs, viewing period, and time slot. Furthermore, the analysis fails to address issues of statistical significance regarding viewership, and the cross-sectional analysis
fails to account for other variables that may influence viewership in different markets or otherwise address the cases in the
filing for which viewership is higher in duopoly markets. Ultimately, the study does not undermine our finding that efficiencies gained through common ownership can allow broadcasters
to invest more resources in producing more and higher-quality
locally responsive programming.

154a
78.
Top-Four Prohibition. In contrast to the
Eight-Voices Test, we find that the Commission’s decision in the Second Report and Order to treat combinations of two top-four stations differently from
other combinations is supported in the record. We
therefore deny the NAB Petition and the Nexstar Petition to the extent each requested complete elimination of the Top-Four Prohibition. As discussed below,
however, we find that modification of the Top-Four
Prohibition to include a case-by-case analysis is appropriate in order to address instances in which the
application of the Top-Four Prohibition may not be
warranted based on the circumstances in a particular market or with respect to a particular transaction. This hybrid approach will allow for a more refined application of the Local Television Ownership
Rule that will help facilitate the public interest benefits associated with common ownership in local markets.
79.
The ratings data in the record generally
supported the Commission’s line drawing, and the
potential harms associated with top-four combinations find support in the record.230 We also find that
230 Second Report and Order, 31 FCC Rcd at 9880-81, paras.
43-44. The Commission has repeatedly concluded that the TopFour Prohibition is necessary to promote competition in the local television marketplace. See, e.g., id.; 2006 Quadrennial Review Order, 23 FCC Rcd at 2066-67, para. 102; 2002 Biennial
Review Order, 18 FCC Rcd at 13695, para. 194; see also Prometheus II, 652 F.3d at 460-61 (upholding retention of the TopFour Prohibition in the 2006 Quadrennial Review Order as
supported by “ample evidence in the record”). As the Commission has consistently found, there is generally a “significant
‘cushion’ of audience share percentage points” that “separate[s]

155a
the data were sufficiently recent and uncontradicted
by any newer ratings data in the record, such that it
was appropriate for the Commission to rely on the
data in reaching its decision.231 The Commission
considered alternative arguments and data in the
record and ultimately found that the Top-Four Prohibition, last endorsed in the 2006 Quadrennial Review Order, continued to be supported.232 In arguing that the Top-Four Prohibition should be eliminated, NAB notes that evidence in the record demonstrated that the concerns that the Top-Four Prohibition is intended to address may not be present in
many markets.233 NAB also provides additional information demonstrating that some markets do not
have a gap between the ratings of the fourth- and
the top four stations from the fifth-ranked stations.” Prometheus II, 652 F.3d at 460 (quoting 2006 Quadrennial Review
Order). In the Second Report and Order, the Commission found
that this pattern has not changed. Second Report and Order,
31 FCC Rcd at 9880-81, para. 43. Thus, top-four combinations
would generally result in a single firm’s obtaining a significantly larger market share than other stations and reduced incentives for commonly owned local stations to compete for programming, advertising, and audience shares. Id. at 9881, para.
44.
231 See NAB Petition at 8-9. While we do find the data to be
sufficiently recent in this context, we note that we are approaching the 2018 Quadrennial Review proceeding, in which
the Commission’s broadcast ownership rules, including the TopFour Prohibition, will again be subject to review based on an
updated record.
232 Second Report and Order, 31 FCC Rcd at 9880-81, paras.
43-44.
233 See, e.g., id. at 9880, para. 43 nn.104 & 106.

156a
fifth-ranked stations or that the gap is larger between second- and third-ranked stations in some
markets.234 The Commission has long conceded that
the justification for the Top-Four Prohibition does
not apply in all markets.235 Thus, the rule may prohibit combinations that do not present public interest
harms or that offer potential public interest benefits
that outweigh any potential harms. To this extent,
the bright-line prohibition is over-inclusive. On reconsideration, we believe that it is appropriate to
modify the rule to allow for more flexibility.
80.
In particular, we take steps to mitigate
the potentially detrimental impacts of applying the
Top-Four Prohibition in certain circumstances. In
the Second Report and Order, the Commission conceded the potential public interest benefits from allowing additional common ownership, yet found that
the harms associated with top-four combinations exceeded these benefits.236 This logic no doubt holds
when the rationale for adopting the Top-Four Prohibition applies, though the benefits could exceed the
harms in certain circumstances based on an evalua-

234 See NAB Petition at 8-10.
235 See, e.g., Second Report and Order, 31 FCC Rcd at 9880,
para. 43 n.104; FNPRM, 29 FCC Rcd at 4390, para. 44 n.111;
2002 Biennial Review Order, 18 FCC Rcd at 13694-95, para.
195.
236 Second Report and Order, 31 FCC Rcd at 9881, para. 44.
But see Nexstar Petition at 9-10 (asserting that the Top-Four
Prohibition prevents station combinations that produce public
interest benefits, including an increase in local programming
and news).

157a
tion of the characteristics of a particular market or a
particular transaction.
81.
Instead of relying solely on the brightline application of the Top-Four Prohibition, we are
adopting a hybrid approach that will allow applicants to request a case-by-case examination of a proposed combination that would otherwise be prohibited by the Top-Four Prohibition.237 Such an approach will help mitigate the potential drawbacks
associated with strict application of the Top-Four
Prohibition, while still preserving the ease and efficiency of applying the rule. This revised rule will
continue to promote robust competition in local markets while also facilitating transactions, in appropriate circumstances, that will allow broadcast stations
to achieve economies of scale and better serve their
local viewers.
82.
As we have just discussed, the record
demonstrates the need for flexibility in the applica237 Under a hybrid approach, a rule includes both bright-line
provisions and a case-by-case element to allow for consideration
of market-specific factors. See NOI, 25 FCC Rcd at 6115, paras.
95-96 (seeking comment on whether to adopt a hybrid approach
for any or all of the broadcast ownership rules). Such an approach provides certainty and flexibility when determining
whether a particular transaction should be granted. Though no
party commented on this issue, we find that the record supports
our approach. As discussed herein, special scrutiny of combinations of two top-four rated stations is still supported by the record, though the record also demonstrates a need for flexibility
in addressing circumstances in which application of the TopFour Prohibition may not be appropriate due to the particular
circumstances in a local market. The hybrid approach is well
suited for such circumstances.

158a
tion of the Top-Four Prohibition.238 Given the variations in local markets and specific transactions, however, we do not believe that applicants would be well
served by a rigid set of criteria for our case-by-case
analysis. The record does, however, suggest the
types of information that applicants could provide to
help establish that application of the Top-Four Prohibition is not in the public interest because the reduction in competition is minimal and is outweighed
by public interest benefits. Such information regarding the impacts on competition in the local market
could include (but is not limited to): (1) ratings share
data of the stations proposed to be combined compared with other stations in the market; (2) revenue
share data of the stations proposed to be combined
compared with other stations in the market, including advertising (on-air and digital) and retransmission consent fees;239 (3) market characteristics, such
238 See supra paras. 79-81.
239 We disagree with the American Television Alliance’s
(ATVA) contention that affording licensees a case-by-case opportunity to seek approval of top-four combinations cannot “be
squared” with the bright-line rule adopted in the Commission’s
2014 Retransmission Consent Report and Order. Letter from
Michael Nilsson, Counsel to ATVA, to Marlene Dortch, Secretary, FCC, MB Docket Nos. 14-50 et al. at 6 (Aug. 17, 2017)
(ATVA Aug. 17, 2017 Ex Parte Letter) (citing Amendment of the
Commission’s Rules Related to Retransmission Consent, Report
and Order, 29 FCC Rcd 3351 (2014) (2014 Retransmission Consent Report and Order)). There, the Commission concluded that
the potential competitive harms arising from joint negotiation
of retransmission consent by non-commonly owned stations
outweighed the potential benefits and determined that a brightline prohibition would be “more administratively efficient” than
case-by-case review because it would provide the bargaining

159a

parties with “advance notice of the appropriate process for such
negotiation.” 2014 Retransmission Consent Report and Order,
29 FCC Rcd at 3358, 3364, paras. 12, 18. Here, however, the
result of the Commission’s case-by-case review of proposed topfour combinations will provide bargaining parties with advance
notice of whether joint retransmission consent negotiations for
the two stations in question will be allowed. Moreover, common
ownership of two top-four stations implicates a broader range of
potential benefits and harms than a narrow agreement between
two top-four stations to jointly negotiate retransmission consent
so there is no inherent inconsistency between adopting a brightline rule in the latter case and a case-by-case review in the former case. Additionally, we reject ATVA’s contention that
adopting a case-by-case review is inconsistent with the statute.
ATVA Aug. 17, 2017 Ex Parte Letter at 6. To the extent that
the existing Top-Four Prohibition is overbroad given the current state of competition, as we conclude here, then the existing
prohibition, absent modification, is “not necessary in the public
interest as a result of competition” and should be modified. See
1996 Act § 202(h) (“The Commission shall repeal or modify any
regulation it determines to be no longer in the public interest.”).
Moreover, in adopting this approach, we decline to adopt specific criteria related to the issue of retransmission consent, as recently advocated by some commenters. See Letter from Rick
Chessen, Senior Vice President, Law and Regulatory Policy,
NCTA – The Internet & Television Association, to Marlene
Dortch, Secretary, FCC, GN Docket No. 16-142 et al. (Nov. 6,
2017); Letter from Michael Nilsson, Counsel to ATVA, to Marlene Dortch, Secretary, FCC, MB Docket Nos. 14-50 et al. (Nov.
3, 2017). But see Letter from Rick Kaplan, General Counsel
and Executive Vice President, Legal and Regulatory Affairs,
NAB, to Marlene Dortch, Secretary, FCC, MB Docket Nos. 14150 et al. (Nov. 9, 2017) (objecting to inclusion of specific retransmission consent-related criteria). Instead, as discussed
herein, we believe that the case-by-case review process will allow parties to advance any relevant concerns—including concerns related to retransmission consent issues—in the context
of a specific proposed transaction if such issues are relevant to
the particular market, stations, or transaction. Similarly, we

160a
as population and the number and types of broadcast
television stations serving the market (including any
strong competitors outside the top-four rated broadcast television stations); (4) the likely effects on programming meeting the needs and interests of the
community; and (5) any other circumstances impacting the market, particularly any disparities primarily impacting small and mid-sized markets.240 Applireject Independent Television Group’s recommendation that we
adopt a presumption in favor of top-four combinations in small
and mid-sized markets. See Letter from Jack N. Goodman,
Counsel to the Independent Television Group, to Marlene
Dortch, Secretary, FCC, MB Docket No. 14-50, at 4-5 (Nov. 8,
2017). ITG provides no evidence sufficient to support such a
presumption. It simply relies on NAB’s assertion in its 2014
comments that in some markets, there may have been significant disparities in audience share among some of the top-four
rated stations. The case-by-case analysis is not weighted in
favor of transactions in any particular market, and applicants
in small and mid-sized markets will be able to provide marketspecific evidence supporting their requests.
240 See, e.g., Gray June 28 Ex Parte Letter at 2-6 (identifying
circumstances where factors such as revenue data, operation
costs, market size, and lack of local news in some markets may
inform consideration for relief from common ownership prohibitions in smaller markets). Gray proposes that, at least in
smaller markets, two stations be permitted to combine ownership if one of the stations has not produced a local newscast in
the previous two years. Id. at 6. We find, however, that market
characteristics and the state of local programming, including
local news offerings, are better considered in our case-by-case
analysis at this time. We anticipate that any transactions processed under this case-by-case approach will help inform any
consideration of specific criteria that could be included in any
future revision of the Local Television Ownership Rule, which
will be reviewed again in the forthcoming 2018 Quadrennial
Review proceeding.

161a
cants are encouraged to provide data over a substantial period (e.g., the past three years, similar to the
requirement in the failing/failed station waiver test)
to strengthen their request and to help avoid circumvention of the Top-Four Prohibition based on anomalous data over a short period of time or manipulation
of program offerings prior to the proposed transaction. In the end, applicants must demonstrate that
the benefits of the proposed transaction would outweigh the harms, and we will undertake a careful
review of such showings in light of the record with
respect to each such application.241
83.
Minority and Female Ownership. We
find that the modifications we adopt to the Local Television Ownership Rule are not likely to harm minority and female ownership. As noted in the Second
Report and Order, data in the record demonstrate
that relaxation of the Local Television Ownership
Rule in 1999 did not have a negative impact on overall minority ownership levels.242 In this lengthy
proceeding, no party has presented contrary evidence
or a compelling argument demonstrating why relaxing this rule will have a different impact. Indeed,
consistent with the Second Report and Order, we
find that the record does not support a causal connection between modifications to the Local Television
241 See Letter from Representatives Anna G. Eshoo and Michael F. Doyle to Ajit Pai, Chairman, FCC (Nov. 8, 2017) (expressing concerns regarding the case-by-case approach).
242 See Second Report and Order, 31 FCC Rcd at 9894-95, para. 77 (showing an overall increase in minority ownership in the
years following relaxation of the rule).

162a
Ownership Rule and minority and female ownership
levels.243
84.
In the Second Report and Order, the
Commission stated that ensuring the presence of independently owned broadcast television stations in
the local market indirectly increases the likelihood of
a variety of viewpoints and preserving ownership opportunities for new entrants. The Commission’s
comment, however, did not indicate a belief that the
rule would promote minority and female ownership
specifically, but rather that the rule would promote
ownership diversity generally by limiting common
ownership of broadcast television stations. This
statement will continue to be true with respect to the
revised rule that we adopt today. Under Section
202(h), however, we cannot continue to subject
broadcast television licensees to aspects of the Local
Television Ownership Rule that can no longer be justified based on the unsubstantiated hope that these
restrictions will promote minority and female ownership.244

243 See id. at 9895, para. 78.
244 1996 Act § 202(h). In addition, we disagree with the general assertion by UCC et al. that the Commission cannot modify
any of its media ownership rules without further study of the
impact on minority and female ownership. For a discussion of
this issue, see paragraph 47, supra. We also disagree with assertions by MMTC and NABOB that the rules can be retained
based on promoting news coverage of specific issues. See Letter
from David Honig, President Emeritus and Senior Advisor,
MMTC, to Marlene H. Dortch, Secretary, FCC, MB Docket Nos.
14-50 et al. (Nov. 9, 2017) (MMTC/NABOB Nov. 9, 2017 Ex

163a
85.
Incentive Auction. We reiterate that it
remains premature to analyze the implications of the
incentive auction on the Local Television Ownership
Rule.245 Contrary to the position of certain parties,
the Commission cannot—and did not in the Second
Report and Order—use the auction as an excuse for
delaying action and refusing to fulfill its obligations
under Section 202(h).246 While we find fault today
in the prior Commission’s decision to retain the existing television ownership restrictions without modification, the incentive auction was not a factor in
that decision. Instead, the Commission properly
found that it could not delay a decision on its rules
because of the auction nor could it adopt changes to
its rules based on speculation as to the final results
Parte) (submitted on behalf of MMTC and NABOB with accompanying Fact Sheet).
245 Second Report and Order, 31 FCC Rcd at 9895-96, paras.
79-81.
246 See UCC et al. Opposition at 3-4 (arguing that the Commission may not repeal or significantly alter the local television
rule until it can determine how the incentive auctions will affect minority and female ownership). But see NAB Reply to
Oppositions at 6 (arguing that Section 202(h) does not include a
“wait and see” exception and that the Commission erred in not
modifying the rule to account for the reduction in television stations likely to result from the incentive auction); NMA Reconsideration Reply Comments at 2-3 (disputing the claim that the
Commission may not reconsider any of its media ownership
rules until it conducts a study of the impact of any changes on
minority and female ownership and assesses the results of the
television incentive auction); Nexstar Reply to Oppositions at 9
(pointing out that Congress did not include an exemption or
delay to the Commission’s quadrennial review duties when enacting the incentive auction legislation).

164a
of the auction. We agree. Section 202(h) compels the
Commission to act on the record before it and determine whether to retain, repeal, or modify the Local
Television Ownership Rule based on the realities of
the current marketplace, which we have done.247
Though the auction has finished, it is still too soon to
evaluate its impacts on the television marketplace.248 As noted in the Second Report and Order,
the Commission will evaluate the broadcast marketplace post-auction, and we expect that these issues
will be considered in the forthcoming 2018 Quadrennial Review proceeding.249
D.

Local Radio Ownership Rule
1.

Introduction

86.
We deny in part and grant in part Connoisseur’s petition for reconsideration of the Commission’s decision in the Second Report and Order to
retain the current methodology for determining com247 See 1996 Act § 202(h).
248 While there is still time for stations to change their postauction channel sharing elections, the initial results of the auction suggest that the auction may not have a significant impact
in the context of the Local Television Ownership Rule, as the
overwhelming majority of commercial, full-power winning bidders have elected to channel share once they surrender their
spectrum. See Incentive Auction Closing and Channel Reassignment Public Notice, Public Notice, DA 17-314, Appx. A
(MB/WTB Apr. 13, 2017) (detailing channel sharing elections of
winning bidders in reverse auction). We will continue to monitor these elections as part of our continuing efforts to assess the
impact of the auction on the television marketplace.
249 Second Report and Order, 31 FCC Rcd at 9896, para. 81.

165a
pliance with the Local Radio Ownership Rule in
markets containing embedded markets (i.e., smaller
markets, as defined by Nielsen Audio, that are included in a larger parent market).250 As discussed
in more detail below, we do not find that the Commission acted arbitrarily in the Second Report and
Order when it rejected Connoisseur’s proposal for a
blanket change to our embedded market methodology. At the same time, as explained below, we grant
Connoisseur’s petition to the extent it seeks a presumption that would apply its two-prong test for
waiver requests involving existing parent markets
with multiple embedded markets pending further
consideration of this issue in the 2018 Quadrennial
Review proceeding.251
2.

Background

87.
In the Second Report and Order, the
Commission retained the existing Local Radio Ownership Rule and adopted certain clarifications and
250 See generally Connoisseur Petition; see also Second Report
and Order, 31 FCC Rcd at 9903-04, paras. 101-03.
251 See Connoisseur Petition at 13 (“[O]wnership should be
reviewed by the following two tests: (1) whether the ownership
of the stations in question comply with the ownership rules in
the embedded market to which they are home (using the Nielsen data for that market), and (2) whether the ownership of the
stations in question comply with the ownership rules using the
contour methodology that would apply in non-rated markets.”);
see also Letter from David Oxenford, Counsel to Connoisseur
Media, LLC, to Marlene H. Dortch, Secretary, FCC, MB Docket
Nos. 09-182 and 14-50 (filed Nov. 9, 2017) (Connoisseur Nov. 9,
2017 Ex Parte) (reiterating its support for a presumptive waiver
approach).

166a
other actions that were designed to fulfill the intent
of the revisions to the rule adopted in the 2002 Biennial Review Order.252 Under the rule, the total
number of radio stations that may be commonly
owned in a local radio market is tiered, depending on
the total number of full-power commercial and noncommercial radio stations in the market.253 For example, in markets with 45 or more radio stations, an
entity can own no more than eight commercial radio
stations, no more than five of which may be in the
same service (AM or FM).254 The rule relies on Nielsen Audio Metro methodology for determining radio
markets, though areas outside of defined Nielsen
Audio Metro markets rely on a contour-overlap
methodology. In some instances, smaller Nielsen
Audio Metro markets (embedded markets) are located within the boundaries of a larger Nielsen Audio
Metro market (parent market). Under our existing
methodology, entities seeking to acquire a radio station in an embedded market must satisfy the numer-

252 See Second Report and Order, 31 FCC Rcd at 9897-9910,
paras. 82-120.
253 See 47 CFR § 73.3555(a).
254 See id. In addition, the Local Radio Ownership Rule includes separate ownership limits for radio markets with 30-44
radio stations, markets with 15-29 stations, and markets with
14 or fewer stations. Id. In the Second Report and Order, the
Commission retained the local radio ownership limits, including
the AM/FM subcaps, which separately limit the number of stations from the same service—AM or FM—that an entity may
own in a single market. See Second Report and Order, 31 FCC
Rcd at 9897, 9907-10, paras. 82-83, 113-20.

167a
ical limits of the rule for both the embedded market
and the overall parent market.255
88.
In the 2002 Biennial Review Order,
which adopted the Nielsen Audio Metro (formerly
Arbitron Metro) methodology for determining radio
markets, the Commission concluded that “[Nielsen
Audio’s] market definitions are an industry standard
and represent a reasonable geographic market delineation within which radio stations compete.”256 The
Commission further concluded that “[g]iven the longstanding industry recognition of the value of [Nielsen
Audio’s] service, . . . there is strong reason to adopt a
local radio market definition that is based on this established industry standard.”257 In the 2002 Biennial Review Order, the Commission also expressly
declined to treat embedded markets differently.258
Specifically, the Commission found that requiring
proposed combinations to comply with the Local Radio Ownership Rule in each Nielsen Audio Metro implicated by the proposed combination (i.e., in both
the embedded and parent markets) “comports with
our general recognition that [Nielsen Audio’s] mar255 See Second Report and Order, 31 FCC Rcd at 9903, para.
101.
256 2002 Biennial Review Order, 18 FCC Rcd at 13725, para.
276.
257 Id.
258 Id. at 13725-26, para. 276 & n.580 (rejecting a proposal to
apply a different test for embedded markets because the Commission concluded the proposed scheme would be inconsistent
with the general reliance on Nielsen Audio’s market definition
and cumbersome to administer).

168a
ket definitions are the recognized industry standard.”259
89.
In this proceeding, Connoisseur proposed that the Commission adopt a new methodology
for analyzing embedded markets, namely, that where
a parent market encompasses multiple embedded
markets, the ownership analysis for an acquisition in
one embedded market should not include stations
owned in other embedded markets within the same
parent market.260 In the Second Report and Order,
the Commission declined to adopt Connoisseur’s proposal, finding that Connoisseur had not presented
sufficient evidence to warrant an across-the-board
departure from the Commission’s longstanding reliance on Nielsen Audio’s market analysis, as reported
by BIA, as the basis for multiple ownership calculations for embedded and parent markets.261
90.
Connoisseur now seeks reconsideration
of the decision to retain the existing methodology for
embedded markets and asks us to adopt a new twopronged test for a station owner that seeks to own
stations licensed to home counties (i.e., the county in
which the station’s community of license is geographically located) in different embedded markets within
a single parent market.262 Connoisseur argues that,
259 Id.
260 Connoisseur FNPRM Comments at 8.
261 See Second Report and Order, 31 FCC Rcd at 9903-04, para. 102.
262 Connoisseur Petition at 13-14; see also Letter from Jeffrey
Warshaw, CEO, Connoisseur Media, LLC, to Ajit Pai, Chair-

169a
as a result of the Commission’s existing methodology,
a broadcaster which owns stations in one embedded
market may be precluded from owning stations in
another embedded market, despite the lack of competitive overlap between those markets.263 NAB
man, FCC, MB Docket Nos. 14-50 and 09-182, at 3 (filed July 5,
2017) (urging the Commission to act on Connoisseur’s proposal
on reconsideration rather than in a future proceeding). Consistent with the Commission’s current methodology, under the
first part of Connoisseur’s proposed test, a station owner would
be required to comply with the numerical ownership limits using the Nielsen Audio Metro methodology in each embedded
market. Under the second part, however, the station owner
would be required to comply with the ownership limits using a
contour-overlap methodology in lieu of the Commission’s current parent market analysis. Id. at 13.
263 Connoisseur Petition at ii. In addition to the timely filed
Connoisseur Petition, the Commission received several requests
via ex parte letters—filed more than three months after the
deadline for the filing of petitions for reconsideration—asking
that we reexamine other aspects of the Local Radio Ownership
Rule. See, e.g., Letter from Sally A. Buckman, Lerman Senter
PLLC, Counsel for Galaxy Communications LLC, to Marlene H.
Dortch, Secretary, FCC, MB Docket Nos. 14-50 and 09-182, at 2
(filed Mar. 10, 2017) (asserting that, given evidence in the record of increasing competition between local radio stations and
other media, the Commission should “substantially relax the
existing local radio ownership caps in all markets”); Letter from
Bob Proffitt, President & CEO, Alpha Media LLC et al., to Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 14-50 and 09182, at 1-2 (filed Mar. 2, 2017) (requesting that the Commission
eliminate the AM/FM subcaps on reconsideration based on “record evidence that any technical and marketplace dynamics that
may once have differentiated AM and FM stations no longer
exist”); Dick Broadcasting Mar. 24, 2017 Ex Parte (stating that
“continued applicability of the [AM/FM] subcaps warrants a
hard look from the Commission”). But see Letter from James L.
Winston, President, National Association of Black Owned

170a
supports Connoisseur’s petition for reconsideration
and suggests an additional refinement to Connoisseur’s proposal.264

Broadcasters, to Hon. Ajit Pai, Chairman, FCC, MB Docket
Nos. 14-50 et al., at 2-5 (filed Apr. 7, 2017) (arguing that continued technological and marketplace disadvantages for AM
radio stations supports retention of the AM/FM subcaps); Letter
from Saul Levine, President, Mount Wilson FM Broadcasters,
Inc., to Hon. Ajit Pai, Chairman, FCC, MB Docket Nos. 14-50 et
al., at 1-4 (filed May 11, 2017) (opposing the loosening of local
radio ownership limits). As discussed above, we decline to reconsider issues that were not included in a timely filed petition
for reconsideration. See supra note 3. We note that the Local
Radio Ownership Rule, in its entirety, will be subject to review
again in the upcoming 2018 Quadrennial Review proceeding,
and we encourage interested parties to submit comments and
proposals in that proceeding.
264 Letter from Rick Kaplan, General Counsel and Executive
Vice President, Legal and Regulatory Affairs, National Association of Broadcasters, to Marlene H. Dortch, Secretary, FCC, MB
Docket Nos. 14-50 and 09-182, at 2 (filed Mar. 10, 2017) (NAB
Mar. 10, 2017 Ex Parte) (proposing that stations licensed in
embedded markets with signal coverage of less than 50 percent
of the parent market’s population would not be considered part
of the parent market for purposes of local ownership limit calculations); see also Letter from David Oxenford, Counsel to Connoisseur Media, LLC, to Marlene H. Dortch, Secretary, FCC,
MB Docket Nos. 09-182 and 14-50, at 1 (filed Apr. 17, 2017)
(Connoisseur Apr. 17, 2017 Ex Parte) (supporting NAB’s proposal). We will consider NAB’s alternate methodology (which
was not included as part of a timely filed petition for reconsideration or otherwise submitted during the window for reconsideration petitions, oppositions, and replies) in the forthcoming
2018 Quadrennial Review proceeding. In addition, well after
the close of the reconsideration pleading window, various other
parties expressed support for Connoisseur’s petition. See Letter
from Rich Russo, Director of Client Services, JL Media, Inc., to

171a
3.

Discussion

91.
We deny in part and grant in part Connoisseur’s petition for reconsideration. First, we find
that the Commission’s decision to not adopt a blanket change to the current methodology was supported by a reasoned explanation. Second, we find that
the Commission’s decision to adopt a contour-overlap
methodology for the Puerto Rico market is not at
odds with the approach the Commission took regarding embedded markets. Finally, we grant Connoisseur’s alternative request to adopt a presumptive
waiver approach for existing parent markets with
multiple embedded markets.265
92.
We find that the Commission provided a
reasoned explanation for its decision in the Second
Report and Order to not adopt a blanket change to
the current embedded market methodology. Connoisseur argues that the Commission acted arbitrarily in deciding to retain the current methodology.266
In particular, Connoisseur maintains that counting
stations from multiple embedded markets for pur-

Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 14-50 and
09-182, at 1-3 (filed July 7, 2017); Letter from Lawrence M. Miller, Garvey Schubert Barer, Counsel to Pamal Broadcasting,
Ltd., to Marlene H. Dortch, Secretary, FCC, MB Docket Nos.
14-50 and 09-182, at 1-2 (filed July 5, 2017).
265 See, e.g., Letter from Melissa Newman, Counsel to Connoisseur Media, LLC, to Marlene H. Dortch, Secretary, FCC,
MB Docket Nos. 09-182 and 14-50 (filed July 20, 2017) (Connoisseur July 20, 2017 Ex Parte) (reiterating its support for a
presumptive waiver approach).
266 Connoisseur Petition at 12-13.

172a
poses of calculating compliance with the numerical
limits in the parent market is unreasonable because
stations in embedded markets do not compete in any
meaningful way with stations in other embedded
markets or stations in the central city of the parent
market.267 The Commission noted in the Second
Report and Order, it has long relied on Nielsen Audio’s market analysis, as reported by BIA, which lists
all the stations that are deemed to compete in a given market (often referred to as “above-the-line” stations), as the basis for multiple ownership calculations for embedded and parent markets.268 The
Commission found that the Nielsen-defined markets
are the primary means by which broadcasters and
advertisers place a value on advertising sold by stations listed as participating in the market.269 Nielsen Audio’s market definitions are recognized as the
industry standard and provide for consistency and
ease of application in comparison to other possible

267 Id. at 2-10; Letter from David Oxenford, Counsel to Connoisseur Media, LLC, to Marlene H. Dortch, Secretary, FCC,
MB Docket Nos. 09-182 and 14-50, at 5 (filed May 8, 2017)
(Connoisseur May 8, 2017 Ex Parte) (arguing that the Commission’s longstanding adherence to a policy adopted in 2003
“should not preclude it from correcting that error a decade and
a half later”).
268 See Second Report and Order, 31 FCC Rcd at 9903-04, para. 102 (noting the continued validity of the Commission’s reasoning—first articulated in 2003—for adopting the embedded
market policy and rejecting alternative approaches).
269 2002 Biennial Review Order, 18 FCC Rcd at 13725, para.
276.

173a
methods for defining local radio markets.270 The inclusion of an embedded market station as an abovethe-line station in a parent market therefore has
long been thought to reflect a determination by Nielsen Audio that, absent other information, the station
competes in that market.271 We note that our continued reliance on Nielsen Audio market definitions
for purposes of applying the Local Radio Ownership
270 See Second Report and Order, 31 FCC Rcd at 9903-04, para. 102; 2002 Biennial Review Order, 18 FCC Rcd at 13720,
13725, paras. 259-60, 276.
271 See Second Report and Order, 31 FCC Rcd at 9903-04, para. 102. In an ex parte submission following the release of the
Public Draft of this item, Connoisseur highlights the Commission’s decision regarding the inclusion of embedded market stations as “above-the-line” stations in the parent market. Letter
from David Oxenford, Counsel to Connoisseur Media, LLC, to
Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 09-182
and 14-50 (filed Oct. 30, 2017) (Connoisseur Oct. 30, 2017 Ex
Parte); see also id. at Exh. 1 (“[L]isting of an embedded station
in the parent market report does not reflect a determination by
Nielsen Audio nor BIA/Kelsey that, absent other information,
the station competes in that parent market. It just reflects that
their city of license is geographically located within the boundaries of the parent market. It is a reflection of geography, not an
analysis of competition.”). Although Nielsen has historically
defined what stations compete in a market based on geographical market boundaries, and the Commission’s rules have relied
on these determinations in determining compliance with our
ownership caps, the Connoisseur Oct. 30, 2017 Ex Parte raises
issues related to embedded markets that should be further explored in greater detail in the 2018 Quadrennial Review proceeding. However, the arguments in the ex parte letter support
our decision to adopt a presumptive waiver approach for transactions involving existing parent markets with multiple embedded markets. See infra para. 95.

174a
Rule provides an important level of certainty to radio
licensees in all markets, including those in embedded
markets, and overcomes disadvantages associated
with the contour-overlap approach.272
93.
We also find that the Commission’s decision in the Second Report and Order to adopt a contour-overlap methodology for the Puerto Rico market
is not inconsistent with the approach to embedded
markets. Connoisseur argues that parent markets
containing multiple embedded markets are analogous to the Puerto Rico market where mountainous
topography, as opposed to a central city, separates
smaller centers of economic activity within the larger
parent market.273 Accordingly, Connoisseur asserts
that the contour-overlap methodology the Commission applies to the Puerto Rico market likewise
should be applied in the context of embedded markets in lieu of the Commission’s current parent market analysis.274 We find that differences between
the Puerto Rico market and a parent market that includes embedded markets make the comparison between the two circumstances inappropriate. As one
example, the core location of a station’s listenership
has the potential to shift geographically over time in
a parent/embedded market scenario in a way that
272 See 2002 Biennial Review Order, 18 FCC Rcd at 13718-21,
13724-30, paras. 253-63, 273-86 (describing the advantages of
using the Nielsen Audio Metro (formerly Arbitron Metro) methodology where available as compared with the contour-overlap
methodology).
273 Connoisseur Petition at 12-14.
274 Id.

175a
would be unlikely, or even impossible, where, as in
Puerto Rico, the physical terrain prevents a station
from reaching other geographic areas.275 Indeed,
the Commission has long stated that the Puerto Rico
market is “unique,” even as compared to other large
metro areas.276 We therefore find that the Commission’s decision to retain the existing methodology for
embedded markets is not undermined by its decision
to adopt a contour-overlap methodology in Puerto Rico.
94.
For these reasons, we continue to find
that, rather than adopting Connoisseur’s proposal for
an across-the-board change to our embedded market
methodology, entertaining a market-specific waiver
is the appropriate approach at this time.277 In the
Second Report and Order, the Commission acknowledged Connoisseur’s concerns with respect to the
particular characteristics of the current New York
market and indicated its willingness to entertain a
waiver specific to that market, a willingness we reit-

275 See, e.g., WTOK-FM, San Juan, PR, Letter Order, 27 FCC
Rcd 7066, 7073-75 (MB 2012) (describing the “unique” characteristics of Puerto Rico that make it unlikely a station on one
side of the island can be heard, let alone compete, in other parts
of the island).
276 Id. at 7073-74. We also note that the Commission has a
long history—dating back to 2003—of applying the contouroverlap methodology to Puerto Rico on a case-by-case basis due
to the unique characteristics of that market. Second Report
and Order, 31 FCC Rcd at 9907, paras. 111-12.
277 See Second Report and Order, 31 FCC Rcd at 9904, para.
103.

176a
erate herein.278 Ultimately, the issue continues to
appear narrow in scope—largely specific to a small
number of parties’ concerns with at most two markets.279
95.
Accordingly, we find Connoisseur’s argument regarding a presumptive waiver approach to
278 See id.
279 The circumstances Connoisseur describes could apply currently to, at most, two markets—New York City and Washington, D.C. See Connoisseur Petition at 9-10. In response to the
FNPRM in this proceeding, Connoisseur provided detailed
analysis only with respect to the New York market. See Second
Report and Order, 31 FCC Rcd at 9903, para. 101; Connoisseur
May 8, 2017 Ex Parte at 4-5 (stating that Connoisseur assumed
facts regarding the Washington, D.C. market were “self-evident
or could be easily verified by FCC personnel”). More recently,
Connoisseur submitted supplemental analysis for embedded
markets in the Washington, D.C. parent market. Letter from
David Oxenford, Counsel to Connoisseur Media, LLC, to Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 09-182 and 1450 (filed June 6, 2017) (Connoisseur June 6, 2017 Ex Parte).
We note, however, that embedded market designations are subject to change, with the potential for embedded markets to be
created, modified, or eliminated in the future. For instance, in
addition to New York and Washington, D.C., Connoisseur previously had identified San Francisco as an example of a parent
market with two embedded markets. One of those embedded
markets, however, is no longer rated by Nielsen. Accordingly,
the San Francisco market now includes only one embedded
market and is therefore no longer relevant to the issues discussed in Connoisseur’s petition, which pertain solely to parent
markets containing multiple embedded markets. Connoisseur
Petition at 4 n.5. As such, the potential impact of a proposed
transaction involving embedded market stations may vary
based on the specific markets, stations, and ownership interests
involved.

177a
be persuasive. While a bright-line rule codifying
Connoisseur’s preferred approach to embedded markets would no doubt provide greater certainty, as
discussed herein, we do not believe that such an approach is supported by the record at this time. Instead, we intend to fully examine our existing methodology regarding embedded market transactions in
the forthcoming 2018 Quadrennial Review proceeding. Pending the outcome of this review, however,
we adopt a presumption in favor of applying Connoisseur’s two-prong test proposed on reconsideration to waiver requests involving existing parent
markets with multiple embedded markets (i.e., New
York and Washington, DC).280 We find that there is
sufficient evidence on the record to support a presumption that a waiver of the Local Radio Ownership Rule as to stations in these markets serves the
public interest if the transaction at issue satisfies the
two prong test.281 Adoption of this presumption will
280 See Connoisseur Petition at 13.
281 Pursuant to Section 310(d) of the Act, we must make a
public interest determination with respect to any future applications based on the entire record with respect to that application. Throughout the proceeding, Connoisseur has provided
information demonstrating that, due to the particular circumstances in these markets, applying the existing market methodology may not be warranted. See, e.g., Connoisseur Nov. 9,
2017 Ex Parte; Connoisseur June 6, 2017 Ex Parte; Connoisseur
FNPRM Comments. These showings provide us with sufficient
confidence that transactions consistent with this presumption
likely will not unduly impact competition in these markets, subject to the Commission’s review under Section 310(d). We find,
however, that it is appropriate to limit the presumption to these
markets (New York and Washington, DC), pending review in

178a
give Connoisseur—and other parties—sufficient confidence with which to assess possible future actions.
Further, we anticipate that any such transactions
will help inform our subsequent review of the Local
Radio Ownership Rule—and, in particular, the
treatment of embedded market transactions.
IV.

TELEVISION JSA ATTRIBUTION
A.

Introduction

96.
On reconsideration, we find that the
Commission erred in its decision to adopt the Television JSA Attribution Rule. The underlying record
did not support a finding of attribution and the
Commission failed to properly consider the record
evidence regarding the public interest benefits that
television JSAs provide. Accordingly, based on a full
consideration of the record, we eliminate the Television JSA Attribution Rule.282

the 2018 Quadrennial Review proceeding, to avoid any potential manipulation of embedded markets in other Nielsen Audio
markets.
282 In addition to the grounds upon which we are eliminating
the Television JSA Attribution Rule, petitioners asserted alternative justifications for reversing the Commission’s decision to
attribute certain television JSAs. For example, the petitioners
also argue that the attribution decision must be reversed on the
grounds that (1) the decision had the effect of tightening the
media ownership rules, and that the Commission failed to
properly analyze the impact of the attribution decision as required under Section 202(h) of the 1996 Telecommunications
Act; and (2) the decision was inconsistent with the Commission’s repeal of the wireless attributable material relationship
(AMR) rule. See NAB Petition at 11-12; Nexstar Petition at 2324. Because the Commission is reversing its decision to adopt

179a
B.

Background

97.
A JSA is an agreement that authorizes
one station (the broker or the brokering station) to
sell some or all of the advertising time on another
station (the brokered station).283 The Report and
Order contains a detailed discussion of JSAs and the
lengthy history of the Commission’s consideration of
these agreements, which we incorporate herein.284
In relevant part, the Commission first considered
whether to attribute television JSAs in 1999. It declined to do so, finding that JSAs did not convey a
sufficient degree of influence or control over station
programming or core operations to warrant attribution and that JSAs helped produce public interest
The Commission sought additional
benefits.285
comment on this conclusion in a 2004 notice of proposed rulemaking after attributing radio JSAs in the
2002 Biennial Review Order.286 Then in 2014, nearthe Television JSA Attribution Rule on other grounds, we need
not reach these arguments.
283 47 CFR § 73.3555, Note 2(k).
284 Report and Order, 29 FCC Rcd at 4527-31, paras. 342-48.
285 Review of the Commission’s Regulations Governing Attribution of Broadcast and Cable/MDS Interests, Report and Order,
14 FCC Rcd 12559, 12612, para. 122 (1999) (1999 Attribution
Order).
286 See Rules and Policies Concerning Attribution of Joint
Sales Agreements in Local Television Markets, Notice of Proposed Rulemaking, 19 FCC Rcd 15238 (2004) (2004 Television
JSA Attribution NPRM); see also 2002 Biennial Review Order,
18 FCC Rcd at 13743, para. 317 (attributing same-market radio
JSAs). The Commission relied on the decision to attribute radio
JSAs and the 2002 Ackerley case to justify its decision to seek

180a
ly a decade after initially seeking comment on the
issue, the Commission changed course and adopted
the Television JSA Attribution Rule, despite a lack of
evidence suggesting that its prior determination that
television JSAs do not convey sufficient influence or
control to warrant attribution was wrong.287 Specifically, the rule established that JSAs that involve the
sale of more than 15 percent of the weekly advertising time of a station (brokered station) by another inmarket station (brokering station) are attributable
under the Commission’s ownership rules. As a result, the brokering station was deemed to have an
attributable interest in the brokered station, and the
brokered station would count toward the brokering
station’s permissible ownership totals.288
comment on whether to reverse its earlier conclusion and attribute television JSAs. See 2004 Television JSA Attribution
NPRM, 19 FCC Rcd at 15239, 15240-41, paras. 2, 6-7; see also
Shareholders of the Ackerley Group, Inc., Memorandum Opinion
and Order, 17 FCC Rcd 10828 (2002) (Ackerley) (finding that a
specific television JSA, in conjunction with other agreements,
created an attributable interest). Both the justification for attribution of radio JSAs and Ackerley are discussed below.
287 Report and Order, 29 FCC Rcd at 4531-45, paras. 349-72.
288 Id. at 4527, para. 340. Initially, attributable agreements
in place as of March 31, 2014, were given two years from the
effective date of the Order to come into compliance with the
Commission’s ownership limits. Id. at 4542, para. 367. The
STELA Reauthorization Act of 2014 (STELAR), enacted on December 4, 2014, provided that licensees with attributable television JSAs “shall not be considered to be in violation of the ownership limitations [in Section 73.3555 of the Commission’s
rules, 47 CFR Section 73.3555,] by reason of the application of
the [attribution] rule” until six months after the end of the twoyear compliance period adopted by the Commission. The six-

181a
98.
The Commission found in the Report
and Order that these arrangements had the potential to permit the brokering station to exert significant influence over the brokered station’s operations
to such an extent that they should be attributable.289
In reaching its decision, however, the Commission
failed to cite to any actual evidence of such influence.
It also failed to consider adequately the evidence in
the record regarding the public interest benefits of
certain television JSAs, particularly in small- and
midsized markets.290 Instead, the Commission stated that these benefits were only relevant in determining where to set the applicable ownership limits,
not whether such a relationship was attributable.291
Despite that logic, however, the Report and Order
month period ended on December 19, 2016. Subsequently, the
Consolidated Appropriations Act (2016), enacted on December
18, 2015, extended protections for JSAs through September 30,
2025, providing that “the amendments to the rules of the Commission [adopted in the Report and Order] shall not apply to a
joint sales agreement (as defined in Note 2(k) to section 73.3555
of title 47, Code of Federal Regulations) that was in effect on
March 31, 2014,” and “[a] party to a [television] joint sales
agreement that was in effect on March 31, 2014, shall not be
considered to be in violation of the ownership limitations of section 73.3555 of title 47, Code of Federal Regulations, by reason
of the application of the rule in Note 2(k)(2), as so amended, to
the joint sales agreement.” Attributable JSAs were also required to be filed with the Commission no later than 30 days
after the JSA is executed. Report and Order, 29 FCC Rcd at
4541, para. 366 & n.1125; see also 47 CFR § 73.3613(d)(2).
289 Report and Order, 29 FCC Rcd at 4533, para. 350.
290 Id. at 4537-38, para. 358.
291 Id.

182a
failed to adopt any changes to the applicable local
television ownership limits, further delaying any
consideration of the public interest benefits of television JSAs.
99.
Following release of the Report and Order in April 2014, the Television JSA Attribution
Rule was challenged on appeal, and the Third Circuit
subsequently vacated the rule, finding that it had
been adopted prematurely because the Commission
had not yet determined whether the Local Television
Ownership Rule remains necessary pursuant to Section 202(h).292 In the Second Report and Order, the
Commission concluded that the Local Television
Ownership Rule (with a minor modification) still
served the public interest and it re-adopted the Television JSA Attribution Rule based on the same rationale articulated in the Report and Order.293
100. By their Petitions, NAB and Nexstar
now seek reconsideration of the decision to re-adopt
the Television JSA Attribution Rule, arguing that
the Commission, in adopting the rule, ignored the
292 Prometheus III, 824 F.3d at 57-60; see also Second Report
and Order, 31 FCC Rcd at 9888, para. 61
293 Second Report and Order, 31 FCC Rcd at 9888, paras. 6162; see also Report and Order, 29 FCC Rcd at 4527-45, paras.
340-72. The Commission adopted less restrictive grandfathering relief in the Second Report and Order, consistent with Congressional concerns with the initial decision in the Report and
Order. For example, the compliance deadline was extended
through September 30, 2025, and parties were permitted to
transfer or assign these JSAs to other parties without relinquishing the grandfathered status. Second Report and Order,
31 FCC Rcd at 9889, para. 63.

183a
evidence before it and reached a decision unsupported by the record.294 Nexstar, for example, argues
that the Commission’s attribution analysis lacks a
factual basis and that the Commission ignored a record replete with examples of the public interest benefits produced by television JSAs—particularly in
smaller markets—including evidence that television
JSAs have helped enhance local news programming,
finance the purchase of life-saving weather equipment, and support women- and minority-owned stations.295 Conversely, ACA contends that the petitions fail to demonstrate that reconsideration is justified, arguing that the Commission appropriately
weighed the record evidence before finding that the
potential public interest benefits of television JSAs
do not affect its attribution analysis.296 Likewise,
UCC et al. support the Television JSA Attribution
Rule and argues that the Commission’s decision was

294 See Nexstar Petition at 18-19 (citing Motor Vehicles Mfrs.
Ass’n of U.S., Inc. v. State Farm Mut. Aut. Ins. Co., 463 U.S. 29,
43 (1983) (stating that an “agency must examine the relevant
data and articulate a satisfactory explanation for its action including a ‘rational connection between the facts found and the
choice made.’”)); NAB Petition at 12.
295 Nexstar Petition at 16-17, 19-22; see also id. at 22-23 (arguing that the Commission’s reliance on the previous attribution of radio JSAs to justify attribution of television JSAs was
misplaced); NAB Petition at 12 (asserting that the Commission’s failed to address the “myriad benefits” of JSAs, especially
in smaller markets).
296 ACA Opposition at 23.

184a
not only reasonable, but also supported by the record.297
C.

Discussion

101. We find that Petitioners provide valid
reasons to reconsider the Commission’s decision to
adopt the Television JSA Attribution Rule. The
Commission’s attribution analysis was deficient and
failed to adequately consider the record, which does
not support the Commission’s conclusion that television JSAs confer on the brokering station a sufficient
degree of influence or control over the core operating
functions of the brokered station to warrant attribution. In addition, the record contains ample evidence
of the public interest benefits that these JSAs provide. Even if the Commission had correctly determined that television JSAs involving more than 15
percent of the brokered station’s weekly advertising
time confer sufficient influence to warrant attribution, we conclude that the potential benefits of television JSAs outweigh the public interest in attributing
such JSAs.298 Accordingly, we grant the NAB Peti297 UCC et al. Opposition at 8-9.
298 Though television JSAs will no longer be attributable as a
result of the amount of advertising time brokered, we remind
licensees that they must retain ultimate control over their programming and core operations so as to avoid the potential for
an unauthorized transfer of control or the existence of an undisclosed or unauthorized real party in interest. 47 U.S.C. §
310(d); 47 CFR § 73.3540(a); see also Solar Broadcasting Co.,
Inc., Memorandum Opinion and Order, 17 FCC Rcd 5467, 5486,
para. 71 (2002) (“Although a licensee may delegate certain functions to an agent or employee on a day-to-day basis, ultimate
responsibility for essential station matters, such as personnel,

185a
tion and the Nexstar Petition with respect to this issue.299
102. The Commission failed to demonstrate
that television JSAs confer a sufficient degree of influence or control so as to be considered an attributable ownership interest under the Commission’s
ownership rules. While the Commission pointed out
that the attribution analysis traditionally seeks to
identify interests that provide the holder with the
incentive and ability to influence or control the programming or other core operational decisions of the
licensees—an inquiry that often relies on the Commission’s predictive judgement—the Commission
may not ignore the record or the realities of the marketplace when making this determination.
programming and finances, is nondelegable.”); Radio Moultrie,
Inc., Order to Show Cause and Notice of Opportunity for Hearing, 17 FCC Rcd 24304, 24306-07, paras. 7-9 (2002) (stating
that “the Commission looks not only to who executes the programming, personnel, and finance responsibilities, but also to
who establishes the policies governing those three areas”);
Choctaw Broadcasting Corp., Memorandum Opinion and Order,
12 FCC Rcd 8534, 8538-39, para. 11 (1997) (“[A] licensee involved in an LMA is not relieved of its responsibility to retain
ultimate control.”).
299 As a result of our decision, 47 CFR § 73.3613(d)(2) and the
notes to 47 CFR § 73.3555 will be amended to reflect the fact
that television JSAs are no longer attributable. See Second Report and Order, 31 FCC Rcd at 9888-89, para. 62 n.168. Additionally, various Commission rules will need to be revised to
reflect the other rule changes and decisions adopted in this order, as set forth in Appendix A. We direct the Media Bureau to
make all form modifications and to take any other steps necessary to implement all the rule changes and other relevant decisions adopted herein.

186a
103. Here, the Commission’s theory of attribution—a reversal of its earlier decision that television JSAs should not be attributable300—was belied by its own extensive experience reviewing and
approving television JSAs. Between 2008 and the
decision to attribute television JSAs in 2014, the
Commission’s Media Bureau reviewed and approved
85 television JSAs in the context of transaction reviews.301 Given the Commission’s extensive history
reviewing specific television JSAs, it is telling that
the record was devoid of any evidence that any JSA
allowed a brokering station to influence even a single
programming decision of a brokered station.
104. As Nexstar points out, the Commission’s only citation in support of the theory that television JSAs might provide some measure of influence
or control was inapposite.302 In Ackerley, a decision
from 2002, the Commission found that a combination
of agreements, which included a flat-fee television
JSA, were “substantively equivalent” to an attributable local marketing agreement (LMA).303 Yet the
300 1999 Attribution Order, 14 FCC Rcd at 12612, para. 122.
301 Letter from Gordon H. Smith, President and CEO, National Association of Broadcasters, to Tom Wheeler, Chairman,
FCC, MB Docket Nos. 10-71, 09-182, 07-294, 04-256 (Mar. 24,
2014) (NAB Mar. 24, 2014 Ex Parte).
302 Nexstar Petition at 21.
303 See generally Ackerley, 17 FCC Rcd 10828. An LMA, also
referred to as a time brokerage agreement (TBA), involves “the
sale by a licensee of discrete blocks of time to a ‘broker’ that
supplies the programming to fill that time and sells the commercial spot announcements in it.” 47 CFR § 73.3555, Note 2(j).

187a
Commission’s attribution analysis in the Report and
Order relied solely on the sale of advertising time
and not a combination of other agreements that may
justify attribution under the Commission’s rules and
precedent. As such, this isolated incident failed to
provide support for the Commission’s theory of attribution.
105. The Commission attempted to sidestep
the lack of evidence to support its theory of attribution by relying on the decision in the 2002 Biennial
Review Order to attribute radio JSAs. We agree with
Nexstar that this reliance was not appropriate.
First, the Commission failed to explain why differences in fee structure (typically fixed fees for radio
JSAs versus a percentage of advertising revenue for
television JSAs) did not mitigate the Commission’s
earlier concerns that a fixed fee structure—which the
Commission found to be common in radio JSAs—
effectively transferred the market risk to the brokering station.304 The Third Circuit relied on this finding when upholding the decision to attribute radio
JSAs,305 and the Commission also emphasized the
fixed fee structure when it proposed to attribute television JSAs in 2004.306 The record shows, however,
that television JSAs generally rely on percentage fee
304 In a percentage fee structure, the broker and brokering
stations split revenues based on agreed upon percentages. By
contrast, a flat fee structure provides a payment to the brokered
station regardless of performance or revenues.
305 Prometheus I, 373 F.3d at 429.
306 2004 Television JSA Attribution NPRM, 19 FCC Rcd at
15242–43, paras. 12-14.

188a
arrangements in which the brokered station retains
a substantial portion of the advertising revenue,
which makes it substantially less likely that the brokered station’s programming decisions would be significantly influenced by the brokering station.307
307 See, e.g., Report and Order, 29 FCC Rcd at 4598 (Dissenting Statement of then-Commissioner Pai) (“For the Media Bureau has repeatedly approved JSAs only where the brokered
station receives at least 70 [percent] of the advertising revenue
generated by that station, reasoning that such a division of revenues does not give the brokering station de facto control of or
undue influence over the brokered station.”) (citation omitted);
Letter from Jane Mago, Executive Vice President and General
Counsel, NAB, to Marlene H. Dortch, Secretary, FCC, MB
Docket No. 09-182 et al., Attach. at 1 (filed Mar. 14, 2014) (arguing that television JSAs are “commission-based” and, by
“FCC practice and precedent,” the commission does not exceed
30 percent, resulting in licensees retaining 70 percent or more
of the station’s net sales revenue under customary JSAs approved regularly by the Commission); Letter from Paul A. Cicelski, Pillsbury Winthrop Shaw Pittman LLP, to Marlene H.
Dortch, Secretary, FCC, MB Docket No. 09-182, at 3 (filed Dec.
6, 2012) (“To meet the Commission’s concerns, as expressed in
the Ackerley decision, Sinclair’s JSAs, and other JSAs of which
Sinclair is aware, do not adopt a ‘flat fee’ concept. Rather, the
station licensee shares in the revenue and cash flow of the station, ensuring an incentive for station licensees to program
their stations so as to maximize viewership, and thereby advertising revenues”); Comments of Nexstar, MB Docket No. 04-256,
at 9 (filed Oct. 27, 2004) (noting that Mission receives 70 percent of the monthly revenues collected under the JSA with Nexstar and not a fixed monthly fee); Comments of Paxson Communications Corp., MB Docket No. 04- 256, at 4 (filed Oct. 27,
2004) (noting that under its JSAs, Paxson “pays the sales agent
commissions in the form of revenue shares rather than a fixed
fee”). While we decline to attribute television JSAs for the reasons set forth herein, we note that, under Ackerley, the Commission could still find that the terms of an individual televi-

189a
This critical difference, however, was simply glossed
over without an explanation as to how a percentage
fee structure transferred market risk to the brokering station in the same way as a fixed fee structure.
Indeed, it appears that the typical revenue split
gives the licensee of the brokered station a significant interest in the operation and success of the station that is not present in a fixed fee arrangement.
106. The Commission also failed to consider
sufficiently other distinctions between the television
market and the radio market that undermined its
reliance on the radio JSA attribution precedent. For
example, unlike radio stations, television stations
typically have network affiliations, which limits the
amount of programming that a brokering station
could potentially influence and the amount of available advertising time for sale.308 To be sure, the
Commission disagreed that this is a meaningful distinction, but once again, it failed to provide any record evidence to support its theory.309 The Commis-

sion JSA (either alone or in conjunction with other agreements)
rise to the level of attribution.
308 Report and Order, 29 FCC Rcd at 4534-35, para. 353. In
the Commission’s experience reviewing television JSAs in
transaction reviews, most of the television JSAs approved by
the Commission involved the brokering of stations with network affiliations.
309 Id. at 4535, para. 354. The Commission claimed that, even
with a network affiliation in place, the broker could potentially
influence the selection of non-network programming, whether
to preempt network programming, and/or the choice of network
affiliation. Id. This claim, however, was not supported with
any evidence of such influence being exerted, neither over indi-

190a
sion similarly brushed aside evidence that television
stations rely less on local advertising revenue than
radio stations, which would reduce the amount of
advertising time sold by the broker.310 Accordingly,
the broker would control less of the television station’s advertising revenue, which would limit the
ability and incentive of the broker to exert significant
influence or control over the brokered station’s core
operating procedures. The Commission summarily
concluded that because both radio JSAs and television JSAs involve the sale of advertising time, both
must be treated the same for attribution purposes.311 But this one-size-fits-all attribution analysis
is not supported by the record and cannot be sustained.
107. The lack of evidence supporting the
Commission’s determination that television JSAs
confer a significant degree of influence or control
over the core operating functions of the brokered station provides sufficient reason for us to eliminate the
Television JSA Attribution Rule. But even if the
Commission had appropriately determined that television JSAs meet the attribution criteria, it still
should have evaluated whether the public interest
would be served by making the agreements attributable. While the Commission did acknowledge the potential for benefits flowing from the use of television

vidual programming decisions nor the selection of a network
affiliation.
310 Id. at 4535-36, paras. 355-56.
311 Id. at 4536, para. 356.

191a
JSAs in the Report and Order,312 the Commission
expressly refused to consider these public interest
benefits in the context of its attribution decision,
claiming that the public interest benefits should be
considered in the context of its analysis of the local
ownership rules.313 The Commission was correct
that the potential public interest benefits of television JSAs are not relevant to whether these agreements satisfy the Commission’s general attribution
criteria (i.e., whether they confer the potential for
significant influence), but that does not excuse the
Commission from assessing the record to determine
whether, if the attribution criteria are satisfied, attribution would serve the public interest.314 Addi312 The Commission noted that “[w]hile we recognize that cooperation among stations may have public interest benefits under some circumstances, particularly in small to mid-sized
markets, these potential benefits do not affect our assessment
of whether television JSAs confer significant influence such
that they should be attributed.” Id. at 4537, para. 358.
313 Id. While declining to evaluate the significant record evidence of the public interest benefits produced by television
JSAs, the Commission claimed that it would preserve beneficial
television JSAs through a waiver process. Id. at 4540-41, para.
364. That process, however, proved to be illusory, as the Commission did not grant a single waiver request while the Television JSA Attribution Rule was initially in effect, which ultimately led to Congressional action to protect existing television
JSAs. See Second Report and Order, 31 FCC Rcd at 10051
(Dissenting Statement of then-Commissioner Pai). As discussed herein, we find that the record does not support attribution of television JSAs in the first instance, so there is no need
to consider whether to adopt a waiver process.
314 Report and Order, 29 FCC Rcd at 4537-38, para. 358. Notably, when the Commission attributed radio JSAs in the 2002

192a
tionally, in the Second Report and Order, which reinstated the Television JSA Attribution Rule, the
Commission included only a brief, general discussion
of the rationale for attributing television JSAs, largely ignoring the benefits of television JSAs.315 This
cursory treatment does not constitute an assessment
of the record regarding the potential public interest
benefits of television JSAs. As such, we are not persuaded by the arguments that the Commission

Biennial Review Order, it did undertake such an assessment
and found that the balance of interests, in those particular circumstances, supported the decision to attribute radio JSAs.
2002 Biennial Review Order, 18 FCC Rcd at 13745, paras. 32122 (finding that the potential harms to competition and the
ability to influence the brokered stations outweighed any potential benefits associated with radio JSAs). That finding was
based on the record in that proceeding, which did not contain
significant or detailed evidence of the claimed public interest
benefits of radio JSAs, and does not control our analysis of the
potential benefits of television JSAs.
315 Second Report and Order, 31 FCC Rcd at 9888-89, 988990, paras. 62, 64. The Commission failed to discuss the voluminous record regarding the benefits produced by JSAs, instead
citing anecdotal evidence that attribution of television JSAs—
prior to being vacated by the Third Circuit—had produced opportunities for minority and female ownership. Its sole citation
for this proposition, however, was a blog post authored by thenChairman Wheeler and Commissioner Clyburn. Id. at 9888-89,
para. 62 & n.169. We do not find this claimed benefit to be
supported by the record and, in fact, there is record evidence
that refutes this assertion. See, e.g., Report and Order, 29 FCC
Rcd at 4593 (Dissenting Statement of then-Commissioner Pai)
(discussing evidence that television JSAs helped promote minority and female ownership).

193a
properly weighed the public interest benefits before
implementing this new rule.316
108. On reconsideration, we conclude that
the record demonstrates that television JSAs can
promote the public interest, and that this provides
an independent reason for eliminating the Television
JSA Attribution Rule. Indeed, the record demonstrates that television JSAs have created efficiencies
that benefit local broadcasters—particularly in
small- and medium-sized markets—and have enabled these stations to better serve their communities.317 The video marketplace is changing rapidly,
316 See ACA Opposition at 22-23; UCC et al. Opposition at 8.
ACA also argues that eliminating the Television JSA Attribution Rule will allow broadcasters to “covertly coordinate their
retransmission consent negotiations . . . in contravention of the
joint negotiation prohibition.” ACA Opposition at 19-20. This
argument is not persuasive. Broadcasters are prohibited from
jointly negotiating retransmission consent for stations in the
same local market that are not under common de jure control
permitted by the Commission. 47 CFR § 76.65(b)(1)(viii); Implementation of Section 103 of the STELA Reauthorization Act
of 2014, 30 FCC Rcd 10327, 10331 (2015). Licensees are expected to comply with the Communications Act and Commission rules and policies, and the Commission has authority to
take enforcement action where it finds a licensee has violated
any relevant statutes, rules, or policies. We will not assume
that our licensees will violate our rules, but entities can file a
complaint if they believe that any broadcaster is violating the
joint negotiation prohibition, and we will take appropriate action.
317 Report and Order, 29 FCC Rcd at 4590-91 (Dissenting
Statement of then-Commissioner Pai) (citing Letter from
Clifford M. Harrington, Counsel for Sinclair Broadcast Group,
to Marlene H. Dortch, Secretary, FCC, MB Docket Nos. 09-182,

194a
and television JSAs can help reduce costs and attract
vital revenue at a time of increasing competition for
viewership. Broadcasters can turn these efficiencies
into increased services for local communities. For
example, a JSA between two stations in Kansas
helped create cost savings that, in turn, allowed the
stations to fund weather emergency-related crawls in
Spanish, a service vital to the tornado-prone area.318
Other stations have been able to increase their local
news programming and further invest in investigative reporting due to their JSAs.319 Additionally,
certain JSAs have helped spur minority ownership.
As noted in the record, a station owned by Tougaloo
College, a historically African-American college, has
credited its JSA for providing the resources necessary to upgrade to HD, to produce content relevant to
its community, and to cover local sporting events.320
This is just a sampling of the many examples in the

et al., Attach. at 3 (Feb. 5, 2014); Letter from John H. Kane,
Counsel for LIN Television Corporation d/b/a LIN Media, to
Marlene H. Dortch, Secretary, FCC, MB Docket No. 09-182, at
1-2 (Jan. 16, 2013)).
318 Report and Order, 29 FCC Rcd at 4592 (Dissenting Statement of then-Commissioner Pai).
319 Id. at 4592-93 (Dissenting

Statement of thenCommissioner Pai).
320 See id. at 4593 (Dissenting Statement of thenCommissioner Pai); Letter from Jennifer A. Johnson & Eve Pogoriler, Counsel for Tougaloo College (WLOO), to Marlene H.
Dortch, Secretary, FCC, MB Docket Nos. 09-182, et al. at 2
(Feb. 28, 2014).

195a
record in which JSAs have benefited local stations
and communities.321
109. Furthermore, the Commission failed to
cite any evidence of actual harm associated with television JSAs.322 The Commission stated that JSAs
could, possibly, allow the stations to raise their advertising rates above what could be achieved if the
ad time were sold independently.323 The Commission, however, failed to engage in any actual analysis
of the impact of television JSAs on advertisers, and
the record in this proceeding contained no evidence
of stations charging higher rates for advertising sold
pursuant to a JSA and no support from advertisers
321 Then-Commissioner Pai’s dissent contains a robust discussion of such examples. See Report and Order, 29 FCC Rcd at
4591-95 (Dissenting Statement of then-Commissioner Pai).
322 The Commission’s analysis here under the public interest
standard does not supersede any antitrust analysis performed
by the Department of Justice Antitrust Division (DOJ) on a
case-by-case basis regarding JSAs or other agreements among
broadcasters that are similar in function. Indeed, the Commission’s public interest analysis differs from DOJ’s antitrust review, reflecting a broader evaluation of the potential harms and
benefits of ownership combinations in light of the requirements
of the Communications Act and Commission rules and the objectives of the Act and rules. See, e.g., Applications of Level 3
Communications, Inc. and CenturyLink, Inc. For Consent to
Transfer Control of Licenses and Authorizations, Memorandum
Opinion and Order, FCC 17-142, at 3, para. 9 (Oct. 30, 2017);
see also FCC v. RCA Commc’ns, 346 U.S. 86, 98 (1953). Consequently, nothing in this Order, or any amendment made by this
Order, should be construed to modify, impair, or supersede the
operation or applicability of any state or federal antitrust laws.
323 See Report and Order, 29 FCC Rcd at 4534, para. 352.

196a
for the Television JSA Attribution Rule. On the contrary, there was evidence in the record that advertisers have benefitted from JSAs, which make their ad
buys more efficient.324
Similarly, as discussed
above, the Commission did not identify a single instance of harm to viewers or competition in local
markets resulting from a broker’s exercise of influence over the programming or other core operations
of a brokered station—indeed, as discussed above,
the Commission did not cite a single instance of such
influence even being exerted.
110. We find that, on balance, the public interest is best served by not attributing television
JSAs, regardless of whether they technically satisfy
the attribution criteria.325 It is well within the
Commission’s authority to decline to attribute an
agreement or relationship that might otherwise satisfy the attribution criteria in order to help foster
public interest benefits. For example, in the EDP
324 See, e.g., Letter from Rob Fellman, Boardman Subaru, to
David Coy, President/General Manager (Mar. 6, 2014) (Attachment to Coalition of Smaller Market Television Stations Ex
Parte) (“As a[n] advertiser in the Youngstown market, I have
purchased time from both WKBN and WYTV through your
shared sales force. I’ve found your shared sales force to be honest, reasonable, and time-saving. Instead of having multiple
account executives pitching me, I’m able to get exactly what I
want from both WKBN and WYTV by contacting a single sales
person. . . . I hope that the FCC doesn’t take away this great
service.”)
325 As discussed above, the Commission’s attribution analysis
was not supported by the record, and this failure provides an
independent reason for eliminating the Television JSA Attribution Rule. Supra paras. 102-106.

197a
Attribution Modification Order, the Commission
modified the Equity/Debt Plus Attribution Rule
(EDP Rule) by carving out an exemption in certain
circumstances to encourage investment in eligible
entities.326 There, the record demonstrated that
small businesses, including those owned by minorities and women, were having difficulty obtaining financing.327 The Commission acknowledged the potential role that the EDP Rule had in hindering investment in eligible entities and found that it was
justified in relaxing the EDP Rule to help address
this issue.328 This decision demonstrates the need to
balance the purpose of the attribution rules—that is,
to identify potentially influential interest holders—
with the Commission’s public interest goals.
111. Similarly, even if some television JSAs
were to provide the brokering station some ability to
influence the operations of the brokered station, we
find that attribution is not warranted here in light of
the significant public interest benefits produced by
these agreements. Television JSAs can help promote
diverse ownership and improve program offerings,

326 Promoting Diversification of Ownership in Broadcasting
Services, Report and Order and Third Further Notice of Proposed Rulemaking, 23 FCC Rcd 5922, 5936, para. 31 (2008) (Diversity Order and Diversity Third FNPRM). The EDP Rule addresses multiple non-attributable interests that, if combined,
could allow the holders to exert significant influence over licensees. Id. at 5932, para. 19; see also 47 CFR 73.3555, Note
2(i)(1)-(2).
327 See Diversity Order, 23 FCC Rcd at 5936, para. 30.
328 Id. at 5936-37, paras. 30-34.

198a
including local news and public interest programming, in local markets.329 While we agree that it is
important that our attribution rules reflect accurately the competitive conditions of local markets, particularly in the context of our local broadcast ownership rules, the analysis cannot end there.330 The
Commission must ensure that its attribution decisions do not harm the very markets that the attribution rules are designed to protect by preventing the
accrual of significant public interest benefits. As discussed herein, the tangible benefits of television
JSAs far outweigh the benefits that may accrue from
a rote application of the attribution criteria in these
circumstances.
112. We also find that our decision to eliminate the Television JSA Attribution Rule is appropriate, even in light of our decision to relax the Local
Television Ownership Rule. As discussed above, we
find that the Commission failed to establish that television JSAs confer significant influence warranting
treating JSAs as attributable ownership interests, so
the existence of television JSAs in the marketplace
does not have an impact on our public interest analysis in the Local Television Ownership Rule context.
Indeed, television JSAs have been utilized by many
broadcasters with increasing prevalence for well over
a decade. The record in this proceeding lacks any
evidence of public interest harm, and there is evi329 See supra para. 108 (discussing the public interest benefits
associated with television JSAs).
330 See Second Report and Order, 31 FCC Rcd at 9888-89, para. 62 (discussing the rationale for attributing television JSAs).

199a
dence that these agreements have produced and can
produce meaningful public interest benefits. As
such, we do not believe that the Local Television
Ownership Rule should be made more restrictive due
to the presence of television JSAs.
113. And while there may be fewer television
JSAs executed moving forward because of our relaxation of the Local Television Ownership Rule, that
does not diminish the public interest benefits associated with these agreements in the television context.
The television ownership limits are still much more
restrictive than the radio ownership limits, so there
may be a continuing need for JSAs to help create
economies of scale and improve program offerings,
particularly for small or independent station owners.331 By preserving the ability to enter into a JSA,
some station owners may be able to maintain independent operations instead of exiting the marketplace, and these agreements will continue to be
available to help new entrants and small businesses
acquire and operate new stations.332

331 See, e.g., Sinclair FNPRM Comments at 12-13 (asserting
that the Commission should relax the Local Television Ownership Rule, eliminate the Television JSA Attribution Rule, and
decline to regulate SSAs to help preserve the ability of lowerrated stations to serve their local markets).
332 Thus, we are not persuaded that repeal of the eight-voices
requirement and the Television JSA Attribution Rule will deter
new entry based on consolidation of advertising sales. See
MMTC/NABOB Nov. 9, 2017 Ex Parte, Fact Sheet at 2.

200a
V.

SHARED SERVICE AGREEMENTS
A.

Introduction

114. We uphold the Commission’s decision in
the Second Report and Order to adopt a comprehensive definition of SSAs and a requirement that commercial television stations disclose SSAs by placing
them in their online public inspection files.333 We
find that the SSA definition is appropriately tailored
to reflect relevant station-related services and that
the Commission adequately justified the disclosure
requirement adopted in the Second Report and Order.
B.

Background

115. SSAs allow stations in a local market to
combine certain operations, personnel, and/or facilities, with one station effectively performing functions
for multiple, independently owned stations.334 Evidence in the record suggests that these agreements
create efficiencies that enable broadcasters, particularly in small and mid-sized markets, to improve
service to their local communities, including enhanced local news offerings.335 The Commission
considered the regulatory treatment of these agreements in multiple proceedings and developed an extensive record prior to taking action in this proceed-

333 Second Report and Order, 31 FCC Rcd at 10008, para. 338.
334 Id. at 10008, para. 337.
335 See, e.g., FNPRM, 29 FCC Rcd at 4520-21, para. 324.

201a
ing.336 The Second Report and Order contains a detailed background of this issue, which we incorporate
herein.337 In relevant part, the FNPRM proposed a
comprehensive definition of SSAs and sought comment on the scope of the definition, including any potential refinements to the definition to help ensure
that it was not overbroad.338 While certain commenters expressed concerns with the scope of the
definition, none provided an alternative definition or
suggested any specific changes to the definition pro-

336 See Standardized and Enhanced Disclosure Requirements
for Television and Broadcast Licensee Public Interest Obligations, Order on Reconsideration and Further Notice of Proposed
Rulemaking, 26 FCC Rcd 15788, 15805-06, para. 35 (2011)
(seeking comment on whether the disclosure of sharing agreements that are not already defined and subject to disclosure
requirements under Commission rules would serve the public
interest and whether to require disclosure of such sharing
agreements in stations’ public files); Standardized and Enhanced Disclosure Requirements for Television and Broadcast
Licensee Public Interest Obligations, Second Report and Order,
27 FCC Rcd 4535, 4575, para. 84 (2012) (declining to adopt any
disclosure requirements for sharing agreements, but indicated
that it would continue to monitor the issue and would revisit
disclosure requirements); NPRM, 26 FCC Rcd at 17564-70, paras. 194-208 (seeking comment on the potential impact of sharing agreements involving commercial television stations on the
Commission’s ownership rules and policy goals, on how to define such agreements, and on whether such agreements should
be attributed or disclosed).
337 Second Report and Order, 31 FCC Rcd at 10008, paras. 33940.
338 FNPRM, 29 FCC Rcd at 4522-24, paras. 329-34.

202a
posed in the FNPRM.339 The FNPRM also sought
comment on potential disclosure options for these
agreements.340 In the Second Report and Order, the
Commission adopted a definition of SSAs substantially similar to the definition proposed in the
FNPRM and a requirement that commercial television stations disclose SSAs by placing them in their
online public inspection files.341
116. In its Petition for Reconsideration, NAB
asks the Commission either to eliminate the SSA
disclosure requirement or “rationally define” the
SSAs subject to it,342 asserting that the SSA disclosure requirement is overbroad and unnecessary.343

339 See, e.g., NAB FNPRM Comments at 95-98; Smaller Market Coalition FNPRM Comments at 17.
340 FNPRM, 29 FCC Rcd at 4524-26, paras. 335-39.
341 See Second Report and Order, 31 FCC Rcd at 10009-22,
paras. 341-75. The Second Report and Order defined SSAs as
“any agreement or series of agreements, whether written or
oral, in which (1) a station provides any station-related services, including, but not limited to, administrative, technical,
sales, and/or programming support, to a station that is not directly or indirectly under common de jure control permitted under the Commission’s regulations; or (2) stations that are not
directly or indirectly under common de jure control permitted
under the Commission’s regulations collaborate to provide or
enable the provision of station-related services, including, but
not limited to, administrative, technical, sales, and/or programming support, to one or more of the collaborating stations.”
Id. at 10012, para. 349.
342 NAB Petition at 14.
343 Id. at 13 (citing NAB FNPRM Comments at 95-99, 101-03).

203a
C.

Discussion

117. We decline to reconsider the SSA definition and disclosure requirements adopted in the Second Report and Order. We find that both the definition and the disclosure requirement were supported
by the record and that NAB has failed to provide sufficient reasons to reconsider the Commission’s decision at this time; therefore, we deny the NAB Petition in this regard.
118. Contrary to NAB’s claim,344 the Second
Report and Order rationally defines SSAs.345 In the
Second Report and Order, the Commission adopted a
clear definition of SSAs and addressed commenters’
concerns regarding the types of agreements covered
by the definition.346 As the Commission discussed,
the definition of SSAs is appropriately limited in
scope, applying only to those agreements that involve
station-related services. Moreover, the Commission
sufficiently illustrated this scope by providing guidance in the definition of SSAs with non-exhaustive
examples.347 The Second Report and Order also addressed specific concerns in the record, clarifying
that certain agreements, such as ad hoc or “on-thefly” arrangements during breaking news coverage,

344 See id. at 14.
345 See Second Report and Order, 31 FCC Rcd at 10011-12,
paras. 345-49.
346 See id. at 10012, paras. 346-47.
347

See id. at 10011, para. 346; see also UCC et al. Opposition
at 9-10.

204a
fall outside the SSA definition.348 Ultimately, the
definition is appropriately tailored to include only
those agreements that involve station operations relevant to the public.349 In light of the Commission’s
analysis and the lack of any alternative definitions or
specific refinements proposed in the record, including
on reconsideration, we find no reason to reconsider
the definition of SSAs adopted in the Second Report
and Order.
119. We also find that the Second Report and
Order provided a sufficient justification for requiring
the disclosure of SSAs. The Commission is not required to first determine the regulatory status of
SSAs before requiring disclosure.350 The Second Re348 Second Report and Order, 31 FCC Rcd at 10011, para. 347.
349 See id. at 10018, para. 362. NAB expresses concern that
the SSA definition would apply to agreements “encompass[ing]
everything from janitorial to catering to maintenance to security services.” NAB Petition at 13. An agreement to share facilities and station personnel meeting the definition of an SSA may
include provisions allocating costs or responsibilities related to
the operation and upkeep of the shared facilities. Consistent
with the Second Report and Order, however, agreements that
relate only to such incidental services, even those involving
shared facilities, are not encompassed by the SSA definition
and are not, therefore, subject to disclosure. See 31 FCC Rcd at
10011, para. 347 (“Indeed, it is not our goal to adopt a definition
of SSAs that encompasses station interactions that do not relate to station operations or that are incidental in nature.”).
Accordingly, we find NAB’s concerns to be misplaced and sufficiently addressed in the Second Report and Order.
350 Second Report and Order, 31 FCC Rcd at 10015, para. 356
(“[T]he Commission could hardly fulfill its obligation to ensure
that station operations are consistent with Commission rules

205a
port and Order addressed the various objections in
the record and effectively demonstrated that the
Commission has the authority to require disclosure
of SSAs in order help the Commission obtain information relevant to its statutory responsibilities.351
The Second Report and Order set forth a sufficient
justification for requiring disclosure in these circumstances,352 and NAB’s brief argument to the contrary
in its request for reconsideration gives us no cause to
disturb the underlying decision at this time.
120. While we are upholding the decision in
the Second Report and Order to require disclosure,
we emphasize that our action today is not a pretext
for future regulation of SSAs. As the Third Circuit
recognized, the Commission acted appropriately in
declining to attribute these agreements in this proand policies if it were required to determine the regulatory status of certain agreements before obtaining the information necessary to evaluate the agreements.”); see also 47 U.S.C. § 403;
Stahlman v. FCC, 126 F.2d 124, 126-27 (D.C. Cir. 1942) (holding that the Commission’s authority to institute any inquiry
concerning questions arising under the Communications Act, or
relating to its enforcement, includes authority to obtain the information necessary to discharge the Commission’s proper functions).
351 See id. at 10014-18, paras. 354-62; see also UCC et al. Opposition at 9-10.
352 Second Report and Order, 31 FCC Rcd at 10017, para. 360.
Any efforts to ascertain the potential impact of these agreements on the Commission’s policy goals should not be read to
imply only a negative impact. SSAs may help facilitate improved service in local communities, and disclosure of these
agreements may provide greater insight into such potential
benefits.

206a
ceeding,353 as some commenters had requested.354
Among other things, the Commission has admitted
that it lacks an understanding of the potential impact of SSAs on a station’s core operating functions,
and evidence in the record suggests that these
agreements help produce significant public interest
benefits. Accordingly, any consideration of the regulatory status of these agreements by a future Commission must reflect significant study and understanding of the impact of these agreements on station operations and a complete account of the public
interest benefits these agreements help facilitate.
Furthermore, while the record compiled in this proceeding does not demonstrate that the disclosure requirement will unduly burden commercial television
broadcasters,355 the Commission retains the authority to revisit this disclosure requirement should evidence of such burdens arise after the disclosure requirement is implemented or experience demonstrate that the benefits of this requirement are outweighed by its costs.
353 Prometheus III, 824 F.3d at 60, n.18 (rejecting claim that
the Commission acted arbitrarily and capriciously by not attributing SSAs in the Report and Order).
354 See, e.g., UCC et al. NPRM Comments at 19-20 (proposing
a multifactor attribution test for various agreements that are
not individually attributable under the Commission’s rules); see
also CWA FNPRM Comments at 7-20; Free Press FNPRM
Comments at 25-27; Free Press FNPRM Reply at 18-19; SAGAFTRA FNPRM Comments at 2-3; UCC et al. FNPRM Comments at 1-2.
355 See Second Report and Order, 31 FCC Rcd at 10015-16,
para. 357.

207a
VI.

DIVERSITY/INCUBATOR PROGRAM
A.

Introduction

121. We grant in part and deny in part
NAB’s request for reconsideration regarding the
Commission’s decision in the Second Report and Order not to adopt an incubator program on the current
record.356 We agree that the Commission should
adopt such a program and decide today that we will
do so. However, we also find that the underlying
record fails to provide sufficient guidance on how
best to structure such a program. Accordingly, we
adopt today a Notice of Proposed Rulemaking seeking comment on how we should structure the incubator program.
B.

Background

122. As explained in greater detail in the accompanying Notice of Proposed Rulemaking, an incubator program would provide an ownership rule
waiver or similar benefits to a company that establishes a program to help facilitate station ownership
for a certain class of new owners. The concept of an
incubator program has been discussed since at least
the early 1990s.357 Yet, despite general support for
the concept, the Commission has never undertaken
the creation of a comprehensive incubator pro356 NAB Petition at 25; see also Second Report and Order, 31
FCC Rcd at 10002, para. 321.
357 See, e.g., Revision of Radio Rules and Policies, Memorandum Opinion & Order and Further Notice of Proposed Rulemaking, 7 FCC Rcd 6387, 6391, 6391-92, paras. 22, 24-25
(1992).

208a
gram.358 Most recently, the Commission sought
comment in the NPRM and FNPRM on whether to
adopt an incubator program and, if so, how to structure such a program.359 In the FNPRM, in particular, the Commission highlighted administrative concerns and structural issues that needed to be addressed before such a program could be adopted.360
While there was general support for an incubator
program, and some suggestions on how to structure
certain aspects of such a program, the Commission
found in the Second Report and Order that the record failed to address the specific concerns detailed in
the FNPRM; accordingly, the Commission declined
to adopt an incubator program.361

358 The Commission has adopted a limited program that provides a duopoly preference to parties that agree to incubate or
finance an eligible entity. See Second Report and Order, 31
FCC Rcd at 9982-83, para. 285 (reinstating the program following the reinstatement of the revenue-based eligible entity
standard); see also Diversity Order, 23 FCC Rcd at 5943, para.
56 (originally adopting the duopoly preference). In adopting
this general policy preference, however, the Commission did not
provide details regarding the structure and operation of the incubation activities. As such, we do not believe that this limited
policy preference serves as an effective basis upon which to design a comprehensive incubator program.
359 See FNPRM, 29 FCC Rcd at 4514-16, paras. 312-14;
NPRM, 26 FCC Rcd at 17554-56, para. 169.
360 FNPRM, 29 FCC Rcd at 4515-16, paras. 313-14.
361 Second Report and Order, 31 FCC Rcd at 10001-02, paras.
319-21; see also NAB FNPRM Comments at 92-93; NMA
FNPRM Comments at 15; Alliance for Women in Media
FNPRM Reply Comments at 2; Bonneville/Scranton FNPRM

209a
123. NAB sought reconsideration of the
Commission’s rejection of NAB’s recommendation for
an incubator program.362 According to NAB, the
Commission could create an incubator program
based on the overcoming disadvantages preference
(ODP) standard, which the Commission rejected in
the Second Report and Order, or the “new entrant”
criteria in the broadcast services’ auction rules.363
The petition otherwise fails to address the many other issues of concern highlighted by the Commission
in this proceeding. Bonneville/Scranton supports
NAB’s petition for reconsideration.364 In opposition,
UCC et al. restate their concerns that an incubator
program would create a loophole in the Commission’s
ownership limits and highlight the unresolved administrative and structural issues identified in this
proceeding.365
C.

Discussion

124. On reconsideration, we agree with NAB
that the Commission should adopt an incubator program and decide here that we will do so. Despite
UCC et al.’s objections noted above, there is support
for an incubator program from many industry participants and advocacy groups. And we agree with
Reply at 9. But see UCC et al. FNPRM Reply at 25 (opposing
the incubator program).
362 NAB Petition at 25.
363 Id.
364 Bonneville/Scranton Reconsideration Reply Comments at
8.
365 UCC et al. Opposition at 10-11.

210a
these supporters that adopting an incubator program
would promote new entry and ownership diversity in
the broadcast industry by helping address barriers to
station ownership, such as lack of access to capital
and the need for technical/operational experience.366
In this proceeding, however, the Commission has
identified various, specific concerns regarding how to
structure and monitor such a program.367 We find
that the comments and recommendations in the record—including those made by NAB and Bonneville/Scranton—fail to adequately address all of these
issues. While certain suggestions may have merit in
regards to specific aspects of the program, we are not
yet at the point where we can finalize the overall
structure and method for implementation of the program. Therefore, we require additional comment on
how to structure the incubator program.
125. We are initiating a new proceeding in
the accompanying Notice of Proposed Rulemaking
that will seek additional comment on how best to
implement the Commission’s incubator program. Initiating a dedicated proceeding will allow the Commission to focus its efforts on getting this program
up and running, and we anticipate that our consideration of this issue will be assisted by the newly es-

366 See, e.g., Bonneville/Scranton Reconsideration Reply
Comments at 8; MMTC Comments, MB Docket Nos. 14-50, 09182, 07-294, and 04-256 at 6-9 (Apr. 17, 2017) (MMTC Apr. 17,
2017 Comments); NAB Petition at 25; NABOB Feb. 24, 2017 Ex
Parte Letter at 3-4.
367 See FNPRM, 29 FCC Rcd at 4515-16, paras. 313-14.

211a
tablished Advisory Committee on Diversity and Digital Empowerment.368
VII.

NOTICE OF PROPOSED RULEMAKING
A.

Introduction

126. With this NPRM, we seek comment on
how to design and implement our incubator program
to support the entry of new and diverse voices in the
broadcast industry. Specifically, we seek comment
on the structure, review, and oversight of a comprehensive incubator program that will help create new
sources of financial, technical, operational, and managerial support for eligible broadcasters. We believe
that such a program can create ownership opportunities for new entrants and small businesses, thus
promoting competition and new voices in the broadcast industry.

368 See The Advisory Committee on Diversity and Digital Empowerment was officially chartered on July 5, 2017, after
Chairman Pai initially indicated his intention to establish the
committee on April 24, 2017. Press Release, FCC, Chairman
Pai Announces Plan to Form Advisory Committee on Diversity
(Apr. 24, 2017), https://www.fcc.gov/document/chairman-paiannounces-plan-form-advisory-committee-diversity. The Commission sought nominations for committee chairperson and
membership on June 7, 2017. FCC Seeks Nominations for
Membership on Advisory Committee on Diversity and Digital
Empowerment, Public Notice, 32 FCC Rcd 4761 (MB 2017) (establishing the committee for a period of two years). The committee held its initial meeting on September 25, 2017. FCC
Announces the Membership, First Meeting, and Docket Number
of the Advisory Committee on Diversity and Digital Empowerment, Public Notice, DA 17-857 (MB Sept. 8, 2017).

212a
B.

Background

127. The Commission has long considered
whether to adopt an incubator program to help provide new sources of capital and support to entities
that may otherwise lack operational experience or
access to financing. Generally, an incubator program
would provide an ownership rule waiver or similar
benefits to a company that establishes a program to
help facilitate station ownership for a certain class of
prospective or existing station owners. For example,
in exchange for a defined benefit, such as waiver of a
broadcast ownership rule, an established company
could assist a new owner by providing “management
or technical assistance, loan guarantees, direct financial assistance through loans or equity investments, training, or business planning assistance.”369
Over the years, a number of parties have proposed or
supported recommendations for some type of an incubator program, but the Commission has never developed a comprehensive incubator program.370

369 Advisory Committee on Diversity for Communications in
the Digital Age, Recommendation on Incentive-Based Regulations at 5 (June 14, 2004) (2004 Diversity Committee IncentiveBased
Recommendations),
https://www.fcc.gov/diversitycommittee-adopted-recommendations (select “Incentive-Based
Regulations”).
370 As discussed above, the Commission has adopted a limited
program that provides a duopoly preference to parties that
agree to incubate or finance an eligible entity, but we do not
believe that this limited policy preference serves as an effective
basis upon which to design a comprehensive incubator program.
See supra note 358.

213a
128. The history of this issue dates back at
least to the early 1990s,371 but our goal is to build on
the Commission’s most recent efforts. Notably, in
2010 the Commission’s Advisory Committee on Diversity for Communications in the Digital Age recommended that the Commission commence a rulemaking to pursue an incubator program in order to
help promote ownership diversity.372 The committee
provided various recommendations on how to struc371 See, e.g., Revision of Radio Rules and Policies, Memorandum Opinion & Order and Further Notice of Proposed Rulemaking, 7 FCC Rcd 6387, 6391, 6391-92, paras. 22, 24-25
(1992); see also Advisory Committee on Diversity for Communications in the Digital Age, Media Issues Subcommittee, Structural Rule Waivers for Creating an Incubator Program at 1-6
(Dec. 2, 2010) (2010 Diversity Committee Incubator Program
Recommendation),
https://www.fcc.gov/diversity-committeeadopted-recommendations (select “Media Issues Subcommittee
Recommendation on Structural Rule Waivers for Creating an
Incubator Program”); Diversity Third FNPRM, 23 FCC Rcd at
5955-56, para. 97 (seeking comment on a two-year “Trial Incubation Plan” that would allow entities that create and maintain
an incubator program for [socially and economically disadvantaged businesses] to receive a waiver of the local radio ownership rule); Policies and Rules Regarding Minority and Female
Ownership of Mass Media Facilities, Notice of Proposed Rulemaking, 10 FCC Rcd 2788, 2788, para. 1 n.2 (1995) (incorporating the 1992 rulemaking).
372 See generally 2010 Diversity Committee Incubator Program Recommendation; see also Letter from Henry Rivera,
Chairman, FCC Advisory Committee on Diversity for Communications in the Digital Age, to Julius Genachowski, Chairman,
FCC (Dec. 14, 2010) (regarding full Committee adoption of an
incubator
recommendation),
https://transition.fcc.gov/DiversityFAC/120210/letter-togenachowski-121410.pdf.

214a
ture such a program.373 Subsequently, the Commission sought comment in the NPRM and FNPRM in
the 2010/2014 Quadrennial Review proceeding on
whether to adopt an incubator program and, if so,
how to structure such a program.374 In the FNPRM,
in particular, the Commission highlighted administrative concerns and structural issues that needed to
be addressed before such a program could be adopted.375 The record built in response to the NPRM and
FNPRM contained continued support for the concept
of an incubator program and some suggestions on
how to structure certain aspects of such a program.376 Some commenters, however, expressed
concern that an incubator program would create a
loophole in the Commission’s ownership limits that
could potentially harm small and independent station owners.377 In the Second Report and Order, the
Commission found that the record failed to address
specific concerns detailed in the FNPRM and de-

373 2010 Diversity Committee Incubator Program Recommendation at 2.
374 See FNPRM, 29 FCC Rcd at 4514-16, paras. 312-14;
NPRM, 26 FCC Rcd at 17554-56, para. 169.
375 FNPRM, 29 FCC Rcd at 4515-16, paras. 313-14.
376 See, e.g., NAB FNPRM Comments at 92-93; NMA FNPRM
Comments at 15; Alliance for Women in Media FNPRM Reply
Comments at 2; Bonneville/Scranton FNPRM Reply at 9, Attach. at 2-3; Comments of the Diversity and Competition Supporters (DCS), MB Docket 09-182, at 22-25 (filed July 12, 2010)
(DCS July 12, 2010 Comments).
377 See, e.g., Free Press NPRM Reply at 51-53; Mt. Wilson
NPRM Reply at 9; UCC et al. FNPRM Reply at 25.

215a
clined to adopt an incubator program.378 Following
the release of the Second Report and Order, NABOB
and MMTC each urged the Commission to continue
its consideration of an incubator program. They
suggest that additional public comment could help
resolve the remaining administrative and structural
issues. In the accompanying Order on Reconsideration above, the Commission has decided to adopt an
incubator program and committed to initiating this
proceeding to resolve issues regarding the design and
implementation of that program.379
129. In addition, on July 5, 2017, we commissioned the Advisory Committee on Diversity and
Digital Empowerment, which held its first meeting
on September 25, 2017.380 We anticipate that the
committee’s work will help inform our efforts to create an incubator program.
C.

Discussion

130. As discussed above, the Commission has
decided to adopt an incubator program to help address the lack of access to capital and technical expertise faced by potential new entrants and small
businesses.381 But while there is general support for
378 Second Report and Order, 31 FCC Rcd at 10001-02, paras.
319-21.
379 See supra Section VI.
380 See supra note 368.
381 See supra Section VI; see also Bonneville/Scranton Reconsideration Reply Comments at 8; MMTC Apr. 17, 2017 Comments at 6-9; NAB Petition at 25; NABOB Feb. 24, 2017 Ex
Parte Letter at 3-4.

216a
an incubator program to help address these issues,
there is little consensus regarding the structure or
details of such a program. We anticipate that this
NPRM, devoted exclusively to an incubator program,
can help generate solutions to these technical and
administrative issues. Accordingly, as detailed below, we seek comment on eligibility criteria for the
incubated entity; appropriate incubating activities;
benefits to the incubating entity; how such a program would be reviewed, monitored, and enforced;
and the attendant costs and benefits. We anticipate
that the record will reveal innovative strategies for
partnerships between established broadcasters and
new entrants.
1.

Defining Entities Eligible for
Participation

131. We seek comment on how to determine
eligibility for participation in the incubator program.
Options include:


New Entrants. NAB suggests the Commission create a standard similar to the new
entrant bidding credit eligibility definition
applicable in the broadcast auction context.382 Under the auction rules, an auction participant is eligible for bidding credits if it has attributable interests in few or
no other “media of mass communication.”383

382 NAB Petition at 25.
383 47 CFR § 73.5007(a); see also id. § 73.5008(b) (defining
media of mass communication as “a daily newspaper; a cable

217a


Revenue-Based Eligible Entity. In the Second Report and Order, the Commission readopted a revenue-based eligible entity
standard to identify those qualified to take
advantage of certain preferential regulatory policies.384 An eligible entity under this
definition is any commercial or noncommercial entity that qualifies as a small
business consistent with Small Business
Administration (SBA) revenue grouping
according to industry.385



Socially and Economically Disadvantaged
Businesses (SDB). The SDB standard is
based on the definition employed by the

television system; or a license or construction permit for a television broadcast station, an AM or FM broadcast station, or a
direct broadcast satellite transponder”). A 35 percent bidding
credit is awarded to a qualifying new entrant who has no attributable interest in any other media of mass communication,
while a 25 percent bidding credit is awarded to a qualifying new
entrant who holds an attributable interest in no more than
three mass media facilities. Id. § 73.5007(a).
384 Second Report and Order, 31 FCC Rcd at 9983, para. 286.
385 Id. Additionally, the Commission requires a small business eligible entity to hold: (1) 30 percent or more of the
stock/partnership shares and more than 50 percent voting power of the corporation or partnership that will hold the broadcast
license; (2) 15 percent or more of the stock/partnership shares
and more than 50 percent voting power of the corporation or
partnership that will hold the broadcast license, providing that
no other person or entity owns or controls more than 25 percent
of the outstanding stock or partnership interest; or (3) more
than 50 percent of the voting power of the corporation if the
corporation that holds the licenses is a publicly traded corporation. Id. at 9983-84, para. 286.

218a
Small Business Administration (SBA).
Pursuant to the SBA’s program, persons of
certain racial or ethnic backgrounds are
presumed to be disadvantaged; all other
individuals may qualify for the program if
they can show by a preponderance of the
evidence that they are disadvantaged.386


Overcoming Disadvantages Preference
(ODP). The ODP standard would employ
various criteria to demonstrate that an individual or entity has overcome significant
disadvantage.387 The Second Report and
Order declined to adopt an ODP standard,
citing concerns with the approach.388

386 13 CFR §§ 124.103(b)-(c), 124.104(a). To qualify for this
program, a small business must be at least 51 percent owned
and controlled by a socially and economically disadvantaged
individual or individuals. See id. § 124.105; see also U.S. Small
Business Administration, Small Disadvantaged Businesses,
https://www.sba.gov/contracting/
government-contractingprograms/small-disadvantaged-businesses (visited Oct. 11,
2017). The SDB standard is explicitly race-conscious and,
therefore, subject to heightened constitutional review. In the
Second Report and Order, the Commission determined that evidence in the record was not sufficient to satisfy the constitutional standards to adopt the SDB standard or any other raceor gender-conscious measures. Second Report and Order, 31
FCC Rcd at 9987-88, 9999-10000, paras. 297, 315-16.
387 Second Report and Order, 31 FCC Rcd at 9993-94, para.
306.
388 See id. (discussing concerns with ODP standard). NAB
and MMTC, however, continue to support the ODP standard.
See MMTC Apr. 17, 2017 Comments at 6-7; NAB Petition at 25.

219a
132. We seek comment on these various
standards, including any modifications that would be
appropriate in the incubator context. In particular,
are there any changes to these standards that would
help address previous concerns expressed by the
Commission? Which of these standards most closely
aligns with our goal to help facilitate ownership opportunities for entities that lack access to capital and
operational experience and thereby promote competition and viewpoint diversity in local markets? In addition, we seek comment on any other standards that
would effectively promote our objectives. Any commenters proposing or supporting a race- and/or gender-specific standard should also provide analysis
regarding how such a standard could withstand a
constitutional challenge. We also seek comment on
the relative advantages of the various standards.
Certain standards are more difficult to define and
administer and may raise constitutional concerns.
What are the offsetting benefits of these approaches
relative to standards that are easier to apply and/or
do not raise constitutional concerns?
2.

Defining Qualifying Incubation Activities

133. We also seek comment on the activities
that would qualify as incubation. Such activities
would need to provide the incubated entity with support that it otherwise lacks and that is essential to
its operation and ability to serve its community. As
traditionally conceived, a comprehensive program
could include management or technical assistance,
loan guarantees, direct financial assistance through

220a
loans or equity investment, and training and business planning assistance.389 Should we consider
other activities, such as donating stations to certain
organizations or arrangements whereby the new entrant gains operational experience without first acquiring a station, such as programming a station and
selling advertising time under an LMA?390
134. What combination of activities (financial and operational) should be required to qualify as
an incubation relationship? Should there be any
conditions on the financial aspects of the relationship? For example, should there be any limitations
on the incubating entity holding an option to acquire
the incubated station? Should we adopt time limitations on technical assistance? For example, should
we impose a minimum amount of time to ensure that
the incubated station acquires sufficient technical
expertise to operate the station independently of the
established broadcaster? Should we impose a maximum amount of time to ensure that the incubated
station actually does become independent? What
role should sharing agreements (e.g., LMAs, JSAs,
and SSAs) play, if any, in the incubation relationship? We seek comment on these issues.
135. How can the Commission ensure that
use of the incubation program is necessary to promote new entry? For example, should the proposed
incubated station certify that it lacks the access to
capital and technical expertise necessary to acquire
389 DCS July 12, 2010 Comments at 22.
390 See, e.g., id. at 22-24.

221a
and operate the station? Should participation in an
incubator program be limited to new station acquisitions? Alternatively, should participation extend to
existing station owners that are struggling and may
need financing or other support to continue operation? Are there any justifications for limiting participation differently based on the eligibility standard
selected?
136. While the Commission’s rules already
prohibit unauthorized transfers of control, including
de facto transfers of control, should we adopt any additional safeguards as part of an incubation program
to ensure that the incubated station licensee retains
control of its station?
3.

Benefit to Incubating Station

137. In order to encourage an established
broadcaster to engage in incubating activities, the
incubation program must provide a meaningful benefit to the incubating entity. In general, the potential
benefit suggested has been a waiver of the Commission’s local broadcast ownership rules. How should
the Commission structure the waiver program? For
example, should the waiver be limited to the market
in which the incubating activity is occurring? Alternatively, should waiver be permissible in any similarly sized market? How would the Commission determine which markets are similar in size? Should
the Commission review these waivers in the future
to determine whether they continue to be justified?
On what grounds would the Commission evaluate
the waivers? Should the waiver be tied to the success of the incubation relationship? Should the
waiver continue even if the incubator program ends

222a
and, if so, for how long? What should be considered a
successful relationship? Should the waiver be transferrable if the incubating entity sells a cluster of stations that does not comply with the ownership limits
at the time?
138. Instead of a waiver to acquire a different station in the market (or a similarly sized market), should we allow the incubating entity to obtain
an otherwise impermissible non-controlling, attributable interest in the incubated station? This
would allow the incubating entity to obtain financial
benefits that accrue from successful operation of the
incubated station and would limit the impact on
competition, both by ensuring that the incubated entity retains control of the station and by tying the
ownership waiver to the period of time the incubated
entity owns the station. Would such an approach dilute the contributions of the incubated station as an
independent market participant?
139. Should we limit any incubator program
to radio, as the proposal was initially conceived, or
should the program apply to both radio and television? Should we adopt a phased approach, whereby
we institute the program on a trial basis in radio and
then evaluate its success and operation before expanding to television, and if so, how long should such
a trial period last? What steps should the Commission take to evaluate the trial period and whether to
expand the program?
4.

Review of Incubation Proposals

140. We seek comment on the review process
for incubation proposals. We expect that most incu-

223a
bation proposals will accompany an assignment or
transfer of control application. These applications
would be subject to petitions to deny and informal
comments under the Commission’s rules. Does this
provide the public with sufficient opportunity to
comment on the proposal? What public concerns
should the Commission consider in its evaluation?
Are there other situations beyond an assignment or
transfer of control application in which an incubator
proposal could be applied, and if so, how should the
review process work in such circumstances?
141. We asked above whether to extend incubation opportunities to existing station owners
that are facing financial and/or technical difficulties.391 If the program is so extended, how should
the parties submit the proposal to the Commission
for review and approval? For example, should we require electronic filing of such requests in the Commission’s Electronic Comment Filing System?
Should these filings then be subject to the same public comment requirements as those filed as part of an
assignment or transfer of control application?
142. We note that so long as the arrangement is permissible under existing Commission
rules, parties do not need prior approval to enter into
agreements regarding finances or station operations.
However, for the arrangement to count as incuba391 Supra para. 135 (“Should participation in an incubator
program be limited to new station acquisitions? Alternatively,
should participation extend to existing station owners that are
struggling and may need financing or other support to continue
operation?”).

224a
tion, such that the incubating entity is entitled to the
benefits of the program (e.g., an ownership waiver),
the Commission would need to find that the relationship satisfies the incubation criteria. In such circumstances, should we require Commission approval
prior to the initiation of the incubation relationship
or should we permit the parties to request recognition of a previous or ongoing incubation relationship,
perhaps as part of an application from the incubating
entity requesting an ownership waiver for the acquisition of another station? Should there be a time
limit on such subsequent requests for approval?
5.

Compliance Assessment

143. As evidenced by the foregoing, an incubation relationship may involve complex agreements
between the parties regarding financing, programming, and operations. How should the Commission
monitor compliance with the terms of incubation?
Should the Commission require periodic reports to be
filed by one or both parties or placed in their online
public files? If so, how frequently should the reports
be filed? Should these reports be available to the
public? What information should the reports contain? Should the Commission instead conduct its
own periodic review of the incubation activities and
compliance with the relevant agreements? What
other compliance measures should we consider?
144. If compliance lapses, for any reason,
what are the consequences? Should the incubating
party be required to divest itself of the benefits it received for engaging in incubation activities? For example, if the incubating party was granted a waiver
of a local broadcast ownership rule, should it be

225a
forced to come into compliance with the relevant
ownership limit if it does not fulfill the terms of the
incubation program? Should we allow the incubating
party to seek to be relieved of its obligations and retain the benefits (e.g., ownership waiver) if the incubated station fails to comply with the terms of the
agreement? Are there other appropriate enforcement responses, such as fines? Should we establish
a time limit on the benefits granted under the incubation program based on the premise that the purpose of the program is to enable incubated entities to
operate independently after some period of assistance?
6.

Costs and Benefits

145. We seek comment on the costs and benefits associated with the proposals in this NPRM. In
particular, we encourage broadcasters and other industry participants to submit any relevant data regarding the potential costs associated with the various application, recordkeeping, and compliance requirements proposed herein. Are there ways to
structure the program to reduce costs, particularly
for small businesses? How do we define and quantify
the expected benefits of an incubator program?
VIII. PROCEDURAL MATTERS
A.

Ex Parte Rules

146. The proceeding for the Notice of Proposed Rulemaking shall be treated as a “permit-butdisclose” proceeding in accordance with the Commis-

226a
sion’s ex parte rules.392 Persons making ex parte
presentations must file a copy of any written presentation or a memorandum summarizing any oral
presentation within two business days after the
presentation (unless a different deadline applicable
to the Sunshine period applies). Persons making
oral ex parte presentations are reminded that memoranda summarizing the presentation must (1) list all
persons attending or otherwise participating in the
meeting at which the ex parte presentation was
made, and (2) summarize all data presented and arguments made during the presentation. If the
presentation consisted in whole or in part of the
presentation of data or arguments already reflected
in the presenter’s written comments, memoranda or
other filings in the proceeding, the presenter may
provide citations to such data or arguments in his or
her prior comments, memoranda, or other filings
(specifying the relevant page and/or paragraph numbers where such data or arguments can be found) in
lieu of summarizing them in the memorandum.
Documents shown or given to Commission staff during ex parte meetings are deemed to be written ex
parte presentations and must be filed consistent with
Section 1.1206(b). In proceedings governed by Section 1.49(f) or for which the Commission has made
available a method of electronic filing, written ex
parte presentations and memoranda summarizing
oral ex parte presentations, and all attachments
thereto, must be filed through the electronic comment filing system available for that proceeding, and
392 47 CFR §§ 1.1200 et seq.

227a
must be filed in their native format (e.g., .doc, .xml,
.ppt, searchable .pdf). Participants in this proceeding should familiarize themselves with the Commission’s ex parte rules.
B.

Filing Requirements

147. Pursuant to Sections 1.415 and 1.419 of
the Commission’s rules, 47 CFR §§ 1.415, 1.419, interested parties may file comments and reply comments on or before the dates indicated on the first
page of this document. Comments may be filed using
the Commission’s Electronic Comment Filing System
(ECFS). See Electronic Filing of Documents in
Rulemaking Proceedings, 63 FR 24121 (1998).


Commenting parties may file comments in response to this Notice in MB Docket No. 17289; interested parties are not required to file
duplicate copies in the additional dockets
listed in the caption of this notice.



Electronic Filers: Comments may be filed
electronically using the Internet by accessing
the ECFS: http://apps.fcc.gov/ecfs/.



Paper Filers: Parties who choose to file by paper must file an original and one copy of each
filing. If more than one docket or rulemaking
number appears in the caption of this proceeding, filers must submit two additional copies
for each additional docket or rulemaking
number.



Filings can be sent by hand or messenger delivery, by commercial overnight courier, or by
first-class or overnight U.S. Postal Service
mail. All filings must be addressed to the

228a
Commission’s Secretary, Office of the Secretary, Federal Communications Commission.


All hand-delivered or messenger-delivered
paper filings for the Commission’s Secretary must be delivered to FCC Headquarters at 445 12th St., SW, Room TW-A325,
Washington, D.C. 20554. The filing hours
are 8:00 a.m. to 7:00 p.m. All hand deliveries must be held together with rubber
bands or fasteners. Any envelopes and
boxes must be disposed of before entering
the building.



Commercial overnight mail (other than
U.S. Postal Service Express Mail and Priority Mail) must be sent to 9050 Junction
Drive, Annapolis Junction, MD 20701.



U.S. Postal Service first-class, Express, and
Priority mail must be addressed to 445 12th
Street, SW, Washington, D.C. 20554.

148. People with Disabilities: To request
materials in accessible formats for people with disabilities (braille, large print, electronic files, audio
format), send an e-mail to fcc504@fcc.gov or call the
Consumer and Governmental Affairs Bureau at 202418-0530 (voice), 202-418-0432 (tty).
C.

Regulatory Flexibility Analysis

149. As required by the Regulatory Flexibility Act of 1980, as amended (RFA),393 the Commission has prepared an Initial Regulatory Flexibility
393 See 5 U.S.C. § 603.

229a
Analysis (IRFA) and a Supplemental Final Regulatory Flexibility Analysis (Supplemental FRFA) of the
possible significant economic impact on small entities of the policies and rules addressed in the Report
and Order and Notice of Proposed Rulemaking. The
Supplemental FRFA is set forth in Appendix B. The
IRFA is set forth in Appendix C. We request written
public comment on the IRFA. Comments must be
filed in accordance with the same deadlines as comments filed in response to the Notice of Proposed
Rulemaking as set forth on the first page of this document, and have a separate and distinct heading
designating them as responses to the IRFA. The
Commission’s Consumer and Governmental Affairs
Bureau, Reference Information Center, will send a
copy of this Order on Reconsideration and Notice of
Proposed Rulemaking, including the Supplemental
FRFA and IRFA, to the Chief Counsel for Advocacy
of the Small Business Administration. In addition,
the Order on Reconsideration and Notice of Proposed
Rulemaking and IRFA (or summaries thereof) will be
published in the Federal Register.
D.

Paperwork Reduction Act Analysis

150. This Order on Reconsideration contains
information collection requirements subject to the
Paperwork Reduction Act of 1995 (PRA), Public Law
104-13. The requirements will be submitted to the
Office of Management and Budget (OMB) for review
under Section 3507(d) of the PRA. OMB, the general
public, and other Federal agencies will be invited to
comment on the information collection requirements
contained in this proceeding. The Commission will
publish a separate document in the Federal Register
at a later date seeking these comments. In addition,

230a
we note that, pursuant to the Small Business Paperwork Relief Act of 2002, Public Law 107-198, see
44 U.S.C. § 3506(c)(4), the Commission previously
sought specific comment on how it might further reduce the information collection burden for small
business concerns with fewer than 25 employees.
151. The Notice of Proposed Rulemaking
contains proposed new information collection requirements. The Commission, as part of its continuing effort to reduce paperwork burdens, invites the
general public and OMB to comment on the information collection requirements contained in this
document, as required by PRA. In addition, pursuant to the Small Business Paperwork Relief Act of
2002, Public Law 107-198, see 44 U.S.C. 3506(c)(4),
the Commission seeks specific comment on how it
might “further reduce the information collection burden for small business concerns with fewer than 25
employees.”394
E.

Congressional Review Act

152. The Commission will send a copy of this
Order on Reconsideration and Notice of Proposed
Rulemaking to Congress and the Government Accountability Office pursuant to the Congressional
Review Act, see 5 U.S.C. § 801(a)(1)(A).
IX.

ORDERING CLAUSES

153. Accordingly, IT IS ORDERED that,
pursuant to the authority contained in Sections 1,
2(a), 4(i), 257, 303, 307, 309, 310, and 403 of the
394 44 U.S.C. § 3506(c)(4).

231a
Communications Act of 1934, as amended, 47 U.S.C.
§§ 151, 152(a), 154(i), 257, 303, 307, 309, 310, and
403, and Section 202(h) of the Telecommunications
Act of 1996, this Order on Reconsideration and Notice of Proposed Rulemaking IS ADOPTED.
154. IT IS FURTHER ORDERED that,
pursuant to Section 405 of the Communications Act
of 1934, as amended, 47 U.S.C. § 405, and Section
1.429 of the Commission’s rules, 47 CFR § 1.429,
that the petitions for reconsideration filed by
(1) Connoisseur Media, LLC IS GRANTED, IN
PART, AND OTHERWISE DENIED as set forth
herein; (2) the National Association of Broadcasters
IS GRANTED, IN PART, AND OTHERWISE
DENIED as set forth herein; and (3) Nexstar Broadcasting, Inc.
IS GRANTED, IN PART, AND
OTHERWISE DENIED as set forth herein.
155. IT IS FURTHER ORDERED that
UCC et al.’s Motion to Strike and Dismiss IS
DENIED as set forth herein.
156. IT IS FURTHER ORDERED that the
Order on Reconsideration and the rule modifications
attached hereto as Appendix A SHALL BE
EFFECTIVE thirty (30) days after publication of the
text or a summary thereof in the Federal Register,
except for those rules and requirements involving
Paperwork Reduction Act burdens, which shall become effective on the effective date announced in the
Federal Register notice announcing OMB approval.
157. IT IS FURTHER ORDERED that,
pursuant to applicable procedures set forth in Sections 1.415 and 1.419 of the Commission’s rules, 47
CFR §§ 1.415, 1.419, interested parties may file

232a
comments on the Notice of Proposed Rulemaking in
MB Docket No. 17-289 on or before sixty (60) days
after publication in the Federal Register and reply
comments on or before ninety (90) days after publication in the Federal Register.
158. IT IS FURTHER ORDERED, that the
proceedings MB Docket No. 04-256, MB Docket No.
09-182, and MB Docket No. 14-50 ARE
TERMINATED.
159. IT IS FURTHER ORDERED that the
Commission’s Consumer and Governmental Affairs
Bureau, Reference Information Center, SHALL
SEND a copy of this Order on Reconsideration and
Notice of Proposed Rulemaking, including the Supplemental Final Regulatory Flexibility Analysis and
Initial Regulatory Flexibility Analysis, to the Chief
Counsel for Advocacy of the Small Business Administration.
160. IT IS FURTHER ORDERED that,
pursuant to Section 801(a)(1)(A) of the Congressional
Review Act, 5 U.S.C. § 801(a)(1)(A), the Commission
SHALL SEND a copy of the Order on Reconsideration and Notice of Proposed Rulemaking to Congress
and to the Government Accountability Office.
FEDERAL COMMUNICATIONS
COMMISSION

Marlene H. Dortch
Secretary

233a
APPENDIX A
Final Rule Changes
Part 73 of Title 47 of the Code of Federal Regulations is amended as follows:
PART 73—RADIO BROADCAST SERVICES
1.
The authority citation for Part 73 continues to
read as follows:
AUTHORITY: 47 U.S.C. 154, 303, 334, 336 and 339.
2.
Amend § 73.3555 by revising paragraph (b);
removing and reserving paragraphs (c) and (d); revising Note 2, Note 4, Note 5, Note 6, Note 7, and Note
9; and removing Note 12:
§ 73.3555 Multiple ownership.
*****
(b) Local television multiple ownership rule. (1) An
entity may directly or indirectly own, operate, or control two television stations licensed in the same Designated Market Area (DMA) (as determined by Nielsen Media Research or any successor entity) if:
(i) The digital noise limited service contours of the
stations (computed in accordance with § 73.622(e)) do
not overlap; or
(ii) At the time the application to acquire or construct
the station(s) is filed, at least one of the stations is
not ranked among the top four stations in the DMA,
based on the most recent all-day (9 a.m.-midnight)
audience share, as measured by Nielsen Media Research or by any comparable professional, accepted
audience ratings service.

234a
(b)(2) Paragraph (b)(1)(ii) (Top-Four Prohibition) of
this section shall not apply in cases where, at the request of the applicant, the Commission makes a finding that permitting an entity to directly or indirectly
own, operate, or control two television stations licensed in the same DMA would serve the public interest, convenience, and necessity. The Commission
will consider showings that the Top-Four Prohibition
should not apply due to specific circumstances in a
local market or with respect to a specific transaction
on a case-by-case basis.
(c) [Reserved]
(d) [Reserved]
*****
Note 2 to § 73.3555:
In applying the provisions of this section, ownership
and other interests in broadcast licensees will be attributed to their holders and deemed cognizable pursuant to the following criteria:
a. Except as otherwise provided herein, partnership
and direct ownership interests and any voting stock
interest amounting to 5% or more of the outstanding
voting stock of a corporate broadcast licensee will be
cognizable;
b. Investment companies, as defined in 15 U.S.C.
80a-3, insurance companies and banks holding stock
through their trust departments in trust accounts
will be considered to have a cognizable interest only
if they hold 20% or more of the outstanding voting
stock of a corporate broadcast licensee, or if any of
the officers or directors of the broadcast licensee are
representatives of the investment company, insur-

235a
ance company or bank concerned. Holdings by a
bank or insurance company will be aggregated if the
bank or insurance company has any right to determine how the stock will be voted. Holdings by investment companies will be aggregated if under
common management.
c. Attribution of ownership interests in a broadcast
licensee that are held indirectly by any party
through one or more intervening corporations will be
determined by successive multiplication of the ownership percentages for each link in the vertical ownership chain and application of the relevant attribution benchmark to the resulting product, except that
wherever the ownership percentage for any link in
the chain exceeds 50%, it shall not be included for
purposes of this multiplication. For purposes of paragraph i. of this note, attribution of ownership interests in a broadcast licensee that are held indirectly
by any party through one or more intervening organizations will be determined by successive multiplication of the ownership percentages for each link in the
vertical ownership chain and application of the relevant attribution benchmark to the resulting product,
and the ownership percentage for any link in the
chain that exceeds 50% shall be included for purposes of this multiplication. [For example, except for
purposes of paragraph (i) of this note, if A owns 10%
of company X, which owns 60% of company Y, which
owns 25% of “Licensee,” then X’s interest in “Licensee” would be 25% (the same as Y’s interest because
X’s interest in Y exceeds 50%), and A’s interest in
“Licensee” would be 2.5% (0.1 × 0.25). Under the 5%
attribution benchmark, X’s interest in “Licensee”
would be cognizable, while A’s interest would not be

236a
cognizable. For purposes of paragraph i. of this note,
X’s interest in “Licensee” would be 15% (0.6 × 0.25)
and A’s interest in “Licensee” would be 1.5% (0.1 ×
0.6 × 0.25). Neither interest would be attributed under paragraph i. of this note.]
d. Voting stock interests held in trust shall be attributed to any person who holds or shares the power
to vote such stock, to any person who has the sole
power to sell such stock, and to any person who has
the right to revoke the trust at will or to replace the
trustee at will. If the trustee has a familial, personal
or extra-trust business relationship to the grantor or
the beneficiary, the grantor or beneficiary, as appropriate, will be attributed with the stock interests
held in trust. An otherwise qualified trust will be
ineffective to insulate the grantor or beneficiary from
attribution with the trust’s assets unless all voting
stock interests held by the grantor or beneficiary in
the relevant broadcast licensee are subject to said
trust.
***
g. Officers and directors of a broadcast licensee are
considered to have a cognizable interest in the entity
with which they are so associated. If any such entity
engages in businesses in addition to its primary
business of broadcasting, it may request the Commission to waive attribution for any officer or director whose duties and responsibilities are wholly unrelated to its primary business. The officers and directors of a parent company of a broadcast licensee,
with an attributable interest in any such subsidiary
entity, shall be deemed to have a cognizable interest
in the subsidiary unless the duties and responsibili-

237a
ties of the officer or director involved are wholly unrelated to the broadcast licensee, and a statement
properly documenting this fact is submitted to the
Commission. [This statement may be included on the
appropriate Ownership Report.] The officers and directors of a sister corporation of a broadcast licensee
shall not be attributed with ownership of that licensee by virtue of such status.
h. Discrete ownership interests will be aggregated in
determining whether or not an interest is cognizable
under this section. An individual or entity will be
deemed to have a cognizable investment if:
1. The sum of the interests held by or through “passive investors” is equal to or exceeds 20 percent; or
2. The sum of the interests other than those held by
or through “passive investors” is equal to or exceeds
5 percent; or
3. The sum of the interests computed under paragraph h. 1. of this note plus the sum of the interests
computed under paragraph h. 2. of this note is equal
to or exceeds 20 percent.
i.1. Notwithstanding paragraphs e. and f. of this
Note, the holder of an equity or debt interest or interests in a broadcast licensee subject to the broadcast multiple ownership rules (“interest holder”)
shall have that interest attributed if:
A. The equity (including all stockholdings, whether
voting or nonvoting, common or preferred) and debt
interest or interests, in the aggregate, exceed 33 percent of the total asset value, defined as the aggregate
of all equity plus all debt, of that broadcast licensee;
and

238a
B.(i) The interest holder also holds an interest in a
broadcast licensee in the same market that is subject
to the broadcast multiple ownership rules and is attributable under paragraphs of this note other than
this paragraph i.; or
(ii) The interest holder supplies over fifteen percent
of the total weekly broadcast programming hours of
the station in which the interest is held. For purposes of applying this paragraph, the term, “market,”
will be defined as it is defined under the specific multiple ownership rule that is being applied, except
that for television stations, the term “market” will be
defined by reference to the definition contained in
the local television multiple ownership rule contained in paragraph (b) of this section.
2. Notwithstanding paragraph i.1. of this Note, the
interest holder may exceed the 33 percent threshold
therein without triggering attribution where holding
such interest would enable an eligible entity to acquire a broadcast station, provided that:
i. The combined equity and debt of the interest holder in the eligible entity is less than 50 percent, or
ii. The total debt of the interest holder in the eligible
entity does not exceed 80 percent of the asset value
of the station being acquired by the eligible entity
and the interest holder does not hold any equity interest, option, or promise to acquire an equity interest in the eligible entity or any related entity. For
purposes of this paragraph i.2, an “eligible entity”
shall include any entity that qualifies as a small
business under the Small Business Administration’s
size standards for its industry grouping, as set forth

239a
in 13 CFR 121.201, at the time the transaction is approved by the FCC, and holds:
A. 30 percent or more of the stock or partnership interests and more than 50 percent of the voting power
of the corporation or partnership that will own the
media outlet; or
B. 15 percent or more of the stock or partnership interests and more than 50 percent of the voting power
of the corporation or partnership that will own the
media outlet, provided that no other person or entity
owns or controls more than 25 percent of the outstanding stock or partnership interests; or
C. More than 50 percent of the voting power of the
corporation that will own the media outlet if such
corporation is a publicly traded company.
j. “Time brokerage” (also known as “local marketing”) is the sale by a licensee of discrete blocks of
time to a “broker” that supplies the programming to
fill that time and sells the commercial spot announcements in it.
1. Where two radio stations are both located in the
same market, as defined for purposes of the local radio ownership rule contained in paragraph (a) of this
section, and a party (including all parties under
common control) with a cognizable interest in one
such station brokers more than 15 percent of the
broadcast time per week of the other such station,
that party shall be treated as if it has an interest in
the brokered station subject to the limitations set
forth in paragraph (a) of this section. This limitation
shall apply regardless of the source of the brokered

240a
programming supplied by the party to the brokered
station.
2. Where two television stations are both located in
the same market, as defined in the local television
ownership rule contained in paragraph (b) of this
section, and a party (including all parties under
common control) with a cognizable interest in one
such station brokers more than 15 percent of the
broadcast time per week of the other such station,
that party shall be treated as if it has an interest in
the brokered station subject to the limitations set
forth in paragraphs (b) and (e) of this section. This
limitation shall apply regardless of the source of the
brokered programming supplied by the party to the
brokered station.
3. Every time brokerage agreement of the type described in this Note shall be undertaken only pursuant to a signed written agreement that shall contain
a certification by the licensee or permittee of the
brokered station verifying that it maintains ultimate
control over the station’s facilities including, specifically, control over station finances, personnel and
programming, and by the brokering station that the
agreement complies with the provisions of paragraph
(b) of this section if the brokering station is a television station or with paragraph (a) of this section if
the brokering station is a radio station.
k. “Joint Sales Agreement” is an agreement with a
licensee of a “brokered station” that authorizes a
“broker” to sell advertising time for the “brokered
station.”
1. Where two radio stations are both located in the
same market, as defined for purposes of the local ra-

241a
dio ownership rule contained in paragraph (a) of this
section, and a party (including all parties under
common control) with a cognizable interest in one
such station sells more than 15 percent of the advertising time per week of the other such station, that
party shall be treated as if it has an interest in the
brokered station subject to the limitations set forth
in paragraph (a) of this section.
2. Every joint sales agreement of the type described
in this Note shall be undertaken only pursuant to a
signed written agreement that shall contain a certification by the licensee or permittee of the brokered
station verifying that it maintains ultimate control
over the station’s facilities, including, specifically,
control over station finances, personnel and programming, and by the brokering station that the
agreement complies with the limitations set forth in
paragraph (a) of this section if the brokering station
is a radio station.
*****
Note 4 to § 73.3555:
Paragraphs (a) and (b) of this section will not be applied so as to require divestiture, by any licensee, of
existing facilities, and will not apply to applications
for assignment of license or transfer of control filed
in accordance with §73.3540(f) or §73.3541(b), or to
applications for assignment of license or transfer of
control to heirs or legatees by will or intestacy, or to
FM or AM broadcast minor modification applications
for intra-market community of license changes, if no
new or increased concentration of ownership would
be created among commonly owned, operated or controlled broadcast stations. Paragraphs (a) and (b) of

242a
this section will apply to all applications for new stations, to all other applications for assignment or
transfer, to all applications for major changes to existing stations, and to all other applications for minor changes to existing stations that seek a change
in an FM or AM radio station’s community of license
or create new or increased concentration of ownership among commonly owned, operated or controlled
broadcast stations. Commonly owned, operated or
controlled broadcast stations that do not comply with
paragraphs (a) and (b) of this section may not be assigned or transferred to a single person, group or entity, except as provided in this Note, the Report and
Order in Docket No. 02-277, released July 2, 2003
(FCC 02-127), or the Second Report and Order in MB
Docket No. 14-50, FCC 16-107 (released August 25,
2016).
*****
Note 5 to § 73.3555:
Paragraphs (b) and (e) of this section will not be applied to cases involving television stations that are
“satellite” operations. Such cases will be considered
in accordance with the analysis set forth in the Report and Order in MM Docket No. 87-8, FCC 91-182
(released July 8, 1991), in order to determine whether common ownership, operation, or control of the
stations in question would be in the public interest.
An authorized and operating “satellite” television
station, the digital noise limited service contour of
which overlaps that of a commonly owned, operated,
or controlled “non-satellite” parent television broadcast station may subsequently become a “nonsatellite” station under the circumstances described

243a
in the aforementioned Report and Order in MM
Docket No. 87-8. However, such commonly owned,
operated, or controlled “non-satellite” television stations may not be transferred or assigned to a single
person, group, or entity except as provided in Note 4
of this section.
Note 6 to § 73.3555:
Requests submitted pursuant to paragraph (b)(2)
will be considered in accordance with the analysis set
forth in the Order on Reconsideration in MB Docket
Nos. 14-50, et al. (FCC 17-156).
Note 7 to § 73.3555:
The Commission will entertain applications to waive
the restrictions in paragraph (b) of this section (the
local television ownership rule) on a case-by-case basis. In each case, we will require a showing that the
in-market buyer is the only entity ready, willing, and
able to operate the station, that sale to an out-ofmarket applicant would result in an artificially depressed price, and that the waiver applicant does not
already directly or indirectly own, operate, or control
interest in two television stations within the relevant
DMA. One way to satisfy these criteria would be to
provide an affidavit from an independent broker affirming that active and serious efforts have been
made to sell the permit, and that no reasonable offer
from an entity outside the market has been received.
We will entertain waiver requests as follows:
1. If one of the broadcast stations involved is a
“failed” station that has not been in operation due to
financial distress for at least four consecutive
months immediately prior to the application, or is a

244a
debtor in an involuntary bankruptcy or insolvency
proceeding at the time of the application.
2. If one of the television stations involved is a “failing” station that has an all-day audience share of no
more than four per cent; the station has had negative
cash flow for three consecutive years immediately
prior to the application; and consolidation of the two
stations would result in tangible and verifiable public interest benefits that outweigh any harm to competition and diversity.
3. If the combination will result in the construction
of an unbuilt station. The permittee of the unbuilt
station must demonstrate that it has made reasonable efforts to construct but has been unable to do so.
*****
Note 9 to § 73.3555
Paragraph (a)(1) of this section will not apply to an
application for an AM station license in the 16051705 kHz band where grant of such application will
result in the overlap of the 5 mV/m groundwave contours of the proposed station and that of another AM
station in the 535-1605 kHz band that is commonly
owned, operated or controlled.
*****
3. Amend § 73.3613 by revising paragraphs (d)(2) to
read as follows:
§ 73.3613 Filing of contracts.
*****
(d) * * *

245a
(2) Joint sales agreements: Joint sales agreements
involving radio stations where the licensee (including
all parties under common control) is the brokering
entity, the brokering and brokered stations are both
in the same market as defined in the local radio multiple ownership rule contained in § 73.3555(a), and
more than 15 percent of the advertising time of the
brokered station on a weekly basis is brokered by
that licensee. Confidential or proprietary information may be redacted where appropriate but such
information shall be made available for inspection
upon request by the FCC.
*****

246a
APPENDIX B
Supplemental Final Regulatory
Flexibility Analysis
1.
In compliance with the Regulatory Flexibility Act (RFA),1 this Supplemental Final Regulatory Flexibility Analysis (Supplemental FRFA) supplements the Final Regulatory Flexibility Analysis
(FRFA) included in the Second Report and Order,2 to
the extent that changes adopted on reconsideration
require changes to the information included and conclusions reached in the FRFA. As required by the
Regulatory Flexibility Act of 1980, as amended
(RFA),3 an Initial Regulatory Flexibility Analysis
(IRFA) was incorporated in the NPRM that initiated
this proceeding.4 The Commission sought written
public comment on the proposals in the NPRM, including comment on the IRFA. The Commission also

1

See 5 U.S.C. § 604.

2

2014 Quadrennial Regulatory Review – Review of the
Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996 et al., Second Report and Order, 31 FCC Rcd 9864,
10029-42, App. B (2016) (Second Report and Order).
3 5 U.S.C. § 603. The RFA, id. §§ 601-12, has been amended by
the Small Business Regulatory Enforcement Fairness Act of
1996 (SBREFA), Pub. L. No. 104-121, Title II, 110 Stat. 857
(1996).
4 See 2010 Quadrennial Regulatory Review – Review of the
Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996 et al., Notice of Proposed Rulemaking, 26 FCC Rcd
17489, Appx. C (2011) (NPRM).

247a
incorporated a Supplemental Initial Regulatory Flexibility Analysis (Supplemental IRFA) in the FNPRM
in this proceeding.5 The Commission sought written
public comment on the proposals in the FNPRM, including comment on the Supplemental IRFA. The
Commission received no comments in response to the
IRFA or the Supplemental IRFA. This present Supplemental FRFA conforms to the RFA.6
A.

Need for, and Objectives of, the Order on Reconsideration

2.
This Order on Reconsideration modifies
the Second Report and Order, which concluded the
2010 and 2014 Quadrennial Reviews of the broadcast
ownership rules initiated pursuant to Section 202(h)
of the Telecommunications Act of 1996 (1996 Act).7
The Commission is required by statute to review its
media ownership rules every four years to determine
whether they “are necessary in the public interest as

5 See 2014 Quadrennial Regulatory Review – Review of the
Commission’s Broadcast Ownership Rules and Other Rules
Adopted Pursuant to Section 202 of the Telecommunications Act
of 1996 et al., Further Notice of Proposed Rulemaking and Report and Order, 29 FCC Rcd 4371, Appx. D (2014) (FNPRM).
6 See 5 U.S.C. § 604.
7 Telecommunications Act of 1996, Pub. L. No. 104-104, §
202(h), 110 Stat. 56, 111-12 (1996) (1996 Act) (codified as
amended at 47 U.S.C. § 303 note); Consolidated Appropriations
Act, 2004, Pub. L. No. 108-199, § 629, 118 Stat. 3, 99-100 (2004)
(Appropriations Act) (amending Sections 202(c) and 202(h) of
the 1996 Act).

248a
the result of competition”8 and to “repeal or modify
any regulation it determines to be no longer in the
public interest.”9 The media ownership rules that
are subject to this quadrennial review are the Local
Television Ownership Rule, the Local Radio Ownership Rule, the Newspaper/Broadcast CrossOwnership (NBCO) Rule, the Radio/Television CrossOwnership Rule, and the Dual Network Rule.10
3.
In this Order on Reconsideration, the
Commission eliminates the Newspaper/Broadcast
Cross-Ownership Rule and the Radio/Television
Cross-Ownership Rule in their entirety. The Commission revises the Local Television Ownership Rule
to eliminate the Eight-Voices Test and to modify the
Top-Four Prohibition to better reflect the competitive
conditions in local markets. The Commission also
eliminates the attribution rule for television joint
sales agreements (JSAs). No other changes are
8 1996 Act § 202(h). In Prometheus Radio Project v. FCC, 373
F.3d 372 (3d Cir. 2004) (Prometheus I), the Third Circuit concluded that “necessary in the public interest” is a ‘“plain public
interest’ standard under which ‘necessary’ means ‘convenient,’
‘useful,’ or ‘helpful,’ not ‘essential’ or ‘indispensable.’” Id. at 394.
The court stated that “the first instruction [of Section 202(h)]
requires the Commission to take a fresh look at its regulations
periodically in order to ensure that they remain ‘necessary in
the public interest.’” Id. at 391. In 2004, Congress revised the
then-biennial review requirement to require such reviews
quadrennially. See Appropriations Act § 629.
9 47 U.S.C. § 303 note (Section 202(h) of the 1996 Act as
amended).
10 These rules are found, respectively, at 47 CFR Sections
73.3555(b), (a), (d), (c), and 73.658(g).

249a
made to the rules adopted in the Second Report and
Order.11
Newspaper/Broadcast Cross-Ownership
4.
Rule. In the Order on Reconsideration, the Commission finds that the Newspaper/Broadcast CrossOwnership (NBCO) Rule no longer serves the public
interest. The Commission accordingly repeals the
rule in its entirety. The Second Report and Order
retained the NBCO Rule, which prohibits common
ownership of a daily newspaper and a full-power
broadcast station (AM, FM, or TV) within the same
local market, with only modest modifications in order
to promote viewpoint diversity. On reconsideration,
the Commission finds that the NBCO Rule no longer
meets the public interest standard required under
Section 202(h). The Commission finds that the
NBCO Rule is no longer necessary to promote viewpoint diversity (and confirms that the rule is not nec11

The Commission declines to modify the market definitions
relied on for the Local Radio Ownership Rule—though the Order on Reconsideration does adopt a presumptive waiver standard for certain embedded market transactions—and retains the
disclosure requirement for shared service agreements (SSAs)
involving commercial television stations, as requested by certain parties in petitions for reconsideration. Accordingly, no
supplemental FRFA is warranted for the Local Radio Ownership Rule or the SSA disclosure requirement, as the FRFA
adopted in the Second Report and Order will continue to apply
to those provisions. In addition, in the Order on Reconsideration the Commission decides to adopt an incubator program and
initiates a new proceeding to seek comment on the structure
and administration of such a program. That program is addressed in an IRFA attached to the Order on Reconsideration at
Appendix C.

250a
essary to promote competition or localism) because of
the multiplicity of sources of news and information in
the current media marketplace and the diminished
voice of daily print newspapers. The Commission also finds that the rule may, in fact, be limiting opportunities for broadcasters and newspapers to retain
their strength as voices in local markets. In addition, the Commission finds that eliminating the rule
will benefit localism by allowing both broadcasters
and newspapers to seek out new sources of investment and operational expertise, thereby potentially
increasing the quantity and quality of local news
programming they provide in their local markets.
On balance, therefore, the Commission finds that retaining the rule does not serve the public interest.
The Commission therefore concludes that retaining
the rule is not in the public interest and that the
public interest is best served by repealing the NBCO
Rule. Accordingly, a newspaper will be allowed to
combine with television and radio stations within the
same local market, subject to the remaining broadcast ownership rules.
5.
Radio/Television
Cross-Ownership
Rule. In the Order on Reconsideration, the Commission finds that the Radio/Television Cross-Ownership
Rule no longer serves the public interest. Accordingly, the Commission eliminates the rule in its entirety. The Commission concludes that it can no longer
justify retention of the rule in light of broadcast radio’s diminished contributions to viewpoint diversity
and the variety of other media outlets that contribute to viewpoint diversity in local markets. In addition, given that the Radio/Television CrossOwnership Rule retained in the Second Report and

251a
Order already permits a significant degree of common ownership, the Commission concludes that the
rule’s elimination will have a negligible effect in
most markets, particularly as ownership will continue to be limited by the Local Television and Local
Radio Ownership Rules. Accordingly, television stations and radio stations in the same market may be
commonly owned provided that such ownership arrangements otherwise comply with the Local Television and Local Radio Ownership Rules.
6.
Local Television Ownership Rule. In
the Order on Reconsideration, the Commission finds
that the Local Television Ownership Rule adopted in
the Second Report and Order is not supported by the
record and must be modified. Specifically, the Commission eliminates the Eight-Voices Test, which required that at least eight independently owned television stations must remain in the market after
combining ownership of two stations in a market.
The Commission modifies the Top-Four Prohibition,
a prohibition against common ownership of two topfour ranked stations in all markets, adopting a caseby-case approach to account for circumstances in
which application of the prohibition is not in the public interest.
7.
The Commission finds that the decision
in the Second Report and Order to retain ownership
rules focused on promoting competition among
broadcast television stations in local television viewing markets was appropriate because broadcast television stations still play a unique and important role
in their local communities. However, the importance
of broadcast television stations also compels the
Commission to ensure that its rules do not restrict

252a
unnecessarily the ability of broadcast television stations to serve their local markets when facing pressure from ever-growing video programming options.
8.
On reconsideration, the Commission
finds no record support or reasoned analysis to justify retention of the Eight-Voices Test. In the Second
Report and Order, the Commission failed to explain
adequately why the number of independent television stations must be equal to the number of topperforming stations in a market (i.e., the top-four
rated stations). The Second Report and Order also
failed to provide precedent, record evidence, or economic theory to support the underlying premise that
the number of independent television stations must
be equal to the number of top-performing stations in
a market to promote competition. The Commission
also ignored evidence in the record demonstrating
that the Eight-Voices Test lacks any economic support, is inconsistent with the realities of the television marketplace, and prevents combinations that
would likely produce significant public interest benefits. In the Order on Reconsideration, the Commission found that elimination of the Eight-Voices Test
will enable broadcasters to realize potential public
interest benefits of common ownership, potentially
allowing local broadcast stations to invest more resources in news or other public interest programming that meets the needs of their local communities. Accordingly, the Commission modifies the Local
Television Ownership Rule as adopted in the Second
Report and Order to eliminate the Eight-Voices Test.
9.
In contrast to the Eight-Voices Test, the
Commission finds that its decision in the Second Report and Order to treat combinations involving two

253a
top-four rated stations differently than other combinations was generally supported by the record.
However, evidence in the record demonstrated that
the concerns for which the Top-Four Prohibition is
intended to address may not be present in some
markets. Accordingly, the Commission modifies the
Top-Four Prohibition to include an option for caseby-case examination, which will lead to a more tailored application of the Local Television Ownership
Rule.
10.
Television JSA Attribution Rule. On reconsideration, the Commission finds that the Second
Report and Order failed to demonstrate that television JSAs should be attributable and finds significant evidence that television JSAs help promote the
public interest, particularly in small and midsized
markets. Attributing JSAs discourages stations from
achieving these benefits to the detriment of the public interest. Therefore, even if the Second Report and
Order had correctly determined television JSAs
should be attributable, the Commission finds that
the public interest is best served by refraining from
attributing such agreements. Accordingly, based on
a full consideration of the record, the Commission
eliminates the Television JSA Attribution Rule.
B.

Summary of Significant Issues
Raised by Public Comments in Response to the IRFA

11.
The Commission received no comments
in response to the IRFA, or the Supplemental IRFA.

254a
C.

Response to Comments by the Chief
Counsel for Advocacy of the Small
Business Administration

12.
Pursuant to the Small Business Jobs
Act of 2010, which amended the RFA, the Commission is required to respond to any comments filed by
the Chief Counsel for Advocacy of the Small Business
Administration (SBA) and to provide a detailed
statement of any change made to the proposed rules
as a result of those comments.12
13.
The Chief Counsel did not file any
comments in response to the proposed rules in this
proceeding.
D.

Description and Estimate of the
Number of Small Entities to Which
Rules Will Apply

14.
The RFA directs the Commission to
provide a description of and, where feasible, an estimate of the number of small entities that will be affected by the rules adopted.13 The RFA generally
defines the term “small entity” as having the same
meaning as the terms “small business,” “small organization,” and “small governmental jurisdiction.”14 In
addition, the term “small business” has the same
meaning as the term “small business concern” under

12 5 U.S.C. § 604(a)(3).
13 Id.
14 Id. § 601(6).

255a
the Small Business Act.15 A “small business concern” is one which: (1) is independently owned and
operated; (2) is not dominant in its field of operation;
and (3) satisfies any additional criteria established
by the SBA.16 The final rules adopted herein affect
small television and radio broadcast stations and
small entities that operate daily newspapers. A description of these small entities, as well as an estimate of the number of such small entities, is provided below.
15.
Television Broadcasting. This Economic
Census category “comprises establishments primarily engaged in broadcasting images together with
sound.”17 These establishments operate television
broadcasting studios and facilities for the programming and transmission of programs to the public.18
These establishments also produce or transmit visual
programming to affiliated broadcast television sta15 Id. § 601(3) (incorporating by reference the definition of
“small-business concern” in the Small Business Act, 15 U.S.C. §
632). Pursuant to 5 U.S.C. § 601(3), the statutory definition of
a small business applies “unless an agency, after consultation
with the Office of Advocacy of the Small Business Administration and after opportunity for public comment, establishes one
or more definitions of such term which are appropriate to the
activities of the agency and publishes such definition(s) in the
Federal Register.”
16 15 U.S.C. § 632.
17

U.S. Census Bureau, 2017 NAICS Definitions, “515120
Television
Broadcasting,”
https://www.census.gov/cgibin/sssd/naics/naicsrch?input=515120&search=2017+NAICS+S
earch&search=2017.
18 Id.

256a
tions, which in turn broadcast the programs to the
public on a predetermined schedule. Programming
may originate in their own studio, from an affiliated
network, or from external sources.19 The SBA has
created the following small business size standard
for such businesses: those having $38.5 million or
less in annual receipts.20 The 2012 Economic Census data reports that 751 such firms in this category
operated in that year. Of that number, 656 had annual receipts of $25,000,000 or less, 25 had annual
receipts between $25,000,000 and $49,999,999 and
70 had annual receipts of $50,000,000 or more.21
Based on this data, we therefore estimate that the
majority of commercial television broadcasters are
small entities under the applicable SBA size standard.
19

U.S. Census Bureau, North American Industry Classification System at 420 (2017) (Television Broadcasting NAICS
Code
515120)
(NAICS
Codes
2017),
https://www.census.gov/eos/www/naics/2017NAICS/2017_NAIC
S_ Manual.pdf. Separate census categories pertain to businesses primarily engaged in producing programming. See Motion
Picture and Video Production, NAICS Code 512110; Motion Picture and Video Distribution, NAICS Code 512120; Teleproduction and Other Post-Production Services, NAICS Code 512191;
and Other Motion Picture and Video Industries, NAICS Code
512199.
20 13 CFR § 121.201 (NAICS code 515120).
21 U.S. Census Bureau, Table No. EC1251SSSZ4, Information:
Subject Series - Establishment and Firm Size: Receipts Size of
Firms for the United States: 2012 (515120 Television Broadcasting).
https://factfinder.census.gov/faces/tableservices/jsf/pages/produc
tview.xhtml?pid=ECN_2012_US_51SSSZ4&prod Type=table.

257a
16.
The Commission has estimated the
number of licensed commercial television stations to
be 1,382.22 Of this total, 1,262 stations (or about 91
percent) had revenues of $38.5 million or less, according to Commission staff review of the BIA Kelsey
Inc. Media Access Pro Television Database (BIA) on
May 9, 2017, and therefore these licensees qualify as
small entities under the SBA definition. In addition,
the Commission has estimated the number of licensed noncommercial educational television stations to be 393.23 Notwithstanding, the Commission
does not compile and otherwise does not have access
to information on the revenue of NCE stations that
would permit it to determine how many such stations would qualify as small entities.
17.
We note, however, that, in assessing
whether a business concern qualifies as small under
the above definition, business (control) affiliations24
must be included. Our estimate, therefore, likely
overstates the number of small entities that might be
affected by its action, because the revenue figure on
which it is based does not include or aggregate revenues from affiliated companies. In addition, another
22 Broadcast Station Totals as of June 30, 2017, Press Release
(MB July 11, 2017) (June 30, 2017 Broadcast Station Totals),
https://apps.fcc.gov/edocs_public/attachmatch/DOC345720A1.pdf.
23 Id.
24 “[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13
CFR § 121.103(a)(1).

258a
element of the definition of “small business” is that
the entity not be dominant in its field of operation.
We are unable at this time to define or quantify the
criteria that would establish whether a specific television broadcast station is dominant in its field of operation. Accordingly, the estimate of small businesses to which rules may apply do not exclude any television broadcast station from the definition of a
small business on this basis and are therefore possibly over-inclusive.25 Also, as noted above, an additional element of the definition of “small business” is
that the entity must be independently owned and operated. The Commission notes that it is difficult at
times to assess these criteria in the context of media
entities and its estimates of small businesses to
which they apply may be over-inclusive to this extent.
18.
Radio Stations. This Economic Census
category “comprises establishments primarily engaged in broadcasting aural programs by radio to the
public. Programming may originate in their own
studio, from an affiliated network, or from external
sources.”26 The SBA has established a small business size standard for this category as firms having
25

There are also 2,385 LPTV stations, including Class A stations, and 3,776 TV translator stations. June 30, 2017 Broadcast Station Totals. Given the nature of these services, we will
presume that all of these entities qualify as small entities under the above SBA small business size standard.
26 U.S. Census Bureau, 2017 NAICS Definitions, “515112
Radio
Stations,”
https://www.census.gov/cgibin/sssd/naics/naicsrch?input=515112&search=2017+NAICS+S
earch&search=2017.

259a
$38.5 million or less in annual receipts.27 Economic
Census data for 2012 shows that 2,849 radio station
firms operated during that year.28 Of that number,
2,806 operated with annual receipts of less than $25
million per year, 17 with annual receipts between
$25 million and $49,999,999 million and 26 with annual receipts of $50 million or more.29 Therefore,
based on the SBA’s size standard the majority of
such entities are small entities.
19.
According to Commission staff review of
the BIA/Kelsey, LLC’s Media Access Pro Radio Database on May 9, 2017, about 11,392 (or about 99.9
percent) of 11,401 of commercial radio stations had
revenues of $38.5 million or less and thus qualify as
small entities under the SBA definition.30 The
Commission has estimated the number of licensed
commercial radio stations to be 11,401.31 We note
the Commission has also estimated the number of
licensed noncommercial radio stations to be 4,111.32
Nevertheless, the Commission does not compile and
27

13 CFR § 121.201 (NAICS code 515112).

28

U.S. Census Bureau, Table No. EC1251SSSZ4, Information: Subject Series - Establishment and Firm Size: Receipts
Size of Firms for the United States: 2012 (515112 Radio Stations)
https://factfinder.census.gov/faces/tableservices/jsf/pages/produc
tview.xhtml?pid=ECN_2012_US_51SSSZ4&prod
Type=table
(visited Oct. 11, 2017).
29 Id.
30

June 30, 2017 Broadcast Station Totals.

31

Id.

32

Id.

260a
otherwise does not have access to information on the
revenue of NCE stations that would permit it to determine how many such stations would qualify as
small entities.
20.
We also note, that in assessing whether
a business concern qualifies as small under the
above definition, business (control) affiliations33
must be included.
The Commission’s estimate,
therefore, likely overstates the number of small entities that might be affected by its action, because the
revenue figure on which it is based does not include
or aggregate revenues from affiliated companies. In
addition, an element of the definition of “small business” is that the entity not be dominant in its field of
operation.34 We further note, that it is difficult at
times to assess these criteria in the context of media
entities, and the estimate of small businesses to
which these rules may apply does not exclude any
radio station from the definition of a small business
on these basis, thus our estimate of small businesses
may therefore be over-inclusive. Also, as noted
above, an additional element of the definition of
“small business” is that the entity must be independently owned and operated. The Commission
notes that it is difficult at times to assess these criteria in the context of media entities and the estimates

33

“[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13
CFR § 121.103(a)(1).
34 13 CFR § 121.102(b).

261a
of small businesses to which they apply may be overinclusive to this extent.
21.
Daily Newspapers. The SBA has developed a small business size standard for the census
category of Newspaper Publishers; that size standard
is 1,000 or fewer employees.35 Business concerns included in this category are those that “carry out operations necessary for producing and distributing
newspapers, including gathering news; writing news
columns, feature stories, and editorials; and selling
and preparing advertisements.”36 Census Bureau
data for 2012 show that there were 4,168 firms in
this category that operated for the entire year.37 Of
this total, 4,107 firms had employment of 499 or fewer employees, and an additional 22 firms had employment of 500 to 999 employees.38 Therefore, the
Commission estimates that the majority of Newspaper Publishers are small entities that might be affected by its action.

35

Id. § 121.201 (NAICS Code 511110).

36

NAICS Codes 2017 at 411 (Newspaper Publishers NAICS
Code 511110). These establishments may publish newspapers
in print or electronic form. Id.
37 See U.S. Census Bureau, Table No. EC1251SSSZ5, Information: Subject Series - Estab & Firm Size: Employment Size
of Firms for the U.S.: 2012 Economic Census of the United
States
(NAICS
code
511110),
https://factfinder.census.gov/faces/tableservices/jsf/pages/produc
tview.xhtml?pid=ECN_2012_US_
51SSSZ4&prod%20Type=table (visited Oct. 11, 2017).
38 Id.

262a
E.

Description of Reporting, Record
Keeping, and other Compliance Requirements for Small Entities

22.
The Order on Reconsideration eliminates the Newspaper/Broadcast Cross-Ownership
Rule and the Radio/Television Cross-Ownership
Rule, modifies the Local Television Ownership Rule
and, and eliminates the Television JSA Attribution
Rule. The Order on Reconsideration does not adopt
any new reporting, recordkeeping, or compliance requirements for small entities. The Order on Reconsideration thus will not impose additional obligations
or expenditure of resources on small businesses. In
addition, to conform to the elimination of the Television JSA Attribution Rule, parties to JSAs that were
attributable under the previous rule will no longer be
required to file the agreements with the Commission
pursuant to Section 73.3613 of the Commission’s
rules.39
F.

Steps Taken to Minimize Significant Economic Impact on Small Entities, and Significant Alternatives
Considered

23.
The RFA requires an agency to describe
any significant alternatives that it has considered in
reaching its approach, which may include the following four alternatives (among others): (1) the establishment of differing compliance or reporting requirements or timetables that take into account the
resources available to small entities; (2) the clarifica39

47 CFR § 73.3613.

263a
tion, consolidation, or simplification of compliance or
reporting requirements under the rule for such small
entities; (3) the use of performance, rather than design, standards; and (4) an exemption from coverage
of the rule, or any part thereof, for such small entities.40
24.
In conducting the quadrennial review,
the Commission has three chief alternatives available for each of the Commission’s media ownership
rules—eliminate the rule, modify it, or, if the Commission determines that the rule is “necessary in the
public interest,” retain it. The Commission finds
that the modification and elimination of the rules in
the Order on Reconsideration, which are intended to
achieve the policy goals of competition, localism, and
viewpoint diversity, will continue to benefit small entities by fostering a media marketplace in which they
are better able to compete and by promoting additional broadcast ownership opportunities, as described below, among a diverse group of owners, including small entities. The Commission discusses
below several ways in which the rules may benefit
small entities as well as steps taken, and significant
alternatives considered, to minimize any potential
burdens on small entities.
25.
Newspaper/Broadcast Cross-Ownership
(NBCO) Rule (Paragraphs 8-48). In the Order on Reconsideration, the Commission considered whether to
retain, modify, or eliminate the NBCO Rule. The
Commission determined that the NBCO Rule is no

40

5 U.S.C. § 603(c)(1)-(4).

264a
longer in the public interest and should be repealed.
As an alternative to the action taken, the Commission considered whether to adopt a modified NBCO
Rule, but rejected that approach as unsupported by
the record. As a result, newspapers will be able to
combine with television and radio stations within the
same local market, subject only to the Local Television and Local Radio Ownership Rules. Repeal of
the NBCO Rule in its entirety eliminates the economic burden of compliance with the rule on small
entities. Furthermore, repeal of the rule will allow
broadcasters and local newspapers to seek out new
sources of investment and operational expertise, potentially increasing the quantity and quality of local
news and information they provide to consumers.
Small broadcasters may find that merging with a
newspaper could boost their ability to serve their local markets. The Order on Reconsideration finds
that the NBCO Rule created considerable harm in
small markets where the benefits of cross-ownership
could have helped to sustain the local news outlets,
many of which are likely to be small entities. Elimination of the rule will help promote additional investment opportunities for small entities in many
local markets. The Order on Reconsideration also
concludes that repeal of the NBCO Rule is unlikely
to have a material effect on minority and female
ownership of newspapers and broadcast stations.
26.
Radio/Television Cross-Ownership Rule
(Paragraphs 49-65). In the Order on Reconsideration, the Commission considers whether to retain,
modify, or eliminate the Radio/Television CrossOwnership Rule. The Commission finds that the
Radio/Television Cross-Ownership Rule no longer

265a
serves the public interest and should be repealed.
The Commission considers whether to adopt a modified rule, but rejects that approach as unsupported
by the record. Eliminating the rule allows television
stations and radio stations in the same market to be
commonly owned provided that such ownership arrangements otherwise comply with the Local Television and Local Radio Ownership Rules. As with the
NBCO Rule, repeal of the Radio/Television CrossOwnership Rule in its entirety eliminates the economic impact of the rule on small entities. Small entities in particular may benefit from the aforementioned efficiencies and benefits of common ownership
enabled by the rule’s repeal. The Commission also
finds that repeal of the Radio/Television CrossOwnership rule is unlikely to have an effect on minority and female ownership of broadcast television
and radio stations.
27.
Local Television Ownership Rule (Paragraphs 66-85). In the Order on Reconsideration, the
Commission finds that the existing Local Television
Ownership Rule is no longer necessary in the public
interest but should be modified further to enable television stations to compete more effectively. Accordingly, the Commission repeals the Eight-Voices Test
that had required at least eight independently owned
television stations to remain in a market after combining ownership of two stations in the market. The
Commission considers whether to adopt a different
voice test, but rejects that approach as unsupported
by the record. In addition, the Commission considers
whether to retain, modify, or eliminate the Top-Four
Prohibition, a prohibition against common ownership
of two top-four ranked stations in all markets. The

266a
Commission finds that the record generally supported the Commission’s decision in the Second Report
and Order to treat combinations involving two topfour rated stations differently than other combinations, but on reconsideration the Commission modifies the rule to include a case-by-case approach to account for circumstances in which strict application of
the prohibition is not in the public interest. Under
the new modified television ownership rule an entity
may own two television stations in the same DMA if
(1) the digital noise limited service contours (NLSCs)
of the stations (as determined by Section 73.622(e))
do not overlap; or (2) at least one of the stations is
not ranked among the top four stations in the market. The Commission will consider combinations
otherwise barred by the Top-Four Prohibition on a
case-by-case basis.
28.
The modifications to the Local Television Ownership Rule are not expected to create additional burdens for small entities. Conversely, the
economic impact of the rule modification may benefit
small entities by enabling them to achieve operational efficiencies through common ownership. The
Order on Reconsideration also concludes that the
modifications to the Local Television Ownership Rule
are unlikely to have an effect on minority and female
ownership of broadcast television stations.
Television JSA Attribution Rule (Para29.
graphs 96-113). On reconsideration, the Commission
considers whether to retain or eliminate the Television JSA Attribution Rule. The Commission finds
that the rule was unsupported by the record and
does not serve the public interest and therefore
should be repealed. The repeal of the Television JSA

267a
Attribution Rule eliminates the economic burden of
the rule on small entities. In the rapidly changing
video marketplace, television JSAs help reduce costs
and attract vital revenue at a time of increasing
competition for advertising and viewership. Efficiencies provided by JSAs also enable broadcasters to
improve or increase services for local communities,
thus fostering significant public interest benefits.
Local television broadcasters—particularly in smalland medium-sized markets—stand to benefit from
these efficiencies that television JSAs create. The
repeal of the attribution rule will remove a regulatory disincentive for stations to enter into JSAs and
enable these stations to better serve their communities. In addition, because of the elimination of the
Television JSA Attribution Rule, parties to JSAs that
were attributable under the previous rule will no
longer be required to file the agreements with the
Commission, thus eliminating that economic burden.
Report to Congress: The Commission will send a
copy of the Order on Reconsideration, including this
Supplemental FRFA, in a report to be sent to Congress pursuant to the Congressional Review Act.41
In addition, the commission will send a copy of the
Order on Reconsideration, including this Supplemental FRFA, to the Chief Counsel for Advocacy of
the SBA. A copy of the Order on Reconsideration and
Supplemental FRFA (or summaries thereof) will also
be published in the Federal Register.42

41

See id. § 801(a)(1)(A).

42

See id. § 604(b).

268a
APPENDIX C
Initial Regulatory Flexibility Act Analysis
1.
As required by the Regulatory Flexibility Act of 1980, as amended (RFA),1 the Commission
has prepared this present Initial Regulatory Flexibility Act Analysis (IRFA) of the possible significant
economic impact on small entities by the policies and
rules proposed in this Notice of Proposed Rulemaking (NPRM). Written public comments are requested
on this IRFA. Comments must be identified as responses to the IRFA and must be filed by the deadlines for comments provided on the first page of the
NPRM. The Commission will send a copy of the
NPRM, including this IRFA, to the Chief Counsel for
Advocacy of the Small Business Administration
(SBA).2 In addition, the NPRM and IRFA (or summaries thereof) will be published in the Federal Register.3
A.

Need for, and Objectives of, the
Proposed Rules

2.
In the NPRM, the Commission seeks
comment on the structure and implementation of an
incubator program. Broadly speaking, an incubator
program would provide an ownership rule waiver or

1

15 U.S.C. § 603. The RFA, 5 U.S.C. §§ 601-612, has been
amended by the Small Business Regulatory Enforcement Fairness Act of 1996 (SBREFA), Pub. L. No. 104-121, Title II, 110
Stat. 857 (1996).
2 5 U.S.C. § 603(a).
3

Id.

269a
similar benefits to a company that establishes a program to help facilitate station ownership for a certain class of new owners. Under such a program, an
established company could assist a new owner by
providing “management or technical assistance, loan
guarantees, direct financial assistance through loans
or equity investments, training, or business planning
assistance.”4 The primary purpose of such a program would be to help provide new sources of capital
and support to entities that may otherwise lack operational experience or access to financing and
thereby promote diversity. Over the years, a number
of parties have proposed or supported recommendations for some type of an incubator program; however, substantive and administrative issues need to be
resolved before an incubator program can be adopted. This NPRM seeks comment on these issues.
B.

Legal Basis

3.
The proposed action is authorized pursuant to Sections 1, 2(a), 4(i), 257, 303, 307, 309, 310,
and 403 of the Communications Act of 1934, as
amended, 47 U.S.C. §§ 151, 152(a), 154(i), 257, 303,
307, 309, 310, and 403.

4

Advisory Committee on Diversity for Communications in
the Digital Age, Recommendation on Incentive-Based Regulations at 5 (June 14, 2004) (2004 Diversity Committee IncentiveBased
Recommendations),
https://www.fcc.gov/diversitycommittee-adopted-recommendations (select “Incentive-Based
Regulations”).

270a
C.

Description and Estimate of the
Number of Small Entities to Which
the Proposed Rules Will Apply

4.
The RFA directs agencies to provide a
description of, and where feasible, an estimate of the
number of small entities that may be affected by the
proposed rules, if adopted.5 The RFA generally defines the term “small entity” as having the same
meaning as the terms “small business,” “small organization,” and “small governmental jurisdiction.”6 In
addition, the term “small business” has the same
meaning as the term “small business concern” under
the Small Business Act.7 A small business concern
is one which: (1) is independently owned and operated; (2) is not dominant in its field of operation; and
(3) satisfies any additional criteria established by the
SBA.8 Below, we provide a description of such small
entities, as well as an estimate of the number of such
small entities, where feasible.

5 5 U.S.C. § 603(b)(3).
6 Id. § 601(6).
7 Id. § 601(3) (incorporating by reference the definition of
“small-business concern” in 15 U.S.C. § 632). Pursuant to 5
U.S.C. § 601(3), the statutory definition of a small business applies “unless an agency, after consultation with the Office of
Advocacy of the Small Business Administration and after opportunity for public comment, establishes one or more definitions of such term which are appropriate to the activities of the
agency and publishes such definition(s) in the Federal Register.”
8 15 U.S.C. § 632.

271a
5.
Television Broadcasting. This Economic
Census category “comprises establishments primarily engaged in broadcasting images together with
sound.”9 These establishments operate television
broadcasting studios and facilities for the programming and transmission of programs to the public.10
These establishments also produce or transmit visual
programming to affiliated broadcast television stations, which in turn broadcast the programs to the
public on a predetermined schedule. Programming
may originate in their own studio, from an affiliated
network, or from external sources.11 The SBA has
created the following small business size standard
for such businesses: those having $38.5 million or
less in annual receipts.12 The 2012 Economic Census data reports that 751 such firms in this category
operated in that year. Of that number, 656 had an9 U.S. Census Bureau, 2017 NAICS Definitions, “515120 Television
Broadcasting,”
https://www.census.gov/cgibin/sssd/naics/naicsrch?input=515120&search=2017+NAICS+S
earch&search=2017.
10 Id.
11 U.S. Census Bureau, North American Industry Classification System at 420 (2017) (Television Broadcasting NAICS
Code
515120)
(NAICS
Codes
2017),
https://www.census.gov/eos/www/naics/2017NAICS/2017_NAIC
S_ Manual.pdf. Separate census categories pertain to businesses primarily engaged in producing programming. See Motion
Picture and Video Production, NAICS Code 512110; Motion Picture and Video Distribution, NAICS Code 512120; Teleproduction and Other Post-Production Services, NAICS Code 512191;
and Other Motion Picture and Video Industries, NAICS Code
512199.
12 13 CFR § 121.201 (NAICS code 515120).

272a
nual receipts of $25,000,000 or less, 25 had annual
receipts between $25,000,000 and $49,999,999 and
70 had annual receipts of $50,000,000 or more.13
Based on this data we therefore estimate that the
majority of commercial television broadcasters are
small entities under the applicable SBA size standard.
6.
The Commission has estimated the
number of licensed commercial television stations to
be 1,382.14 Of this total, 1,262 stations (or about 91
percent) had revenues of $38.5 million or less, according to Commission staff review of the BIA Kelsey
Inc. Media Access Pro Television Database (BIA) on
May 9, 2017, and therefore these licensees qualify as
small entities under the SBA definition. In addition,
the Commission has estimated the number of licensed noncommercial educational television stations to be 393.15 Notwithstanding, the Commission
does not compile and otherwise does not have access
to information on the revenue of NCE stations that
would permit it to determine how many such stations would qualify as small entities.
13 U.S. Census Bureau, Table No. EC1251SSSZ4, Information: Subject Series - Establishment and Firm Size: Receipts Size of Firms for the United States: 2012 (515120 Television
Broadcasting),
https://factfinder.census.gov/
faces/tableservices/jsf/pages/productview.xhtml?pid=ECN_2012_U
S_51SSSZ4&prodType=table (visited Oct. 11, 2017).
14 Broadcast Station Totals as of June 30, 2017, Press Release
(MB July 11, 2017) (June 30, 2017 Broadcast Station Totals),
https://apps.fcc.gov/edocs_public/attachmatch/DOC345720A1.pdf.
15 Id.

273a
7.
We note, however, that, in assessing
whether a business concern qualifies as small under
the above definition, business (control) affiliations16
must be included. Our estimate, therefore, likely
overstates the number of small entities that might be
affected by its action, because the revenue figure on
which it is based does not include or aggregate revenues from affiliated companies. In addition, another
element of the definition of “small business” is that
the entity not be dominant in its field of operation.
We are unable at this time to define or quantify the
criteria that would establish whether a specific television broadcast station is dominant in its field of operation. Accordingly, the estimate of small businesses to which rules may apply do not exclude any television broadcast station from the definition of a
small business on this basis and are therefore possibly over-inclusive.17 Also, as noted above, an additional element of the definition of “small business” is
that the entity must be independently owned and operated. The Commission notes that it is difficult at
times to assess these criteria in the context of media
entities and its estimates of small businesses to

16

“[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13
CFR § 121.103(a)(1).
17 There are also 2,385 LPTV stations, including Class A stations, and 3,776 TV translator stations. June 30, 2017 Broadcast Station Totals. Given the nature of these services, we will
presume that all of these entities qualify as small entities under the above SBA small business size standard.

274a
which they apply may be over-inclusive to this extent.
8.
Radio Stations. This Economic Census
category “comprises establishments primarily engaged in broadcasting aural programs by radio to the
public. Programming may originate in their own
studio, from an affiliated network, or from external
sources.”18 The SBA has established a small business size standard for this category as firms having
$38.5 million or less in annual receipts.19 Economic
Census data for 2012 shows that 2,849 radio station
firms operated during that year.20 Of that number,
2,806 operated with annual receipts of less than $25
million per year, 17 with annual receipts between
$25 million and $49,999,999 million and 26 with annual receipts of $50 million or more.21 Therefore,
based on the SBA’s size standard the majority of
such entities are small entities.
9.
According to Commission staff review of
the BIA/Kelsey, LLC’s Media Access Pro Radio Data18 U.S. Census Bureau, 2017 NAICS Definitions, “515112 Radio
Stations,”
https://www.census.gov/cgibin/sssd/naics/naicsrch?input=515112&search=2017+NAICS+S
earch&search=2017.
19 13 CFR § 121.201 (NAICS code 515112).
20 U.S. Census Bureau, Table No. EC1251SSSZ4, Information:
Subject Series - Establishment and Firm Size: Receipts Size of
Firms for the United States: 2012 (515112 Radio Stations)
https://factfinder.census.gov/faces/
tableservicees/jsf/pages/productview.xhtml?pid=ECN_2012_US_51SSSZ4
&prodType=table.
21 Id.

275a
base on May 9, 2017, about 11,392 (or about 99.9
percent) of 11,401 of commercial radio stations had
revenues of $38.5 million or less and thus qualify as
small entities under the SBA definition.22 The
Commission has estimated the number of licensed
commercial radio stations to be 11,401.23 We note
the Commission has also estimated the number of
licensed noncommercial radio stations to be 4,111.24
Nevertheless, the Commission does not compile and
otherwise does not have access to information on the
revenue of NCE stations that would permit it to determine how many such stations would qualify as
small entities.
10.
We also note, that in assessing whether
a business concern qualifies as small under the
above definition, business (control) affiliations25
must be included.
The Commission’s estimate,
therefore, likely overstates the number of small entities that might be affected by its action, because the
revenue figure on which it is based does not include
or aggregate revenues from affiliated companies. In
addition, an element of the definition of “small business” is that the entity not be dominant in its field of

22 June 30, 2017 Broadcast Station Totals.
23 Id.
24 Id.
25 “[Business concerns] are affiliates of each other when one
concern controls or has the power to control the other or a third
party or parties controls or has to power to control both.” 13
CFR § 121.103(a)(1).

276a
operation.26 We further note, that it is difficult at
times to assess these criteria in the context of media
entities, and the estimate of small businesses to
which these rules may apply does not exclude any
radio station from the definition of a small business
on these basis, thus our estimate of small businesses
may therefore be over-inclusive. Also, as noted
above, an additional element of the definition of
“small business” is that the entity must be independently owned and operated. The Commission
notes that it is difficult at times to assess these criteria in the context of media entities and the estimates
of small businesses to which they apply may be overinclusive to this extent.
D.

Description of Projected Reporting,
Recordkeeping, and Other Compliance Requirements

11.
Certain options, if adopted, may result
in new reporting, recordkeeping, and compliance obligations for those broadcasters that participate in an
incubator program. For example, parties could be
required to submit the incubation proposal to the
Commission for approval, file periodic compliance
reports with the Commission or place the reports in
their online public files, or submit requests for relief
if the terms of the incubator proposal are not adhered to. In order to evaluate any new or modified
reporting, recordkeeping or other compliance requirements that may result from the actions proposed in this NPRM, the Commission has sought in26 13 CFR § 121.102(b).

277a
put from the parties on various matters. The NPRM
seeks comment on how to structure an incubation
program, including a requirement that the parties
file the incubation proposal with the Commission for
the purpose of seeking the Commission’s approval of
the arrangement. The Commission seeks comment
on the method for filing the agreement in circumstances in which the parties seek Commission approval of the incubation relationship, such as whether it should be filed as part of an application for assignment or transfer of control of a broadcast license
or, in the absence of such an application, via the
Commission’s Electronic Comment Filing System.
The NPRM also seeks comment on how to structure
reporting, recordkeeping, and compliance requirements, which could also result in increased requirements for parties to an incubation arrangement. For
example, the NPRM seeks comment on whether to
require periodic certifications that the parties remain in compliance with the incubation proposal approved by the Commission.
E.

Steps Taken to Minimize Significant Economic Impact on Small Entities and Significant Alternatives
Considered

12.
The RFA requires an agency to describe
any significant alternatives that it has considered in
reaching its proposed approach, which may include
the following four alternatives (among others):
(1) the establishment of differing compliance or reporting requirements or timetables that take into account the resources available to small entities;
(2) the clarification, consolidation, or simplification of
compliance or reporting requirements under the rule

278a
for small entities; (3) the use of performance, rather
than design, standard; and (4) an exemption from
coverage of the rule, or any part thereof, for small
entities.27
13.
To evaluate options and alternatives
should there be a significant economic impact on
small entities as a result of actions that have been
proposed in this NPRM, the Commission has sought
comment from the parties. The NPRM seeks comment on the costs and benefits associated with various proposals and alternatives such as how to structure the administration and oversight of an incubator program and specifically seeks comment on ways
to reduce the burdens on small entities. Overall,
however, the Commission believes that small entities
will benefit from their participation in an incubator
arrangement by getting access to capital and/or operational assistance that they may otherwise lack,
which may minimize any economic impact that may
be incurred by small entities.

27

F.

Federal Rules that May Duplicate,
Overlap, or Conflict with the Proposed Rules

14.

None.

5 U.S.C. § 603(c)(1)–(4).

279a
STATEMENT OF
CHAIRMAN AJIT PAI
Re:

2014 Quadrennial Regulatory Review – Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 14-50; 2010 Quadrennial
Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the
Telecommunications Act of 1996, MB Docket
No. 09-182; Promoting Diversification of Ownership in the Broadcasting Services, MB Docket No. 07-294; Rules and Policies Concerning
Attribution of Joint Sales Agreements in Local
Television Markets, MB Docket No. 04-256;
Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289.

It’s a simple proposition: the media ownership
regulations of 2017 should match the media marketplace of 2017.
That’s the proposition the FCC vindicates today—nothing more, nothing less. And it’s about
time. For few of the FCC’s rules are staler than our
broadcast ownership regulations. Notwithstanding
the congressional command that we review and update these rules every four years, they have remained stuck in the past. After too many years of
cold shoulders and hot air, this agency finally drags
its broadcast ownership rules into the digital age.
Our decision is based on the law, the facts in
the record, and sound economics. Some say we’ve

280a
gone too far. Others say we haven’t gone far enough.
I think we’ve gotten it just right.
The Order ably sets forth the rationale for our
decisions. So I don’t need to read a lengthy statement, a welcome change of pace for those who had to
endure my long dissenting statements regarding the
prior Commission’s 2014 and 2016 media ownership
orders. But I would like to briefly highlight four important points.
First, we eliminate the newspaper-broadcast
cross-ownership rule that was adopted in 1975. As
President Clinton’s first FCC Chairman said back in
2013, this rule is “perverse.” With the newspaper
industry in crisis, it makes no sense to place regulatory roadblocks in the way of those who want to purchase newspapers.
The media landscape has
changed dramatically in the last 42 years, and the
idea that a company could dominate a media market
by owning a radio station and a newspaper is utter
nonsense.
This is a rule that, among other things, predates cable news and a little thing called the Internet. It reflects a world in which people would come
home from work, put on their slippers, read the evening paper, and watch the 11:00 news. It doesn’t reflect a world in which we get news and analysis
throughout the day from countless national and local
websites, podcasts, and social media outlets. Indeed,
one Wall Street Journal article recently dubbed Facebook “the most powerful distributor of news and
information on Earth.” And I know for a fact from
my Twitter feed that many are following news of today’s Commission meeting through that outlet.

281a
To be sure, repealing the newspaper-broadcast
cross-ownership rule won’t end the newspaper industry’s struggles. But it will open the door to procompetitive combinations that can strengthen local
voices and enable both newspapers and broadcast
stations to better serve their communities.
Second, we reform the local television ownership rule to eliminate the eight-voices test. That test
says that no company is allowed to own two television stations in a market unless there are at least
eight independently-owned television stations in that
market. We haven’t been able to find any other industry in which the government preemptively decrees that there must be at least eight competitors
for a market to be competitive. Nor have we found
any economic literature justifying this proposition.
And little wonder, for the eight-voices test has as
strong a factual basis as does the health myth that
you should drink eight glasses of water per day.1 By
ending this entirely arbitrary test, we allow efficient
combinations that can help television stations thrive.
This is particularly true in small- and mid-sized
markets where there may not be sufficient advertising revenue to support eight vibrant competitors.

1 See “You don’t really need to drink eight glasses of water
each day,” The Verge (May 10, 2017), available at
https://www.theverge.com/2017/5/10/15619544/how-muchwater-a-day-8-glasses-myth; “No, You Do Not Have to Drink 8
Glasses of Water a Day,” The New York Times (Aug. 25, 2015),
available at https://www.nytimes.com/.../no-you-do-not-have-todrink-8-glasses-of-water-a-day.html.

282a
Third, we reverse the prior FCC’s mistaken
crackdown on television joint sales agreements
(JSAs). Whenever I think about JSAs, I remember
my 2015 visit to television station WLOO in Jackson,
Mississippi. WLOO is owned by Tougaloo College, a
historically black college. The station produces its
own content, broadcasts in HD and carries programming created by and for African-Americans. It
also offers student-interns the opportunity to get
hands-on training, nurturing the next generation of
minority broadcasters.
During my visit, I toured the station with general manager Pervis Parker. Pervis told me that
WLOO’s joint sales agreement with another Jackson
station, WDBD, has been crucial to the station’s success. Without it, he told me the station wouldn’t
have survived given its limited financial resources.
In fact, I had first met Pervis the year before when
he came to the FCC to express his opposition to the
prior Commission’s misguided crackdown on JSAs.
And this story is not unique. I’ve visited two
stations in Wichita that participate in a joint sales
agreement that has allowed for the broadcast of the
only Spanish-language television news in Kansas.
The staff working at those stations directly told me
that these Spanish-language newscasts would not
have been possible without the JSA. And then
there’s the JSA in Joplin, Missouri that permitted
KSNF and KODE to upgrade their Doppler radar
system, which proved critical when a disaster tornado tore through the city on May 22, 2011. These examples, and countless others, provide overwhelming
evidence that JSAs improve local television stations’
ability to serve their viewers’ needs. I’m pleased that

283a
at long last, we reject the prior misguided policy,
which essentially made it impossible for stations to
enter into JSAs in most markets.
And fourth, we adopt an incubator program to
expand ownership diversity. We heard a lot of talk
during the prior Administration about the need to
take action to promote ownership diversity. But after eight years, what was there to show for it? Nothing. Zero. It was all just a talking point, as underscored by the prior majority’s specific rejection of my
call for an incubator program a few years ago. But
this FCC is taking concrete action. Today, we decide
to establish an incubator program and seek public
input on how it should be designed. In addition, I’ve
tasked the new Advisory Committee on Diversity
and Digital Empowerment to study this issue and
provide recommendations. With wise counsel from
the public and the committee, I’m confident that we’ll
craft a program that will help bring diverse voices
into the broadcast industry.
Finally, I would like to thank the dedicated
staff who worked on this Order: Ben Arden, Michelle
Carey, Chad Guo, Brendan Holland, Tom Horan,
Jamila-Bess Johnson, Kim Matthews, Mary Beth
Murphy, and Julie Salovaara from the Media Bureau; and Susan Aaron, David Gossett, Dave
Konczal, Jake Lewis, Bill Richardson, and Royce
Sherlock from the Office of General Counsel. The
good news for you is that today marks the end of the
2010 and 2014 quadrennial reviews; the bad news is
that next year, many of you will be starting work on
the 2018 review.

284a
DISSENTING STATEMENT OF
COMMISSIONER MIGNON L. CLYBURN
Re:

2014 Quadrennial Regulatory Review – Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, 2010 Quadrennial Regulatory Review –
Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant
to Section 202 of the Telecommunications Act
of 1996, Promoting Diversification of Ownership in the Broadcasting Services, Rules and
Policies Concerning Attribution of Joint Sales
Agreements in Local Television Markets, Rules
and Policies to Promote New Entry and Ownership Diversity in the Broadcasting Services,
MB Docket Nos. 14-50, 09182, 07-294, 04-256,
17-289, Order on Reconsideration and Notice
of Proposed Rulemaking

The problems with this Order on Reconsideration are so glaring – both on process and substance,
it is truly hard to decide just where to begin.
Do I start by describing why the wholesale
elimination of key media ownership rules will harm
localism, diversity, and competition? Do I focus on
the number of loopholes this Commission blesses
through this Order? Or do I highlight how the FCC
majority has chosen to take some of the same facts
used by this Commission just over a year ago to
reach the exact opposite conclusions? After I address
each of these failures in greater detail, allow me to
explain the alternative proposal I put forward to my
colleagues.

285a
Let me begin by establishing this: that despite what you have been told about the genesis of
this Order, it is not really about helping small,
struggling broadcasters or newspapers. While the
jury is still out on whether it could actually achieve
that goal, this is really about helping large media
companies grow even larger which is actually in
stark contrast to what the President said just last
week in discussing the importance of having as
“many news outlets as you can.”1 Because if our aim
were to provide help for the smallest entities in the
tiniest of media markets, we would have adopted a
narrowly tailored proposal focused expressly on these
financially challenged stations. Instead, today’s action, coupled with recent FCC actions, including the
reinstatement of the UHF discount and the elimination of the Main Studio Rule, we have paved the way
for a new crop of broadcast media empires that will
be light years removed from the very local communities they are supposed to serve.
These media titans will have degrees of power
far beyond the imagination of our local communities.
Our local outlets that inform us of what is happening
in our community; our outlets investigate allegations
of improprieties within government; they inform us
of whether we need an umbrella or an overcoat; and
they are there on the ground before, during, and after a major natural or man-made disaster. Our local
stations clearly play a unique role in our communities and unlike those 24-hour cable news networks,
1 The Hill, Trump says US needs ‘many news outlets’ amid
rumored CNN sale (November 11, 2017).

286a
our local outlets deliver their broadcast signal using
the public airwaves and with that comes, the responsibility to serve the public interest.
Now if you were to stop someone randomly on
the street and ask them who owns their local television or radio station, how many people would be able
to answer? Would they know if two out of the top
four television stations in their community had the
same owner and a third station was affiliated with
the stations through a sharing agreement? Would
they know that their local news anchor is reporting a
story using the same script as dozens of other stations around the country, or even another station in
their own community? While these may not be top of
mind questions for most Americans, the answers
matter and viewers or listeners have a right to know
those answers. They should also be aware that these
practices are already happening today and when this
Order is adopted, the floodgates to more consolidation will come without transparency or accountability.
To be clear, the media landscape has changed
a lot over the past thirty years and when it comes to
coverage of national and international events, there
is no question that Americans have more choice today than they did in 1975. But if we are going to
play that game of making comparisons between the
legacy platforms and newer entrants, including cable
news and online sources, we need a neutral umpire
to keep the score: these platforms are not created
equal and the reality is, that they are not substitutes
when it comes to local news and event coverage. As
one news publication aptly put it last week, “Consolidating ownership won’t put more reporters on the

287a
ground—but it will certainly amplify the influence of
a small number of corporations.”2 I could not have
said it better.
Citing to “simple fairness,”3 the Chairman is
fond of making a comparison between local broadcasters and tech companies like Google, Twitter and
Facebook. Yet the last time I checked, none of these
companies are in the newsgathering business nor to
my knowledge are they engaged in local news production. A recent visit to Google’s News page unscored this very point. Under the ‘local’ news tab for
the District of Columbia, nine out of the first 10
search results linked to stories produced by guess
what? A traditional local newspaper or a broadcast
television or radio outlet. These are the simple facts
that we cannot ignore when evaluating the current
media landscape.
While I am not here to vilify financial success,
the horror stories depicted in ex parte filings or cited
in this Order by the largest of broadcasters as reason
for eliminating the rules, do not match the realities
of what is being presented on Wall Street. One major broadcast group, in fact, reported that their revenues are up 15% this year, a new record. Another’s
revenues are up 17%, and yet another broadcaster
saw its stock price reach a record high earlier this

2 Slate.com, Only Sinclair Can Save You (November 9, 2017).
3 Op-Ed of FCC Chairman Ajit Pai, Media Ownership Rules
Must Adjust to the Digital Era, The New York Times (November 9, 2017).

288a
year.4 As even further evidence of facts not matching filings, retransmission consent fees: they are up
year-over-year by as much as 162%.5 If these are the
financial realities on the ground, why then are we in
such a rush to eliminate protections that may prevent consolidation, but have untold benefits on localism and viewpoint diversity?
What may be less obvious to the casual observer, are the loopholes in our media ownership
rules that this Order blesses. Take the use of Joint
Sales Agreements (JSAs) for example. As I have
shared in past statements, there have been cases in
which these agreements have been shown to be in
the public interest, albeit rare. But I have also described arrangements that amounted to the full-scale
control of the brokered station, including the same
programming, the same talent, the same management, and the same studio. Such an agreement coupled with the dismantling of other key media ownership rules substantially distorts the reality of how
much control a broadcast station owner has in any
given local market.
This Order also fails to acknowledge the past
benefits from unwinding these JSAs. In a December
2014 blog, then Chairman Wheeler and I described
4 See, e.g., Broadcasting & Cable, Meredith Revenue Hits Record $630M in Fiscal 2017 (July 27, 2017); TVNewsCheck, Gray
1Q Revenue Hits Record $203.5M (May 4, 2017); Reuters, Exclusive: Sinclair approaches Tribune Media about possible deal –
sources (March 1, 2017).
5 Communications Daily, Media Notes at 19 (November 15,
2017).

289a
how by enforcing the Local Television Ownership
Rule, ten new minority and women-owned stations
were established.6 Similarly, absent from the Commission’s analysis is the harms to minority ownership by eliminating ownership attribution of these
agreements. As MMTC and NABOB pointed out in a
recent joint filing, non-attribution of JSAs coupled
with the repeal of the eight voices test could enable a
single company to “completely dominat[e] [a] market’s television advertising sales and mak[es] new
entry impossible.”7 Once again, the Order fails to
properly consider this very tangible reality.
Turning now to process, where we reverse
course not much more than one year after the Commission completed its last Quadrennial Review. Certainly, something must have changed in those last 15
months to warrant such a drastic change in direction, right? Yet the facts are the facts and while my
colleagues in the majority may not have agreed with
the policy adopted by the previous Administration, it
was based on a record that has not changed. If they
disagree with policy – and that is their right to hold
such a belief – then what they should have done was
open a new proceeding and build a case for that position. The courts have admonished this agency in the

6 Blog Post of FCC Chairman Wheeler and Commissioner
Clyburn, Making Good on the Promise of Independent Minority
Ownership of Television Stations (December 4, 2014).
7 Letter from Multicultural Media, Telecom and Internet
Council (MMTC) & National Association of Black Owned
Broadcasters (NABOB) to Marlene H. Dortch, Secretary, FCC
(filed November 9, 2017).

290a
past for changing our rules without a supporting record and today’s Order on Reconsideration ignores the
courts’ instructions.
Continuing with the topic of process, take a
look at how the Order incorrectly invokes Section
202(h) to suit its policy goals. Three times the courts
have told us that if we want to make meaningful
changes to our rules to promote minority and female
ownership, then we must get comprehensive, reliable
data. In Prometheus II for example, the court stated
that, “[a]t a minimum, in adopting or modifying its
rules, the FCC must ‘examine the relevant data and
articulate a satisfactory explanation for its action[,]
including a rational connection between the facts
found and the choice made.’”8 Here, the Commission
flips those instructions on its head by concluding
without the benefit of any new data that “we cannot
continue to subject broadcast television licensees to
aspects of the Local Television Ownership Rule that
can no longer be justified based on the unsubstantiated hope that these restrictions will promote minority and female ownership.”
Now some supporters of this Order, may point
to the Commission’s newly commissioned Advisory
Committee on Diversity and Digital Empowerment
as evidence that we are on a path towards obtaining
better data. The problem with such a notion is that
we are adopting today’s Order, less than two months
after the Committee held its first meeting. What is
the point of establishing a Committee, if the FCC
8 Prometheus Radio Project v. FCC, 652 F.3d at 469 (3d Cir.
2011) (Prometheus II).

291a
majority has already reached the conclusion that our
core media ownership rules are no longer necessary
to support our goal of increasing diversity? The 31
members of this committee have agreed to step away
from their busy schedules to do what the Chairman
describes as “tak[ing] important steps towards increasing diversity throughout the communications
industry and bringing digital opportunity to all
Americans.”9 So, why not let them get to work and
make recommendations to the full Commission and
rely on data, instead of reversing the actions of the
previous Administration simply because you feel differently.
News flash: There was in fact a path forward
that could have garnered my support but regrettably
the proposal I put forth was rejected. All petitions
for reconsideration should have been denied on the
basis of Section 1.429 of the Commission’s rules.
Specifically, this section of our rules outlines a narrow set of criteria by which the Commission will consider a petition that introduces new facts or arguments which have not previously been presented.
Yet here, neither the facts nor arguments have
changed in the year since the Commission completed
the last Quadrennial Review. This majority has routinely rejected petitions for reconsideration that
failed to meet these requirements, but here it ignores
these rules to satisfy its own self-serving interests.

9 Remarks of FCC Chairman Ajit Pai before the Advisory
Committee on Diversity and Digital Empowerment (September
25, 2017).

292a
Second, I proposed opening a new proceeding
to explore the adoption of an incubator program.
Such a concept has been debated for many years
with bipartisan support, but is largely untested. I
believe the questions posed in the accompanying Notice of Proposed Rulemaking (NPRM) are the right
ones to be asking, but we are undertaking this process in the wrong order.
Third, I urged my colleagues to initiate a proceeding that would build a comprehensive set of data
examining the impact of ownership diversity on the
broadcast marketplace. The proceeding should also
examine how further media consolidation would impact localism and competition. I proposed that this
data collection be undertaken expeditiously and
completed prior to the start of the 2018 Quadrennial
Review.
And lastly, I proposed that any changes to the
Commission’s media ownership rules be considered
as part of the 2018 Quadrennial Review, once the
appropriate data is collected and an assessment can
be made of the impact that an established incubator
program has had in creating opportunities for new
entrants and small businesses.
These asks, in my opinion, were not unreasonable. They are consistent with Commission rules,
the instructions of the Third Circuit, and our commitment as an agency to be data-driven. Now my
colleagues in the majority and other proponents of
eliminating these rules might suggest that my aim
was to further delay the inevitable. This could not be
further from the truth. The reality is that the rule
changes made in this Order are all interrelated. By

293a
looking independently at each change, rather than
assessing the collective impact of the changes on the
media landscape, we are left with a deeply flawed
Order with no data to support its conclusions.
So, welcome my friends back to “Industry Consolidation Month” at the Federal Communications
Commission where it seems my colleagues in the majority are more intent on granting the industry’s
wish list rather than looking out for the public interest. Mark my words, today will go down in history as
the day when the FCC abdicated its responsibility to
uphold the core values of localism, competition and
diversity in broadcasting.
I vociferously dissent and look forward to the
day when the court issues a decision to right this sad
wrong.

294a
STATEMENT OF
COMMISSIONER MICHAEL O’RIELLY
Re:

2014 Quadrennial Regulatory Review – Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 14-50; 2010 Quadrennial
Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the
Telecommunications Act of 1996, MB Docket
No. 09-182; Promoting Diversification of Ownership in the Broadcasting Services, MB Docket No. 07-294; Rules and Policies Concerning
Attribution of Joint Sales Agreements in Local
Television Markets, MB Docket No. 04-256;
Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289.

Let me start my statement with a quote: “Today, the modern media marketplace includes literally thousands of radio and broadcast television stations, hundreds of national, regional, and local nonbroadcast television networks delivering a vast range
of content over cable and direct broadcast satellite
systems, and perhaps most significantly, the Internet and a host of digital technology-enabled interac-

295a
tive services.”1 This statement is from Chief Judge
Scirica of the Third Circuit. In 2004.
As the court has reminded this Commission,
“Section 202(h) of the Telecommunications Act of
1996 uses unmistakably mandatory language in describing the Commission’s obligations.”2 Despite
what some of my colleagues would have you believe,
our action today is not part of a larger master plan to
favorably set the landscape for a future merger. Implying that is simply untrue and minimizes the repeated dereliction of duty by the Commission. Instead, today’s item – in 2017 – concludes the Commission’s 2010/2014 Quadrennial Review.
First, the Commission eliminates the Newspaper/Broadcast Cross-Ownership (“NBCO”) rule.
As the item carefully explains, in today’s environment, the rule no longer makes sense. This is not a
new idea. In fact, the Commission, in one form or
another, has been unable to justify this rule for more
than 15 years.
The Commission concluded as part of its 2002
review that a complete ban of newspaper and broad1 Prometheus Radio Project v. FCC, 373 F.3d 372, 436 (3d
Cir. 2004) (Prometheus I) (Scirica, Chief Judge, dissenting in
part).
2 Prometheus Radio Project v. FCC, 824 F.3d 33, 50 (3d Cir.
2016) (Prometheus III) (“It provides that the Commission ‘shall’
review its rules on broadcast ownership every four years, ‘shall
determine whether any of such rules are necessary in the public
interest as the result of competition,’ and ‘shall repeal or modify
any regulation it determines to be no longer in the public interest.’”).

296a
caster cross-ownership was no longer in the public
interest. Upon review, the Third Circuit agreed with
this conclusion, but found the FCC’s alternative proposal to be arbitrary and capricious. As a result, the
1975 rule remained. Up next came the 2006 review.
Once again, the FCC no longer believed it could justify the ban and modified its rules accordingly. But,
once again, the court found process fouls and remanded the item. As a result, the 1975 rule remained.
The wounds are still fresh from the 2010/2014
Quadrennial Review. Prior to Commission action,
the Third Circuit admonished the FCC for its delay3
and specifically highlighted the NBCO rule, stating
that “the 1975 ban remains in effect to this day even
though the FCC determined more than a decade ago
that it is no longer in the public interest.”4 Perhaps
determined to continue the process fouls of the past,
when the Commission finally did act on this proceeding it examined the full media landscape then did
nothing to adjust our rules in response to that landscape. In fact, despite having the votes to eliminate
the cross-ownership rules, the Commission ignored
precedent, consensus, and the record before it and in
an about-face, decided to maintain the NBCO rule.
Again, the 1975 rule remained.
3 Id. at 51 (“The Commission’s delay keeps five broadcast
ownership rules in limbo: the local television ownership rule,
the local radio ownership rule, the newspaper/broadcast crossownership (“NBCO”) rule, the radio/television cross-ownership
rule, and the dual network rule.”).
4 Id.

297a
Today, we fix the shoddy effort of the previous
Commission. We also establish a thorough record
and analysis justifying why the NBCO rule is no
longer necessary. I have no doubt that this item will
wind up back on the desk of the Third Circuit. However, the court will be hard pressed to find that the
FCC failed to justify its reasoning. More than a decade ago the court found that the FCC “reasonably
concluded” that the NBCO rule was not necessary to
promote competition or localism5 and today’s item
fully addresses why it is also not needed to ensure
viewpoint diversity. According to Pew, “Americans
turn to a wide range of platforms to get local news
and information.”6 The Third Circuit recognized this
multiplicity of voices, including cable and Internet,
in 2004. It simply disagreed with the Commission on
the degree to which these services competed with local newspapers. But, something else happened in
2004: a social media platform known as Facebook
launched, followed by Twitter in 2006. These social
media platforms, along with Google, became go-to
sites that many consumers visit to first learn about
breaking national or local news. More than a decade
later, it is hard to overstate the impact of social me-

5 Prometheus I, 373 F.3d at 400–01.
6 Pew Research Center and Knight Foundation, How People
Learn About Their Local Community 1 (Sept. 26, 2011) (How
People
Learn
About
Their
Local
Community),
http://www.pewinternet.org/2011/09/26/how-people-learn-abouttheir-local-community (cited in NAB FNPRM Comments at 25
& n.83 (cited in NAB Petition at ii & n.4) and Morris FNPRM
Reply at 5).

298a
dia platforms and online outlets on viewpoint diversity.
Also since 2002, the Commission has explored
ways to modify the Local Television Ownership Rule,
otherwise known as the duopoly rule.7 In 2004, the
Third Circuit largely upheld the Commission’s decision to relax the “eight voices test” but remanded the
new numerical limits the FCC imposed.8 Once
again, this had the effect of freezing the old rules in
place.
I have long called for a reexamination of the
duopoly rule. In many markets, duopolies or triopolies could strengthen the overall state of broadcasters and allow stations to concentrate more resources
on bringing more and higher quality local content to
their viewers. At the very least, requirements like
the “eight voices test” makes even less sense now
than it did in 2002 when the Commission first sought
to eliminate it. I am pleased that this Commission
agrees. As to the top-four restriction, I would prefer
that we were adopting bright-line rules rather than
relying on a staff-driven case-by-case assessment. I
also question how likely, and quickly, these decisions
will be reached. I trust that as we re-examine this
issue as part of the 2018 Quadrennial Review we will

7 2002 Biennial Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted
Pursuant to Section 202 of the Telecommunications Act of 1996,
Report and Order and Notice of Proposed Rulemaking, 18 FCC
Rcd 13620 (2003) (2002 Biennial Review Order).
8 Prometheus I, 373 F.3d at 412–21.

299a
give serious weight to a full elimination of the duopoly rule.
I also hope in the 2018 quadrennial that we
can more honestly define the media market as it exists today. While the item acknowledges that the
video marketplace has substantially evolved, based
on the current record the Commission declines to expand its market definition beyond local broadcast
television stations. I believe there is ample evidence
that cable operators, over-the-top providers, Internet
sites, and social media platforms compete with local
broadcasters. Fortunately, the item at least recognizes that its market definition could change in a future proceeding with a different record. While it may
be a missed opportunity today, I will be watching
closely for this in our next review of our rules.
We also eliminate the attribution rule for television joint sales agreements, which never should
have been adopted in the first place. Further, we
agree to set up an incubator program in this item,
while exploring how to best structure it.
Turning to radio, I appreciate the Chairman’s
willingness to work with me and Commissioner Carr
to address the issue of embedded markets. Originally, this item denied the relevant reconsideration petition. Admittingly, this is a narrow issue as only two
markets have multiple embedded markets—DC and
New York. I believe the Commission should have
granted the petition in full and altered the Commission’s methodology for determining compliance with
the Local Radio Ownership Rule in markets containing embedded markets. As both Nielsen and BIA
make clear, the listing of embedded markets in the

300a
parent market “is a reflection of geography, not an
analysis of competition.”9 However, it appears the
Commission wants to gather more information in the
record before going this far. For these reasons, I understand that the Commission will consider this further in its 2018 Quadrennial Review.
Until then, Connoisseur presents convincing
evidence that even under the most extreme circumstance in which one party were to own the maximum
number of stations in each embedded market and
each of these stations reached their highest ratings
of the last 13 months, the owner would only rank
third in the New York market with an 11.2 percent
market share.10 In Washington, DC, under the most
extreme example, a station would rank sixth.11 For
these reasons, I support providing a presumptive
waiver that the Commission will evaluate proposed
transactions of radio stations located in the current
markets with multiple embedded markets by looking
to the transaction’s compliance with the ownership
limits in the embedded markets. Not only does the
record support this, but this will bring more certainty to the marketplace until we can more fully examine this rule. These are important changes from the
draft item.

9 Connoisseur Oct. 30, 2017 Ex Parte Letter (“If embedded
market stations really competed in the parent market, there
would be no need to have embedded markets.”).
10 Connoisseur Nov. 9, 2017 Ex Parte Letter.
11 Connoisseur Oct. 30, 2017 Ex Parte Letter.

301a
Beyond the issue of embedded markets, I am
disappointed that this item did very little to unburden the radio industry. While I was pleased to see
the elimination of the Radio/Television Crossownership rule, I wish the Commission would have
gone further in addressing our Local Radio Ownership Rules. For starters, it’s time to review the
Commission’s AM/FM subcaps. However, I recognize
that the Commission was confined to the petitions
for reconsideration before us and that there will be
an opportunity to re-examine our rules once again
during the 2018 Quadrennial Review.
Finally, I am disappointed that the Commission declines to reverse course from the previous
Commission’s ill-advised decision to impose disclosure requirements for shared services agreements
(SSAs) for commercial television stations. Despite
assurances from this Commission, make no mistake:
disclosure requirements are generally used as precursors for regulations. Maybe not today. Maybe not
tomorrow. But regulations will likely come. It is also counterintuitive that in one item we consider today we question whether the costs of Form 325 data
collections exceed the benefits of the information but
in this item we retain illogical disclosure requirements. This is the wrong approach. We should treat
this part of the proceeding in the same way that we
have treated items within our media modernization
initiative: with deep skepticism. I look forward to
its elimination in the very near future.
In 2004, Judge Scirica got it right. He dissented from the court stay, suggesting it would be
better to allow the quadrennial review process to run
its course in order to allow both the Commission and

302a
Congress the ability to measure the media marketplace.12 He cautiously warned, “[v]acating and remanding the proposed rules to the Commission will
preserve the existing rules in place for months or
even years, and the resulting delay will likely leave
the public worse off than if these rules were allowed
to take effect.”13 If only. These rules have been frozen in place for over a decade. Remands result in inertia. Inertia in our media ownership rules upend
Congressional intent and prohibit a functioning media marketplace, to the detriment of the American
consumer. If only the rest of the Third Circuit understood this as well.
In Prometheus III the court reminded us,
“[r]arely does a trilogy benefit from a sequel.”14 I do
not disagree. Alas, it is coming. I can only hope that
this time there is a twist at the end: the court finally
allows the Commission to do its job and update our
rules to accurately reflect today’s media landscape.
If not, I trust we have the wherewithal to challenge
any decision to a higher court.

12 Prometheus I, 373 F.3d at 435–36.
13 Id. At 438.
14 Prometheus III, 824 F.3d at 60.

303a
STATEMENT OF
COMMISSIONER BRENDAN CARR
Re:

2014 Quadrennial Regulatory Review – Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996, MB Docket No. 14-50; 2010 Quadrennial
Regulatory Review – Review of the Commission’s Broadcast Ownership Rules and Other
Rules Adopted Pursuant to Section 202 of the
Telecommunications Act of 1996, MB Docket
No. 09-182; Promoting Diversification of Ownership in the Broadcasting Services, MB Docket No. 07-294; Rules and Policies Concerning
Attribution of Joint Sales Agreements in Local
Television Markets, MB Docket No. 04-256;
Rules and Policies to Promote New Entry and
Ownership Diversity in the Broadcasting Services, MB Docket No. 17-289.

Congress recognized that the FCC’s media
ownership rules could outlive their usefulness.
That’s why it directed the Commission to examine
those rules every four years and determine whether
they’re still “necessary in the public interest as the
result of competition.” Unfortunately, the Commission has taken an ostrich-like approach to this requirement in nearly every one of its quadrennial reviews. And when it finally completed the 2010 and
2014 reviews in August 2016, the Commission ignored the realities of the modern media marketplace
and the many ways that Americans now consume
news and information. This failure does not serve
anyone’s interest, as a broad range of stakeholders
have made clear.

304a
Fortunately, the agency has a longstanding
process that enables us to correct these types of errors. Under our rules, any interested party can petition the FCC to reconsider a final decision in a notice-and-comment rulemaking, and a number of parties did so. In response, the Commission provided
public notice and afforded all stakeholders an opportunity to comment.
As a result of this process, we now reconsider
several decisions made in the Commission’s August
2016 order. In doing so, we finally acknowledge the
reality that many of our current media ownership
rules are outdated and counterproductive.
Take
the
newspaper/broadcast
crossownership ban. The FCC adopted it in 1975 to promote a diversity of viewpoints. At the time, the
Commission found that prohibiting one entity from
owning both a daily print newspaper and a broadcast
station within the same local market would preserve
independent voices in a marketplace then characterized by relatively few such voices. But the extensive
record compiled in this proceeding shows that the
newspaper/broadcast cross-ownership ban is now doing far more harm than good. The record is replete
with evidence of a newspaper industry in decline,
with massive drops in ad revenues in the Internet
era and the shuttering of hundreds of newsrooms
around the country as a result. If we want to reverse
this tide, if we want to incentivize greater investment in journalism and additional resources for local
reporting, then we should eliminate regulations that
are preventing that investment. Our decision today
does just that.

305a
And the benefits of our decision are not just
theoretical. The record contains numerous examples
of grandfathered combinations where the FCC has
allowed
newspaper/broadcast
cross-ownership.
Those combined operations are producing more local
news than other enterprises. This should come as no
surprise, as the Commission recognized over a decade ago that the cross-ownership ban likely hinders
the Commission’s localism goals. So I support today’s long overdue decision to repeal the newspaper/broadcast cross-ownership rule.
For similar reasons, I support the decisions to
eliminate the outdated radio/television crossownership rule and to make commonsense modifications to the local television ownership rule. In light
of the modern media landscape, our ownership rules
should give broadcasters flexibility to attract investment that will enable them to better serve their local
markets. Additionally, I support our decision to repeal the attribution rule for television joint sales
agreements or JSAs. The record makes clear that
these JSAs enable broadcasters to attract critical
revenue in a marketplace characterized by increased
competition for advertising and viewers, and in turn,
invest in service improvements for local communities. And I am glad that we are seeking comment on
an incubator program to promote more diversity and
new entry into broadcast markets.
Likewise, I am pleased that today’s Order provides some relief to local radio broadcasters that operate in so-called “embedded markets,” which are
smaller communities located outside of major cities.
Our current policy prevents certain combinations of
radio stations in multiple embedded markets even

306a
where doing so could enable broadcasters to improve
their coverage of local news and events and better
compete for local listeners. On reconsideration, we
grant some relief by adopting a presumptive waiver
approach for these types of embedded market scenarios. I appreciate my colleagues’ willingness to work
with me on changes to this portion of the Order.
Finally, I thank the Media Bureau staff for all
of their hard work on this item. It has my full support.

307a
STATEMENT OF
COMMISSIONER JESSICA ROSENWORCEL,
DISSENTING
Re:

2014 Quadrennial Regulatory Review—Review
of the Commission’s Broadcast Ownership
Rules and Other Rules Adopted Pursuant to
Section 202 of the Telecommunications Act of
1996; 2010 Quadrennial Regulatory Review—
Review of the Commission’s Broadcast Ownership Rules and Other Rules Adopted Pursuant
to Section 202 of the Telecommunications Act
of 1996; Promoting Diversification of Ownership in the Broadcasting Services; Rules and
Policies Concerning Attribution of Joint Sales
Agreements in Local Television Markets; Rules
and Policies to Promote New Entry and Ownership Diversity in the Broadcasting Services,
MB Docket Nos. 14-50, 09182, 07-294, 04-256,
17-289, Order on Reconsideration and Notice
of Proposed Rulemaking (November 16, 2017)

There was a time when we waited in the
morning for the news to hit the front stoop in print
and on paper. Then we waited at night, huddled
around the glow of a single television screen, for the
evening news. Those days are long gone. The world
has changed. Not one of us expects our news and information to be available in such a limited way.
Every one of us now looks for content at any time, in
any place, and on any screen handy.
This is exciting. But let’s be honest, it’s also
challenging. The economic models that sustained
traditional newsgathering have been forever changed

308a
by digitization—and while new platforms are multiplying, what is viral is not always verifiable.
If you need an object lesson in why this is true,
look at how fast false information spread following
last month’s deadly attack in Las Vegas. The same
happened following the recent shooting in Texas.
Inaccurate information during Hurricane Season increased the peril for those who were stranded in
rough winds and high waters. Untangling what is
really happening with tax policy, health care policy,
or anything else is a tough task. Knowing what
sources to trust, what facts to rely on, and which authorities to credit are things we need to do as citizens. It’s a big job—with real consequences. Consider that we are only starting to tally the scope of the
falsehoods peddled during election season and still
struggling to understand the ramifications.
This is a challenge. When frothy stuff takes
hold online and inaccurately informs our actions we
have a problem. When disinformation has greater
velocity than real information, we have a problem.
When filter bubbles emerge that never force us to
consider what might be happening on the outside we
have an issue.
These are not easy matters because they involve complicated questions. How do we advance
journalism when algorithms are ascendant? How do
we advance trust in real facts instead of dismissing
them as fake news? This is hard. There are no simple answers. But I do know this: the solution
doesn’t lie in the FCC scrapping from top to bottom
its policies to prevent media concentration.

309a
For decades, at the direction of Congress, the
FCC maintained limits on the number of broadcast
stations that a single company can own. The agency
curbed the ability to own broadcast stations and
newspapers in the same market. The agency prevented a single entity from owning multiple television stations and radio stations in the same market.
These policies were designed to sustain media diversity, localism, and competition. Those values may
not be especially trendy, but I think they are solid. I
think they support journalism and jobs. I think they
play a critical role in advancing the mix of facts we
all need to make decisions about our lives, our communities, and our country.
Today the FCC dismantles those values. Instead of engaging in thoughtful reform—which we
should do—this agency sets its most basic values on
fire. They are gone. As a result of this decision,
wherever you live the FCC is giving the green light
for a single company to own the newspaper and multiple television and radio stations in your community. I am hard pressed to see any commitment to diversity, localism, or competition in that result.
We should be troubled. Because we are not
going to remedy what ails our media today with this
rush of new consolidation. We are not going to fix
our ability to ferret fact from fiction by doubling
down on just a handful of companies controlling our
public airwaves. We are not going to be able to remedy the way the highest level in government is now
comfortable stirring up angry sentiment, denouncing
news as false facts, and bestowing favors on outlets
with narratives that flatter those in power rather
than offer the hard-hitting assessments we need as

310a
citizens. Instead we clear the way for more mergers
of greater magnitude—like the one presently before
us—which will benefit heartily from the destruction
of these policies today.
Finally, a note on diversity. Media ownership
matters because what we see on our screens says so
much about who we are as a individuals, as communities, and as a nation. Study a bit of history and
you can only come to one conclusion: consolidation
will make our stations look less and less like the
communities they serve. Women and minorities
have struggled for too long to take the reins at media
outlets. A modest rulemaking on an incubator isn’t
going to get us where we need to go. It’s a high price
to pay for the damage this order does and that is an
exchange I am unwilling to make.
I dissent.

311a

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
___________________
Nos. 17-1107, 17-1109, 17-1110, 17-1111
___________________
PROMETHEUS RADIO PROJECT
*National Association of Broadcasters
**Cox Media Group LLC,
Intervenors
v.
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
Prometheus Radio Project and Media Mobilizing Project,
Petitioners in No. 17-1107
Multicultural Media, Telecom and Internet
Counsel and National Association of Black
Owned Broadcasters, Inc.,
Petitioners in 17-1109
The Scranton Times, L.P.,
Petitioners in 17-1110
Bonneville International Corporation,
Petitioners in 17-111
* Prometheus Radio Project, Media Mobilizing
Project, Benton Foundation, Common Cause,
Media Alliance, Media Council Hawaii, Na-

312a
tional Association of Broadcasters Employees
and Technicians Communications Workers of
America, National Organization for Woman
Foundation, Office of Communication of the
United Church of Christ Inc.,
Intervenors
*(Pursuant to the Clerk’s Order date 1/18/17)
** (Pursuant to the Clerk’s Order dated 2/7/17)
___________________
Nos. 18-1092, 18-1669, 18-1670, 18-1671, 18-2943 &
18-3335
___________________
PROMETHEUS RADIO PROJECT;
MEDIA MOBILIZING PROJECT,
Petitioners (No. 18-1092, 18-2943)
INDEPENDENT TELEVISION GROUP,
Petitioners (No. 18-1669)
MULTICULTURAL MEDIA, TELECOM AND
INTERNET COUNCIL, INC.; NATIONAL
SSOCIATION OF BLACK-OWNED
BROADCASTERS,
Petitioners (No. 18-1670, 18-3335)
FREE PRESS;
OFFICE OF COMMUNICATION, INC. OF THE
UNITED CHURCH OF CHRIST; NATIONAL
ASSOCIATION OF BROADCAST EMPLOYEES
AND TECHNICIANS-COMMUNICATIONS
WORKERS OF AMERICA; COMMON CAUSE,
Petitioners (No. 18-1671)
v.

313a
FEDERAL COMMUNICATIONS COMMISSION;
UNITED STATES OF AMERICA
___________________
On Petition for Review of An Order of the Federal
Communications Commission
(FCC Nos. FCC-1: FCC-16-107; FCC-17-156; FCC18-114)
___________________
Before: SMITH, Chief Judge, McKEE, AMBRO,
CHAGARES, JORDAN, SHWARTZ, KRAUSE,
RESTREPO, BIBAS, PORTER, MATEY, PHIPPS,
SCIRICA* and FUENTES* Circuit Judges

* Senior Judges Scirica and Fuentes are limited to panel rehearing only.

314a
SUR PETITION FOR REHEARING
The petitions for rehearing filed by Respondents and Intervenors in support of Respondents in
the above-entitled cases having been submitted to
the judges who participated in the decision of this
Court and to all the other available circuit judges of
the circuit in regular active service, and no judge
who concurred in the decision having asked for rehearing and a majority of the judges of the circuit in
regular service not having voted for rehearing, the
petitions for rehearing by the panel and the Court en
banc are denied.
By the Court,
s/ Thomas L. Ambro, Circuit Judge

Dated: November 20, 2019
MB/arr/cc: All Counsel of Record

